<html>
<title> - MEMBERS' DAY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                              MEMBERS' DAY

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 8, 2012

                               __________

                           Serial No. 112-23

                               __________

           Printed for the use of the Committee on the Budget



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                       Available on the Internet:
                       www.gpo.gov/fdsys/browse/
            committee.action?chamber=house&committee=budget

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-369 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                        COMMITTEE ON THE BUDGET

                     PAUL RYAN, Wisconsin, Chairman
SCOTT GARRETT, New Jersey            CHRIS VAN HOLLEN, Maryland,
MICHAEL K. SIMPSON, Idaho              Ranking Minority Member
JOHN CAMPBELL, California            ALLYSON Y. SCHWARTZ, Pennsylvania
KEN CALVERT, California              MARCY KAPTUR, Ohio
W. TODD AKIN, Missouri               LLOYD DOGGETT, Texas
TOM COLE, Oklahoma                   EARL BLUMENAUER, Oregon
TOM PRICE, Georgia                   BETTY McCOLLUM, Minnesota
TOM McCLINTOCK, California           JOHN A. YARMUTH, Kentucky
JASON CHAFFETZ, Utah                 BILL PASCRELL, Jr., New Jersey
MARLIN A. STUTZMAN, Indiana          MICHAEL M. HONDA, California
JAMES LANKFORD, Oklahoma             TIM RYAN, Ohio
DIANE BLACK, Tennessee               DEBBIE WASSERMAN SCHULTZ, Florida
REID J. RIBBLE, Wisconsin            GWEN MOORE, Wisconsin
BILL FLORES, Texas                   KATHY CASTOR, Florida
MICK MULVANEY, South Carolina        HEATH SHULER, North Carolina
TIM HUELSKAMP, Kansas                KAREN BASS, California
TODD C. YOUNG, Indiana               SUZANNE BONAMICI, Oregon
JUSTIN AMASH, Michigan
TODD ROKITA, Indiana
FRANK C. GUINTA, New Hampshire
ROB WOODALL, Georgia

                           Professional Staff

                     Austin Smythe, Staff Director
                Thomas S. Kahn, Minority Staff Director





















                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, March 8, 2012....................     1

    Hon. Peter Welch, a Representative in Congress from the State 
      of Vermont.................................................     2
        Prepared statement of....................................     3
    Hon. Louie Gohmert, a Representative in Congress from the 
      State of Texas.............................................     4
    Hon. Jason Altmire, a Representative in Congress from the 
      State of Pennsylvania......................................     6
        Prepared statement of....................................     6
    Hon. Robert J. Dold, a Representative in Congress from the 
      State of Illinois..........................................     8
        Prepared statement of....................................     9
    Hon. Henry C. ``Hank'' Johnson, Jr., a Representative in 
      Congress from the State of Georgia.........................    11
        Prepared statement of....................................    12
    Hon. Colleen Hanabusa, a Representative in Congress from the 
      State of Hawaii............................................    12
        Prepared statement of....................................    14
    Hon. Marsha Blackburn, a Representative in Congress from the 
      State of Tennessee.........................................    15
        Prepared statement of....................................    16
    Hon. Judy Chu, a Representative in Congress from the State of 
      California.................................................    17
        Prepared statement of....................................    19
    Hon. Gene Green, a Representative in Congress from the State 
      of Texas...................................................    27
        Prepared statement of....................................    29
    Hon. Richard B. Nugent, a Representative in Congress from the 
      State of Florida...........................................    30
        Prepared statement of....................................    31
    Hon. Rick Larsen, a Representative in Congress from the State 
      of Washington..............................................    31
        Prepared statement of....................................    32
    Hon. Joe Courtney, a Representative in Congress from the 
      State of Connecticut.......................................    34
        Prepared statement of....................................    35
    Hon. Donna M. Christensen, a Delegate in Congress from the 
      U.S. Virgin Islands........................................    38
        Prepared statement of....................................    40
    Hon. Scott E. Rigell, a Representative in Congress from the 
      State of Virginia..........................................    43
        Prepared statement of....................................    44
    Hon. Laura Richardson, a Representative in Congress from the 
      State of California........................................    46
        Prepared statement of....................................    47
    Hon. Randall M. Hultgren, a Representative in Congress from 
      the State of Illinois......................................    52
        Prepared statement of....................................    54
    Hon. William L. Owens, a Representative in Congress from the 
      State of New York..........................................    56
        Prepared statement of....................................    57
    Hon. Charles J. ``Chuck'' Fleischmann, a Representative in 
      Congress from the State of Tennessee.......................    58
        Prepared statement of....................................    59
  
    Hon. Martha Roby, a Representative in Congress from the State 
      of Alabama.................................................    60
        Prepared statement of....................................    62
    Hon. Michael C. Burgess, M.D., a Representative in Congress 
      from the State of Texas....................................    63
        Prepared statement of....................................    65
    Hon. Al Green, a Representative in Congress from the State of 
      Texas......................................................    65
        Prepared statement of....................................    67
    Hon. Steny Hoyer, a Representative in Congress from the State 
      of Maryland................................................    69
        Prepared statement of....................................    70
    Hon. Dave Loebsack, a Representative in Congress from the 
      State of Iowa..............................................    72
        Prepared statement of....................................    74
    Hon. Brian Higgins, a Representative in Congress from the 
      State of New York..........................................    75
        Prepared statement of....................................    76
    Hon. Mark S. Critz, a Representative in Congress from the 
      State of Pennsylvania......................................    77
        Prepared statement of....................................    78
    Hon. Sheila Jackson Lee, a Representative in Congress from 
      the State of Texas.........................................    80
        Prepared statement of....................................    82
    Hon. Keith Ellison, a Representative in Congress from the 
      State of Minnesota.........................................    88
        Prepared statement of....................................    90
    Hon. William R. Keating, a Representative in Congress from 
      the State of Massachusetts.................................    91
        Prepared statement of....................................    93
    Hon. Hansen Clarke, a Representative in Congress from the 
      State of Michigan..........................................    95
        Prepared statement of....................................    96
    Hon. Gerald E. Connolly, a Representative in Congress from 
      the State of Virginia......................................    98
        Prepared statement of....................................    98
    Hon. Bill Posey, a Representative in Congress from the State 
      of Florida.................................................   100
        Prepared statement of....................................   102
    Hon. David N. Cicilline, a Representative in Congress from 
      the State of Rhode Island..................................   103
        Prepared statement of....................................   105
    Hon. Janice D. Schakowsky, a Representative in Congress from 
      the State of Illinois......................................   106
        Prepared statement of....................................   108
    Hon. Steven M. Palazzo, a Representative in Congress from the 
      State of Mississippi.......................................   109
        Prepared statement of....................................   110
    Hon. Barbara Lee, a Representative in Congress from the State 
      of California, prepared statement of.......................   114
    Hon. Mike Coffman, a Representative in Congress from the 
      State of Colorado, prepared statement of...................   116
    Hon. Bob Goodlatte, a Representative in Congress from the 
      State of Virginia, prepared statement of...................   116
    Hon. Janice Hahn, a Representative in Congress from the State 
      of California, prepared statement of.......................   117
    Hon. James R. Langevin, a Representative in Congress from the 
      State of Rhode Island, prepared statement of...............   118
    Hon. John Lewis, a Representative in Congress from the State 
      of Georgia, prepared statement of..........................   119
    Hon. John L. Mica, a Representative in Congress from the 
      State of Florida, prepared statement of....................   122
    Hon. Cedric L. Richmond, a Representative in Congress from 
      the State of Louisiana, prepared statement of..............   123
    Hon. Gregorio Kilili Camacho Sablan, a Delegate in Congress 
      from the Northern Mariana Islands, prepared statement of...   124
    Hon. Robert T. Schilling, a Representative in Congress from 
      the State of Illinois, prepared statement of...............   125
    Hon. Kurt Schrader, a Representative in Congress from the 
      State of Oregon, prepared statement of.....................   126
    Hon. Timothy J. Walz, a Representative in Congress from the 
      State of Minnesota, prepared statement of..................   127

 
                              MEMBERS' DAY

                              ----------                              


                        THURSDAY, MARCH 8, 2012

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:00 a.m., in room 
210, Cannon House Office Building, Hon. Jason Chaffetz, 
presiding.
    Present: Representatives Chaffetz, Stutzman, Lankford, Van 
Hollen, Blumenauer, Honda, Ryan of Ohio, Castor, Bass, and 
Bonamici.
    Mr. Chaffetz. The hearing will come to order. Good morning, 
and welcome to the Budget Committee Member's Day hearing. 
Before we begin, it looks like we are scheduled to have votes 
later this morning, so I ask unanimous consent that, consistent 
with Clause 4 of House Rule 16, the chairman will be authorized 
to declare a recess at any time, without objection, the request 
is agreed to.
    This is a hearing we hold every year from our colleagues 
about their views on the budget. This hearing is directed by 
Section 301(e1) of the Budget Act, and its intent is to bring 
about a forum in which members can relay their priorities for 
their district, their state, and indeed, for the country. We 
are pleased to have a diverse group of members from both sides 
of the aisle, and we look forward to receiving their testimony.
    Before we begin, I would like to turn it over to my 
colleague, Mr. Van Hollen, the ranking member of this 
committee, for any comments that he might have.
    Mr. Van Hollen. Thank you, Mr. Chairman. Let we welcome the 
members who are here on our first panel; and let me say that we 
look forward to your testimony and also the testimony from our 
colleagues throughout the day. I think we all understand that 
at the end of the day, if we are going to put this budget on a 
sustainable course, we are going to have to come together and 
overcome the differences and forge some compromises. Hopefully 
today will bring some good ideas along those lines. Thank you, 
Mr. Chairman.
    Mr. Chaffetz. Thank you. I would remind members that they 
have been allocated five minutes, and the essence of time, and 
the number of members that we have coming before the committee 
today, we would ask that you keep your commitments to five 
minutes and that we will submit, obviously, your entire written 
comments into the record.
    Additionally, members of the committee will be permitted to 
question the witnesses following their statements, but out of 
consideration for our colleagues time, and to expedite today's 
proceedings, I ask that you please keep your comments brief.
    I would now like to call upon our first witness today, the 
gentleman from Vermont, Mr. Welch, for five minutes.

 STATEMENT HON. PETER WELCH, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF VERMONT

    Mr. Welch. Okay, thank you very much, Mr. Chairman, and Mr. 
Ranking Member. This federal budget, as you know, is not an 
abstract document, it is something that affects people every 
day in their lives. I want to talk about three Vermonters, 
where the decisions that this Congress makes is going to have a 
real impact on their future.
    Roger in Rutland heats his home with fuel oil. Prices are 
skyrocketing, he cannot pay those bills. He lives alone in a 
very modest home, but at age 70, tough as he is, it is tough to 
split wood. The $400 he received from the low-income heating 
assistance program, and that is all he is going to get, is not 
going to get him through the winter. LIHEAP is a vital lifeline 
that ensures that Americans and Vermonters like Roger can try 
to make it from one end of the winter to the other. They do not 
have any control over the price of fuel, they do not have any 
control over the weather.
    In Vermont, although 76,000 households are eligible for 
LIHEAP, only 46,000 receive modest help; yet, in spite of 
record high demand, the administration in its proposal, has 
suggested slashing LIHEAP funding by $2.1 billion. We should, 
and can, do better and I urge the committee to fund LIHEAP at 
$7.1 billion a year so that folks do not get cold in the 
winter.
    Second, rising gas prices: One of the factors in rising gas 
prices is Wall Street speculation. A Goldman Sachs study 
indicated that $23 on the price of a barrel oil is attributable 
to Wall Street speculation, not supply and demand. That futures 
market has been flipped upside down from 80 percent end users 
buying the product, fuel dealers, airlines, and 20 percent 
market makers, speculators to 80 percent speculators, 20 
percent end users. That $23 a barrel translates into 56 cents 
on a gallon of gas, or $15 when you fill up your pick-up.
    We have to fund the Commodity Futures Trading Commission to 
be the cop on the beat and make sure that that futures market 
works on behalf of businesses and works on behalf of consumers 
who need help. Last year's budget, the consumer cop on the 
beat, the Commodity Futures Trading Commission budget was cut 
33 percent. It makes no sense, I urge the committee to fully 
fund it.
    Finally, mortgage refinancing: Ashley from Bondville is a 
Vermonter who is out of work, but has been current on her 
mortgage. She has made every single payment, yet she is unable 
to refinance. We have a proposal from the president to allow 
for folks who are current on their mortgage to refinance their 
mortgage; we need to make certain that whatever resources are 
required to implement that program, and this is not having the 
government pay the mortgage of Ashley, she is doing that, but 
it is a program to allow her to get the benefit of a lower rate 
of interest, now that we have record low interest rates.
    So Mr. Chairman, these choices we make in the budget do 
reflect our priorities, and as we come to grips with the 
struggling economy, we need to get a handle on federal debt. We 
do have tough choices, but some of these choices are 
straightforward and absolutely essential for us to make. We 
should not let people freeze in their home; we should not let 
speculators reach in the pocket of consumers and small 
businesses; and we should let folks who are paying their 
mortgage refinance their mortgage. Thank you very much, I yield 
back.
    [The prepared statement of Peter Welch follows:]

 Prepared Statement of Hon. Peter Welch, a Representative in Congress 
                       From the State of Vermont

    Mr. Chairman, Ranking Member Van Hollen, and Members of the 
Committee: The federal budget is not an abstract document. It affects 
the everyday lives of all Americans.
    And it should reflect the priorities and values of our country, 
especially in this difficult economy.
    For many Vermonters, the decisions made in the federal budget 
process will make a difference in whether they will be able to heat 
their homes, fill their gas tanks, or pay their mortgages.
                               1. liheap
    Take Roger from Rutland, Vermont. He heats his home with fuel oil 
and, with prices skyrocketing, he can no longer afford to fill his fuel 
tank.
    Roger lives alone in a very modest home. But at the age of 70, he 
is too old to split wood.
    The $400 he has received in fuel assistance will not get him 
through the winter. He has exhausted all other means.
    LIHEAP is a vital lifeline that ensures Americans like Roger don't 
have to choose between heating their home, putting a meal on the table, 
or paying for their medications.
    With a backdrop of rising fuel prices and declining incomes, the 
last increase in LIHEAP funding was in 2005.
    In Vermont, although 76,000 households are eligible for LIHEAP 
assistance, only 46,000 households receive help
    In spite of record high demand, the Administration has proposed 
slashing LIHEAP funding by $2.1 billion
    We can do better. We should be increasing LIHEAP funding, not 
slashing it.
    I urge the committee to fund LIHEAP at $7.1 billion per year so it 
can help those who need it most
                          2. rising gas prices
    The rising cost of gasoline is also squeezing the budget of rural 
Vermonters.
    Judy from Fairfax, Vermont drives a great distance to and from 
work.
    Skyrocketing gas prices, due in part to Wall Street speculation, 
are crimping her budget and household budgets across the country.
    Gas prices nationally have increased over 30 cents per gallon in 
the last month alone.
    This run up in prices comes at a time of the lowest demand for gas 
demand in 15 years and the highest domestic oil production in eight 
years.
    Something doesn't add up.
    Wall Street speculators are rolling their dice yet again and 
driving up the price of oil and gasoline at the expense of consumers.
    A Goldman Sachs analysis revealed that oil speculation adds a 
``speculative premium'' of more than $23 per barrel of oil.
    That $23 ``premium'' translates to a 56 cent per gallon at the gas 
pump.
    As gas prices continue to rise, Judy can't afford to fill her gas 
tank to get to work.
    Speculators are reaching into Judy's pocket to take money she 
doesn't have. And their market activity is posing a serious threat to 
the fragile economic recovery.
    Judy's story, and the millions of Americans in the same situation, 
highlights the need to get a cop on the beat cracking down on Wall 
Street speculators.
    Last year, the budget for the consumer's cop on the beat, the 
Commodity Futures Trading Commission, was cut by 33 percent.
    That makes no sense.
    I urge this committee to fully fund the CFTC at $300 million so it 
can do its job cracking down on speculators and protecting consumers.
                        3. mortgage refinancing
    Finally, Ashley from in Bondville, Vermont has been current on her 
mortgage for 15 years.
    In spite of being underemployed for months, she has managed to keep 
paying her mortgage in full and on time.
    Yet, she is unable to take advantage of record low interest rates 
to refinance her mortgage and lower her monthly payments.
    Allowing Ashley to refinance her home would be good for her but 
also good economy.
    Putting extra money in the pockets of homeowners will have a 
simulative effect on the economy. We ought to help people like Ashley 
save money to spend on household needs.
    President Obama has proposed a mortgage refinancing program that 
will allow people like Ashley to refinance her mortgage and save 
thousands of dollars per year.
    I urge this committee to examine available resources to help people 
like Ashley refinance their mortgages at record low rates.
                             4. conclusion
    Mr. Chairman, the choices we make in the budget reflect the 
priorities of our country.
    As we come to grips with a struggling economy and the need to get a 
handle on the federal debt, we have a lot of tough choices to make.
    Some of those choices, however, are no-brainers:
    <bullet> We should not let people freeze in their own homes.
    <bullet> We should not let Wall Street speculators profit at the 
expense of hard working Americans struggling to fill their gas tanks.
    <bullet> And, we should put money in the pockets of Americans to 
spend as they see fit by making it easy to refinance their mortgages.
    I hope you'll consider these three Vermonters as you put together 
the budget for fiscal year 2013.
    Thank you.

    Mr. Chaffetz. Thank you. You have any questions?
    Mr. Van Hollen. No.
    Mr. Chaffetz. Thank you. The gentleman yields back. We will 
now recognize the gentleman from Texas, Mr. Gohmert for five 
minutes.

 STATEMENT OF HON. LOUIE GOHMERT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Gohmert. Thank you. I do appreciate the opportunity to 
testify before this committee. I was really struck with the 
last budget that even though it would not balance for 25 or 26 
years, the chairman and others were just demonized, basically, 
for even proposing the cuts they did. We have got to do better, 
and there are ways to do that without hurting everybody.
    Back in 2008 when Speaker Pelosi and Harry Reid were in 
charge of the Congress, we did not hear any complaints, or not 
much of any complaints, that we were not spending enough money. 
There is no reason we could not go back to 2008 levels and 
immediately drop over $1 trillion that has spent above what we 
have been doing in the past. So I would suggest that as one 
thing; go back to 2008 levels.
    Another thing, while America does not know, but we cut our 
budgets over 5 percent last year and this year they are being 
cut by over 6 percent. We have the moral authority now to tell 
every government agency in the whole federal bureaucracy, we 
have done it, now you are doing it; and over a two year period 
require every federal agency to cut their budgets by 11.4 
percent like we have done in the House. If we do not do that, 
and use the moral authority it gives us, it is just pennies 
compared to the overall federal budget. If we do it, it is 
extremely meaningful.
    We pass the zero baseline budget in the House; I'm thrilled 
with that. I do think it is a good idea to have the biennial 
budget so that in the off years, the Budget Committee can do 
more hearings and more oversight to make sure the money is 
properly expended. Also I would ask the Budget Committee, and 
you have made great proposals, similar to something I have been 
proposing for three or four years now, but that we give seniors 
a choice; Medicare, others on Medicaid, here is your choice: 
You can stay on that, or you can have great private insurance 
and we will give you the amount of your high deductible, 
because it appears to me that will be tremendously cheaper than 
what we are doing. Now, I do not know of anybody else that has 
done this, and I have asked for specific numbers from the 
census on how many households there are, how many households 
have people on Medicare and Medicaid, and an overall cost of 
Medicare and Medicaid. Then I have been warned by the people 
that gave us the numbers, officially, that these are not 
official; you cannot really trust these numbers. So the best we 
can tell is that for every household who has someone on 
Medicare/Medicaid, that it is costing the government about 
$20,000 to $30,000 per household, and probably closer to 
$30,000. You can buy incredible insurance and give cash in a 
HSA with a debit card, which will allow patients, for the first 
time since the 1960s, to have control of their own health care 
situation.
    We need government out of the health care business as a 
player, and a coach, and back to the role of being a referee. 
We need insurance companies out of the business of being health 
managers and back in the business of being health insurers, and 
that will bring down costs. We also could save a tremendous 
amount of money if people were allowed to pay the same thing 
the insurance companies do with cash, even though they may not 
have insurance.
    Also, we could save a significant amount of money if we 
utilized the rule when it comes to foreign assistance. Every 
country is sovereign, they can make their own choices, but if 
they vote against the United States in the U.N. more than half 
the time, then the subsequent year they get no assistance from 
the U.S. of any kind. We do not have to pay people to hate us, 
they do it for free, and we can save money in the process.
    I would also submit to you that there could be tremendous 
savings if we redid the committee structure of the House, and I 
know this is the Budget Committee, but this budget makes policy 
recommendations when it sees it can actually substantially 
affect the amount of money spent.
    For an example, Robert Rector at the Heritage Foundation 
says it takes two years to find all the welfare that is 
expended in all the different budgets. You combine all of the 
welfare into one welfare committee, and we could get rid of 
redundancy like never before. I have some other ideas and would 
be glad to submit them in writing for your perusal at your 
convenience. Thank you.
    Mr. Chaffetz. I thank the gentleman from Texas. His time 
has expired so we will now recognize the gentleman from 
Pennsylvania, Mr. Altmire for five minutes.

 STATEMENT OF HON. JASON ALTMIRE, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Altmire. Thank you, Mr. Chairman, and members of the 
committee. I appreciate the opportunity to testify today on the 
fiscal year 2013 budget resolution. The passage of last 
summer's Budget Control Act sent a strong, bipartisan message 
to the country that we are serious about reducing our deficit 
and making the tough decisions to get our country back on a 
fiscally sustainable path. It also demonstrated that we can 
make responsible spending decisions without harming the 
benefits of our veterans and seniors. I am sure almost 
everybody in this Congress would agree that Social Security, 
Medicare, and veterans benefit programs represent an ironclad 
agreement between citizens and the federal government, a 
promise that can never be broken.
    I am also certain that we would agree that the biggest long 
term threat to those programs may be inaction in addressing our 
nation's fiscal mess. Unless we take meaningful steps toward 
reducing our deficit and long-term debt and eventually, to 
balancing the federal budget, the threat of crowding out 
available funding for Social Security and veterans programs 
will get even more real. Indeed, the best way to protect those 
earned benefit programs are to make sure right the ship and get 
our federal budget back on a fiscally sustainable course. 
Putting our nation on a course towards a balanced budget would 
serve to protect the critical programs that our veterans and 
seniors rely on and were promised.
    Reducing our budget deficit will require real sacrifices, 
but in doing so, these programs must be protected to ensure 
that we honor the promise we made to our veterans and our 
recipients of Social Security and Medicare. As you work to 
draft the fiscal year 2013 budget resolution, I would ask this 
committee to protect those earned benefit programs, programs 
that Americans have earned through a lifetime of hard work and 
sacrifice. Any savings accrued from reform of these programs 
must be used solely to strengthen those programs for our 
current and future beneficiaries, not to pay for other programs 
and not for any other purpose.
    Simply put, veterans and seniors are not the cause of our 
deficits, so we should not look to them to solve our current 
crisis. It is my hope that this committee will produce a 
bipartisan budget proposal that makes the hard choices and 
moves our nation towards a balanced budget in a manageable time 
frame. I stand ready to work with the committee to this end and 
truly appreciate the opportunity to testify today. Thank you, 
Mr. Chairman, and I yield back my time.
    [The prepared statement of Jason Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman and members of the committee. I appreciate 
the opportunity to testify today on the fiscal year 2013 budget 
resolution and its impact on western Pennsylvania.
    The passage of last summer's Budget Control Act sent a strong, 
bipartisan message to the country that we are serious about reducing 
our deficit and making the tough decisions to get our country back on a 
sustainable fiscal path. It also demonstrated that we can make 
responsible spending decisions without harming the benefits our 
veterans and seniors have earned.
    Social Security, Medicare, and veterans' benefit programs represent 
an agreement between citizens and the federal government. Our current 
fiscal situation will undoubtedly require sacrifices, but these 
programs must be protected to ensure that we honor our end of the deal. 
Any savings accrued from reform of these programs must not go toward 
reducing the deficit--those savings must be used to strengthen the 
programs for our current and future beneficiaries. As you work to draft 
the fiscal year 2013 budget resolution, I would ask the committee to 
protect those entitlement programs that Americans have earned through 
their hard work and sacrifice.
    With a record number of service men and women returning home from 
overseas operations last year and in the coming year, care of our 
veterans must be a priority. I am pleased to have supported increases 
in funding for veterans' programs every year since I came to Congress 
in 2007, and I urge the committee to continue that trend. The 
Independent Budget, written by the veterans community, outlines several 
areas that will help us meet our obligations. Their priorities remain 
unchanged from previous years, but the increased number of returning 
servicemembers underscores the need to address those concerns now.
    First, we must reform the disability claims processing system. Our 
nation's heroes should not have to wait even one day to access their 
benefits. We can also do more to address the high unemployment rate 
among veterans. Congress came together late last year to pass the VOW 
to Hire Heroes Act which provided incentives for businesses to hire 
veterans. Although the unemployment rate for post-September 11th 
veterans has dropped from 12 percent to 9 percent since the passage of 
that Act, the number of unemployed veterans is still unacceptable. We 
must provide every opportunity for veterans to return to civilian life 
and succeed here at home after they honorably serve their country.
    In a similar vein, we must redouble our efforts to eliminate 
veteran homelessness. No soldier should ever have to be concerned with 
having a roof over his or her head. I stand ready to work with you to 
fulfill the promises we made to our nation's veterans.
    Veterans are not the only segment of our population on the rise. 
Our country's population is rapidly aging, with an estimated 10,000 new 
retirees becoming eligible for Social Security benefits every day. 
These citizens have paid into the trust fund their entire lives, and 
after years of hard work, have earned the right to enjoy these benefits 
in retirement. Similarly, Medicare is another part of the contract we 
have made with our seniors. Health care costs in America continue to 
skyrocket. We must resist the temptation to attack either of these 
programs as a means to solve our budget problems. To put it simply, 
veterans and seniors are not the cause of our deficits, so we should 
not look to them to solve our current crisis.
    While I understand the need to get our fiscal house in order, it is 
going to take more than just spending cuts to balance the federal 
budget. To seriously address our fiscal problems, we must consider 
systemic changes that can help bring Congress together, work through 
our differences, and return to responsible budgeting.
    I support a balanced budget amendment to the Constitution because 
it would serve to protect the critical programs that our veterans, 
seniors, and vulnerable populations rely on most. While it is true that 
Congress has balanced the budget without such an amendment as law in 
the past, the absence of a balanced budget amendment is exactly what 
allowed previous Congresses to turn surpluses into deficits. A balanced 
budget amendment forces Congress to pay for the decisions it makes year 
by year, just like families in western Pennsylvania and across the 
country.
    Another legislative initiative that I support is the No Budget, No 
Pay Act. This commonsense legislation holds Members of Congress 
accountable to the most fundamental of tasks: passing annual budget and 
appropriations bills in a timely manner. I appreciate the committee's 
efforts to draft a budget resolution for consideration but, as so often 
happens, October 1st inevitably arrives with our work uncompleted. The 
No Budget, No Pay Act will stop our pay for every day beyond October 
1st that we do not enact our spending bills into law. These two changes 
are positive steps we can take to regain the trust of the American 
people and show we are serious about ensuring our country's long-term 
prosperity.
    Mr. Chairman and members of the committee, thank you for the 
opportunity to address the Committee and outline my priorities for the 
fiscal year 2013 budget. I yield back the balance of my time.

    Mr. Chaffetz. I thank the gentleman. Does any member have 
any questions? If not, we thank you for your testimony today 
and the gentleman yields back. So we will now recognize the 
gentleman from Illinois, Mr. Dold for five minutes.

  STATEMENT OF HON. ROBERT DOLD, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Dold. Thank you, Mr. Chairman. I certainly want to 
thank the ranking member as they are switching out right now. 
Mr. Chairman, hard-working American tax payers demand 
discipline from Washington, D.C. They want Congress to reign in 
the out-of-control spending that has been happening here for a 
number of years, frankly, on both sides of the aisle. As this 
committee knows well, however, we must tighten our belt, and I 
believe still fund our priorities. I want to thank the 
committee for the opportunity to share some of the budget 
priorities that I hold for the fiscal year 2013, and which I am 
here to emphasize on behalf of the constituents of the 10th 
district of Illinois.
    One priority is education. I have continually advocated for 
strong funding to increase access to STEM, science, technology, 
engineering, and mathematics, in terms of the education 
programs in our nation's public schools. I think this will help 
us meet the demands of a 21st century job market. Even with 
record unemployment in our nation, Mr. Chairman, and in my 
state especially, many local employers continually tell me that 
they have jobs that are unable to fill because of the lack of 
qualified candidates to meet the demands.
    From high school training to our future workers to 
community colleges helping to train unemployed individuals, 
STEM education helps put people back to work and allows U.S. 
manufacturing to hire American workers. Continued funding for 
these programs will enable our nation to produce students and 
those looking to re-enter the workforce with the skills and 
training necessary to excel in the global marketplace.
    Additionally, I want to highlight the importance of 
protecting our environmental priorities in our budget. The 
Great Lakes are truly a shared national treasure containing 95 
percent of the fresh surface water in the United States, and 
serving as the primary source of clean drinking members for 
over 30 million Americans.
    Accordingly, I want to emphasize the Great Lakes 
Restoration Initiative as an important funding priority. This 
vital program is a multiyear effort to clean up our Great Lakes 
so that they can be preserved for future generations. The GLRI 
funds are critical restoration programs for our degraded 
wetlands and wildlife habitats, as well as the important 
efforts to combat the invasive species that threaten our 
ecosystems in our lakes.
    Another priority that I want to emphasize is access to 
health care. The Title X family planning program is a valuable 
component of our nation's health care infrastructure, providing 
family planning services and education to millions of low-
income Americans. Through these programs, low-income women, as 
well as men, are provided access to preventative health care 
measures, including physical examinations, breast cancer 
screenings, HIV testing, access to contraception. This is why I 
support funding for Title X health programs because I believe 
it is important to ensure access to this basic preventative 
care for low-income individuals. Title X family planning helps 
over five million low-income Americans each and every year, and 
so it is critically important that we continue to support the 
women who depend on these health care services.
    Additionally, supporting medical research and innovation 
are important priorities to me and to my constituents. 
Therefore, I ask that we provide robust funding to the National 
Institute of Health. The NIH plays a vital role in developing 
what we hope will end up with cures, and ensuring long-term 
health of all Americans.
    The NIH is the largest supporter of biomedical research in 
the world, providing funds for competitive research grants to 
more than 325,000 scientists and research institutions and 
small businesses across our nation. I am proud to support the 
mission of the NIH, and I hope that as we move forward, we can 
focus in on cures for things like diabetes, where we spend $235 
billion annually on diabetes alone.
    A top priority of mine will always be ensuring the safety 
and security of the United States, Mr. Chairman, and central to 
this is my belief that national security of the United States 
is directly tied to the strength and security of the state of 
Israel. This is why I want to emphasize the particular 
importance of providing strong funding for the joint U.S./
Israel missile defense programs. With Hamas and Hezbollah 
possessing over 65,000 rockets and missiles aimed squarely at 
Israel, as well as the continuing threat to our ally of Iran's 
advanced ballistic missiles, it is essential that we continue 
with the vital U.S./Israel missile and rocket defense programs. 
Strategic cooperation with Israel is critical and mutually 
beneficial, providing Israel with the capability to defend its 
citizens against imminent missile threats and providing the 
United States with critical data and technology for our own 
missile defense programs. Congress must continue to lead on 
these programs that are vital to Israel's security and future.
    Finally, I want to recognize the importance of leaders in 
Washington being honest with the American public when it comes 
to the need to fix Medicare's looming insolvency. Medicare's 
most recent annual report says that if left on its current 
path, Medicare will go bankrupt by 2024. As Medicare's own 
trustees acknowledge, if action is taken sooner rather than 
later, more options and more time will be available to phase in 
the changes so that none of those affected, or that those 
affected, have adequate time to prepare.
    Mr. Chairman, I see my time has expired, but I do want to 
emphasize that bipartisan solutions are going to be the answer 
going forward and we have to come together here in our nation's 
capital to provide a budget document that reigns in the out-of-
control spending and still funds our priorities. With that, I 
yield back.
    [The prepared statement of Robert Dold follows:]

Prepared Statement of Hon. Robert J. Dold, a Representative in Congress 
                       From the State of Illinois

    Mr. Chairman, the hardworking American taxpayers demand discipline 
from Washington, and they want Congress to rein-in the years of 
overspending. As this Committee well knows, however, we must tighten 
our belt and continue to fund our priorities. I want to thank this 
Committee for the opportunity to share some of the budget priorities I 
hold for FY13, and which I am here to emphasize on behalf of the Tenth 
District of Illinois.
    One priority is education. I have continuously advocated for strong 
funding to increase access to STEM (Science, Technology, Engineering, 
Math) education programs in our nation's public schools, which will 
help us meet the demands of a 21st Century job market. Even with record 
unemployment in our nation and in my state, many local employers tell 
me that they cannot find workers qualified to meet their demands. From 
high schools training our future workers, to community colleges helping 
to train unemployed individuals, STEM education helps put people back 
to work and allows US manufacturers to hire American workers. Continued 
funding for these programs will enable our nation to produce students, 
and those looking to re-enter the workforce, with the skills and 
training necessary to excel in the global marketplace.
    Additionally, I want to highlight the importance of protecting 
environmental priorities in our budget. The Great Lakes are truly a 
shared national treasure, containing 95% of surface fresh water in the 
United States and serving as the primary source of clean drinking water 
for 30 million people. Accordingly, I want to emphasize the Great Lakes 
Restoration Initiative as an important funding priority. This vital 
program is a multi-year effort to clean up our lakes so that they can 
be preserved for generations to come. The GLRI funds critical 
restoration programs for our degraded wetlands and wildlife habitats, 
as well as important efforts to combat invasive species that threaten 
the ecosystems of our lakes.
    Another priority I want to emphasize is access to health care. The 
Title X Family Planning Program is a valuable component of our nation's 
health care infrastructure, providing family planning services and 
education to millions of low-income Americans. Through these programs, 
low-income women, as well as men, are provided access to preventative 
health care measures, including physical examinations, breast cancer 
screenings, HIV testing, and access to contraception. I support funding 
for Title X health programs because I believe it is important to ensure 
access to this basic preventative care for low-income individuals. 
Title X family planning helps over 5 million low-income Americans each 
year, and so it is critically important that we continue to support the 
women who depend on these health care services.
    Additionally, supporting medical research and innovation are 
important priorities to me and my constituents. Therefore, I ask that 
we provide robust funding to the National Institutes of Health. NIH 
plays a vital role in developing cures and ensuring the long-term 
health of all Americans. NIH is the largest supporter of biomedical 
research in the world, providing funds for competitive research grants 
to more than 325,000 scientists at research institutions and small 
businesses across our nation. I am proud to support the mission of the 
NIH.
    A top priority of mine will always be ensuring the safety and 
security of the United States, and central to this is my belief that 
the national security of the U.S. is directly tied to the strength and 
security of the State of Israel. This is why I want to emphasize the 
particular importance of providing strong funding for joint U.S.-
Israeli missile defense programs. With Hamas and Hezbollah possessing 
over 65,000 rockets and missiles aimed squarely at Israel, as well as 
the continuing threat to our ally of Iran's advanced ballistic 
missiles, it is essential that we continue with the vital U.S.-Israeli 
missile and rocket defense programs. Strategic cooperation with Israel 
is critical and mutually beneficial, providing Israel with the 
capability to defend its citizens against imminent missile threats and 
providing the United States with critical data and technology for our 
own missile defense programs. Congress must continue to lead on these 
programs that are vital to Israel's security and future.
    I also want to take a moment to talk about the importance of 
foreign aid to U.S. leadership, national security, and strategic 
interests around the world. On average, Americans believe we spend 25% 
of our budget on foreign aid; if you ask what they think we should 
spend on foreign aid, people say 10% of our budget. As you know, the 
amount we actually spend is around 1% of our budget. So, I want to make 
sure that the Committee keeps in mind this vast disparity between 
perception and reality when looking at the foreign affairs budget.
    Finally, I want to recognize the importance of leaders in 
Washington being honest with the American people when it comes to the 
need to fix Medicare's looming insolvency. Medicare's most recent 
Annual Report says that if left on its current path, Medicare will go 
bankrupt by 2024. As Medicare's own Trustees acknowledge, ``If action 
is taken sooner rather than later, more options and more time will be 
available to phase in changes so that those affected have adequate time 
to prepare.'' If we want to show the American people that we are 
serious about getting this country back on stable financial ground, we 
have a responsibility to be honest and acknowledge that doing nothing 
to fix Medicare is a decision in itself to let the program go 
bankrupt--one that would ultimately lead to dramatic cuts down the road 
on those vulnerable Americans who need the program the most. The big 
issues in this country require bipartisan solutions, so I am encouraged 
by the bipartisan efforts of Chairman Ryan and Senator Wyden to look 
for ways to secure Medicare for our future. I am certainly open to 
looking at any serious, bipartisan proposal that strengthens the future 
of the Medicare program so that our children and grandchildren can 
share in the program's promise.
    Thank you for the opportunity to testify today.

    Mr. Chaffetz. I thank the gentleman, and I thank you all 
for your testimony. We will pause here for a movement in the 
committee without going into recess as we transfer the next set 
of members who are testifying, and allow them to take their 
places and change out the name places.
    Mr. Gohmert. Mr. Chairman, while they are transitioning, 
could I make one point about the tool asking unanimous consent 
very quickly as they are coming up?
    With regard to CBO, critical tool of this committee, we saw 
with Obamacare they originally said over $1 trillion in costs, 
then they came down to $800 billion, and now it is going to be 
over $1 trillion. This committee deserves better than an agency 
with plus or minus 25 percent margin of error. I have run this 
by Art Laffer.
    Mr. Chaffetz. I thank the gentleman for those comments. We 
will now recognize, in the order that has been prearranged 
here, we are going to recognize the gentleman from Georgia, Mr. 
Johnson, for five minutes.

 STATEMENT OF HON. HANK JOHNSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Johnson. Thank you, Congressman Chaffetz, and 
Congresswoman Bass for holding this hearing today and giving me 
the opportunity to testify on President Obama's fiscal year 
2013 budget proposal. Preparing a budget proposal and sending 
it to the Congress is no easy feat. I sincerely believe that 
the president's budget proposal is a balanced approach that 
includes short term incentives to spur immediate job growth, 
and includes long term deficit reduction. I strongly urge this 
committee to follow the president's lead and invest in America. 
Lift up low- and middle-income families by investing in 
education, veterans, and unemployment insurance for Americans 
trying to find work. I specifically encourage this committee to 
give high priority to Work Force Investment Act funding, viral 
hepatitis research funding, legal services for the lower income 
individuals, and housing and foreclosure prevention programs.
    This morning, I would like to focus on the low-income home 
energy assistance program, commonly referred as LIHEAP. I know 
that this committee will have tough decisions to make in this 
difficult economic environment, but I urge this committee to 
make LIHEAP a priority in its budget. LIHEAP is a federal 
program that helps low-income individuals, households, and 
seniors with their energy bills.
    Since its inception in 1981, it has provided vital 
assistance during both the harsh cold northern winters and hot 
summers in the south. In 2011 in my home state of Georgia, 
LIHEAP provided more than 228,000 households with LIHEAP 
financial assistance. There were, however, roughly 1 million 
eligible households in the state. That means that there were 
hundreds of thousands of families that may have gone without 
heat in the winter or cooling relief in the hot, sweltering 
summer months.
    Georgia was hit hard late last year when its LIHEAP funds 
were exhausted. I want to ensure my constituents that LIHEAP 
funding will be available to them in the future. We are digging 
ourselves out of hard economic times and energy prices remain 
high. Americans are struggling to pay their heating and cooling 
bills. Many households receiving heating and cooling assistance 
are home to senior citizens, disabled residents, and children. 
No one in America, especially the most vulnerable among us, 
should have to choose between heating and food for his or her 
family or buying medication. For these reasons, I ask this 
committee to make LIHEAP a priority in its budget resolution. 
LIHEAP is a vital program that will ensure that the neediest 
among us are not left to freeze in the winter and bake in the 
summer. Thank you and I yield back the balance of my time.
    [The prepared statement of Hank Johnson follows:]

     Prepared Statement of Hon. Henry C. ``Hank'' Johnson, Jr., a 
          Representative in Congress From the State of Georgia

    Thank you Chairman Ryan, and Ranking Member Van Hollen for holding 
this hearing today and giving me the opportunity to testify on 
President Obama's fiscal year 2013 budget proposal.
    Preparing a budget proposal and sending it to Congress is no easy 
feat. I sincerely believe that the President's budget proposal is a 
balanced approach that includes short-term initiatives to spur 
immediate job growth and includes long-term deficit reduction.
    I strongly urge this Committee to follow the President's lead and 
invest in America. Lift up low and middle income families by investing 
in education, veterans, and unemployment insurance for Americans trying 
to find work.
    I specifically encourage this Committee to give high priority to 
Workforce Investment Act funding, viral hepatitis research funding, 
legal services for low-income individuals, and housing and foreclosure 
prevention programs.
    This morning, I would like to focus on the Low Income Home Energy 
Assistance Program, commonly referred to as LIHEAP.
    I know that this Committee will have to make some tough decisions 
in this difficult economic environment, but I urge this Committee to 
make LIHEAP a priority in its budget.
    LIHEAP is a federal program that helps low-income households and 
seniors with their energy bills. Since its inception in 1981, it has 
provided vital assistance during both the harsh, cold northern winters 
and hot summers in the South.
    In 2011, in my home state of Georgia, LIHEAP provided more than 
228,000 households with LIHEAP financial assistance. There were, 
however, roughly one million eligible households in the state.
    That means that there were hundreds of thousands of families that 
may have gone without heat in the winter or cooling relief in the hot, 
sweltering summer months.
    Georgia was hit hard late last year when its LIHEAP funds were 
exhausted. I want to ensure my constituents that LIHEAP funding will be 
available for them in the future. We are digging ourselves out of hard 
economic times and energy prices remain high. Americans are struggling 
to pay their heating and cooling bills.
    Many households receiving heating and cooling assistance are home 
to senior citizens, disabled residents, and children.
    No one in America, especially the most vulnerable among us, should 
have to choose between heating and food for his or her family or buying 
medication.
    For these reasons, I ask this Committee to make LIHEAP a priority 
in its budget resolution. LIHEAP is a vital program that will ensure 
that the neediest among us are not left to freeze in the winter and 
bake in the summer.
    Thank you and I yield back the balance of my time.

    Mr. Chaffetz. Thank you. I thank the gentleman from 
Georgia, and we will now recognize the gentlewoman from Hawaii 
for five minutes.

    STATEMENT OF HON. COLLEEN HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you very much Chairman Chaffetz and 
Ranking Member Bass. This is my second year that Congresswoman 
Bass has sat before me when I do this testimony.
    First of all, I appreciate the opportunity to provide 
testimony regarding the 2013 budget resolution, which the 
Congress is working towards. As we all know, the budget 
statement by any legislative body is our foremost policy 
statement, and in that vein I would like to say that I would 
like to see us be very strong on simple concepts of fairness 
and equality.
    Now, let me give you couple of examples that I would like 
to see incorporated. This, of course, affects Hawaii primarily, 
but it also affects other areas as well. The first I would like 
to discuss is what we call COFA, which is the Compact of Free 
Association. Many of us may not remember how that came about. 
It was when the United States did nuclear tests in the Pacific 
and as a result, we have resulted with three treaties. One with 
the Republic of the Marshal Islands, another with the Federated 
States of Micronesia, and of course, the third is with the 
Republic of Palau. What the COFA does is it permits them free 
access, migration into the United States, and benefits, 
primarily in the areas of health, education, housing, and I 
mean free migration.
    Unfortunately, what we have not done, as a country, is to 
bear that burden, so though the majority of it is being borne 
by Hawaii, Guam, and the Commonwealth of the Northern Marianas, 
it has now spread to Arkansas, California, Washington, Oregon, 
Utah, and Arizona that have substantial populations.
    What does this mean? In 2004, we have now grown since that 
date where we first established a $30 million reimbursement or 
basically compensation for these areas. We have now grown in 
population 80 percent. The cost has gone up to about $1 billion 
when you look at what was borne from 2004 to present for these 
various locations. Hawaii alone is facing a deficit of 62 
percent of that $1 billion for that period of time, 62 percent.
    What does the United States give the areas that is facing 
this burden? $30 million with a proposal of an additional $5 
million to be split by all of us. You can imagine, it is 
estimated a yearly burden now is about $185 million, but $30 
million is all we're getting to the $185 million that we are 
faced with. They are not eligible for benefits such as TANF, 
Medicaid, and SNAP, which is food stamp. They are not eligible 
for that, so who pays? The states pay, and as I said earlier, 
Hawaii is hit by $620 million since 2004 uncompensated. 
Fairness and equity should be something that governs our 
budget, and we cannot continue to expect us or the other states 
and our insular territories to bear that burden.
    In addition to that, I would like for the committee to 
consider another point, again, related to our isolated 
location. We are able to travel between our islands only by 
air, and as you can imagine, that we have about 1.3 million 
people, the bulk of the people, they are spread between all the 
respective islands. It means that when we travel, part of the 
budget, as we asses, for example, $100 special fees, facilities 
fees, we bear that burden disproportionately.
    I would like for this committee to consider that when we 
look at, for example, the $100 per flight fee on commercial and 
general aviation, and also what is called a $5 per one way trip 
for passenger security because what that does for those of us 
in Hawaii, as it is the only mode of transportation, we end up 
paying 25 percent more on inter-island passenger flights, 25 
percent more than any place else, and the reason is simple. Our 
major hospitals are on the main island of Oahu. Most of all the 
different types of activities that go on is on the major island 
of Oahu.
    You can imagine, when people who are on fixed income must 
get special medical care, they have got to travel. Our travel 
inter-island is about 5.5 million a year. That is the only way, 
whether you are meeting family, you are getting together, or 
when you cannot even do anything other than to seek that 
important medical care. So those are examples, and I hope that 
what we adopt is a policy of fairness and equality among all of 
us. Thank you very much.
    [The prepared statement of Colleen Hanabusa follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Chaffetz. Thank you, I had no idea that you could not 
travel without the boat.
    Ms. Hanabusa. We cannot even do boat, unless you have a 
nice boat. It is just air travel.
    Mr. Chaffetz. Well thank you for your testimony. I 
personally would love to work with you on that issue, so I 
thank you for bringing that to light.
    Ms. Hanabusa. Thank you very much.
    Mr. Chaffetz. We will now recognize the gentlewoman from 
Tennessee, Ms. Blackburn, for five minutes.

    STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Ms. Blackburn. Thank you, Chairman Chaffetz and Ranking 
Member Bass. Thank you for the committee doing this and 
allowing us to be here. I have two legislative initiatives that 
I think could be included and have an impact on our fiscal year 
2013 budget.
    Basically what we have learned through the decades is that 
the federal government in essence, forces irrational and 
expensive health care decisions on Americans by requiring 
seniors to forfeit their private insurance and join Medicare. 
Currently, when someone turns 65 years of age, they are 
automatically required to join Medicare Part A. If individuals 
choose to waive their Medicare Part A entitlement because they 
prefer private health insurance or for any other reason, they 
lose their Social Security benefits, even though they have paid 
payroll taxes to fund those benefits during their entire 
working lives. The individual also loses the ability to make 
further tax free contributions to their health savings account, 
and is unable to use the funds saved in their HSA to contract 
privately for health care services outside of Medicare.
    Now, my legislation, HR 103 is an idea that grew out of a 
town hall meeting in my district. It called the Health Care 
Choices for Seniors Act; it allows seniors to choose their HSA 
over Medicare without a penalty. HR 103 splits the connection 
between Social Security and Medicare; it provides a premium 
support for those that opt out of Medicare in return for their 
years of paying Medicare payroll taxes and would allow 
individuals to continue tax free contributions to their health 
savings account. Additionally, the bill would delay enrollment 
penalties until age 70 to allow seniors more flexibility to 
keep their health savings account after age 65.
    Unfortunately, uncertainty in Medicare is not the only 
issue facing our nation's seniors. They are also very worried 
about the solvency of the Social Security trust fund. So, 
therefore, we have the Savings for Seniors Act. Beginning in 
fiscal year 2013 and every year thereafter, 100 percent of the 
overall Social Security tax receipts that are not used to pay 
current Social Security expenses are placed in an off-budget 
account. The funds placed in the off-budget account will not be 
invested in federal government bonds, the money would remain in 
the off-budget account until Congress passes legislation that 
approves an investment vehicle that does not allow the federal 
government to raid the Social Security account by spending 
money invested in government bonds.
    A bipartisan Social Security investment commission would be 
created with individuals appointed by the House, the Senate, 
the president. The commission will provide a report to Congress 
by October 1st, 2013 and then Congress will use the work of the 
investment commission to determine the best methods for placing 
those funds. Until passage, no moneys issued to the Social 
Security trust fund could be invested.
    Both of these provisions are based on fairness to tax 
payers and delivered with the reminder to each and every one of 
us, and the recognition that tax payer money is not the federal 
government's money. It is the tax payer money, and we, as 
members, are charged with being wise and judicious and 
responsible stewards of those funds. As I said, these bills 
grew from concern from seniors in my district and from ideas 
that came forth at my town halls, and I appreciate so much the 
opportunity to present them. I yield back.
    [The prepared statement of Marsha Blackburn follows:]

   Prepared Statement of Hon. Marsha Blackburn, a Representative in 
                  Congress From the State of Tennessee

    Chairman Ryan, Ranking Member Van Hollen, and Members of the 
Committee, thank you for inviting me here today and giving me the 
opportunity to testify.
    I would like to present a few of my legislative initiatives that I 
think you may find interesting as you prepare the FY 2013 Budget.
    The federal government forces irrational and expensive healthcare 
decisions on Americans by requiring seniors to forfeit their private 
insurance and join Medicare.
    Currently, when seniors turn 65, they are automatically required to 
join Medicare Part A.
    If individuals choose to waive their Medicare Part A entitlement 
because they prefer private health insurance or for any other reason, 
they lose their Social Security benefits. Even though they have paid 
payroll taxes to fund those benefits during their entire working lives.
    The individual also loses the ability to make further tax-free 
contributions to their HSA and is unable to use the funds saved in 
their HSA to contract privately for healthcare services outside of 
Medicare.
    To give seniors more choice in their healthcare, H.R. 103, 
Healthcare Choices for Seniors Act, allows seniors to choose their HSA 
over Medicare without penalty.
    H.R. 103 splits the connection between Social Security and 
Medicare, provides a voucher for those that opt-out of Medicare in 
return for their years of paying Medicare payroll taxes, and would 
allow individuals to continue tax-free contributions to their HSA.
    Additionally, the bill would delay enrollment penalties until age 
70 to allow seniors more flexibility to keep their HSA after age 65.
    Unfortunately uncertainty in Medicare is not the only issue facing 
our nation's seniors. They are also worried about the solvency of 
Social Security.
                           saving for seniors
    Beginning in fiscal year 2013, and every year thereafter, 100% of 
the overall Social Security Tax Receipts, that are not used to pay 
current Social Security expenses, are placed in an off-budget account.
    The funds placed in the off-budget account will not be invested in 
Federal Government bonds.
    The money will remain in the off-budget account until Congress 
passes legislation that approves an investment vehicle that does not 
allow the Federal Government to raid Social Security by spending money 
invested in government bonds.
    A bipartisan Social Security Investment Commission will be created, 
with individuals appointed by the House, the Senate, and the President.
    The Commission will provide a report to Congress by October 1, 
2013.
    Congress will use the work of the bipartisan Social Security 
Investment Commission to determine the best methods for investment.
    Until passage, no moneys issued to the Social Security trust fund 
will be invested.

    Mr. Chaffetz. Thank you. I thank you all for your 
testimony, and I appreciate your time today, and we will now 
take a brief pause as we change out the panel and move to the 
third panel. Thank you.
    Thank you for joining us. We will now recognize the 
gentlewoman from California, Ms. Chu, for five minutes.

 STATEMENT OF HON. JUDY CHU, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Ms. Chu. Thank you for the opportunity to submit testimony. 
As chair of the Congressional Asian-Pacific American caucus or 
CAPAC, I am honored to have this opportunity to share some of 
the issues facing the Asian-Pacific American community and how 
Congress can help the community.
    The economic crisis hit minority communities hard. They are 
struggling to find work, keep their homes, and pay for an 
education for themselves or their children. Despite the 
misconception that Asian-Pacific Americans constitute a model 
minority, the truth is that APAs have tremendous unmet needs 
that threaten the well-being of our community and the 
prosperity of our country. My testimony will focus on 
highlighting a few of these pressing needs, and our top budget 
priorities to make sure that Asian-Pacific Americans are part 
of this committee's plan to create a better future for our 
country. I will also submit my full statement for the record.
    First, on unemployment: Pervasive unemployment continues to 
drag down our economic recovery. Data from the Bureau of Labor 
Statistics show that amongst the unemployed, Asian men and 
women have the longest average duration of unemployment. To 
help these long-term unemployed, we should invest in high-
quality job training and education services to meet the needs 
of workers and employers.
    While funding has remained fairly level, participation 
rates have jumped nearly 200 percent since June 2008 in the 
Work Force Investment Act alone. Therefore, CAPAC requests an 
increase in the president's budget of $.49 billion to $3.699 
billion for training and employment services to help the long-
term unemployed in the Asian-Pacific American community and for 
all communities.
    Then there are English language learners: Given the high 
rates of limited English proficiency, or LEP students, within 
the APA community, one of the primary education challenges is 
language barriers. According to a recent report by the Urban 
Institute, approximately 24 percent of all LEP students are of 
Asian descent, while only 8.7 percent speak English less than 
very well, 39 percent of Cambodians, 37 percent of Hmong, 38 
percent of Laotian, and 52 percent of Vietnamese-Americans 
speak English less than very well.
    Thus, it is important to support the English learner 
education program that provides critical resources to APA 
students improve their English language acquisition. CAPAC 
requests a modest increase of 1.5 million for a total of 33.5 
million to continue expanding the program. The additional 
funding will increase the pool of educators to serve English 
language learners and to increase the skills of teachers that 
are already serving this population.
    Although Asian-Pacific Americans are portrayed as 
universally excelling in school, a staggeringly large number 
fall below the national averages on income and education. APAs 
face greater financial needs than other racial groups when 
taking into account expected family contribution and total aid.
    Only 13.8 percent of Pacific Islanders, 5.8 percent of 
Laotian-Americans, 6.1 percent of Cambodian-Americans, and less 
than 5 percent of Hmong-Americans actually complete college. 
The lower achievement rates for these communities are largely 
attributed to the many education and socio-economic barriers 
that they face. Therefore, there is an important program, the 
Asian-American- and Native American Pacific Islander-serving 
institutions, or what we call AANAPISIs, that were established 
to better support low-income Asian-Pacific Islander students 
with a variety of targeted services that would help them 
overcome barriers to a college degree. CAPAC requests that the 
committee provide $1.9 million in the discretionary fund and 
increase for a total of $5 million in the discretionary fund 
for the AANAPISI program to serve these students.
    Finally, hepatitis B, the leading cause of liver cancer 
worldwide, is amongst the most serious health conditions 
affecting Asian-Pacific Islanders. Although we make up only 6 
percent of the U.S. population, we account for over 50 percent 
of the chronic hepatitis B cases in the U.S. and we are seven 
times more likely to die from the disease. What is the most 
tragic about these deaths is that they are completely 
preventable since there is a vaccine that has been available 
for 20 years.
    Last year, the Department of Health and Human Services 
released a historic strategic action plan for the prevention, 
care, and treatment of viral hepatitis. In order to turn the 
page on this, preventable epidemic, CAPAC requests full funding 
for the HHS plan and full implementation.
    We are at a pivotal moment during our economic recovery 
when Congress can truly make a difference. What is at stake is 
the very survival of the basic American promise that through 
hard work, you can do well to support a family, own a home, and 
save for retirement. For many, this dream is becoming much 
harder to obtain, and that includes Asian-Pacific Americans who 
have contributed to our nation's prosperity for over 150 years. 
This year's Congressional budget offers the Budget Committee a 
chance to keep that promise alive for all Americans. Thank you 
very much.
    [The prepared statement of Judy Chu follows:]

Prepared Statement of Hon. Judy Chu, a Representative in Congress From 
                        the State of California

    Thank you for the opportunity to submit testimony as Chair of the 
Congressional Asian Pacific American Caucus (CAPAC). I am honored to 
have the opportunity to share with you the issues that are facing our 
community and how Congress can play a role in helping our community.
    We are at a pivotal moment during our economic recovery when 
Congress can truly make a difference for laying out a blueprint for our 
economy that is built to last. What's at stake is the very survival of 
the basic American promise that if you work hard, you can do well 
enough to raise family, own a home and put enough away for retirement. 
This year's Congressional Budget offers Congress a chance to keep that 
promise alive.
    The economic crisis hit minority communities the hardest. They are 
struggling to find work, to keep their homes, to get an education for 
themselves or their children and to be respected and accepted by their 
community. Depsite the false impressions about the Asian Americans, 
Native Hawaiians and Pacific Islanders (AANHPI) being the ``model 
minority,'' the truth is our community has tremendous unmet needs that 
threaten the prosperity of the AANHPI community and the prosperity of 
our country.
    My testimony will focus on sharing data that might surprise you 
about our community to demonstrate what programs in the budget are the 
most crucial to making sure that AANHPIs are a part of the roadmap this 
committee sets for our future.
                        civil rights enforcement
    The Civil Rights Division of the U.S. Department of Justice is more 
important than ever due to:
Hate Crimes
    The AANHPI community continues to face a myriad of problems in this 
arena: hate crimes are on the rise, voting rights are under attack, and 
employment discrimination is rampant. According to the FBI, 6,628 hate 
crime incidents involving 7,699 offenses were reported by law 
enforcement agencies in 2010.\i\ Nearly half of the attacks were 
racially-motivated, with anti-Asian and Pacific Islander bias 
accounting for 5.1 percent of the incidents up from 3.4 percent in 
2008. In addition, anti- Muslim bias now accounts for 13.2 percent or 
reported incidents, up from 7.5 percent in 2008.\ii\ These numbers 
indicate a trend of anti-Asian and Pacific Islander and anti-Muslim 
bias that are likely to go up due to the growing anti-Muslim sentiment 
in our country. By having the proper resources, the Civil Rights 
division of the U.S. Department of Justice would be able to ensure that 
hate crime offenses are aggressively investigated and prosecuted.
Voting Rights
    AANHPIs continue to face discrimination at the polls and numerous 
barriers that successfully disenfranchise certain communities.\iii\ 
With more resources, the Civil Rights division can expand efforts to 
guarantee citizens' voting rights by addressing voting rights 
violations.
Employment Discrimination
    A record number of Muslim workers in the United States have 
experienced alleged employment discrimination, including claims that 
co-workers called them ``terrorist'' or ``Osama'' and employers barring 
them from wearing head scarves or taking prayer breaks.\iv\ Muslims 
make up less than 2 percent of the United States population, but they 
made up about one-fourth of the 3,386 religious discrimination claims 
filed with the Equal Employment Opportunity Commission in 2009. This is 
a problem for the Asian American community as many of these practicing 
Muslims are Asian Americans. If we ensure that the Civil Rights 
division has enough funds, they will have what they need to increase 
efforts to eradicate this type of discrimination.
    For these reasons, we support the President's FY2013 request of 
$153.3 million for the Civil Rights division, an $8.8 million increase 
from FY 2012.
Community Relations
    Not only must we protect our civil rights, but we must foster an 
environment where all citizens feel respected and accepted by their 
community. The Community Relations Service (CRS) in the Department of 
Justice can help promote these types of attitudes. CRS serves as the 
Department's ``peacemaker'' for community conflicts and tensions 
arising from real or perceived discriminatory practices based on race, 
color, or national origin and helps communities prevent and respond to 
alleged violent hate crimes committed on the basis of actual or 
perceived race, color national origin, gender, gender identity, sexual 
orientation, religion or disability. To carry out its goal, CRS 
implemented several strategies and programs including an Anti-Racial 
Profiling Program and Sikh Cultural Awareness program. We support the 
President's FY request of $12 million.
                          economic development
Unemployment
    The pervasive unemployment continues to be an anchor in economic 
recovery. This is especially true in the Asian American community where 
long-term job unemployment continues to haunt our pursuit of the 
American dream. Data from the Bureau of Labor Statistics show that 
among unemployed persons, Asian men and women have the longest average 
duration of unemployment. [See graph]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The data demonstrates the need for job creation solutions for not 
just the unemployed, but for the long-term unemployed. High-quality job 
training and education services to meet the needs of workers and 
employers are essential to putting Americans and our community back to 
work.
    Employment, or rather, the lack of employment is a significant 
issue for our community.
    Aggregate data for 2009 shows that the unemployment rate for the 
Asian American civilian labor force (7.9%) is lower than that of the 
overall population (9.9%). However, disaggregated data shows that the 
unemployment rate is higher for certain subgroups such as Southeast 
Asians, including Cambodians (11.4%), Hmong (12.4%), and Laotians 
(13.1%). The data also indicates that the unemployment rate for the 
Native Hawaiian and Pacific Islander (NHPI) civilian labor force 
(13.2%) is much higher than that of the overall population and is 
particularly acute among Samoans (17%). Finally, the data confirms that 
no AANHPI group has been left untouched by the recent economic 
downturn, with every subgroup experiencing increased unemployment 
between 2008 and 2009.
    The Employment and Training Administration at the Department of 
Labor spearheads provided job training and reemployment services to 
millions of people in need of these services to get back to work or 
upgrade their skills for higher paying career opportunities. In fact, 
last year nearly 15 million participated in the Workforce Investment 
Act (WIA) and Wagner-Peyser programs including disadvantaged youth and 
workers who have lost their jobs as a result of plant closings or mass 
layoffs. Further, over 7 million workers gained the employment related 
assistance and training they needed last year through these programs to 
reenter the workforce. While funding has remained relatively steady for 
these programs over the past few years, participation rates have jumped 
nearly 200 percent since June 2008 in the WIA program alone with 
workers struggling to regain their footing during the recession. We 
must ensure that our workforce programs critical to our community keep 
up with demand so that as the economy recovers and job growth returns, 
workers will have the education and skillsets they need to reenter the 
labor market. CAPAC requests an increase in the President's budget 
request to $3,699,986,000 for Training and Employment Services.
Business Development
    Further, supporting minority businesses is another key to economic 
recovery and long-term growth. Minority firms currently provide nearly 
5.8 million people with steady jobs, but have the potential to create 
17.5 million jobs, leading to stronger communities and bolstering 
America's economy. The U.S. Census Bureau reported that number of 
minority-owned firms increased at more than double the rate of all U.S. 
businesses. If we invest in minority-owned firms, we invest in their 
potential to contribute significantly to our long-term economic 
progress and stability.
    The most recent data from the Census Bureau's Survey of Business 
Owners\v\ says that the number of U.S. businesses owned by people of 
Asian origin increased 40.4 percent to 1.5 million between 2002 and 
2007, increasing at more than twice the national rate. Asian-owned 
businesses generated $507.6 billion in receipts, a 55.4 percent 
increase from 2002. The number of Native Hawaiian- and Other Pacific 
Islander-owned businesses increased 31.1 percent during the same 
period. Native Hawaiian and Pacific Islander-owned businesses generated 
$6.5 billion in receipts in 2007, a 51.6 percent increase from 2002. In 
contrast, the total number of U.S. businesses increased 17.9 percent 
between 2002 and 2007; total business receipts rose 32.9 percent.
    Unfortunately, this data relates to pre-recession figures. CAPAC 
has heard numerous anecdotal evidence that supports the need for 
targeted support for business programs that meet the needs of 
underserved communities. In particular, we see a need for more funding 
for the Minority Business Development Agency (MBDA).
    MBDA's mission is to foster the growth and competiveness of U.S. 
businesses that are minority-owned, but they have faced deep budget 
cuts forcing them to close offices across the country. In 2010, MBDA 
secured $1.6 billion in contracts and $2.2 billion in financing for 
minority businesses. That same year MBDA created 6,397 jobs and their 
return on investment was 125%. By underfunding MBDA and closing 
offices, these economic achievements will only suffer. CAPAC requests 
the Committee provide $34 million in funding for MBDA. This funding is 
to specifically maintain MBDA's regional offices, to provide their 
network of centers with additional funding and to expand MBDA's network 
of centers.
                               education
Early Education Programs
    For children in poverty, achievement gaps begin well before 
kindergarten. Study after study has shown that investing in quality 
early learning programs can yield a huge return-on-investment by 
reducing the costs of special education, high school dropouts, teen 
pregnancy, crime, incarceration, and dependence on social services 
later in life and increasing the likelihood of college attendance and 
completion. As nearly thirteen percent of Asian Americans live below 
poverty[i], and certain subgroups such as the Hmong and the Vietnamese 
have poverty rates of 29.9% and 15.5% respectively[ii], early childhood 
education is critical to help break the cycle and give children a 
chance to succeed.
    Thus, CAPAC urges you to include in your budget $8.425 billion for 
Head Start, a research-proven program improving in quality; $3.278 
million for Child Care and Development Block Grants to increase the 
number of working families who can afford child care; $463 million for 
IDEA Part C grants to help identify infants and toddlers with 
disabilities and intervene early when it is cheapest; and a significant 
portion of the President's $850 million Race to the Top request 
specifically devoted to the Early Learning Challenge, a competition 
that has already encouraged 35 states, DC, and Puerto Rico to 
strengthen state early learning systems.
English Langauge Learners
    One of the primary education barriers facing Asian American 
students are language barriers given the high rates of limited English 
proficiency (LEP) within the Asian American community. According to a 
report called ``The New Demography of America's Schools'' published by 
The Urban Institute, Hispanic and Asian children are also much more 
likely to be Limited English Proficient (LEP) and linguistically 
isolated than non-Hispanic black and white children.\vi\ The report 
also states that approximately 24 percent of all LEP students are 
Asian.
    In addition, many Asian American students come from homes where 
English may not be the primary language spoken. As a result, many enter 
school with limited English proficiency, and it may take several years 
for them to develop the language proficiency needed for academic 
success. According to 2010 American Community Survey, while Spanish-
speaking LEP individuals accounted for 66% of the total US LEP 
population, the next four languages were Asian languages: Chinese 
accounted for 6%, Vietnamese accounted for 3%, Korean accounted for 
2.5%, and Tagalog accounted for 1.9%. In addition, Southeast Asian 
immigrant and refugee communities report drastically higher rates of 
limited English proficiency than the general U.S. population: while 
only 8.7% of the U.S. speak English ``less than very well,'' this is 
true for 39% of Cambodians, 37% of Hmong, 38% of Laotian, and 52% of 
Vietnamese. The English Learner Education program therefore provides 
critical resources to Asian American students to develop and improve 
their English language acquisition.
    The English Learn Education programs is the Department of 
Education's primary program for serving English Language Learners. The 
FY 2012 request included funding for an increase in the pool of 
educators to serve English Language Learners and to increase the skills 
of teachers already serving them. The request also included funding to 
develop and improve appropriate assessments for English Language 
Learners, particularly students with limited or no English-language 
proficiency, which is a large percentage of AANHPIs. However, the 
President did not renew his request, but there is still a gap between 
the resources for English Learners and the need. Therefore, CAPAC 
requests $733.5 million to continue expanding the program.
Higher Education
    Although Asian Americans are sometimes portrayed as universally 
excelling in school, a staggeringly large number within the community 
fall well below national averages with respect to both income and 
education. A large proportion of AANHPI students are from low income 
backgrounds, the first in their families to attend college, and 
struggle to secure the financial resources to support themselves while 
in school.\vii\ Based on analysis of the National Postsecondary Student 
Aid Survey (2008), AAPIs also have greater financial need than other 
racial groups taking into account expected family contribution and 
total aid
    Educational disparities are vast within segments of the AANHPI 
communities, with many who fall well below national averages. While 
AANHPIs had the highest college graduation rates (i.e., 44 percent) of 
any group of students in 2000, certain subgroups have much lower rates 
of degree attainment. Only 13.8 percent of Pacific Islanders, 13.8 
percent of Vietnamese Americans, 5.8 percent of Laotian Americans, 6.1 
percent of Cambodian Americans, and less than 5.1 percent of Hmong 
Americans successfully completed college. The lower achievement rates 
of these communities may attributed to the many educational and 
socioeconomic barriers that these communities face. These include high 
rates of poverty, language barriers, the need for more and effective 
school counselors and teachers, the lack of resources that prepare 
students for college, the lack of high quality bilingual education, and 
the lack of culturally relevant curriculum. To increase degree 
attainment, institutions must recognize the unique needs and challenges 
that exist within the AANHPI community, and begin addressing the 
factors that are contributing to the low completion rates amount these 
groups.
    Federal TRIO programs provide hundreds of thousands of students 
with the necessary support to enroll in and graduate from college and, 
ultimately, help narrow the gap between low-income, first-generation 
students and their peers. The President's request of $839.9 million for 
TRIO programs is essential to helping the estimated 41,109 AANHPI 
participants pursue and complete postsecondary education.
    The authorized Asian American and Native American Pacific Islander-
Serving Institution (AANAPISI) program was created to better support 
low-income Asian American and Pacific Islander students with a variety 
of targeted services, helping them overcome barriers to a college 
degree and putting them on the path to success. The AANAPISI federal 
program is unique because it acknowledges the distinctive challenges 
facing AAPI students in college access and completion. AANAPISIs engage 
in a range of activities aimed at increasing access to and success in 
college for AAPI students from student services aimed at increasing 
grades, to curricular and academic program development that introduces 
knowledge about AAPI students. It is important to our community that 
the committee provides $5 million in discretionary funding to the 
AANAPISI program to serve AAPI students.
                                housing
Housing Counseling Assistance Programs and Foreclosure Relief Programs
    Housing counseling programs that are able to work with the 
community in a linguistically and culturally appropriate manner have 
been essential to ensuring the community development needs of AANHPI 
communities. In fact, AANHPIs make up a substantial portion of the 
population in 6 of the 10 U.S. cities with the highest foreclosure 
rates.
    While homeownership rates between 2008--2009 for AANHPIs have held 
steady at 59%, some sub-populations have experienced major declines. 
Hmong homeownership rates dropped from 50% to 42%, Bangladeshi 
homeownership rates dropped from 48% to 42%, and Korean homeownership 
rates from 51% to 49%.\viii\
    A study by the Asian Real Estate Association and the UCLA Asian 
American Studies Centers saw AANHPIs experience a significant loss of 
equity following the national foreclosure crisis.\ix\ Asian Americans 
average loss during 2007--2009 was -$42,900 and for Native Hawaiians 
and Pacific Islanders (NHPI) was -$47,000. The national equity loss 
during that same period was -$9,100.
    Financial and foreclosure assistance is also much needed in AANHPI 
communities. It has been noted by advocates working in the community 
that of the AANHPIs who defaulted on their mortgage loans, they are 
more likely to enter into foreclosure, rather than seeking alternative 
means of staying in their homes like loan modifications or other 
alternatives.
    In order to assist these homeowners, we must first consider how to 
best reach and serve these communities. The AANHPI community is 
compromised of two-thirds immigrants and refugees, represents 50 ethnic 
groups, and 100 language groups. Furthermore, there are nearly a 
million Native Hawaiian and Pacific Islanders. With these diverse 
needs, it is critical that there is support for housing counseling 
organizations--organizations that have built trust and rapport with 
minority and immigrant communities and can provide linguistically and 
culturally appropriate services to these constituencies. Housing 
counselors can provide these services only if they receive the proper 
funding to do so. The President's FY2013 request of $55 million is not 
enough to get the job done. In FY 2010, the Housing Counseling 
Assistance Program enacted level was $87.5 million, I support restoring 
FY2013 to the FY2010 level of $87.5 million.
Community Development Block Grants (CDBG)
    Generally speaking, HUD programs are critical to our local 
communities, creating opportunities especially for the most vulnerable. 
In particular, the Community Development Block Grants are important to 
the AANHPI community for they provide funding to improve housing, the 
living environment and economic opportunities primarily for person with 
low and moderate incomes.
    There is no question that the economic crisis has had a tremendous 
impact on wealth. In the AANHPI community, this impact has been more 
pronounced since households have loss 54% of wealth between 2005-2009--
primarily through the loss of wealth in property.\x\ The loss of wealth 
has put significant restraints on the AANHPI community's ability to 
revitalize its neighborhoods.
    It is not surprising that the poverty rates have steadily increased 
within the AANPHI community. Some parts of the community are living at 
38% poverty rates and have average households larger than the average 
for the total population. Poverty has forced many people who were once 
homeowners, to become renters. With an inability to own a home due to 
financial hardship and/or limited access to credit, many are renters 
who live in overcrowded conditions in order to afford rent. At the 
national level and for seven metropolitan areas, Asian homeowners live 
in overcrowded conditions at a greater proportion than the total 
population.
    That is why the Community Development Block Grant is vital to the 
AANPHI community since the formula for awarding grants takes into 
consideration a community's poverty rate, population, and presence of 
overcrowding. The President's FY2013 budget requests $3.1 billion for 
the Community Development Block Grant, but we need more funding to help 
rehabilitate, improve, and restore our communities. We should fund this 
vital program at a level of $3.5 billion.
Native Hawaiian Block Grants
    The Native Hawaiian Block Grants have been vital for new 
construction, rehabilitation, acquisition, infrastructure, and various 
support services for Native Hawaiian and Pacific Islanders. More 
specifically, these grants provide eligible affordable housing 
assistance to low-income native Hawaiians eligible for residence on 
Hawaiian Home Lands.
    There are nearly 1 million Native Hawaiians and Pacific Islanders. 
And one out of five persons in this population lives in poverty. They 
are a population at high risk of foreclosure, and unfortunately, 
renters continue to experience adverse treatment at levels of Hispanic 
and African American renters. The President's FY2013 budget funds the 
Native Hawaiian Block Grant at $13 million, and we should uphold that 
request.
                               healthcare
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Access to Healthcare
    Access to healthcare remains a key issue for many in our AANHPI 
community. Aggregate data for 2009 show that the rate of uninsured 
people among the Asian American population (14.1%) is lower than that 
of the overall population (15.1%). However, disaggregated data show 
that the rate of uninsured people is much higher for certain groups. In 
particular, South Asians, such as Bangladeshis (22.5%) and Pakistanis 
(22.9%), and Southeast Asians, such as Cambodians (21.3%), Hmongs 
(15.9%), Laotians (18.5%), Thais (19.9%), and Vietnamese (18.7), are 
impacted by a lack of health insurance coverage.\xi\
    The Affordable Care Act will provide these individuals and their 
families with improved access to affordable health care and essential 
health care services. Under the new law, Medicaid coverage will be 
expanded to cover children and adults with incomes up to 133 percent of 
the federal poverty level. Almost 1.3 million AANHPIs will be newly 
eligible for Medicaid. This Medicaid expansion will provide coverage to 
many AANHPI individuals and families who would otherwise go without 
quality, affordable health coverage.\xii,xiii\
    These coverage expansions should have a significant impact on 
AANHPIs with low or moderate incomes. It is critical that the FY 2013 
Budget fully funds the Affordable Care Act to ensure that we are on 
track to providing health coverage to the neediest members of the 
AANHPI community.
    Healthcare Disparities
    For far too long, the health challenges of AANHPIs have gone 
unnoticed and the deadly effects of this lack of knowledge and 
awareness have been deeply felt by the community. Among one
    Pacific Islander-American group, 20 percent of births are pre-term. 
Deaths from breast cancer are four times higher among some Asian-born 
women compared to their U.S.-born counterparts.
    Rates of vaccine-preventable liver and cervical cancer among the 
Hmong community in California are 3 to 4 times higher than those of 
other Asian American groups.
    In order to address healthcare disparities, is imperative to 
adequately fund the Office of Minority Health (OMH) which plays a 
crucial role in improving the health of racial and ethnic minority 
populations and is important to the health of Asian American, Native 
Hawaiian, and Pacific Islander communities. OMH's policies and programs 
promote informed, empowered individuals as a means for enabling 
community solutions to eliminate health disparities, including those 
like Hepatitis B and diabetes that disproportionately affect the AANHPI 
community. In addition, OMH is dedicated to promoting prevention and 
wellness; improving the diversity and cultural competency of the health 
care workforce; and, ensuring access to quality, culturally competent 
care. We request that we fund at $55.8 million, a $14.8 million 
increase above the President's FY13 request level of $41 million.
    Another important way to address these disparities is to fund 
community health centers. These centers play a critical role in 
expanding access by serving as a trusted safety net for AANHPI 
communities because they provide culturally and linguistically 
competent services that address some of the key barriers that confront 
our community. The expansion of community health centers is one of the 
cornerstones to helping the AANHPI community. The President's FY 2013 
budget requests $3.1 billion for health center services to support the 
creation of new health center sites across the country, and we support 
this request.
Hepatitis B
    Among the most serious conditions affecting the AANHPI community is 
hepatitis B, an infection of the liver and the leading cause of liver 
cancer. About 1.3-1.5 million people in the U.S. are chronically 
infected with hepatitis B, with approximately 5,000-6,000 people dying 
each year from hepatitis B related liver disease or liver cancer. Over 
half of the chronic hepatitis B cases and resulting deaths are 
represented by AANHPIs. What is tragic about these deaths is that they 
are completely preventable with a vaccine that has been available for 
20 years.
    The Division of Viral Hepatitis at the Centers for Disease Control 
is our front line of defense. The current funding level of $19.3 
million was not sufficient to provide core prevention services, which 
we so desperately need to fight the spread of hepatitis. We also need 
more funds to support a first-ever national surveillance initiative so 
that we can finally have data to share with states, health departments, 
policy makers and physicians to gain a better understanding of the 
hepatitis epidemic. CAPAC requests $59.6 million to fight against the 
hepatitis epidemic. We also request full funding for HHS to implement 
their Action Plan for the Prevention, Care, and Treatment of Viral 
Hepatitis. Finally, we are in agreement with the President's 
recommendation for $ 1,146 million for the HIV/AIDS, Viral Hepatitis, 
STDs and TB Prevention.
National Center for Health Statistics (NCHS)
    The National Center for Health Statistics (NCHS) is the nation's 
principal health statistics agency and it supports a number of ongoing 
seminal health and health care surveys that are crucial to our 
community. The collecting and reporting of disaggregated national 
health data for the AANHPI population is an important step in 
accurately representing the health status of our overwhelmingly diverse 
communities. The President requests $197 million to fund NCHS in FY13 
and we support this request.
                              immigration
Immigrant Integration and Citizenship
    In the last decade, the government has become increasingly aware of 
the value of speeding the integration of immigrants into our society. 
During the Presidency of George W. Bush, the Office of Citizenship was 
established. In its early days, that office concentrated on, among 
other things, improving access to citizenship education and 
instructional materials.
    The Office of Citizenship plays a key role in immigrant integration 
by, among other things, leading initiatives to promote citizenship 
awareness; supporting national and community-based organizations that 
prepare immigrants for citizenship by providing grants, educational 
materials, and technical assistance; and building collaborative 
partnerships with state and local governmental and non-governmental 
organizations to expand integration and citizenship resources in 
communities.
    The President recommended $11 million for Immigrant Integration and 
Citizenship for FY2013, after Congress authorized $10 million to be 
spent for the immigration integration grant program out of the 
Examinations Fee Account. This funding will support immigrant 
integration efforts, including funding for new programs supporting 
English language acquisition and citizenship education.
    We strongly support this request because these funds will greatly 
benefit the AANHPI community and are critical to the success of the 
United States. Immigrants who integrate into U.S. society go on to 
become informed voters, active community members, innovators, 
entrepreneurs and future job-creators. Whether they come on family or 
employment visas, through the asylum or refugee program, or through 
other much smaller legal immigration programs, legal permanent 
residents come to this country with the dream of becoming U.S. citizens 
and giving back to their adopted home.
    The Office of Citizenship has already helped thousands more people 
prepare to become citizens through Congress's support and it has helped 
to reinforce the network of excellent state service providers around 
the country. Strong support for integration programs boost human 
potential and make us a stronger nation.
Office of Civil Rights and Civil Liberties
    We also support the President's FY 2013 budget request of $1.7 
million for the Department of Homeland Security's Office of Civil 
Rights and Civil Liberties. It is important for the AAPI community that 
OCRCL--which oversees the 287(g) and Secure Communities programs--has 
the funding to support proper oversight and training so that ICE is not 
a conduit for discriminatory and abusive law enforcement practices.
    We must ensure our immigration budget is balanced, that it supports 
both programs that benefit immigrants, the foundation of the American 
nation since it was established, and also enforces our immigration 
laws. Immigration enforcement alone will not fix the broken U.S. 
immigration system. We urge you to robustly support immigration 
services and create a more equitable immigration budget that does not 
rely on enforcement-only immigration policy.
                              territories
    The Office of Insular Affairs (OIA) carries out the Secretary's 
responsibilities for U.S.-affiliated insular areas. These include the 
territories of Guam, American Samoa, the U.S. Virgin Islands (USVI), 
and the Commonwealth of the Northern Mariana Islands (CNMI), as well as 
the three Freely Associated States (FAS): the Federated States of 
Micronesia (FSM), the Republic of the Marshall Islands (RMI), and the 
Republic of Palau.[i] OIA is the primary federal program aimed at 
combating the economic and fiscal problems in the insular areas.
    Unfortunately, the President's request included a $3 million 
reduction from fiscal year 2012 levels Assistance to Territories. It is 
understandable in these tough economic times everyone must make 
sacrifices, but reductions in the OIA funding will translate to cuts to 
vital projects which foster development of the insular areas in 
accountability, financial management, tax systems and procedures, 
insular management controls, economic development, training/education, 
energy, public safety, health, immigration, labor, and law enforcement. 
I am requesting the committee to restore the $3 million cut in funding 
to the Office of Insular Affairs.
                                endnotes
    \i\ US Department of Justice, Federal Bureau of Investigation, 2010 
Hate Crime Statistics.
    \ii\ US Department of Justice, Federal Bureau of Investigation, 
2010 Hate Crime Statistics.
    \iii\ Meeting the Challenge: National Platform for Advancing 
Justice. Policy Priorities & Recommendations for Achieving Equity, 
Equality, and Justice in Asian American & Pacific Islander 
Communities.'' http://www.advancingequality.org/attachments/files/391/
Platform--for--Action.pdf
    \iv\ Greenhouse, Steven. ``Muslims report rising discrimination at 
work,'' The New York Times. 23 September 2010. http://www.nytimes.com/
2010/09/24/business/24muslim.html?--r=3&pagewanted=1&ref=business
    \v\ http://www.census.gov/econ/sbo/
    \vi\ http://www.urban.org/uploadedPDF/311230--new--demography.pdf
    \vii\ ``Federal Higher Education Policy Priorities and the Asian 
American and Pacific Islander Community'' The Asian and Pacific 
Islander American Scholarship Fund. 2010.
    \viii\ U.S. Census Bureau Data, 2008, 2009.
    \ix\ Asian Real Estate Association of America. ``AAPIs Experience 
Significant Loss of Home Equity,'' AsianWeek.
    \x\ Pew Research Center, ``Wealth Gap Rises to Record Highs Between 
Whites, Blacks and Hispanics,'' July 2011.
    \xi\ American Community Survey, 2009.
    \xii\ ``How Health Reform Helps Asian Americans,'' Families USA, 
September 2010.
    \xiii\ How Health Reform Helps Native Hawaiians and Other Pacific 
Islanders,'' Families USA, September 2010.

    Mr. Chaffetz. Thank you, I appreciate your testimony. I 
would like to mention to the panel and the future panels that 
we understand the pressures on your individual time; we do not 
anticipate that you will be called upon again, and so if you 
have to depart, we totally understand, after you have, 
obviously, given your testimony. So thank you again today for 
your testimony Ms. Chu. I now recognize the gentleman from 
Texas, Mr. Green, for five minutes.

STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Gene Green of Texas. Thank you Mr. Chairman, and I am 
pleased to be here to provide my views on the fiscal 2012 
budget resolution. The committee is faced with many difficult 
choices that it crafts in this year's congressional budget. 
Democrats and Republicans must work together to produce a 
budget that simultaneously meets our economic, health care, 
energy, and social challenges. I have a few issues that I would 
like to talk about.
    Energy provisions: I want to reiterate my opposition to the 
president's proposal tax increases on the oil and gas industry. 
The president's proposed $85 billion tax hike would suppress 
our domestic production, stifle job creation, and drive up 
imports of crude oil from nations that are hostile to us and 
increase the volatility of the gasoline markets. It is 
important for the committee to know that the U.S. oil and 
natural gas industry does not receive subsidies. In fact, there 
is not a single targeted tax credit in the internal revenue 
code available to the oil and natural gas industry. Instead, 
the industry is allowed to take deductions to cover the cost of 
doing business which have been afforded to all business since 
the beginning of our country's income tax system.
    In return, this industry delivers about $86 million a day 
to the federal government in revenue, and yet, the 
administration continues to argue that this industry, and this 
industry alone among American businesses, should pay more 
taxes. In fact, as RA does under the Section 199 deduction, 
which allows all manufacturers to take a 9 percent deduction of 
their cost while limiting oil and gas manufacturer to a 6 
percent deduction?
    Finally, I want to remind the committee that the average 
independent production company has only 12 employees, the 
definition of a true small business. We are not just harming 
big oil by repealing these incentives; we would single-handedly 
be destroying thousands of small businesses across our country.
    The next issue is I am proud to represent the Port of 
Houston, and a priority in our district is the Port of Houston. 
Our port is the largest foreign tonnage port and the largest 
petrochemical port in the country. In fact, it moves the 
second-largest amount of cargo in the country. The commerce 
that occurs at our port is critical to our nation's energy and 
chemical sectors, and to our country's ability to trade and 
move goods throughout our country. The number one issue that 
faces the Port of Houston, and many other ports, is the future 
of maintenance dredging by the Army Corps of Engineers.
    In 1998, over a number of years, federal government 
invested $700 million in deepening and widening the Houston 
Ship Channel, an investment we have benefited from 
tremendously. However, as the years have passed, the silt has 
settled and reduced the draft in the channels significantly. 
Today only .4 percent of the channel is dredged its proper 
depth across the entire width of the channel and this is 
astounding. Our nation's investment is rapidly deteriorating.
    When the president's was released a few weeks ago, they 
provided an extra $700,000 for maintenance dredging for a total 
of just over $24 million and new funding $100,000 to study the 
widening and deepening of the Houston Ship Channel to the 
turning basin, which is part of our district. An increase of 
$800,000 does not sound like a lot and it is not, but when the 
dredging needs alone come to nearly $60 million, but it is good 
to get an increase at all as every other program government-
wide is eyeing for cuts.
    I am asking you today that when this committee does write 
its budget that you preserve the funding levels that the 
president's budget or even better, if possible, increase them 
for maintenance dredging. As we continue the dual challenges of 
adopting policies that create jobs and reduce the debt, funding 
for the dredging projects is an item that, while costly, will 
have more of a positive impact on our economy than a negative 
impact on our deficit.
    The Texas Transportation Institute performed a study and 
determined that a direct economic impact of a loss of one foot 
of draft is a $373 million impact. The majority of this impact 
is lost business opportunities to due to light loading of non-
containerized vessels. If the dredging crisis at the port 
continues to worsen, the costs will continue to accelerate.
    The last issue is NASA, and once again, I am frustrated 
with the administration's handling of manned space flight. The 
president's budget funds a space launch system and the multi-
purpose crew vehicle programs far under the authorized level 
and far under current year levels. They move that money to 
commercial ventures which I hope succeed, but do not have the 
track record of our team at NASA, especially the folks at 
Houston Johnson Space Center. We cannot cuts the knees out from 
NASA-led human space flight without the investments in the 
space launch system and the multi-purpose crew vehicle. I am 
afraid our country will not be equipped to continue to be the 
world leader in science, technology, and space flight. While 
this harms Houston, my concerns are not just about preserving 
the work force at our Johnson Space Center; it is also about 
the future of the manned space flight and the future role of 
American leadership in technology. Congress spoke clearly in 
2010 authorization and again in appropriations language, 
however, NASA is not here and our request is that we fund 
important manned space programs such as the space launch system 
and the multi-purpose crew vehicle, at least at their current 
year levels, and if not, I am afraid in five years we may be 
sitting in a room without any programs at all to fund. Again, I 
thank you for the opportunity today.
    [The prepared statement of Gene Green follows:]

  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        From the State of Texas

    Chairman Ryan, Ranking Member Van Hollen and Members of the 
Committee: I am pleased to be here today to provide my views on the 
Fiscal Year 2012 Budget Resolution.
    This committee is faced with many difficult choices as it crafts 
this year's congressional budget.
    Democrats and Republicans must work together to produce a budget 
that simultaneously helps meet our economic, health care, energy, and 
social challenges.
                           energy provisions
    I want to reiterate my opposition to the President's proposed tax 
increases on the oil and gas industry.
    The President's proposed $85 billion tax hike would suppress our 
domestic production, stifle job creation, drive up imports of crude oil 
from nations that are hostile to us and increase the volatility of the 
gasoline markets.
    It is important for the committee to know that the U.S. oil and 
natural gas industry does not receive tax subsidies. In fact, there is 
not a single targeted tax credit in the Internal Revenue Code available 
to the oil and natural gas industry.
    Instead, the industry is allowed to take deductions to recover the 
costs of doing business, which has been afforded to all businesses 
since the beginning of our country's income tax system.
    In return, this industry delivers $86 million a day to the federal 
government in revenue.
    And yet the Administration continues to argue that this industry--
and this industry alone among American businesses--should pay more 
taxes.
    In fact, it already does under the Section 199 deduction, which 
allows all U.S. manufacturers to take a 9 percent deduction of their 
costs, while limiting the oil and natural gas manufacturers to a 6 
percent deduction.
    Finally, I want to remind the committee that the average 
independent production company has only 12 employees--the definition of 
a true small business.
    You would not be just harming ``Big Oil'' by repealing these 
incentives. You would single-handedly be destroying thousands of small 
businesses across our country.
Port of Houston:
    Another priority in my district is the Port of Houston. Our Port is 
the largest foreign tonnage port and the largest petrochemical port in 
the country. In fact, it moves the second largest amount of cargo in 
the country. The commerce that occurs at our port is critical to our 
nation's energy and chemical sectors and to our country's ability to 
trade and move goods throughout our country.
    The number one issue that faces the Port today and will face the 
Port in the future is maintenance dredging by the Army Corps of 
Engineers. In 1998, the Federal Government invested $700 million in 
deepening and widening the Houston Ship Channel. An investment we have 
benefitted from tremendously.
    However, as the years have passed silt has settled and reduced the 
draft in the channel significantly. Today, only .4% of the channel is 
dredged to its proper depth across the entire width of the channel. 
That is astounding. Our nation's investment is rapidly deteriorating.
    When the President's budget was released a few weeks ago, they 
included an extra $700,000 for maintenance dredging for a total of just 
over $24 million and new funding of $100,000 toward study on the 
widening and deepening of the Houston Ship Channel to the Turning 
Basin.
    An increase of $800,000 does not sound like a lot, and it's not, 
when our dredging needs alone are near $60 million. But, it is good to 
get an increase at all as every program government wide is eyed for 
cuts. I am asking you today that when this committee does write its 
budget that you preserve the funding levels in the President's Budget, 
or even better if possible, increase them,
    As we confront the dual challenges of adopting policies that create 
jobs and reduce the debt, funding for dredging projects is an item 
that, while costly, will have more of a positive impact on our economy 
than a negative impact on our deficit.
    The Texas Transportation Institute performed a study and determined 
that a direct economic impact of the loss of 1 foot of draft is $373 
million. The majority of this impact is lost business opportunities due 
to light loading of non-containerized vessels. If the dredging crisis 
at the port continues to worsen, this cost will quickly accelerate.
NASA:
    Once again, I am frustrated with the Administration's handling of 
manned space flight. The President's Budget funds the Space Launch 
System and the Multi Purpose Crew Vehicle programs far under the 
Authorized level and far under current year levels.
    They moved that money to commercial ventures, which I hope succeed, 
but do not have the track record of our team at NASA, especially the 
folks at Houston's Johnson Space Center.
    We cannot cut the knees out from under NASA led human space flight. 
Without the investments in SLS and MPCV, I am afraid our country will 
not be equipped to continue to be the world leader in science, 
technology, and space flight.
    While this harms Houston, my concerns are not just about preserving 
the workforce at JSC, this is about the future of Manned Space Flight 
and the future role of American leadership in technology.
    Congress spoke very clearly in the 2010 authorization bill and then 
again in appropriations language. However, NASA is not hearing it. I 
request that we fund important manned space flight programs, such as 
SLS and MPCV at least at their current year levels. If not, I fear in 5 
years we may be sitting in this room without any programs to fund.
    Thank you for the time to testify today.

    Mr. Chaffetz. We thank you for your testimony. We will now 
recognize the gentleman from Florida, Mr. Nugent, for five 
minutes.

STATEMENT OF HON. RICHARD NUGENT, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Nugent. Well, thank you Chairman Chaffetz and Ranking 
Member Bass, not only for having us here today, but also for 
the important work that you did the last year.
    Obviously, the committee has difficult, but necessary 
decisions to make. Members will come forward today to testify 
about their respective districts and the unique needs of their 
constituents. Every district is different. We have different 
priorities and different demographics. However, we are all 
faced with the same enormous national debt, a debt so large it 
now exceeds the size of the entire U.S. economy. Only six other 
advanced countries in the world owe more than they produce, and 
four of them are in the center of the European debt crisis. 
Clearly, we can no longer ignore our unsustainable spending 
levels. We can no longer kick the can down the road, and we 
must acknowledge the situation we are in, and we must take 
steps to address it, and please, the committee, through its 
work last year, began that process. We have now shifted debate 
from how much will we spend to how much will we cut. This is 
undoubtedly a crucial step in tackling this problem.
    I am also pleased the committee put forth the responsible 
proposal last year that preserved the benefits earned by those 
at or near retirement, while attending and adding long-term 
solvency to Social Security and Medicare. In my view, those 
just are not important benefits we are talking about, but 
rather a sacred promise this federal government made to our 
seniors. Our nation's seniors have put good faith in the word 
of the government and have dutifully paid into that promise 
throughout their lives. We cannot default on that promise.
    Florida's 5th Congressional District is comprised of over a 
quarter of a million seniors so it should come as no surprise 
that I have their interest at heart. However, we must not 
forget that every senior in our country, regardless of their 
congressional district they reside in, has paid the same and 
deserves the same return from their government. That is why I 
must reaffirm my position as what I testified to last year. 
That my constituents and I cannot, and will not, support any 
proposal that cuts the benefits of those at retirement or near 
retirement in the short term.
    In closing, I would like to ask this committee that as you 
move forward to work in reforming the budget, can you assure me 
that my commitment to protecting those Americans age 55 and 
older from any benefit cuts? With that, I conclude my time and 
I would open for any questions if you have.
    [The prepared statement of Richard Nugent follows:]

   Prepared Statement of Hon. Richard B. Nugent, a Representative in 
                   Congress From the State of Florida

    First, I would like to thank the Chairman and Ranking Member, not 
only for having us here today but also for the important work they did 
last year.
    Obviously, the committee has difficult but necessary decisions to 
make. Members will come forward today to testify about their respective 
districts and the unique needs of their constituents. Every district is 
different. We have different priorities and different demographics. 
However, we are all faced with the same, enormous national debt; a debt 
so large that it now exceeds the size of the entire U.S. economy. Only 
six other advanced countries in the world owe more than they produce, 
and four of them are at the center of the European debt crisis.
    Clearly, we can no longer ignore our unsustainable spending levels. 
We can no longer kick the can down the road. We must acknowledge the 
situation we're in and we must take steps to address it.
    I am pleased that the committee, through its work last year, began 
that process. We have now shifted the debate from, ``How much we will 
spend'' to, ``How much we will cut.'' This is, undoubtedly, a crucial 
step in tackling this problem.
    I am also pleased that the committee put forth a responsible 
proposal last year that preserved the benefits earned by those at or 
near retirement while adding long-term solvency to Social Security and 
Medicare. In my view, those aren't just important benefits we are 
talking about but rather a sacred promise the federal government made 
to our seniors.
    Our nation's seniors have put their good faith in the word of the 
government and have dutifully paid into this promise throughout their 
lives. We cannot default on that promise.
    Florida's 5th District is comprised of over a quarter of a million 
seniors, so it should come as no surprise that I have their interests 
at heart. However, we must not forget that every senior in our country, 
regardless of the congressional district they reside in, has paid the 
same and deserves the same in return from their government.
    That is why I must reaffirm my position to the Budget Committee 
that my constituents and I cannot and will not support any proposal 
that cuts the benefits of those at or near retirement.
    In closing, I would like to ask the committee, that as you move 
forward with your work reforming the budget; can you assure me that you 
share my commitment to protecting those Americans age 55 or older from 
any benefit cuts?

    Mr. Chaffetz. Thank you, we appreciate the gentleman from 
Florida for his testimony today. In the essence of time we will 
actually now recognize the gentleman from Washington, Mr. 
Larsen, for five minutes.

  STATEMENT OF HON. RICK LARSEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Larsen. Thank you Mr. Chairman, Ranking Member Ryan, 
for the opportunity to speak with you this morning. As the 
committee considers and revises the president's budget 
proposal, I urge you to fully support programs that are focused 
on boosting manufacturing and increasing exports. We are in 
such a pivotal and critical point in determining our nation's 
manufacturing and economic future. Between June of 1979 and 
December of 2009 the U.S. lost 41 percent of its manufacturing 
jobs. We must turn this decline around by investing in 
manufacturing and boosting exports, both of which create jobs 
for Americans. This budget is a key vehicle to help us turn 
that around.
    America's future is dependent on us getting our investments 
right in this budget. President Obama visited the Boeing 
manufacturing facility in my district last month, to highlight 
several aspects of his budget that will help grow manufacturing 
and expand our exports. I fully support the president's goal to 
double our exports between 2010 and 2015 and urge this 
committee to support these initiatives.
    The president has requested $430 million for the Export-
Import bank, the U.S. Trade and Development Agency, the Office 
of United States Trade Representative, the U.S. International 
Trade Commission, and the Overseas Private Investment 
Corporation, and $517 million for the Commerce department's 
International Trade Administration. Expanding the Export-Import 
Bank's authority and providing a long term re-authorization for 
it will help U.S. firms compete with foreign firms that receive 
government support. Support of the Interagency Trade 
Enforcement Center will help ensure that American manufacturers 
have fair access to foreign markets. These budget initiatives 
will have a real and positive impact in all of our communities. 
Boosting manufacturing is a key part of rebuilding the middle 
class by providing a source of good-paying jobs and helping the 
economy fully recover.
    In Washington state's 2nd District, in the Pacific 
Northwest, manufacturing accounts for a large portion of jobs 
and job growth. From the people who work at small manufacturers 
that create specialized pipe fittings and windows and doors, to 
the huge manufacturer, Boeing, that residents of the 2nd 
District know the importance of still being able to build 
things here in America. The best way that we can grow 
manufacturing is by expanding exports. One in four jobs in my 
state is in fact tied to foreign exports, and that number has 
greatly expanded in the last several years. Manufacturers that 
can get access to world markets can greatly expand the demand 
for their products. When manufacturers increase their 
production, they hire more people.
    I work directly with manufacturers in northwest Washington 
through an export promotion program that I established. One of 
the companies I have worked with, a small maker of windows and 
doors, went from exporting none of their products in 2009 to 
being on track, this year, to export $1.2 million worth of 
their products into British Columbia, Canada, alone. This kind 
of success can be replicated across the country, but only if we 
continue to support the expansion of exports and the budget 
initiatives to help us expand exports. So I urge this committee 
to fund those initiatives that support a trade policy that 
promotes exporting our goods and not exporting our jobs 
overseas. Thank you for the opportunity.
    [The prepared statement of Rick Larsen follows:]

 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
                      From the State of Washington

    Chairman Ryan, Ranking Member Van Hollen, and members of the 
Committee: Thank you for the opportunity to speak to you this morning.
    As the Committee considers and revises the President's budget 
proposal, I urge you to fully support programs focused on boosting 
manufacturing and increasing exports.
    We are in such a pivotal and critical point in determining our 
nation's manufacturing and economic future.
    Between June 1979 and December 2009, the US lost 41 percent of its 
manufacturing jobs.
    We must turn this decline around by investing in manufacturing and 
boosting exports, both of which create jobs for Americans.
    This Budget is a key vehicle to help turn us around.
    America's future is dependent on us getting our investments right 
in this budget.
    President Obama visited the Boeing manufacturing facility in my 
District last month to highlight several aspects of his Budget that 
will help grow manufacturing and expand our exports.
    I fully support the President's goal to double our exports between 
2010 and 2015, and I urge this Committee to support these initiatives.
    The President has requested $430 million for the Export Bank, the 
US Trade and Development Agency, the Office of US Trade Representative, 
the US International Trade Commission, and the Overseas Private 
Investment Corporation and $517 million for the Commerce Department's 
International Trade Administration.
    Expanding the Export-Import Bank's authority will help U.S. firms 
compete with foreign firms that receive government support.
    Support of the Interagency Trade Enforcement Center will help 
ensure that American manufacturers have fair access to foreign markets.
    These budget initiatives have real impact in all of our 
communities.
    Boosting manufacturing is a key part of rebuilding the middle class 
by providing a source of good-paying jobs and helping the economy fully 
recover.
    In Washington's 2nd District in the Pacific Northwest, 
manufacturing accounts for a huge portion of jobs and job growth.
    From the people who work at small manufacturers that create 
specialized pipe fittings and windows and doors, to the huge 
manufacturer Boeing, the residents of Washington's 2nd District know 
the importance of still being able to build things here in America.
    The best way that we can grow manufacturing is by expanding 
exports.
    One in four jobs in Washington state is tied to foreign exports, 
and that number has greatly expanded in the last several years.
    Manufacturers that get access to the world markets can greatly 
expand the demand for their products.
    When manufacturers increase their production, they hire more 
workers.
    I work directly with manufacturers in Northwest Washington through 
an Export Promotion Program that I established.
    One of the companies I have worked with, a small maker of windows 
and doors, went from exporting none of their products in 2009, to being 
on track this year to export $1.2 million to British Columbia, Canada 
alone.
    This kind of success can be replicated across the country, but only 
if we continue our support of export expansion.
    I urge the Committee to fund those initiatives that support a trade 
policy that promotes exporting our goods, not our jobs, overseas.
    Thank you for the opportunity to speak to you today.

    Mr. Chaffetz. I thank the gentleman from Washington taking 
the time to testify before this committee, we appreciate it, 
and thank you. We are going to pause briefly as we change out 
the panel, and for those members on the next panel, if you 
would please make your way forward.
    As the members are taking their seats I would remind 
members to try to keep their verbal comments to five minutes. 
We will obviously submit all of your written testimony into the 
record. I would also let you know that we do not anticipate any 
further interaction after your testimony, so please feel free 
to leave the panel. We know how pressing a lot of other matters 
are, and we would just as soon excuse you after your individual 
testimony. So we are actually going to begin with the gentleman 
from Connecticut and we will recognize Mr. Courtney for five 
minutes.

 STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Courtney. Thank you Mr. Chairman, and I am actually 
going to try and get within that five minutes, or below the 
five minutes, because I know you have a lot of input that you 
have to hear today and votes are coming up soon.
    Again, I just appreciate the opportunity to comment on a 
couple of issues regarding the 2013 budget. In January, we had 
the release of a strategic review, a process that started under 
Secretary Gates and followed through under Secretary Panetta, 
and again, I think it was a very healthy process that looked 
beyond the situation that we are in right now in terms of our 
national security needs, and tried to, again, come up with a 
reorientation in terms of what our future defense alignment 
should be. One of the items, obviously, which was well-reported 
in the press, is the reorientation towards Asia-Pacific, which 
is, again, an areas where there are some strategic challenges 
that our nation faces, particularly in terms of access to 
critical parts of the world and, obviously, an emerging 
military in China that, again, is going to be an issue that 
hopefully as a nation we are going to be able to mediate in a 
peaceful manner, but nonetheless, a challenge that we have to 
address. China released its defense budget a few days ago; it 
was an 11 percent increase in terms of their operational side. 
As many observers commented, in fact, there are many parts of 
their defense budget that is not transparent, and the estimates 
are, frankly, much higher in terms of what the true 
capitalization, in terms of their navy, their missile defense 
systems, et cetera.
    A key component that was identified in our strategic review 
as far as a way to address this change that is taking place is 
making sure that we have a robust undersea fleet, which is, 
again, something that today we have unparalleled domain and 
control because the fact that we have the finest submarine 
force in the world; it is, again, unrivaled in terms of its 
capabilities and the fact that it is still, even in the world 
of GPS, something that any adversaries can never detect.
    Over the last couple of years, we have boosted submarine 
production in this country. We were at one a year from the end 
of the Cold War up until 2011. Starting last year, we boosted 
that production to two a year. As Mr. Ryan knows, Congressman 
Murtha, as one of his great legacies, was to understand that we 
really could not allow our fleet to continue to decline, we are 
today at 54 attack submarines. At the present pace, even at two 
a year, we still are going to see a reduction, closer to 40 and 
starting around 2020, and again, that is because of the fact 
that we still have a legacy fleet from the Reagan build-up 
years when we were building five a year.
    The strategic review and the budget that came out pretty 
much maintains that two a year pace of ship-building, however, 
the Navy buys these submarines in block contracts, and starting 
in 2014, the next block of Virginia-class submarines is 
scheduled to be executed. Again, the plan that was submitted in 
January has nine subs over a five year period, and you can do 
the math. That is actually not two a year, it actually goes, in 
2014, to one, and then two, two, two, two. This is a concern 
which Admiral Greenert has testified to before the Armed 
Services committee, and that it is going to have an impact for 
really decades to come in terms of the overall fleet size. It 
does not sound like much, but in fact if you look at the 
projections from congressional research services as well as the 
Pentagon, this really will create some real problems down the 
road in terms of being able to meet mission requests for our 
combatant commanders.
    So right now, there is work being done with the 
Appropriations Committee, the Navy, as well as a number of us 
to try and see if there is a way we can rearrange that block 
contract that, again, came out as part of the budget so that we 
are not going to lose the opportunity to continue the progress 
that we have started to make, starting in 2011.
    The Virginia-class program is by far the all star of ship-
building in this country. The USS Mississippi was commissioned 
just a few months ago, and it was a year ahead of schedule, 
came in under budget, and the California was earlier last year. 
This is a program that the Virginia shipyard, as well as the 
Connecticut shipyard, has really started to hit on all 
cylinders, and making sure that this block is maintained is 
something that, again, I think is critical and really should be 
a non-partisan issue because it is something that, I think, 
both sides recognize is an important component of our national 
defense.
    Lastly, I just want to make a quick point. Again, we come 
from a state where insurance is in our DNA, the state of 
Connecticut, and frankly, I am quite concerned about the 
proposals for Medicare. When Medicare was created in 1965, the 
private insurance market only covered 50 percent of seniors in 
this country. Having a system that is going to basically rely 
on an insurance model rather than a guaranteed benefit, 
frankly, I just think, again, coming from the land of 
actuaries, is not a workable system. I understand the fact that 
we have fiscal challenges in this program, which frankly impact 
issues like submarine production, so we obviously need to focus 
on ways to make more efficient Medicare system, but an 
insurance model is really just a cost shift and not a cost 
saving. With that, Mr. Chairman, I thank you for your time.
    [The prepared statement of Joe Courtney follows:]

 Prepared Statement of Hon. Joe Courtney, a Representative in Congress 
                     From the State of Connecticut

    Dear Chairman Ryan and ranking Member Van Hollen: Thank you for the 
opportunity to share some of my priorities in the FY2013 budget. I 
realize the difficult task that this committee has ahead of it, and I 
appreciate your willingness to hear from your colleagues about their 
concerns as this process moves forward. While there are many areas of 
concern that I will be advocating for in the budget and appropriations 
process, I want to highlight for you two areas that I believe merit 
your consideration today.
                         submarine procurement
    As you know, in January Defense Secretary Leon Panetta announced a 
new national security strategy that will guide military procurement and 
priorities into the next decade. While conducted in large part to help 
this Congress understand the department's priorities amidst the current 
budget debate, it was also a chance for the department to evaluate 
their future security imperatives as we wind down the wars in Iraq and 
Afghanistan.
    Included in the strategy was a clear emphasis on the need for a 
strong and robust naval fleet, with a particular focus on the unique 
and unmatched capabilities of our submarine force. The strategy 
emphasizes power projection and anti-access/area denial, with specific 
reference to maintaining a cruise missile strike capability (such as 
submarine operations in Libya) and ``sustaining our undersea 
capabilities.'' Maintaining a safe, secure and effective nuclear 
deterrent'' is cited a primary mission of our Armed Forces, 
underscoring the importance and relevance of the replacement of our 
current SSBN fleet. As Secretary Panetta said, ``we will protect our 
investments in special operations forces, new technologies like ISR 
(intelligence, surveillance, reconnaissance) and unmanned systems''--
areas in which our submarines today already play an important and 
largely unmatched role. The strategy outlines ``renewed emphasis on 
Asia together with continued focus of Middle East''--two areas that 
submarines have already demonstrated their unique value in fulfilling 
our nation's intelligence, surveillance, reconnaissance and power 
projection priorities.
    However, at the same time that submarines take a lead role in our 
nation's security, the submarine force faces significant pressures in 
the decades ahead. While we have a submarine fleet of 54 attack 
submarines today, we begin to fall below the stated force level 
requirements of 48 submarines beginning in the early 2020's as our 
older attack submarines, built in the Cold War era of the 1980's, 
retire at a facer pace that we plan to retire them. Congress recognized 
the need to invest in our submarine force in 2007, when we passed the 
funding needed to begin the production of two submarines a year in 
2011--a year earlier than the Navy had planned at the time, but nearly 
a decade later than initially planned. We reached that milestone in 
2011, marking the first time that our nation is producing more than one 
submarine in a single year in nearly two decades.
    The 2013 budget request continues to emphasize strong investment in 
our submarine force. It requests funding for two submarines in 2013--
the final year of the current multi-year procurement contract signed in 
2008--as well as additional advance funding for submarines to be built 
in 2014 and 2015. In addition, it asks Congress for authority to enter 
in to the next multi-year procurement contract--known as ``Block IV''--
that would procure at least nine submarines over a five year period 
between 2014 and 2018. This multi-year authority is critical to the 
continued effort to reduce program costs and accelerate the delivery 
schedule for new submarines--for example, the budget notes that the 
government will save $4.5 billion or 14.4 precent over those five years 
through the economies of scale achieved through the multi-year 
purchasing strategy.
    The budget also invests nearly $600 million in continued research 
and development of the Ohio Class SSBN replacement, as well as $100 
million in development of a new ``Virginia Payload Module'' that will 
make new submarines built later this decade more capable of supporting 
increased missile payloads and other tools. This is a critical 
investment in the future of the submarine force, which will make new 
submarines more versatile and allow our Navy to do more with less in 
the coming decades.
    All told, submarine procurement and development fared exceedingly 
well in the 2013 budget amidst serious changes to many other programs--
and, I would add, deservedly so given the unique role that our 
submarines are playing, and will continue to play, in our security in 
the decades ahead. However, I did want to raise one issue with you for 
your consideration.
    As I said, the five year, nine boat request for multi-year 
procurement authority made a slight change to the order that the new 
boats will be bought and built. For years, the industrial base has 
planned for a build rate of two submarines a year between 2014 and 
2017, with a one-year reduction to one submarine in 2018. The 2012 
budget plan mirrored this plan, which the industrial base has planned 
towards for some time. However, the 2013 budget moves a submarine from 
2014 to 2018, leaving a build rate of one submarine in 2014 and two in 
the following years.
    While seemingly a small change in the scheme of things, I am deeply 
concerned that this change will further increase the submarine 
shortfall between 2018 and 2022, leaving our Navy and our combatant 
commanders with fewer resources to achieve their mission. In addition, 
changing the schedule now, at this late date, could cause repercussions 
in our fragile industrial base. Notably for this committee, that one 
change is estimated to have increased the overall cost of the Block IV 
multi-year contract by over $500 million--and about $55 million per 
boat. These are non-value-added costs, meaning that Congress and the 
taxpayers do not get any additional capability for that cost--just 
increased costs due to the loss of efficiency and savings that are 
achieved through a sustained and stable build rate.
    In my discussions with Navy leaders, they have made clear that this 
decision was made purely for budget purposes--moving the submarine to 
2018 pushed the boat out of the Future Year's Defense Plan FYDP), or 
the five year budget window we are considering, so that the so-called 
``savings'' achieved could be applied towards achieving the spending 
caps set by the Budget Control Act during that period. They have shared 
with me and others that the change in the Navy budget that would give 
them the single largest bang for their buck would be the restoration of 
advanced procurement funding in the 2013 budget to support adding 
another boat into the 2014 build plan. That change alone would reduce 
the submarine operational shortfall by nearly 25 percent and help given 
our combatant commanders the near-term tools they need to carry out the 
new national security strategy.
    While I realize resources will be tight in the 2013 budget, I ask 
for your consideration for ensuring that the defense allocation 
provides the space needed to potentially provide those resources in 
2013 and the following years that would help accommodate the 
restoration of that boat and a sustained build rate of two submarines a 
year.
                   investing in our ports and harbors
    Another issue I ask your consideration of is the critical need for 
investment in our ports and harbors.
    The proper maintenance of our ports, harbors and channels is 
absolutely critical to the health and future of our maritime commerce--
and our nation's economy. Without additional resources to achieve this 
important goal, our maritime industry will continue to struggle to meet 
the needs of our water borne commerce and economic recovery. At a time 
when U.S. ports are poised to gain from a dramatic percent expansion in 
maritime traffic due to the expansion of the Panama Canal--estimated to 
double in the next 15 years as a result--we are in a unique position 
today to ensure that our ports are ready for the opportunities for 
tomorrow.
    As many members from coastal district know, properly maintaining 
our ports and harbors is an ongoing challenge. Across the country, silt 
accumulation and a growing backlog of maintenance dredging needs 
continues to stand in the way of the full utilization of our waterways 
and in the potential of our nation's maritime commerce. Today, an 
alarming two-third of our nation's navigation channels are not 
maintained at their authorized depths, as are most of our nation's 
largest ports. And, according to the Army Corps of Engineers, the 
backlog of needed maintenance dredging projects grew from $2.36 million 
to $3.25 billion in FY2012.
    The Harbor Maintenance Tax (HMT) and Harbor Maintenance Trust Fund 
(HMTF) were established in 1986 to address exactly this problem. The 
HMT is charged against the value of imports and domestic cargo arriving 
at U.S. ports that have federally maintained harbors and channels and 
deposited into the HMTF. As a user fee on the value of imported goods, 
the HMTF has grown steadily and demonstrated itself to be a reliable 
revenue source for dredging purposes, averaging nearly 13 percent 
growth each year over the last five years.
    However, despite a $6 billion balance in the fund, much of these 
resources are not being used to address the backlog of maintenance 
dredging projects across the need to sustain our vital maritime 
infrastructure. The U.S. Treasury reported the HMT collected $1.47 
billion in Fiscal Year 2011, yet only $791.4 million was distributed to 
the Corps of Engineers for maintenance dredging. At the beginning of 
Fiscal Year 2012, the HMTF had a surplus of approximately $6.2 billion; 
yet, again, this funding is not being used to address the backlog of 
necessary maintenance dredging needed to sustain our vital 
infrastructure.
    Similarly, the 2013 budget assumes a level of revenue $1.66 billion 
in the Harbor Maintenance Trust Fund (HMTF), while utilizing $839 
million, or 51 percent, of the fund's revenue. At the end of 2013, the 
budget projects a balance in the fund of about $7 billion.
    During this period of economic turmoil, we cannot afford to 
threaten these water highways that are so important to our nation's 
economic recovery. Similar problems with the Highway Trust Fund and 
Airports and Airways Trust Fund were addressed by past Congresses by 
enacting legislation to more closely tie trust funds to expenditures. 
To do the same for the HMTF, I joined with our colleague, 
Representative Charles Boustany of Louisiana to introduce H.R. 104--The 
Realize America's Maritime Promise (RAMP) Act. This legislation will 
restore congressional intent of the HMTF and adequately maintain 
American harbors and waterways in order to reach President Obama's goal 
of doubling domestic exports by 2015, create American jobs and 
strengthen the nation's economy. Supported by more than 175 bipartisan 
Members of Congress, a large coalition of ports, exporters, 
manufacturers, maritime businesses, and labor organizations (including 
the Maritime Trades Department of the AFL-CIO), the bill addresses 
program-wide funding, not specific projects, and is not considered 
earmark legislation.
    During consideration of the 2012 Energy and Water Appropriations 
bill, I offered an amendment to highlight the importance of investing 
in our nation's ports, harbors and waterways. My proposal was simple--
it would have added $808 million, the balance of unused revenue from 
the Harbor Maintenance Trust Fund (HMTF) for FY2012, to the Army Corps 
of Engineers' operations and maintenance account to conduct critical 
maintenance dredging on federally maintained waterways. My amendment 
was struck down on a point of order due to the fact that the 
subcommittee's allocation did not provide the top line relief needed to 
fully utilize the HMTF revenues that we expect to take in.
    To this end, I ask this committee to consider incorporating the 
full use of the HMTF into your budget resolution--a proposal that, if 
approved, would have a far ranging economic impact across our country 
through job creation, increasing economic opportunity and bolstering 
our nation's maritime commerce.
                          protecting medicare
    When Medicare was passed into law in 1965, only half of all seniors 
could afford to buy health insurance. This did not happen by accident--
it was because the high risk of people over age 65 made that market 
basically uninsurable. For nearly five decades, through recessions and 
economic booms, the Medicare program has guaranteed seniors and 
individuals with disabilities access to meaningful health care. Today, 
nearly 47 million Americans that have paid into the system rely on the 
program for care.
    In light of ongoing deficit reduction discussions, some have 
suggested cutting benefits, increasing the eligibility age, or 
privatizing the program as an avenue to reduce federal spending. 
Balancing our nation's fiscal challenges on the backs of our elderly 
and disabled is not only wrong--it is counterproductive to the original 
goal of reducing spending. A recent report from the Kaiser Family 
Foundation on raising the Medicare eligibility age to 67 confirmed that 
such a change would increase aggregate spending and shift costs instead 
of produce real savings. According to the report, the change would 
increase aggregate spending in our health care system by $11.4 billion 
in the first year alone. The largest share of the increased costs--over 
$8 billion--would be borne by employers and individuals age 65 and 66.
    The Congressional Budget Office (CBO) confirmed similar cost 
shifting burdens from the Medicare privatization plan included Budget 
Committee Chairman Paul Ryan's 2012 budget proposal. According to the 
CBO, seniors that enter the modified Medicare program in 2022 would pay 
over $6,000 more than they would have under the traditional Medicare 
program--not producing real savings, but shifting costs.
    The fact is that Medicare's finances are in better shape than any 
other time in recent memory. According to the 2011 Medicare Trustees 
Report, the Affordable Care Act extended solvency of the program by 
eight years until 2024. After this period, the Trust will be able to 
meet 90 percent of scheduled benefits through 2045. Without the law, 
the Medicare Trust Fund would expire in just five years in 2016. The 
law extended solvency not by cutting benefits, but by slowing the 
Medicare growth rate through moderate provider reimbursement reductions 
and reducing overpayments to Medicare Advantage plans. And, considering 
recent growth estimates, the future of the Medicare Hospital Insurance 
(HI) Trust Fund looks even more promising. Over the past year, the S & 
P Medicare economic index has measured the lowest growth rates in the 
history of the program--below three percent.
    Cutting benefits, increasing the eligibility age, or privatizing 
the program would turn the clock back to a time when only half of all 
seniors could afford access to care. These changes will do little to 
produce real savings. Instead, the reforms will shift costs to the 
elderly and disabled who can least afford them and should be avoided in 
deficit reduction proposals. Real savings can be found in speeding up 
payment uniformity between Medicare Advantage and the traditional 
Medicare program. Coordinated care and greater utilization of 
preventive care, both products of the Affordable Care Act, also holds 
promise for even bigger savings.
    Thank you for your consideration of these priorities, and I look 
forward to working with you in the weeks and months ahead.

    Mr. Chaffetz. Thank you, we appreciate your testimony. We 
will now recognize the gentlewoman from the Virgin Islands, the 
honorable Donna Christensen, for five minutes.

   STATEMENT OF HON. DONNA CHRISTENSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Christensen. Good morning, Chairman Chaffetz and 
Congressman Ryan. Overall, I am supportive of the president's 
budgetary framework for fiscal year 2013 and I thank you for 
the opportunity to share the budgetary priorities for the U.S. 
Virgin Islands and health in minority communities.
    I come before you when the Virgin Islands is facing an 
economic disaster, with our largest private employer and 
primary supplier of fuel, the Hovensa oil refinery ceasing 
operations, laying off 2,000 employees with a myriad of far-
reaching repercussions. There are several aspects of the 
president's budget that would help us, such as his general 
budget policy that creates jobs and encourages businesses to 
bring jobs back to the United States, and his investment in 
education, innovation, and infrastructure.
    Specific programs that would particularly help us are the 
increased investment in surface transportation, the small 
business tax credits and write offs for new investments, the 
$30 billion for school modernization, expanded college 
affordability and summer jobs, investments in tax incentives 
and clean energy and manufacturing, the establishment of a 
national infrastructure bank, and building of the next 
generation wireless broadband network. We ask that you protect 
these programs in the fiscal year 2013 budget.
    The president's budget proposal significantly increases the 
amount of Medicaid funding, but once again, I am requesting 
that our Medicaid cap and the Medicaid cap for the territories 
be lifted and our match changed. We are asking for inclusion in 
the supplemental Social Security program, and an increase in 
LIHEAP for the reasons stated in the written presentation.
    I am also asking for support for the interior insular 
affairs budget, which provides critical support to the 
territories in many areas. My district, of course, is in an 
area that is always at risk for hurricanes. The regional 
observing systems provide critical high resolution data and I 
am requesting that we maintain the regional network funding at 
$17 million. The NOAA educational partnership program, 
cooperative science centers provide mission critical research 
and training. It supports our university and others to build a 
technical work force and it is important to maintain that 
budget as a line item.
    I am also here as chair of the Congressional Black Caucus' 
health brain trust, and as a former health care provider, and 
so I want to address the important investments that will help 
reduce health inequities.
    I fully support NASA to keep this budget's overall 
increases to several critical health and human services 
agencies, they are listed in my written presentation, and 
preserve the budget support for the implementation of the 
Affordable Care Act, but eliminating health disparities also 
requires investing in the social economic and environmental 
determinants of health. It must no longer be that your zip code 
determines your health status more than your genetic code, but 
that is a sad fact for racial and ethnic minorities, and for 
poor and rural communities.
    Just a few examples of the administration's awareness and 
commitment to this are the $100 million for the HUD sustainable 
communities initiative, the $55 million initiative to make 
college reality for more racial and ethnic minority and low-
income Americans, the $285 million investment in the multi-
agency healthy food financing initiative, and of course all of 
the job-creating provisions and we ask that you preserve those 
in the budget as well.
    There are several key offices and programs to be cut that 
would adversely impact the health of millions of Americans; and 
so I therefore oppose cutting $15 million from the Offices of 
Minority Health and the continuing underfunding of the National 
Institute for Minority Health and health disparities. I oppose 
cutting the $4 million from the prevention and public health 
fund, and cutting $360 billion that would hurt 60 million 
Medicare and 48 million Medicaid beneficiaries. I also oppose 
weakening these programs in any way.
    I oppose cutting over $500 million from the transitional 
health insurance program, and the $28 million from the 
children's mental health grant. I also oppose the elimination 
of the health careers opportunity programs, the REACH program, 
preventive health and health services block grant, any cuts to 
graduate medical education, and to the community services block 
grant. We would end up paying millions, or maybe even billions 
of dollars in the future for these bad decisions.
    Finally, I fully request funding for the AIDS drug 
assistance program; treatment is a key element of prevention. I 
would respectfully suggest to you, Mr. Chair and members, that 
issues of health and safety are high enough priorities that 
they should no more require offsets than the Middle East wars 
or the Bush administration tax cuts, but also consider that 
there will be more savings from the Affordable Care Act than we 
have already begun to realize, and from these programs as well.
    Finally, the Congressional Black Caucus will be submitting 
an alternative budget that addresses these and other concerns. 
I thank you for the opportunity to testify. You have a 
difficult job ahead, but I am confident that working in a 
bipartisan manner and putting the good of the country and our 
fellow Americans first, we will have a good budget that will 
put our country on a strong footing for the future, thank you.
    [The prepared statement of Donna Christensen follows:]

Prepared Statement of Hon. Donna M. Christensen, a Delegate in Congress 
                      From the U.S. Virgin Islands

    Good morning, thank you, Chairman Ryan and other members of the 
committee, for the opportunity to share with you the budgetary 
priorities for the U.S. Virgin Islands and for minority communities as 
it relates to health care. While the U.S. territories, of which the 
Virgin Islands is a part, always have to ensure that federal 
initiatives for programs extend to our shores, this year it is of even 
greater importance for the U.S. Virgin Islands as we are facing a very 
challenging financial crisis. Our largest private employer and our 
primary supplier of fuel for our utility, our businesses, and 
residents, the HOVENSA Oil Refinery has ceased operations, is in the 
process of laying off 2,000 employees and the potential ripple effect 
to our treasury, and to our way of life is staggering.
    While we have been working with our federal partners to address the 
impending unemployment and mortgage crisis that will severely affect 
our middle class, I still want to point out aspects of the President's 
Budget that I believe would be of help to us as we work through the 
challenges before us.
    I believe in President Obama's general budget policy that focuses 
on tax policy to encourage businesses to bring jobs back to the US; to 
invest in education, innovation and infrastructure; and to create a 
level playing field for U.S. workers and businesses. Programs that 
would particularly help us as we work to reinvent ourselves include:
    <bullet> Increased investment in the Surface Transportation 
Reauthorization that would help our roads, runways, buses and ferries, 
keeping many small businesses alive
    <bullet> The small business tax credits and write-offs for new 
investments that would lead to job retention and growth
    <bullet> The $30 billion for school modernization that would help 
us to make them energy efficient using solar and other clean energy 
solutions
    <bullet> Investment in Race to the Top with its resources for child 
care and readiness for school
    <bullet> College affordability with student loan help and summer 
job help
    <bullet> The investments and tax incentives in Clean Energy and 
Manufacturing for Made In America products
    <bullet> The establishment of a National Infrastructure Bank
    <bullet> The building of a next generation wireless broadband 
network for public safety users.
    Specific to the U.S. Virgin Islands is my annual request for an 
increase in our Medicaid Cap, inclusion in the Supplemental Social 
Security Program and because our residents pay 44 cents per kilowatt 
hour for electricity, an increase in funding for the Low Income Energy 
Assistance Program (LIHEAP) which will provide relief for many of our 
people, our seniors and our children who live at or below the poverty 
level.
    While I will continue to work to lift the cap and increase our 
FMAP, the President's FY 2013 budget proposal does keep the Medicaid 
program in the U.S. Virgin Islands and in the U.S. Territories on a 
glide path to parity by significantly increasing the amount of Medicaid 
funding.
    I am also asking for support for the Interior Insular Affairs 
budget which provides technical assistance and facilities maintenance 
programs, assists us in developing sustainable and renewable energy 
strategies and supplements our capital improvement programs.
    As you know, colleagues, my district is in an area that is always 
at risk for hurricanes and we have been seeing changes in intensity and 
paths for the storms. The last thing the US Virgin Islands needs--or 
any part of the United States needs--is to be hit by a strong storm, 
especially without adequate warning and preparation.
    It is therefore important that we maintain support for regional 
observing systems in FY13. Regional observing systems provide the 
sustained high-resolution data needed to address key federal missions 
and to integrate existing federal and on-federal data into accessible 
and useable forms.
    To maintain a stable network of these regional systems we should 
support competitive regional network funding at $17million. The 
proposed cut to $14.52 million in the President's FY13 budget stands to 
threaten critical access to ocean data as well as observations and jobs 
that support ocean, coastal and Great Lakes economies.
    In my district, we benefit greatly from CARA, the Caribbean 
Regional Association and CariCOOS, the Caribbean Coastal Ocean 
Observing System. These partners come together to collect, integrate 
and disseminate data from deployed buoys to help support safe and 
efficient maritime operations. This information improves the accuracy 
of storm detection, protecting not only the U.S. Caribbean but the Gulf 
region as well.
    In addition, the NOAA Educational Partnership Program's Cooperative 
Science Centers provide mission-critical research and training in 
support of NOAA, the building of the Nation's technical workforce of 
the future and supports the President's Educate to Innovate initiative. 
It is undeniable that the production of the diverse group of STEM 
(Science, Technology, Engineering and Math) graduates is a boost to the 
economy and strengthens national security by enhancing domestic 
technical expertise. This important program has already lost one of its 
valuable centers--we cannot afford to lose any more. Therefore it is 
important to have the EPP budget maintained as a line item in the NOAA 
appropriation, keeping it consistent with the original language.
    I am here today not only as a colleague, but as the Chair of the 
CBC Health Braintrust and as a former health care provider who--as a 
family practice physician--sat on the front lines of health care for 
more than two decades. And so, I also want to address one of the most 
important aspects of our federal budget: the investments that will help 
reduce health disparities and achieve health equity.
    Today, we know more than ever before about what we need to do and 
the investments we need to make in order to preserve and improve the 
health and health care of all Americans. For example, we know that we 
need to strengthen the agencies and offices at the Department of Health 
and Human Services (HHS) because they are critical to our nation's 
health care system. That is exactly why I fully support this budget's 
overall increases to a number of HHS agencies and offices, such as the 
$654 million increase for the Food and Drug Administration; the $228 
million increase for the Health Resources and Services Administration; 
the $116 million increase for the Indian Health Service; the $39 
million increase for the Centers for Disease Control and Prevention; 
the $4 million increase the Agency for Healthcare Research and Quality; 
the $7 million increase for the Administration on Aging; and the $5 
million increase for the Office of the National HIT Coordinator.
    Each of these increases together will help bolster the Department's 
capacity and ability to implement vital provisions in the Affordable 
Care Act. Additionally, these increases will prove to be critical to 
efforts to improve health and bolster the quality of and access to 
health care for millions of hardworking Americans.
    But, the investments cannot stop there. Building and sustaining 
healthy communities and achieving health equity by eliminating health 
disparities requires an investment in so many other federal departments 
because there truly is a health policy in every policy; and every 
federal agency and office has a health impact. This idea is evidenced 
by the fact that your education level, your annual income, the type of 
housing you live in, the type of neighborhood in which you reside, and 
your employment status, directly affect your health and wellbeing.
    The good news is that in the President's FY 2013 budget proposal--
even during these times of budget constraints--there are aspects that 
demonstrate this Administration's awareness of this notion and their 
ongoing commitment to create and sustain healthy communities and 
achieve health equity by supporting programs and coordinating efforts 
that address various social determinants of health.
    That is why I fully support the $100 million for the HUD 
Sustainable Communities Initiative, which will help our nation's most 
vulnerable and unhealthy communities develop thoughtful transportation 
and housing plans that are affordable, environmentally conscious, less 
polluted and that make getting to and from work less cumbersome and 
dangerous for low-income Americans who do not own cars.
    That is why I support the $55 million that will be used to launch a 
new initiative to make the college dream a reality for racial and 
ethnic minority and low-income Americans, and the $285 million 
investment that this budget proposes to make in the multi-agency 
Healthy Food Financing Initiative.
    This Initiative coordinates efforts across the Department of Health 
and Human Services, the Department of Treasury and the Department of 
Agriculture to make reliable access to affordable healthy foods, as 
well as needed jobs and community investments a reality for millions of 
Americans who--because of their lower incomes and their communities' 
rural location and higher poverty levels--are at increased risk for 
obesity, food insecurity and unemployment.
    There are plenty of other examples of investments to address the 
social determinants of health that are peppered throughout this budget 
proposal. However, despite the elements of the FY 2013 that I fully 
support, there are aspects that I am extremely concerned about and thus 
offer this plea: that as we prepare to pass a 2013 budget, we should do 
so without undercutting and eliminating some of the programs and 
federal entities that are fundamental to current and future efforts to 
eliminate all health disparities and improve the health of all 
Americans.
    I understand that we are in a financially stringent time. And, on 
paper, cutting and eliminating costs--at first glance--may seem like a 
viable solution to our efforts to develop and pass a responsible 
budget. However, many of the proposed cuts and eliminations are those 
that we truly cannot afford because while we may be saving money today, 
we will pay tenfold--in higher health care costs and lower productivity 
due to illness and disability--tomorrow. And, there is nothing from a 
financial, social or medical perspective that makes good sense about 
that approach.
    I feel very strongly that we cannot allow several key offices and 
programs to be on the chopping block because doing so will put the 
health, health care and wellness of millions of racial and ethnic 
minority, low-income, rural and other vulnerable Americans in harm's 
way. And so, I stand in strong opposition to the following:
    <bullet> Cutting $15 million from the Office of Minority Health and 
I oppose continuing to underfund the National Institute for Minority 
Health and Health Disparities when this office and Institute are 
leading the national charge to eliminate racial and ethnic health 
disparities--the same disparities, by the way, that cost this nation 
hundreds of thousands of lives every year and roughly $1.24 trillion in 
total medical costs in three years.
    <bullet> Cutting $4 billion from the Prevention and Public Health 
Fund when we know that prevention saves lives and dollars.
    <bullet> Cutting $360 billion out of Medicare and Medicaid over the 
next decade. If we reduce funding to these programs, we will be cutting 
a literal lifeline for the nearly 60 million Americans, including 
working families, who are on Medicaid and for 49 million seniors and 
younger people with disabilities who are on Medicare. So, we will be 
cutting a lifeline that is vital to the health, health care, wellness 
and thus lives of our nation's most vulnerable residents. I 
particularly oppose any plan that would turn Medicare into a voucher 
program, shift costs onto the beneficiaries and weaken this program 
that so many depend on, including racial and ethnic minorities 
especially. I would oppose any plan to make Medicaid a block grant.
    <bullet> Cutting over $500 million from the health insurance 
programs that expand access to care for those with pre-existing 
conditions or those who participate in the early retiree reinsurance 
program, and I oppose cutting $28 million from the children's mental 
health grant.
    <bullet> I strongly oppose eliminating the Health Careers 
Opportunity Program especially at a time when we need more health 
providers and a more diverse workforce, the REACH Program that empowers 
communities to address their own health challenges, the Preventive 
Health and Health Services Block Grant, the Children's Hospital 
Graduate Medical Education Payment Program and any cuts to graduate 
medical education, and to the Community Services Block Grant. While 
their absence may save a few dollars today, we will pay millions or 
even billions for these bad financial decisions in the future.
    <bullet> Finally I oppose any budget amount that does not fully and 
robustly fund the AIDS Drug Assistance Program when we know that 
today's AIDS drugs are so advanced that treatment for HIV /AIDS not 
only saves lives and dollars, but treatment is now recognized as a key 
element of prevention.
    I know that any increases would be have offset elsewhere, but I 
would ask that you consider the issues of health and safety to be the 
highest priorities and consider the savings that funding the above 
programs would provide. Further, just as we are already seeing savings 
from the Affordable Care Act, there will be more that could not be 
scored under the present system and I would ask that this too be 
considered. There is substantial hard evidence upon which to base 
savings projections.
    Thank you for the opportunity to testify. You have a difficult job 
ahead, but I am confident that if we can work in a bipartisan matter 
and put the good of the country and our fellow Americans first we will 
have a good budget that will put our country on a strong footing for 
the future.

    Mr. Chaffetz. We thank the gentlewoman, and thank you for 
your testimony; we appreciate it. We now recognize the 
gentleman from Virginia for five minutes.

 STATEMENT OF HON. SCOTT RIGELL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Rigell. Thank you, Chairman Chaffetz and Ranking Member 
Ryan. Thank you very much for the opportunity to address the 
committee today.
    I am here with about 25 plus years of business experience 
and financial statements and preparing budgets, admittedly the 
budgets here have a lot more zeroes, but the principles of 
finance remain the same. There are two key points that I want 
to share with the committee this morning. The first is the 
severity of our fiscal situation, the risk that it poses to the 
Republic, and second, to address briefly the peril of 
sequestration. I will come to that in just a moment.
    Now, with respect to where we are, I often hear, as I 
suppose my colleagues do, that what is taking place here is not 
fair to our children and grandchildren. That does not, to me, 
capture the severity of our situation, nor does it capture the 
timeline that I think this nation will experience. Just a 
potentially catastrophic fiscal pressure, it is not simply our 
grandchildren or our children; it has to be moved up two 
generations to each one of us here today. It requires bold 
leadership on the part of this party, or this committee rather, 
and I am proud of the work that was done last year by this 
committee. I voted for a budget that, albeit over a 24 year 
period, it did bring America to a sense of fiscal discipline, 
and I hold this view that it truly is an egregious failure of 
leadership by the administration to not put forth a 
comprehensive plan that would set this country on a better 
fiscal path.
    The plan that was passed by the House, certainly, it could 
have been improved; I am sure of that, but if you put that plan 
right there and you ask where the administration's plan is, 
there is nothing there to compare it to, nothing comprehensive; 
and the president, in my view, has failed the American people 
in that respect.
    Expenses are the principle driver of our situation here, 
but also, and I will be one of the first Republicans I suppose, 
or among others, to say that revenues must increase. Revenues 
must increase and do that through that the growing of our 
economy, particularly energy independence. The bill that I have 
to move this forward, energy independence using coastal energy 
right off the coast of Virginia, I hope it moves forward. This 
represents a significant step and there are other bills in the 
Senate of the United States, that if passed, would help us grow 
our economy and increase tax revenues, which must be done.
    Another principal way that I think we could, in a wise way, 
increase revenue would be to strategically go in and eliminate 
what are clearly lobbyist-written, and lobbyist-inspired 
loopholes.
    Now, in the short time that I have left, I just want to 
point out to you as a member of the House Armed Services 
Committee, I have the great privilege of representing the good 
folks of the 2nd District of Virginia. What is coming at us in 
sequestration is nothing less than a violent, unwise, 
unconscionable sharp direction turn for the Department of 
Defense. They cannot possibly adjust to this level of a 
hatchet-type funding to the Department of Defense. The budget 
as it is, even though it has been tightened, I think the 
service chiefs can work through that; it reluctantly is 
something that I can work through, never fully accept but work 
through, but what is coming at us, and I trust that every 
member of the committee here today and really the entire House 
of Representatives would pause to fully understand the full 
ramifications of sequestration. It is not a wise path for this 
country, and I urge the committee members to oppose it, and to 
find alternatives to it.
    In closing Mr. Chairman, this is truly, without hyperbole, 
a defining moment in our country, we must make wise decisions, 
the window for doing this is running out. At some point, the 
borrower becomes the lender's slave. So I encourage my 
colleagues of both sides to be bold in your decisions, to be 
bold in the budget that you put forth for us to consider. The 
American people are ready, they are desperate for the truth, 
they are desperate for solutions, and they are ready for 
leadership, and with respect to the budget, that begins here. 
Thank you for the opportunity to testify today.
    [The prepared statement of Scott Rigell follows:]

    Prepared Statement of Hon. Scott E. Rigell, a Representative in 
                  Congress From the State of Virginia

    Chairman Ryan, Ranking Member Van Hollen and Members of the Budget 
Committee, thank you for allowing me the opportunity to share my 
thoughts on the FY13 Budget. Passage of this budget is essential to 
setting our Republic on a better fiscal path and ensuring American 
citizens that we are serious about getting the government's finances in 
order. America wants stability and security. The worst thing for 
America is a future of debt, doubt, and decline.
    First, please allow me to address debt. As I look at the numbers 
before us, the fiscal reality has set in that we are a nation at 
serious and alarming risk. Our debt has completely eclipsed our GDP, 
placing us in unwelcome company of the debt-ridden countries in the EU. 
And, in an egregious failure of judgment and leadership, President 
Obama is not sounding the fiscal alarm. His FY'13 budget has not shown 
the necessary leadership on this issue and continues to have us 
borrowing trillion dollars of new debt over the next decade, with no 
end in sight.
    As Members of the House Budget Committee, have the opportunity to 
lead on this issue and craft a budget that halts this out-of-control 
spending and gradually bring us back to sustainable levels that equal 
the revenues coming in. I ask that you bring a budget to the House 
floor that does not just lower spending this year, but also provides a 
clear and definitive path going forward to balance the budget and pay 
down the debt. I am willing to look at all options and bring everything 
to the table to get our debt under control.
    Now, I would like to address doubt. American entrepreneurs, the 
greatest job-creating force in America, are ready to create jobs now. 
Yet, the regulatory environment has put that effort on hold. We must 
work to eliminate unnecessary, burdensome regulations.
    We have within our grasp an incredible opportunity to boldly 
address two of America's greatest challenges: energy security and 
unemployment. These two issues are inextricably linked. We can no 
longer tolerate a stagnant, slow-growth economy saddled with historic 
unemployment rates and a dangerous dependence on foreign oil. The 
answer to these problem is energy--specifically, American energy. The 
President has called for an all-of-the-above strategy to energy 
independence. I agree! This means that we must move forward with the 
Keystone XL pipeline and harvesting the resources off our coasts.
    Finally, and in my mind most importantly, I would like to address 
decline. Because of Sequestration, our military stands at the precipice 
of an incredible decline in its ability to protect our Republic. As 
Secretary of Defense Leon Panetta recently said: ``Facing such large 
reductions, we would have to reduce the size of the military sharply. 
Rough estimates suggest after ten years of these cuts, we would have 
the smallest ground force since 1940, the smallest number of ships 
since 1915, and the smallest Air Force in its history.''
    Jobs are being lost today. While some Members of Congress may 
believe that Sequestration will have no real impact until next year, I 
have news for them. Employers in their districts are laying off 
employees now in anticipation of the cuts next January. Under 
Sequestration, every budget line must be slashed 8-10% beyond the $465 
billion announced by the President in his new defense strategy. This 
means the effective cancellation of every contract your district 
employers have with the Department of Defense.
    In my district, I have yet to meet with a single business that will 
not be negatively impacted. Some businesses have informed me that they 
are filling out pink slips now. This is not necessarily based on the 
discretionary budget caps implemented by the Budget Control Act, but 
the $55 billion cut to the Defense budget effective January 1, 2013.
    The Constitution is clear that Congress' primary obligation is 
defend our nation. The Department of Defense budget represents just 19% 
of total government spending and is yet bearing half the reductions in 
Sequestration. Chairman McKeon has introduced H.R. 3662, legislation 
that would pay for the first year of Sequestration--deferring the 
disastrous impacts on the military and creating more time to reach a 
negotiated deal to find the remaining savings mandated by the Budget 
Control Act. I implore you to stop Sequestration now.

    Mr. Chaffetz. Thank you for your testimony today, we 
appreciate it. The gentleman yields back, we will take a pause 
now as we bring up the members of the next panel. Again, thank 
you for your testimony today, and if members of the next panel 
could make their way to the microphones, we would appreciate 
it. As members are making their way, let me just make comment 
that we would ask members to keep their verbal comments to five 
minutes. Any additional written materials we will, obviously, 
submit into the record. We would also let you know that at the 
conclusion of your testimony we do not anticipate any further 
interaction, and so in the essence of time we would invite you 
to depart if you so choose with no reservation.
    We will start now by recognizing the gentlewoman from 
California, Ms. Richardson, for five minutes.

    STATEMENT OF HON. LAURA RICHARDSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Richardson. Thank you, Mr. Chaffetz and Mr. Ryan, in 
acknowledging in their absence, Chairman Ryan and Ranking 
Member Van Hollen, and other members of the Budget Committee. 
Thank you for convening this hearing and allowing us, as 
members, an opportunity to share with you our thoughts on the 
budget priorities for fiscal year 2013.
    This morning, I will briefly highlight parts of the federal 
budget that are most important to me and my constituents. I 
realize this committee has a daunting task of crafting a budget 
resolution that expresses the values and reflects the character 
of our country. The budget must serve all Americans, yet the 
committee is tasked with the difficult responsibility of 
minimizing our debt so that we can ensure that our children 
have the same opportunity to live the American dream. I am here 
to speak on behalf of the people I represent, the hard-working 
individuals in the 37th congressional district which is a very 
diverse district, but yet is facing a stalled economy with 
unemployment ranging anywhere between 13 and 25 percent. My 
budget priorities are as follows.
    First of all, I serve on the Committee of Transportation 
and Infrastructure, and therefore, I strongly support the 
president's budget proposal to increase the full year 2012 
levels in overall funding for transportation, including the six 
year multi-funded surface transportation bill.
    Second of all, in terms of older Americans, although the 
president has requested level funding for the program on full 
year 2012, it makes no progress in restoring the 45 percent cut 
that was made in 2011 from the 2010 enacted level, and I would 
suggest that you look at that section as well.
    Priority number three: housing. I strongly oppose the 
president's decision of looking at the reduction of community 
development block grant funding, an 11.6 percent reduction from 
full year 2011. CDBG funds work; I served in the local 
government, city council, for six years prior to coming here to 
Congress, and clearly that has already taken a burden, states 
have taken burdens, and for us to not have that as an 
opportunity to work is a huge detriment in my community.
    I do, however, support the president's request for $475 
million in funding in the Section 202 housing for the elderly. 
This is a 26.7 percent increase and I have found this program 
to be extremely effective.
    Priority number four: education. Nothing is more crucial to 
our nation's long term future than an educated citizenry, and 
so when you consider that the president's budget request of 2.5 
percent increase, I do support. I further support the career 
and technical education program, which the president has 
proposed $1.1 billion level funding in full year 2013 budget.
    Finally, I want to talk about Title I funding, specifically 
regarding education. This has been cut in years past, and I 
would support an increase to the tune of 3 to 5 percent to 
assist the children who are in poverty, who are having a 
difficult time and need these special programs to be able to 
advance.
    My fifth priority is homeland security. I serve on the 
Homeland Security Committee and therefore I am deeply troubled, 
living in a port community where we bring 40 to 45 percent of 
the entire nation's cargo goes through my district. So to see a 
proposed cut of $93 million, that is 58 percent, I believe is 
derelict of our duties.
    I am also troubled by the president's proposal to cut 8 
percent of the FEMA grants, and however, I do support an 
increase in the fire station construction grant program.
    Last two sections, my priority number seven is the Army 
Corps of Engineers. I note that I am very disappointed in the 
president's budget that does not provide funding for the 
continuing authority projects, which is also known by CAPS for 
the Army Corps of Engineers. Further, under Section 103 of the 
Water Resources Development Act, WRDA, I am concerned of having 
adequate funding in that program and believe it should be more 
at the level of $25 million.
    Finally, within the Army Corps of Engineers, I think we 
have to seriously look at Section 22, also WRDA, that was 
authorized in 1974. The president allocates $4 million; 
however, given our aging infrastructure, this should be at a 
minimum at $10 million to minimize future disasters.
    I applaud the president's efforts of my eighth priority, 
which is with the Native Americans. The international affairs, 
which is my ninth priority, the 1.6 percent increase which I do 
support.
    My 10th and final priority is high speed rail. In 
California, I serve as the co chair of the California high 
speed rail caucus, and applaud the president's efforts there.
    Finally, let me say that while the budget is a record of 
expenditures, outlays, and revenue receipts, it is much more 
than that. It is an expression of our commitment to the 
American public, and a contract that we cannot deny. I applaud 
your work serving on this committee and hope that you will take 
my priorities into consideration. Thank you for your attention.
    [The prepared statement of Laura Richardson follows:]

   Prepared Statement of Hon. Laura Richardson, a Representative in 
                 Congress From the State of California

    Chairman Ryan, Ranking Member Van Hollen, and Members of the Budget 
Committee: Thank you for convening this hearing and allowing me and our 
colleagues the opportunity to share with the Committee our budgetary 
priorities for Fiscal Year 2013. I ask that my entire statement be 
included in the record of this hearing.
    Coming as we do from all regions of the country and both sides of 
the aisle, the testimony you hear today is a fair reflection of the 
collective hopes and dreams of the American people. This Committee has 
the daunting task of crafting a budget resolution that expresses the 
values and reflects the character of our country.
    I am here to speak for the people I represent, the hard-working and 
hard pressed men, women, children, and businesses of the 37th 
Congressional District of California.
    Mr. Chairman, my state and my district have experienced, and still 
are going through, the toughest economic times in recent memory. The 
unemployment rate in California still hovers around 11 percent, but in 
some areas of my district, like Compton, it is closer to 20 percent. 
The foreclosure rate for California (1/265) is more than twice the 
national average (1/624). In the City of Compton, the foreclosure rate 
is over 4 times the national average (1/161).
    The budget priorities that I will outline today are what I believe 
is needed to restore the American dream for the millions of Americans 
who have been most affected by the difficult economic environment that 
we are just starting to overcome. These priorities will set America on 
a path toward fiscal responsibility, economic growth and prosperity, 
and will provide us with needed investments that will pave the way to 
the future.
                    priority #1: jobs for americans
    As we consider our budget priorities for FY 2013, we must enact a 
budget that will reflect the need to create jobs and invest in our 
future prosperity. Although we have been encouraged by signs that the 
economy is recovering, we can't make reckless cuts at the expense of 
our ongoing recovery. Instead, we must take a prudent approach to 
addressing the deficit, making targeted cuts in some areas and targeted 
investments in others. We need to ensure that every American who is 
willing to work to get ahead has the opportunity to do so. That is why 
creating jobs--good paying jobs with benefits to sustain families--must 
be our central objective.
    The fiscal challenges that our nation currently faces are real and 
must be addressed with an honest dialogue between members on both sides 
of the aisle. We need to create a budget resolution that makes smart 
investments in job creating programs and projects that will put 
Americans back to work. At the same time, we must make an effort to 
rein in spending on programs that are not producing adequate results. 
Making these targeted cuts will help put us down a sustainable fiscal 
path, while maintaining support for programs that are proven to help 
the American people succeed.
    An initiative that I believe will help reduce the deficit, and rein 
in unnecessary spending is a bill that I introduced in the last 
congress entitled ``The Cost Recovery and Fair Value for Services 
Act.''
                     priority #2: cost recovery act
    The Federal government has an obligation to the American people to 
be stewards of their hard-earned taxpayer dollars by operating in an 
efficient manner. There are hundreds of federal agencies in the 
executive branch offering an array of services and programs. It is 
critical, especially in times when the national debt is high, for these 
agencies to ensure that the services and programs they offer are self-
financed to the greatest extent possible.
    The Cost Recovery and Fair Value for Services Act that I will soon 
reintroduce will help meet this obligation by ensuring that the federal 
agencies set their user fees for services provided at rates that are 
both equitable and cost-effective. By setting appropriate user fee 
rates, agencies can contribute to the shared fiscal responsibility that 
our current economic situation demands without overburdening the public 
or inhibiting public engagement.
    Specifically, the Cost Recovery and Fair Value for Services Act 
requires the chief financial officer of every federal agency to provide 
a report to the Director of the Office of Management and Budget 
reviewing fees charged for services provided. The report will contain 
recommendations on possible adjustments to those fees rates taking into 
account the following factors:
    1. The extent to which the fee will cover the agency's cost for 
providing that service;
    2. The extent to which each user is paying an equitable amount 
considering that user's ability to pay; and
    3. The extent to which the use of the service provides a public 
benefit.
                  priority #3: help for small business
    As a member who spent 14 years working in the business world before 
coming to Congress, I understand that small business is the backbone of 
our economy. The 26.8 million small businesses in the United States 
represent more than 99.7 percent of all employers, employ just over 
half of all private sector employees, and generated 64 percent of the 
net new jobs created since 1995.
    Clearly, if we are to grow our way out of this economic mess, small 
business is going to help lead the way. I therefore support the 
President's request to provide small businesses with access to the 
credit needed to expand and create new jobs.
    As a New Democrat and a former business owner, I am a strong 
proponent of fiscal responsibility and deficit reduction. We have 
already helped companies deemed ``too big to fail.'' Now it is time to 
provide help for small business so that they do not remain ``too small 
to succeed.''
                         priority #4: education
    We have a responsibility to provide Americans with the skills and 
opportunities they need to be successful in the global marketplace. 
Pursuant to the request of President Obama to out-educate, out-
innovate, and out-compete the rest of the world, it is important that 
Congress make key investments in education and job training programs 
that are essential to the future health of our economy.
    Nothing is more crucial to our nation's long-term future than an 
educated citizenry. That is why I am pleased that the President's 
budget requests $69.8 billion in funding for the Department of 
Education for FY 2013, a 2.5% increase over FY 2012 enacted levels. I 
also support the President's budget proposal because it safeguards 
increases in major K-12 education programs to ensure that our children 
receive a quality education that will enable them to compete in the 
global economy. Investing in our nation's future through public 
education will help to ensure long-term economic growth and prosperity 
for our nation by creating a more educated and higher earning 
workforce.
    As a strong supporter of the Career and Technical Education 
program, I support the President's proposed $1.1 billion level funding 
in the FY 2013 budget. These grants provide a needed service to those 
in disadvantaged communities to develop hands-on, career-oriented 
postsecondary training. At a time when unemployment rates are high, it 
is important that we sustain adequate funding for programs that help 
individuals gain skills that will make them more competitive in the job 
market. The President's $1.1 billion budget request for the Perkins Act 
in FY 2013 provides a solid foundation for preparing participants in 
vocational training programs for careers in a wide array of industries.
    However, I would like to point out a few areas of the President's 
education budget that can be improved:
    First, we need to make sure that Title I funding is being allocated 
to the schools and the children who need it the most. Child poverty is 
on the rise, and it is our responsibility to ensure that children who 
come from disadvantaged families have the same opportunities as their 
peers whose parents belong to a different socioeconomic background. In 
2010, research shows that over 20 percent of children lived in poverty. 
That is clearly unacceptable and targeted investments in Title I 
funding to schools in economically disadvantaged neighborhoods will 
provide the foundation needed for these children to succeed. That is 
why I support a 10% increase in funding for the Title I program over FY 
2010 enacted levels.
    Second, while I am generally supportive of the Administration's 
focus on ensuring that competitive grant programs provide an important 
incentive for our nation's public schools to improve curriculum and 
overall student performance, we need to ensure that the Administration 
balances its emphasis on competitive grant programs with formula grant 
programs that provide funding to schools that need it the most.
    These formula-based grant programs are essential to schools in 
urban areas that are already facing stark fiscal realities. During 
these tough economic times we cannot rely solely on competitive-based 
grants, but need to ensure that federal funds are being allocated in a 
manner that reflects the needs of underperforming schools.
    Third, the President's budget proposal provides a modest increase 
in funding for the IDEA special education program, but funding levels 
remain inadequate. I would like to see an 8% increase in funding for 
IDEA over FY 2010 levels. This will bring the federal share of the 
program back to the 2006 level of 17.6%.
    The modest increases in funding do not go far enough to ensure that 
every child who suffers from a disability that requires special 
accommodation will have access to an education. Failing to provide 
grants to states at necessary levels will prove detrimental to the 
overall health of special education programs across the country.
                      priority #5: older americans
    When older Americans, those 50 and older, lose their jobs, they 
remain unemployed for much longer periods than younger counterparts. 
Many get discouraged and leave the labor market altogether. If they are 
fortunate enough to secure a replacement full-time job, invariably the 
pay is less, the hours are fewer, and the benefits are minimal or non-
existent.
    One way to provide targeted and immediate relief for jobless older 
Americans is to fully fund the Senior Community Service Employment 
Program. Although the President has requested level funding for this 
program in FY 2012, it makes no progress in restoring the 45 percent 
cut made in FY2011 from FY 2010 enacted levels. In FY 2010 this program 
was funded at a level of $825 million, a significant increase in 
funding from past years. However, the President's budget proposal cut 
funds for this program nearly in half and significantly impacted low-
income senior citizens' ability to find work. I strongly urge that 
funding for this vital program be maintained at not less than $700 
million for the next five years. And I will soon reintroduce 
legislation that will make this program more accessible by lowering age 
and income eligibility requirements.
              priority #6: transportation & infrastructure
    When it comes to creating jobs, there is no more effective means 
than investing in infrastructure. It has been demonstrated time and 
again that for every dollar invested in infrastructure, at least $1.63 
is economic activity is generated.
    Our most recent example of effective investment in infrastructure 
is the Recovery Act, which thus far has created nearly one million jobs 
over the first year of investment while at the same time improving the 
lives of virtually every American who can enjoy the roads, bridges, and 
transit systems that were built or improved through this funding.
    I come from the district that embodies the nation's transportation 
needs, with the largest ports in the country, three airports, major 
freight rail lines, and 40% of the nation's goods moving along our 
rails and four major interstate highways. And as a member of the 
Transportation & Infrastructure Committee, I understand how sound 
transportation and infrastructure investments will make our nation 
globally competitive and enhance the quality of life in our 
communities.
    The President's budget proposes a 2% increase above FY 2012 levels 
in overall funding for transportation and infrastructure. This increase 
also includes a $476 billion six-year surface transportation 
reauthorization proposal that will provide a $50 billion ``up-front'' 
investment to be distributed in the first year to spur job creation and 
economic growth. This proposal is fully paid for. These investments 
will be paid for with the savings achieved from ramping down overseas 
military operations by redirecting these resources to build America's 
transportation infrastructure.
    Passing a surface transportation reauthorization bill that provides 
funding for projects that are critical to national greatness needs to 
be a top priority of this Congress. One such project is the Gerald 
Desmond Bridge located in Long Beach, California. The Desmond Bridge 
may not be as famous or glamorous as the Golden Gate or the Verrazano, 
but it carries a larger percentage of the nation's cargo--10 percent--
than any other bridge.
    That is why it is so shocking and short-sighted that we have not 
rebuilt this 40 year-old bridge, which is now reduced to wearing a 
``diaper'' to catch the concrete and debris that falls daily from its 
underside. It is imperative that programs such as the Projects of 
National Significance and the Freight Improvement Program receive ample 
funding so essential projects like the rebuilding the Desmond Bridge 
can be completed.
    I have recently introduced H.R. 1122, the Freight FOCUS Act to 
establish an office of Freight Planning in the Department of 
Transportation that will be responsible for freight planning and 
creating a merit based, competitive grant program. This bill provides 
for public and private sector involvement in the process, and 
prioritizes major goods movement corridors and projects to alleviate 
choke points. This comprehensive national freight policy will 
facilitate the movement of goods across the country and will also help 
the American economy grow.
    Investing in our freight infrastructure is vital to the creation of 
jobs in the manufacturing industry and will allow us to boost exports. 
I am pleased to report that my legislation enjoys the support of 
industry and key stakeholders, which is willing to accept a 12 cent 
increase in the diesel fuel tax paid by trucks to raise revenue for the 
creation of new freight infrastructure projects. The bill also creates 
a Goods Movement Trust Fund, which would be dedicated to funding such 
projects, and contains safeguards to ensure that funding generated from 
a specific mode is used for projects benefitting that mode.
    When it comes to transportation funding, we must also be forward-
thinking and pro-active to position our country to compete and win in 
the global economy. In 2012 alone, the Department of Transportation 
received over 1,000 applications requesting a total of nearly $14.2 
billion in transportation projects. Clearly, there is a significant 
need for increased investment in our nation's infrastructure.
    Nowhere is this more important than in the area of high-speed rail. 
As the founding co-chair of the California High-Speed Rail Caucus, I 
applaud the President for requesting $2.5 billion in FY13 and an 
additional $4 billion within the upfront $50 billion investment to 
invest in the construction of a national high-speed rail network.
    I support the President's vision to create a nationwide high speed 
rail network that includes investing over $47 billion over the next six 
years. It will cost about $98 billion alone to bring high-speed rail to 
California. But with it will come a revolution in travel and a model 
for the rest of the country. The benefits include a cleaner and quieter 
environment, reduced traffic congestion, and hundreds of thousands of 
new jobs in California to build the line. High-speed rail is the wave 
of the future and we must make a real commitment to it to remain 
competitive.
                          priority #7: housing
    The need for housing and redevelopment assistance is great in my 
district, my state, and across the nation. California ranks second in 
the nation, trailing only Nevada, in the rate of housing foreclosures. 
Therefore, I strongly oppose the President's decision to continue 
funding the Community Development Block Grant at FY 2012 levels--an 
11.6% reduction from FY 2011 enacted levels.
    Maintaining funding at FY 2012 levels would have a devastating 
impact on communities all across America, including my district, and 
hinder our ability to continue doing our part in aiding the Nation's 
economic recovery. CDBG works. In Los Angeles County, for example, CDBG 
funding has provided a direct benefit to low- and moderate-income 
residents and their neighborhoods, something that simply would not have 
been possible without this federal-local partnership.
    I support the President's decision to request $475 million in 
funding for the Section 202 Housing for the Elderly program--a 26.7% 
increase over FY 2012 enacted levels. However, I strongly disagree with 
the President's decision to cut $150 million from the Section 811 
Housing for Persons with Disabilities Program, which funds the new 
construction of housing for those groups--this represents a 50% 
reduction in funding for the program from FY 2010. Our seniors and the 
disabled are among the most vulnerable populations in society and we 
cannot neglect their housing needs.
                     priority #8: homeland security
    I am the Ranking Member of the Homeland Security Emergency 
Preparedness, Response and Communications Subcommittee. In addition, my 
district is home to many high-value terrorist targets, such as the Port 
of Long Beach.
    I am therefore deeply troubled by the proposed cut of $681 million 
below the Fiscal Year 2o12 level.
    I support the President's proposal for increasing the Disaster 
Relief Fund in FY 2013 by $6.08 billion.
    With the recent tornadoes in the Midwest it appears that FEMA will 
have another busy year responding to disasters. While I hope that this 
funding level is sufficient to cover the damage caused by natural 
disasters this year, I feel that any supplemental requests that may be 
needed to fund the Disaster Relief Fund not be subject to debates about 
budget offsets.
    My major concern with the President's Fiscal Year 2013 Budget is 
the proposal to consolidate 16 Department of Homeland Security programs 
into a single National Preparedness Grant Program.
    I am particularly concerned the critical grant programs for my 
district, such as the Urban Area Security Initiative and the Port 
Security Grant Program will have to compete for funding with other 
programs and other regions in the country.
    The Urban Area Security Initiative provides funding for equipment, 
training, law enforcement personnel, and planning for high-density 
urban areas that are at a high-risk of a terrorist attack.
    The Port Security Grant Program provides port authorities and other 
entities critical funds to protect our nation's ports. Port Security 
Grant Program funds are used to further a port's ability to prevent, 
detect, respond, and recover for improvised explosive devices and other 
non-conventional weapons.
    I asked DHS officials who testified before the Homeland Security 
Committee about how they will prioritize funding under the new National 
Preparedness Grant Program.
    DHS administrators mentioned on record that they would be 
prioritizing funding decisions by risk level by region. They were not 
able confirm that regions like Long Beach and Los Angeles that has 
multiple attractive terrorist targets, such as ports, mass transit, and 
airports will not have to compete with each other and other California 
cities for funding.
    The President's FY 2013 Budget also directs National Preparedness 
Grant Program funds to the states. The state then allocates the funds 
to the local municipalities.
    This could cause reduced and delayed funding to our high-risk 
cities. I have talked to port authority officials in Long Beach and Los 
Angeles and they have expressed their concerns about this change in 
fund allocation.
    We need to continue to stay vigilant against terrorists that want 
to do our country harm. We need to continue to adequately fund the 
programs that have kept our country safe.
    Now is not the time to be cutting back funding for law enforcement, 
first responders, and community preparedness.
                     priority #9: native americans
    Perhaps nowhere is the need more urgent than in Indian Country, 
which is grappling with an average unemployment rate of 22 percent, 
which is higher than any state. Addressing the disparities in health 
care, education, housing, and crime in Indian Country also remains a 
challenge. I therefore am pleased that the President's budget requests 
a 2.7% increase for the Indian Health Service, an increase of $116 
million over the FY 2012 enacted level. I am also pleased that the 
FY2013 request for Indian Affairs focuses on core programs and services 
that are vital to Indian country, such as the $345 million for public 
safety initiatives in Indian Country.
                  priority #10: international affairs
    Finally, I wish to briefly address the Function 150--International 
Affairs budget and say that I strongly support the President's request 
for $51.6 billion, a 1.6 percent increase over the current funding 
level.
    Although America's domestic needs are great, it is in our interest 
and consistent with our tradition and character to be engaged in the 
world. Whether it is providing diplomatic, development, peacekeeping, 
security, and humanitarian assistance, or combating human trafficking 
and modern day slavery, American leadership and involvement is 
indispensable.
    The diplomatic role of the United States in the international 
system cannot be understated. By supporting economic development, human 
rights, and democracy throughout the world, the International Affairs 
Budget is a bargain and one of the best investments we can make.
                               conclusion
    In conclusion, let me say that while a budget is a record of 
expenditures, outlays, and revenue receipts, it is much more than that. 
It is an expression of our most cherished values, a reflection our 
character, and the fulfillment of the social contract among 
generations, tying the present to the past and future. In a budget we 
commit ourselves to the actions needed to keep faith with our 
obligation to our forefathers and to generations unborn to do all we 
can to make this a more perfect union. It is in that spirit that I have 
suggested the priorities outlined above.
    Thank you for listening.

    Mr. Chaffetz. Thank you, I appreciate your testimony. The 
chair wants to give notice that it is the intention to hear 
testimony from the next two members, and then we will likely go 
into recess as there will be a vote on the floor. So with that, 
you can please keep your comments to five minutes. We will 
recognize the gentleman from Illinois, Mr. Hultgren, for five 
minutes.

STATEMENT OF HON. RANDY HULTGREN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Hultgren. Mr. Chairman and members of the committee, it 
is a privilege today to share with you my thoughts on the 
president's fiscal 2013 budget request. It comes as no surprise 
to anyone that, certainly, to none of the members of this 
committee that we must aggressively cut spending, reduce 
government liabilities, and prioritize our needs. We must do 
that, we must do it well, and we must do it immediately, but I 
what I want to talk to you about today is something I think we 
conservatives needs to address more frequently: Our national 
investment in American scientific enterprise. While the 
science, space, and technology committee is only one of my 
three committee assignments, I am proud of the role I have 
played in strengthening our investment in fundamental science 
research and strengthening NASA. I am proud because I truly 
believe the story of American exceptionalism is a story of our 
investments in basic research and exploration, and I do not 
believe that the president's budget takes us there. In fact, I 
believe it undercuts that investment.
    First, with regard to NASA, the president has decimated our 
Mars exploration budget, canceled our plans to return to space 
exploration, and left us entirely dependent on the Russians 
with no contingency plan, and that is just his proposal for 
NASA. His proposal for fundamental science research in our 
national labs is even worse.
    Now, for the sake of full disclosure, I do have a national 
lab in my district, Fermi National Accelerator Laboratory, and 
the president has proposed nearly a 10 percent cut to 
Fermilab's budget. Fermilab is our nation's only single-purpose 
high energy physics lab, and I view the president's request as 
a slap in the face of Fermi's legacy of scientific achievement. 
Moreover, it is not as if the president is proposing to cut 
spending across the board and science and NASA happens to be a 
casualty, no. The president is still trying to grow government, 
increase spending, by hundreds of billions of dollars. He just 
happens to be proposing cuts to one of the few productive areas 
of government to pay for some of his expansion, and that is 
shameful. It is shameful because high energy physics and our 
broader scientific portfolio go beyond parochial interest in 
local politics. These endeavors are inextricably linked to both 
our national success and fundamentally, our national character.
    Unfortunately, in addition to the president proposing cuts 
to high energy physics in Fermilab, he has also shown lukewarm 
support for the Department of Energy's Office of Science, all 
the while his political pet projects like Solyndra-style green 
energy gambles receive 30 percent increases; and it is on this 
point that I think a constituent physicist of mine phrased it 
best: ``Science is divided into Edisonian, the research that 
leads to light bulbs and other tangible inventions, and 
Einsteinian science, that not only seeks answers to questions 
about the nature of our world, but also provokes new 
questions.'' American free enterprise and the private sector do 
an outstanding job of the Edisonian science, and our national 
labs have done an incredible job of the fundamental Einsteinian 
science. However, the president's budget sacrifices Einsteinian 
science at the political alter of trying to compete with the 
private sector and pick market winners.
    Mr. Chairman, science requires a certain infrastructure, 
and the president's budget undermines the core parts of this 
infrastructure, a part of the infrastructure that drives long-
term economic growth and innovation. It is no accident that our 
investment in these various NASA and science endeavors in the 
1960s and 1970s led to that generation of adolescents creating 
companies like Microsoft, Apple, and Amazon in their adult 
years. I fear our short-sightedness now will cost us the 
leading companies of the future.
    The U.S. research system is unique; we found an incredibly 
powerful combination wedding education and research by 
incorporating universities, user facilities, and Department of 
Energy resources. With a pedigree spanning over half a century, 
it is self evident that this basic research drives our 
understanding of the universe and our economic growth. These 
are new ideas and new innovations that spawn new products, new 
services, new companies, and new industries, but this system is 
only as stable as our commitment to it, which is why sustained 
and predictable research funding is crucial. The 2007 
reorganization under America Competes was a good first step, 
but Congress must redouble its effort to provide a clear, 
predictable, long-term path mapping out the seriousness of our 
investment. The president's budget represents a backward trend 
in these fronts.
    With growing competition from overseas and economic 
uncertainty here at home, it is more important than ever that 
we reinforce our national commitment to basic research, our 
long-term success in economic innovation, problem-solving and 
inspiring future generations of Americans depends on it. Europe 
now leads in physics, China leads in solar technology, India 
leads in job creation, and we rely 100 percent on the Russians 
to get us into space. To say this concerns me is an 
understatement. I believe the seed corn for turning all of this 
around is our investment in both basic research and NASA's 
exploration. The president's budget request, however, undercuts 
both of these activities by serving up our seed corn to his 
political base. This is a recipe for failing our future, and we 
must not let it happen. Thank you, and I yield back.
    [The prepared statement of Randy Hultgren follows:]

  Prepared Statement of Hon. Randall M. Hultgren, a Representative in 
                  Congress From the State of Illinois

    Mr. Chairman and Members of the Committee, it is my privilege today 
to share with you my thoughts on the President's Fiscal Year 2013 
budget request.
    It comes as no surprise to anybody--and certainly to none of the 
members of this committee--that we must aggressively cut spending, 
reduce government liabilities, and prioritize our needs. We must do 
that, we must do it well, and we must do it immediately.
    But what I want to talk about to you today is something I think we 
Conservatives need to address more frequently; our national investment 
in the American scientific enterprise. While the Science, Space and 
Technology Committee is only one of my three committee assignments, I 
am proud of the role I have played in strengthening our investment in 
fundamental science research and strengthening NASA.
    I'm proud because I truly believe the story of American 
exceptionalism is a story of our investments in basic research and 
exploration. And I do not believe that the President's budget takes us 
there; in fact, I believe it undercuts that investment.
    First, with regard to NASA, the President has decimated our Mars 
exploration budget, cancelled our plans to return to space exploration, 
and left us entirely dependent on the Russians with no contingency 
plans. And that is just his proposal for NASA; his proposal for 
fundamental science research and our national labs is even worse.
    Now, for the sake of full disclosure, I do have a national lab in 
my district, Fermi National Accelerator Laboratory, and the President 
has proposed a nearly 10% cut to Fermilab's budget. Fermilab is our 
nation's only single purpose high energy physics lab, and I view the 
President's request as a slap in the face to Fermi's legacy of 
scientific achievement.
    Moreover, it's not as if the President is proposing to cut spending 
across the board and science and NASA happen to be a casualty; no. The 
President is still trying to grow government and increase spending by 
hundreds of billions of dollars; he just happens to be proposing cuts 
to one of the few productive areas of government to pay for some of his 
expansion. And that is shameful.
    And it's shameful because High Energy Physics and our broader 
scientific portfolio go beyond parochial interests and local politics; 
these endeavors are inextricably linked to both our national success 
and, fundamentally, our national character. Unfortunately, in addition 
to the President proposing cuts to High Energy Physics and Fermilab, 
he's also shown lukewarm support for the Department of Energy's Office 
of Science, all while his political pet projects like Solyndra style 
green energy gambles receive 30% increases.
    And it's on this point that I think a constituent physicist of mine 
phrased it best: science is divided into ``Edisonian'' science--the 
research that leads to light bulbs and other tangible inventions--and 
``Einsteinian'' science that not only seeks answers to questions about 
the nature of our world, but also provokes new questions.
    American free enterprise and the private sector do an outstanding 
job of the Edisonian science, and our national labs have done an 
incredible job of the fundamental Einsteinian science. However, the 
President's budget sacrifices ``Einsteinian'' science at the political 
alter of trying to compete with the private sector and pick market 
winners.
    Mr. Chairman, science requires a certain infrastructure. And the 
President's budget undermines the core part of this infrastructure; a 
part of the infrastructure that drives long-term economic growth and 
innovation. It is no accident that our investments in these various 
NASA and science endeavors in the 60s and 70s lead to that generation 
of adolescents creating companies like Microsoft, Apple and Amazon in 
their adult years. I fear our short sightedness now will cost us the 
leading companies of the future.
    The U.S. research system is unique. We've found an incredibly 
powerful combination, wedding education and research by incorporating 
universities, user facilities and Department of Energy resources. With 
a pedigree spanning over half a century, it is self-evident that this 
basic research drives our understanding of the universe and our 
economic growth. These are new ideas and new innovations that spawn new 
products, new services, new companies and new industries.
    But this system is only as stable as our commitment to it, which is 
why sustained and predictable research funding is crucial. The 2007 
reorganization under America COMPETES was a good first step, but 
Congress must redouble its efforts to provide a clear, predictable, 
long-term path mapping out the seriousness of our investment. The 
President's budget represents a backward trend in this front.
    With growing competition from overseas and economic uncertainty 
here at home, it is more important than ever that we reinforce our 
national commitment to basic research. Our long-term success in 
economic innovation, problem-solving, and inspiring future generations 
of Americans depends on it.
    Europe now leads us in physics, China leads us in solar technology, 
India leads us in job creation, and we rely 100% on the Russians to get 
us into space. To say this concerns me is an understatement. I believe 
the seed corn for turning all of this around is our investment in both 
basic research and NASA's exploration. The President's budget request, 
however, undercuts both of those activities.

    Mr. Chaffetz. Thank you. I am actually going to yield to 
the gentleman from Ohio.
    Mr. Ryan of Ohio. I just want to thank the gentleman 
because one of the issues we have in this committee that the 
chair and myself have had discussions on, and I try to mention, 
when I can, is a national narrative that there is not anything 
that we can invest in that is necessarily a good thing. So I 
think it is important, and I agree with most of what you said, 
about how important these investments are in the basic research 
and how the private sector can come in and walk through the 
garden of research that we do here and fund here, and it helps 
them grow and expand.
    So I appreciate what you are talking about, and maybe we 
can work together to try to get some funding for that 
particular project, and maybe other research grants and 
formulas and everything else that may get whacked here in the 
next few months, so I appreciate what you are saying.
    Mr. Hultgren. Thank you very much, and I will reach out to 
you and see if there is a way that we can work together on 
this.
    Mr. Ryan of Ohio. Great.
    Mr. Hultgren. Thank you chairman.
    Mr. Chaffetz. Thank you, and thank you for your time. 
Despite my comments earlier that the House floor now appears to 
be in recess until approximately 11:45, so we will continue to 
get as much testimony in as we can prior to an anticipated vote 
in the range of 11:45. With that, we will recognize the 
gentleman from New York, Mr. Owens, for five minutes.

STATEMENT OF HON. BILL OWENS, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Owens. Thank you, Mr. Chairman and other members of the 
committee who are with us today. I appreciate the opportunity 
to address the committee. I appreciate the difficult budget 
environment this committee faces, and I am grateful for the 
opportunity to speak about an issue that is critically 
important, not only to my constituents, but also to this 
nation's economic future.
    On February 4, 2011, the president and Prime Minister 
Harper of Canada announced, Beyond the Border, a shared vision 
for perimeter security and economic competitiveness. This 
agreement institutionalizes programs that will, in fact, make 
our northern border more secure, and at the same time, allow 
for the rapid movement of people and goods.
    The U.S.-Canada trade relationship represents over $250 
billion of direct investment by each country in the other, and 
bilateral trade of nearly $700 billion a year in goods and 
services. Nearly $1 million in goods and services crosses the 
U.S.-Canadian border every minute, as well as 300,000 people 
every day. This trade relationship sustains a total of more 
than 100,000 jobs in the chairman and ranking member's 
congressional districts alone. My congressional district in New 
York has 13 ports of entry and border crossings. In fiscal year 
2011, these border crossings processed more than half a million 
trucks and more than 3 million people from Canada, helping 
support more than 19,000 jobs in the region, and over half a 
million jobs across New York state.
    My point is not merely to rattle off statistics, but to 
emphasize the opportunity this committee has to ensure that we 
can appropriately implement this agreement, enhance security, 
particularly with the location of Fort Drum so close to this 
border, as well as to create jobs. As this committee considers 
a budget resolution for fiscal year 2013, it is critical that 
we provide adequate resources to the Department of Homeland 
Security, Department of State, Office of the Director of 
National Intelligence, animal and plant health, inspection 
service, customs and border protection, food safety and 
inspection service, Transportation Security Administration, 
Department of Transportation, and the Department of Justice to 
carry out the Beyond the Border initiative. Not only did this 
agreement have the potential to boost trade with Canada while 
creating jobs here at home, it will also ensure that tax payer 
money is spent more efficiently and creatively to process 
people and goods at the border.
    Several major initiatives in the Beyond the Border action 
plan that will bolster security and economic growth efforts 
include developing a joint Canadian plan for investing in 
modern infrastructure and technology at the busiest ports of 
entry, which is essential to pursuing creative and effective 
solutions to manage the flow of cross-border traffic. A 
commitment to utilizing technology and cyber security at small 
border crossings so that assets can be redeployed to larger 
crossings to facilitate the movement of people and goods, pilot 
programs permitting expedited clearance for certain Canadian 
food processors and Amtrak passengers, a joint U.S.-Canadian 
plan to measure and compare wait times and traffic at the 
border, expanded cooperation of our security agencies all along 
our border, working towards integrated U.S.-Canada entry-exit 
system for people and goods so that entry into one country can 
serve to verify exit from the other.
    Current joint traveler programs that will be enhanced by 
the beyond the border initiative include harmonizing what is 
known as the U.S. Customs Trade Partnership Against Terrorism, 
or CTPAT program and the Canadian Partners in Protection or PIP 
program, and an expansion of the FAST program which moves 
trucks more quickly through our borders. Harmonizing the 
Canadian custom self-assessment and U.S. importer self-
assessment programs, expanding a TSA risk-based screening 
program so that Canadian NEXUS card holders can move more 
quickly through TSA screening locations throughout the United 
States, and expanding NEXUS or express lane capacity at border 
crossings, in particular at Saint-Bernard-de-Lacolle, a 
Canadian border crossing in Quebec.
    These are just a few of the initiatives that the U.S.-
Canadian joint working groups will begin proposing solutions to 
in the coming year, ensuring adequate investments in the Beyond 
the Border agreement will help boost this nation's exports to 
Canada, our biggest trading partner and help ensure our 
northern border is more secure. Thank you, and I yield back.
    [The prepared statement of Bill Owens follows:]

   Prepared Statement of Hon. William L. Owens, a Representative in 
                  Congress From the State of New York

    Chairman Ryan and Ranking Member Van Hollen, thank you for the 
opportunity to address the committee today. I appreciate the difficult 
budget environment this Committee faces, and I'm grateful for the 
opportunity to speak about an issue that is critically important not 
only to my constituents, but also to this nation's economic recovery.
    On February 4, 2011, the President and Prime Minister Harper 
announced ``Beyond the Border; A Shared Vision for Perimeter Security 
and Economic Competitiveness.'' This agreement institutionalizes 
programs that will in fact make our northern border more secure and at 
the same time allow for the rapid movement of people and goods.
    The U.S.-Canada trade relationship represents over $250 billion of 
direct investment by each country in the other and bilateral trade of 
nearly $700 billion dollars a year in goods and services. Nearly one 
million dollars in goods and services crosses the U.S.-Canada border 
every minute as well as 300,000 people every day. This trade 
relationship sustains over 300,000 jobs in the Chairman and Ranking 
Member's home states of Wisconsin and Maryland alone.
    My Congressional District has 13 ports of entry and border 
crossings. In fiscal year 2011, these border crossings processed more 
than half a million trucks and more than 3 million people from Canada, 
helping support more than 19,000 jobs in my Congressional District and 
over half a million jobs in New York State.
    My point is not merely to rattle off statistics, but to emphasize 
the opportunity this Committee has to ensure that we can appropriately 
implement this agreement and create jobs. As this Committee considers a 
budget resolution for Fiscal Year 2013, it is critical that we provide 
adequate resources to the Department of Homeland Security, Department 
of State, Office of the Director of National Intelligence, Animal and 
Plan Health Inspection Service, Customs and Border Protection Food 
Safety and Inspection Service, Transportation Security Administration, 
Department of Transportation and the Department of Justice to carry out 
the Beyond the Border Initiative. Not only does this agreement have the 
potential to boost trade with Canada while creating jobs here at home, 
it will also ensure that taxpayer money is spent more efficiently and 
creatively to process people and goods at the border.
    Several major initiatives in the Beyond the Border Action Plan that 
will bolster security and economic growth efforts include:
    a. Investing in modern infrastructure and technology at the busiest 
ports of entry, which is essential to pursuing creative and effective 
solutions to manage the flow of cross-border traffic;
    b. A commitment to utilize technology and cyber security for small 
border crossings so that assets can be redeployed to larger crossings 
to facilitate the movement of people and goods;
    c. Pilot programs permitting expedited clearance for certain 
Canadian food processors and Amtrak passengers;
    d. A joint U.S.-Canada plan to measure and compare wait times and 
traffic at the border;
    e. Working towards an integrated U.S.-Canada entry-exit system for 
people and goods so that entry into one country can serve to verify 
exit from the other country. Current joint traveler and trade programs 
that will be enhanced by the Beyond the Border Initiative include:
    i. Harmonizing the U.S. Customs-Trade Partnership Against Terrorism 
(C-TPAT) program and the Canadian Partners in Protection (PIP) program, 
and an expansion of the FAST program;
    ii. Harmonizing the Canadian Custom Self-Assessment and the U.S. 
Importer Self-Assessment programs;
    iii. Expanding a TSA risk-based screening program so that Canadian 
NEXUS card holders can move more quickly through TSA screening 
locations; and
    iv. Expanding NEXUS or express lane capacity at border crossings, 
in particular the St. Bernard de Lacolle Canadian border crossing in 
Quebec.
    These are just a few of the initiatives that U.S.-Canada joint 
working groups will begin proposing solutions to in the coming year. 
Ensuring adequate investments in the Beyond the Border Agreement will 
help boost exports to our nation's biggest trading partner and make our 
northern border more secure.
    Again, thank you for the opportunity to address the committee, and 
I'd be happy to answer any questions.

    Mr. Chaffetz. I thank the gentleman from New York for his 
comments, and we appreciate it. We will now pause, not go into 
recess, but pause as we trade out the panels and invite the 
members of our next panel to please come forward and take your 
seats. I want to let members know that we anticipate that votes 
will start at roughly 11:45, and so in the essence of time if 
you could keep your verbal comments to five minutes, and we 
will submit your full testimony into the record. With that we 
will start by recognizing the gentleman from Tennessee, Mr. 
Fleischmann, for five minutes.

   STATEMENT OF HON. CHUCK FLEISCHMANN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Fleischmann. Thank you. Members of the Budget 
Committee, I thank you for the opportunity to testify regarding 
the 2013 budget. I appreciate the hard work ahead of you all 
and wish you the best during this challenging process. I will 
keep my comments short because I am not here to ask for 
additional funding in certain areas, or spending that might 
help me with a pet project or a campaign promise. Rather, as a 
recently elected member of Congress, I want to stress the 
problems of our massive debt and uncontrollable spending and 
encourage you to set us on a path to fiscal sustainability and 
stress my desire to help with this process.
    Most importantly, I wanted to bring some realistic budget 
solutions to the committee's attention. As you know well, the 
current fiscal outlook is bleak, and has gotten dramatically 
worse over the last few years. Our current national debt is $15 
trillion, which amounts to almost $50,000 for every man, woman, 
and child. This debt is now over 100 percent of our GDP, and 
significant amount of this debt is owned by foreign sources, 
and the cause of this problem is increased spending, not a lack 
of revenue. Since World War II, tax revenues have averaged 
about 18 percent of the economy, and these revenues are 
predicted to remain at or about that level for the foreseeable 
future. During this time, spending has averaged around 20 
percent of the economy. However, recently spending has gone 
well above this 20 percent average, and is now predicted to 
explode to nearly 45 percent of the economy in future years, a 
massive and unsustainable increase.
    Fortunately, there are common sense steps we can take 
immediately to address our fiscal problems. For example, last 
month after the president released his 2013 budget, I 
introduced the Freeze Government Spending Act of 2012. This 
bill is simple, but I believe it represents a realistic, 
straightforward approach to controlling discretionary spending. 
This bill amends the Budget Control Act of 2011 in a few ways.
    First, it takes fiscal year 2013 budget cap of $1 trillion 
47 and subtracts the automatic sequestration that will happen 
in 2013. This gives us a final budget limit of $949 billion for 
2013. This is a 9 percent cut from 2012 and brings us close to 
the fiscal year 2008 discretionary level.
    My bill then freezes discretionary spending at that 2013 
level of $949 billion for nine years while ending the crippling 
defense cuts imposed by sequestration. Since Congress has 
already agreed to live within the 2013 spending level, it seems 
logical that we can simply live within that limit for an 
additional eight years. This seems especially reasonable when 
we are spending more money that we simply do not have, and the 
budgetary impact of this freeze will be significant. It will 
save us roughly $850 billion over 10 years versus the Budget 
Control Act. When interest savings is included, we are close to 
$1 trillion in savings. Again, all of this accomplished by 
simply freezing spending.
    In addition to this big picture budget bill, I have 
introduced legislation to eliminate a program that is 
needlessly costing tax payers hundreds of millions of dollars. 
The Stop Green Initiative Abuse Act of 2011 would eliminate the 
flawed weatherization assistance program which has been ripe 
with substantial problems in recent years. In fact, both the 
Tennessee Comptroller General's office and the Department of 
Energy inspector general's office have studied the program and 
found significant fraud and abuse. Elimination of this 
duplicative program could save us $2 billion over 10 years. I 
bring this to the committee's attention because if every member 
of Congress could find just one similar wasteful program to 
eliminate, we would be on the right track to getting our fiscal 
house in order. A billion here and a billion there can add up 
to significant savings.
    When I came here last here, I wanted to be part of the 
solution to our fiscal problems, and I wanted to do more than 
simply cast votes. I wanted to bring real, positive proposals 
to the table. I hope these ideas will be helpful to the 
committee, and I thank you for your time. In addition, I stand 
ready to work with you and all our colleagues to address our 
country's fiscal problems, thank you.
    [The prepared statement of Chuck Fleischmann follows:]

    Prepared Statement of Hon. Charles J. ``Chuck'' Fleischmann, a 
         Representative in Congress From the State of Tennessee

    Chairman Ryan, Ranking Member Van Hollen and members of the Budget 
Committee, thank you for the opportunity to testify regarding the 2013 
budget. I appreciate the hard work ahead of you and wish you the best 
during this challenging process.
    I will keep my comments short because I am not here to ask for 
additional funding in certain areas or spending that might help with a 
pet project or a campaign promise. Rather, as a recently elected Member 
of Congress, I want to stress the problems of our massive debt and 
uncontrollable spending, encourage you to set us on a path to fiscal 
sustainability, and stress my desire to help with this process. Most 
importantly, I wanted to bring some realistic budget solutions to the 
committee's attention.
    As you know well, the current fiscal outlook is bleak, and it has 
gotten dramatically worse over the last few years. Our current national 
debt is $15 trillion which amounts to almost $50,000 for every man, 
woman, and child. This debt is now over 100% of our GDP, and 
significant amount of that debt is owned by foreign sources.
    And the cause of this problem is increased spending, not a lack of 
revenue. Since World War II tax revenues have averaged about 18 percent 
of the economy and these revenues are predicted to remain at about that 
level for the foreseeable future. During this time spending has 
averaged around 20 percent of the economy. However, recently spending 
has gone well above this 20 percent average, and it is now predicted to 
explode to nearly 45% of the economy in future years--a massive and 
unsustainable increase.
    Mr. Chairman, fortunately there are common-sense steps we can take 
to immediately address our fiscal problems. For example, last month, 
after the president released his 2013 budget, I introduced the Freeze 
Government Spending Act of 2012. This bill is simple, but I believe 
represents a realistic, straight forward approach to controlling 
discretionary spending. The bill amends the Budget Control Act of 2011 
in a few ways. First, it takes the fiscal year 2013 budget cap of $ 
1.047 trillion and subtracts the automatic sequestration that will 
happen in January 2013. This gives us a final budget limit of $949 
billion for 2013. This is a 9% cut from 2012 and brings us close to the 
fiscal year 2008 discretionary level. My bill then freezes 
discretionary spending at that 2013 level of $949 billion for 9 years 
while ending the crippling defense cuts imposed by sequestration.
    Since Congress has already agreed to live within the 2013 spending 
level, it seems logical that we can simply live within that limit for 
an additional eight years. This seems especially reasonable when we are 
spending money that we simply do not have. And the budgetary impact of 
this freeze will be significant. It will save us roughly $850 billion 
over 10 years versus the Budget Control Act. When interest savings is 
included, we are close to $ 1 trillion in savings. Again, all of this 
is accomplished by simply freezing spending.
    In addition to this big picture budget bill, I have introduced 
legislation to eliminate a program that is needlessly costing taxpayers 
hundreds of millions of dollars. The Stop Green Initiative Abuse Act of 
2011 would eliminate the flawed Weatherization Assistance Program which 
has been ripe with substantial problems in recent years. In fact, both 
the Tennessee Comptroller General's office and the Department of 
Energy's Inspector General's office have studied the program and found 
significant fraud and abuse. Elimination of this duplicative program 
could save us $2 billion over ten years.
    I bring this to the Committee's attention because if every member 
of Congress could find just one similar wasteful program to eliminate, 
we would be on the right track to getting our fiscal house in order. A 
billion here and a billion there can add up to significant savings.
    Mr. Chairman, when I came here last year, I wanted to be part of 
the solution to our fiscal problems, and I wanted to do more than 
simply cast votes. I wanted to bring real, positive proposals to the 
table. I hope these ideas are helpful to the committee, and I thank you 
for your time. In addition, I stand ready to work with you and all our 
colleagues to address our country's fiscal problems. Thank you.

    Mr. Chaffetz. I thank the gentleman for his testimony. We 
will now recognize the Honorable Martha Roby of Alabama for 
five minutes.

  STATEMENT OF HON. MARTHA ROBY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ALABAMA

    Ms. Roby. Mr. Chairman, I want to thank you and your 
colleagues for your hard work so far on the federal budget 
issues of the 112th Congress, and you have before you the 
difficult task of meeting our nation's priorities, curbing an 
inflated budget, and bringing down the deficit. It is an 
important endeavor that will have a clear and direct impact on 
the future strength of this great nation. So I thank you for 
this opportunity to testify today.
    I want to express briefly my concerns regarding the 
practice of using budget gimmicks to distort the truth about 
federal spending. At times both Congress and the president have 
exploited these institutional loopholes to create false 
savings. Without a doubt, we know that Republicans and 
Democrats have relied on these tricks to skew the numbers. 
These gimmicks deeply ingrained in the rules of the budget and 
appropriations process have led to the erosion of confidence in 
our government and its leaders. As Thomas Jefferson wrote, The 
whole art of government consist in the art of being honest. I 
believe that all of you on this committee agree that the 
American people deserve a budget system that is real, genuine, 
and authentic, and the only way to guarantee the truth is to 
root out and end the wasteful gimmicks that obscure it.
    As you know, last October Senator Jeff Sessions, the 
ranking member of the Senate Budget Committee, introduced the 
Honest Budget Act of 2011. The legislation, which is currently 
pending in the Senate, addresses the nine most commonly used 
budget gimmicks and accounting tricks. Senator Sessions' 
legislation would strengthen the Senate's rules to provide 
budget-minded members more procedural power to block the abuse 
of these gimmicks.
    Earlier this year I, with many of my freshman Republican 
colleagues, introduced the Honest Budget Act of 2012, and our 
legislation, based on Senator Sessions' bill, expands this 
common sense approach to the House of Representatives. Like its 
Senate counterpart, the legislation empowers rank and file 
members to weed out the use of deceitful budget distortions. I 
would like to discuss briefly, and I know my time is limited, a 
few of the budget gimmicks addressed in the Honest Budget Act, 
and my hope is that this committee will keep these concerns in 
mind as it works through this year's proposed budget. No budget 
means no appropriations.
    If the bill requires that the Senate have a budget before 
approving any annual appropriations bills, and this seems like 
common sense, but we are all keenly aware of the amount of time 
that has passed, well over 1,000 days, since the Senate has 
passed a budget. So this is a very commonsensical request that 
we must actually pass a budget before we appropriate money. 
This is a basic requirement of government, and until that 
threshold is met, no money should be spent. No phony emergency 
and disaster designation.
    This second provision makes it difficult to use the often-
abused emergency or disaster designation, and as you know, 
designating funding as disaster or emergency spending generally 
means it is off budget. In other words, it is deficit spending. 
So this practice has also become routine and commonplace, and 
while true emergencies do exist, the overwhelming majority of 
federal spending is anticipated, and therefore should be 
included in the budget.
    Unfortunately, Congress has fallen into the habit of simply 
declaring that which cannot afford to be an emergency, and so 
when it does, it uses borrowed funds to pay the bill, and that 
practice also must end.
    Accurate scoring of home loan guarantees, and I am pleased 
that this committee and the full House of Representatives 
recently approved legislation that is substantially similar to 
this provision in the Honest Budget Act.
    No faults rescissions: At times, Congress may legitimately 
rescind appropriated funds to use for other priorities, but too 
often Congress makes phony rescissions that look good on paper, 
but in reality only create the illusion of savings. Again, this 
bill goes through the nine most commonly used budget gimmicks 
and I have highlighted more of them in my written testimony, 
and it is my hope that this committee will take a really good, 
hard look when it comes to budget reform and the 
institutionalized practices, again, of both Republicans and 
Democrats that we will take this opportunity to reform these 
practices so that we can be honest with the American people. 
Thank you again for the committee's work and I yield back.
    [The prepared statement of Martha Roby follows:]

 Prepared Statement of Hon. Martha Roby, a Representative in Congress 
                       From the State of Alabama

    Mr. Chairman, I want to thank you and your colleagues for your hard 
work so far on federal budget issues in the 112th Congress. You have 
before you the difficult task of meeting our nation's priorities, 
curbing an inflated federal budget, and bringing down the deficit. It 
is an important endeavor that will have a clear and direct impact on 
the future strength of our great nation.
    Thank you also for this opportunity to testify today.
    I want to express briefly my concern regarding the practice of 
using budget gimmicks to distort the truth about federal spending. At 
times, both Congress and the President have exploited these 
institutional loopholes to create false savings. Without a doubt, we 
know that both Republicans and Democrats have relied on these tricks to 
skew the numbers. These gimmicks--deeply engrained in the rules of the 
budget and appropriations process--have led to the erosion of 
confidence in our government and its leaders.
    As Thomas Jefferson wrote, ``The whole art of government consists 
in the art of being honest.'' I believe all of you agree that the 
American people deserve a budget system that is real, genuine, and 
authentic. And the only way to guarantee the truth is to root out and 
end the gimmicks that obscure it.
    As many of you know, last October Senator Jeff Sessions, the 
Ranking Member of the Senate Budget Committee, introduced the Honest 
Budget Act of 2011. The legislation, which is currently pending in the 
Senate, addresses nine of the most commonly used budget gimmicks and 
accounting tricks. Senator Sessions' legislation would strengthen the 
Senate's rules to provide budget-minded members more procedural power 
to block the abuse of these gimmicks.
    Earlier this year, I--with many of my freshman Republican 
colleagues--introduced the Honest Budget Act of 2012. Our legislation, 
based on Senator Sessions' bill, expands this common sense approach to 
the House of Representatives. Like its Senate counterpart, the 
legislation empowers rank-and-file members to weed out the use of 
deceitful budget distortions.
    I'd like to discuss briefly just a few of the budget gimmicks 
addressed in the Honest Budget Act. My hope is that this Committee will 
keep these concerns in mind as it works on the Fiscal Year 2013 Budget.
                   no budget means no appropriations
    First, the Honest Budget Act calls for the Senate to have a budget 
before approving any of the annual appropriation bills. This seems like 
commonsense, but each of us is aware that the Senate has not passed a 
budget in well over 1,000 days. In fact, Senate Majority Leader Harry 
Reid has said that there is no need to pass a budget this year due to 
the Budget Control Act. I consider that statement to be a failure of 
leadership. Passage of a budget is extremely important to provide a 
framework for controlled federal spending. It is, in fact, a basic 
requirement of government. Until that threshold is met, no money should 
be spent.
              no phony emergency and disaster designation
    The second provision would make it more difficult to use the often-
abused emergency or disaster designation. As you know, designating 
funding as emergency spending generally means it is ``off-budget''--in 
other words, it is deficit spending. This practice has become routine 
and commonplace. While true emergencies do exist, the overwhelming 
majority of federal spending is anticipated and, therefore, should be 
included in the budget. Unfortunately, Congress has fallen into the 
habit of simply declaring that which it cannot afford to be an 
emergency. When it does so, it uses borrowed funds to pay the bill. 
That practice must end.
                accurate scoring of home loan guarantees
    I am pleased that this Committee and the full House of 
Representatives recently approved legislation that is substantially 
similar to a provision in the Honest Budget Act.
    Section 4 of the Honest Budget Act would strengthen the Federal 
Credit Reform Act of 1990. In that vein the House passed H.R. 3581, the 
Budget and Accounting Transparency Act of 2011 on February 7, 2012. The 
bill, like the provisions in the Honest Budget Act, ensures that the 
Congressional Budget Office more realistically score government-
sponsored home loan guarantees by considering the market risk 
associated to them. I thank the Members of the Committee in recognizing 
the importance of this reform.
                          no false rescissions
    At times, Congress may legitimately rescind appropriated funds to 
use for other priorities. Too often, however, Congress makes phony 
rescissions that look good on paper but, in reality, only create the 
illusion of savings. When those false savings are spent elsewhere, the 
net effect is an increase in the debt.
    Congress must stop using rescinded money that was never going to be 
spent in the first place as ``savings.'' These are not true savings.
    Mr. Chairman, these are just a few basic examples of the nine 
budget gimmicks that the Honest Budget Act addresses. Together, these 
gimmicks have cost the taxpayer more than $423 billion since 2005, 
including more than $73 billion last year.
    Again, I thank you for the opportunity to testify on this important 
subject.
    I strongly support passage of the Honest Budget Act in its entity, 
and I welcome any future hearings this Committee may hold to examine 
its provisions. That said, I believe that a great deal of good would 
result from the Budget Committee adopting the underlying principles of 
this legislation while it considers the President's budget proposal and 
begins work on a House budget resolution.
    Mr. Chairman, I know that you share my belief that a budget, at its 
core, must be an honest financial accounting to the American People. I 
urge this Committee to reject the past practices of the Obama 
Administration and Congress, and to make a commitment to an open, 
transparent, and accurate budget. This, I believe, is the first step to 
restoring integrity and honesty to this process.
    Thank you.

    Mr. Chaffetz. Thank you, I appreciate your testimony and 
your passion behind these issues. So thank you for your 
testimony. We will now recognize, for five minutes, the 
Honorable Michael Burgess of Texas. The gentleman is now 
recognized.

STATEMENT OF HON. MICHAEL BURGESS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Burgess. I thank the chairman. I thank you for having 
this series of hearings. I try to participate every year 
because I do believe it is an important part of the process. As 
you know, all too well, the method of funding critical programs 
year over year involves using what are called budget cliffs or 
funding cliffs, and unfortunately, all of those cans that have 
been kicked down the road all come to an abrupt stop on 
December 31 of this year, and we are all aware of that. At the 
same time, there is a possibility that the statutory authority 
for borrowing of the United States of America will once again 
be at its limit, and the president or the secretary of Treasury 
may well, after election day, submit a request to Congress that 
this issue be dealt with. Many people describe December as the 
perfect budgetary storm. They may be correct.
    In medicine, we have a term called compression of 
morbidities. You hear people talk about preventive care and we 
all want to live longer and healthier, but we all know we 
cannot live forever, and the term compression of morbidities 
refers to the things that happen to you during that last little 
bit of life that is left for you, and we all want to live well 
up until that kicks in. We are coming up on a budgetary 
compression of morbidities this December. The bad part about 
compression of morbidities is, as I point out, it usually 
occurs right before the end of life. I hope it is not before 
the end of life for this august institution, but you do have to 
worry if the institution itself will be able to survive some of 
the rigors with which it is going to be confronted at the end 
of this year, which is why I urge you. I do not come here 
telling you that I have answers for these problems, but I do 
urge you to take, both the short term, the medium term, and the 
long term look in your budget process. We have got an immediate 
problem to deal with in December, and obviously, the years 
afterward do not get subsequently easier just by definition.
    Now, the health care law, the Affordable Care Act, that was 
passed two years ago this month, in fact, signed into law two 
years ago this month, there is an absolutely critical example 
of how bad things are, and most of us do not realize how bad 
they are getting. Secretary Sebelius came and testified to our 
Committee on Energy And Commerce, the hill subcommittee, and in 
her budgetary request was the acknowledgment that for the next 
10 years, they are going to be spending $111 billion more than 
they suggested when they came in with the president's budget 
last year. When asked why and how can the secretary's budget 
increase by $111 billion, and how can the projections go up by 
that much, how could you be off by that much. As typical, she 
did not give a direct response, but rather there were some 
legislative things that happened, and I presume that is the 
CLASS Act, and there were some other projections that did not 
hold true. More people on Medicaid, perhaps that is the case, 
but of course Medicaid and subsidies in the exchange, all of 
that people have recognized from the very beginning, that is 
going to be a malleable number, but $111 billion for what 
remains of the 10 year budgetary window? That seemed a little 
hard to swallow, and it seemed a little hard to believe, and 
again, the secretary did not have a good answer for that.
    One of the other things that I struggle with all the time, 
is the fact that we reduce reimbursement to physicians in the 
Medicare program. We all know the Medicare program is 
struggling; we all know that it desperately needs reform. This 
committee stepped up to the plate a year ago, and provided us 
some sensible thoughts on this. Sustainable growth rate is 
another one of those things that falls off the cliff in 
December. I urge this committee to take into account the 
problems that we are going to encounter with a sustainable 
growth rate formula because we do have physicians across the 
country today where Medicare does not even reimbursement the 
cost of delivering the care, and while these doctors are 
altruistic and they want to do the right thing for America's 
seniors, as business people they may not be able to justify 
their continued participation in this government program.
    Finally, with a look to the future, I would ask, and I know 
this committee has worked on it before because I have testified 
before this committee in 2004 and 2005 on fundamental tax 
reform. I come from a part of the world, my predecessor wrote a 
book on the flat tax, I believe in the flat tax, I think it is 
a worthwhile exercise. I have introduced legislation for an 
optional flat tax that people could opt in to if they want to 
get out of the code. It is HR 1040, cleverly enough, and I 
would urge the committee to look at that when they are 
considering options for fundamental tax reform because we all 
know that is going to have to happen and going to need to be 
part of the process going forward. I thank the committee for 
the time and attention, I will yield back.
    [The prepared statement of Michael Burgess follows:]

 Prepared Statement of Hon. Michael C. Burgess, M.D., a Representative 
                  in Congress From the State of Texas

    Chairman Ryan, thank you for allowing me to speak before your 
committee.
    In your budget resolution, there are several items I hope you will 
include. First and very importantly, the funding and implementation of 
the health care law must be addressed. As I am sure you agree, we 
cannot afford to spend any money on the implementation of the Patient 
Protection and Affordable Care Act. It has already proven to paralyze 
job growth while also increasing premiums for America's families.
    The law is also affecting states which are unsure if this law will 
withstand legal challenges. Funding by states and the federal 
government to implement the changes should be withheld until the legal 
status of this law is settled. My desire would be to see this law's 
funding be addressed in a way that best helps American doctors and 
patients by reducing the bill's influence over our health care system 
and economy. Any spending that can be touched, mandatory or 
discretionary, needs to be examined.
    Another item to be addressed is the Sustainable Growth Rate, also 
known as SGR. This patch must be repealed to create a permanent system 
for Medicare reimbursement for our nation's medical system. The current 
payment system is not only unsustainable, it is unreliable. Continuing 
to operate on short term fixes puts our most vulnerable Americans in a 
perilous situation. Their ability to access care is becoming more 
difficult. In my home state of Texas just last year, 69% of providers 
cited cash flow problems resulting from back payments from the 
government. The longer we procrastinate on this problem, the more 
costly it will become.
    Equally as important is the federal government's revenue and 
spending provided by our tax system. Many in Washington have discussed 
fundamental tax reform but I am here today with a specific proposal. My 
bill, H.R. 1040, the Freedom Flat Tax, is a common sense alternative to 
the burdensome tax filing system we have today. Allowing taxpayers to 
pay a flat rate of tax on their income with only a standard deduction 
will eliminate some of the six billion hours Americans spend each year 
preparing their tax returns.
    This proposal is just one idea we can use in changing our 
ineffective and unfair tax system. I am willing to discuss any idea 
that makes filing simpler and creates fewer distortions in economic 
choices.
    I look forward to this committee approaching these problems with 
determined, comprehensive, and intelligent alternatives.
    Thank you.

    Mr. Chaffetz. We thank the gentleman for his testimony. We 
do have a vote on the floor. I think we do have time. We have 
13 minutes left on the clock on the vote and with your 
testimony anticipated at five minutes, I think we should be 
just fine.

 STATEMENT OF HON. AL GREEN, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Al Green of Texas. I assure you, Mr. Chairman, I shall 
not go longer than the 13 minutes.
    Thank you very much, Mr. Chairman, it is a honor to have 
this opportunity to testify. I thank you and the ranking member 
as well. Much of what I will say is rooted in something that 
occurred in 1968. As you know, we lost a great noble American 
in 1968, the Honorable Dr. Martin Luther King. After his 
untimely demise, we had the passing of the Fair Housing Act. 
That Fair Housing Act has caused us to generate some additional 
legislation. I want to talk to you today about three different 
programs that I believe to be of significant benefit to us. As 
you know, Dr. King reminded us that the arc of the moral 
universe is long, but it bends toward justice, and today I am 
here to ask that we continue to bend the arc of the moral 
universe toward justice.
    I would first like to talk to you about a counseling 
program. This counseling program will help persons to stay in 
their homes. This counseling program is one that was zeroed out 
in 2011; however, in 2012 we did add $45 million to it, and the 
president is currently, for fiscal year 2013, asking for $55 
million. My request is that we take it to $87.5 million.
    We have a lot of people who are underwater. We have 11 
million homes, and that is about 22 percent of the households, 
with a mortgage on them, that are currently underwater. We have 
about 2.5 million foreclosures that took place between 2007 and 
2009. We got about 5.7 million additional homes that may go 
into foreclosure, so this is something that can be of great 
benefit, not only to the people who will actually avoid the 
foreclosure, but also people who are buying homes, and to the 
economy because it can help us to stabilize our economy.
    Another program that I would like to mention to you, 
quickly, is the Fair Housing Initiative Program. You and I 
know, Mr. Chairman, that we still have some discrimination in 
our country, and what we want to do is root it out. You and I 
stand for the same principles when it comes to this; we want to 
root it out. To root it out, you have to have empirical 
evidence of the existence. The empirical evidence that we need 
to root out and to make people aware, many are not, of their 
actions is through the FHIP program, the Fair Housing 
Initiative Program. This is simply where NGOs, working with 
HUD, will go out into various communities and they will do 
something no one has tested. Testing allows us to send persons, 
many of whom are qualified, and let them have an opportunity to 
apply for housing. If they do not get it, then that tells us 
something, but testing has to be followed up with other things.
    So my point is I think that we need to continue this 
program and this program was funded in 2012 at $42.5 million. 
The president is asking for $41.1 million, I am asking that we 
continue at the $42.5 million level because the circumstances 
have not diminished to the extent that we should diminish the 
amount that we spend to root out this scourge of our time and 
all time, discrimination.
    I would also add this, Mr. Chairman. Much of the 
discrimination that we are talking about, in fact empirical 
evidence suggests that most discrimination now exists against 
persons who are handicapped, and that then means that many of 
our veterans are going to be discriminated against, and are 
being discriminated against. There is actual, empirical 
evidence of veterans being discriminated against because 
persons do not know that it is a veteran that they are talking 
to or working with, and these veterans, when they are coming 
back from Iraq, a good many of them will not return as they 
left. I thank God that they were willing to serve their 
country, but I also think that we must thank them by making 
sure that they can get adequate housing.
    I would add one other thing. Discrimination against 
veterans takes place with what we call service animals. There 
are many people who see them as pets when they are actually 
service animals there to aid and assist our veterans, so this 
program has great benefits and I am asking that we continue it 
at the level that we have.
    Now, the HUD-VASH program: I am sure that this is something 
that we can all agree we have to do as much as we can with. 
This is for our veterans, our Veterans Affairs Supportive 
Housing program. This program helps us to give the equivalent 
of a Section 8 voucher to a veteran. That veteran can take that 
voucher and go into the marketplace and if they have additional 
money, add it to it, and have housing for the family. Again, 
returning home, our veterans merit the opportunity to have 
affordable housing. The program was funded in 2012 at $75 
million. The president is asking for $75 million, and I am 
asking that we maintain that $75 million request.
    Finally, we have a piece of legislation, HR 3298, Homes for 
Heroes. The Homes for Heroes Bill is budget neutral; it places 
a person in HUD whose sole responsibility is to monitor 
homelessness among our veterans, to check on them, find out 
what is happening with them, acquire empirical evidence and 
bring that back to Congress on an annual basis so that we can 
do what is necessary to get every veteran off of the streets. 
This is something that we owe them.
    I thank you, I know that my time is up, but you have been 
very generous. I thank you for the time, and I will close 
simply with this. Kennedy, Kennedy and King are two of my 
favorites, in his inaugural address, his last words were, Here 
on Earth, God's work must truly be our own. This is an 
opportunity for us to do God's work. I beg that we do what we 
can to help homeless people, many of whom are veterans, and 
also protect those who might seek some sort of homeless 
circumstance and be discriminated against. Thank you very much 
Mr. Chairman.
    [The prepared statement of Al Green follows:]

Prepared Statement of Hon. Al Green, a Representative in Congress From 
                           the State of Texas

    Chairman Ryan, Ranking Member Van Hollen, and members of the House 
Committee on the Budget, thank you for affording me the opportunity to 
share with you a number of budget priorities that I believe to be 
crucial for FY 2013. While there are numerous federal programs that I 
believe deserve our support, I will limit my comments to housing 
programs that are especially important as more American soldiers return 
home and American families continue to face the ongoing foreclosure 
crisis--specifically, the HUD Housing Assistance Program Counseling 
Program, the Fair Housing Initiatives Program (FHIP), and the HUD-VA 
Supportive Housing (HUD-VASH) Program
                 housing counseling assistance program
    There should be little disagreement that our country is still 
recovering from the economic crisis. One need only to look at our 
housing market to see that we are still navigating a devastating 
foreclosure crisis.
    The HUD Housing Counseling Assistance Program was developed to 
address the housing counseling needs of working families and seniors. 
It is the only federal program that provides explicit support for 
families and individuals who are purchasing their first home. More 
importantly, housing counseling can often times be the difference 
between keeping a family in their homes and foreclosure.
    It has been a few years since the housing market collapsed. 
Millions of Americans have lost their homes; and millions more are at 
risk of losing theirs, as housing prices fall and negative equity 
continues to grow. While there may be no panacea or quick-fix to our 
housing market, robust housing counseling is most certainly an 
important piece of a comprehensive strategy to address the foreclosure 
crisis. By providing direct counseling for homeowners who are 
delinquent, or at risk of becoming delinquent on their mortgage 
payments, fewer foreclosures may occur. Also, for potential homeowners, 
housing counseling can help families make the right decisions about 
sustaining homeownership, which in turn can also reduce the likelihood 
of foreclosure.
    In FY 2011, I believe we made a mistake in cutting all funding for 
the Housing Counseling Assistance Program at HUD--Congress rectified 
this by securing $45 million in FY 2012. Despite this restored funding 
level, back in FY 2010, Congress recognized the need for these 
important services and appropriated $87.5 million for housing 
counseling. I believe we should restore funding levels to their FY 2010 
levels of $87.5 million in FY 2013.
                fair housing initiatives program (fhip)
    Despite the passage of the Fair Housing Act over 40 years ago, 
housing discrimination continues to be prevalent today. According to 
the National Fair Housing Alliance, approximately four million fair 
housing violations occur every year. Just a few short years ago, we 
witnessed as predatory, subprime lending targeted communities of color 
to devastating effect. Subsequently, as we continue to contend with the 
foreclosure crisis and families lose their homes; more Americans are 
entering the rental market. According to a recent Department of Housing 
and Urban Development report, a record number of Americans are 
reporting incidents of housing discrimination, with disability and race 
as the leading reasons for filing a complaint. It is for this reason 
that we must support the Fair Housing Initiatives Program (FHIP).
    FHIP is a program that provides funding for non-profit, fair 
housing organizations so that they are able to partner with HUD to help 
enforce fair housing laws. These fair housing organizations are the 
only private organizations in the country that educate the community 
and the housing industry, filing suits to challenge fair housing 
violations. These organizations fill a gap in investigating fair 
housing violations that ultimately save the government money.
    In FY 2012, Congress appropriated $42.5 million for FHIP. I support 
continuing to fund the program at this level.
                                hud-vash
    On any night, over 600,000 persons are homeless in the United 
States. The U.S. Department of Veterans Affairs reports that throughout 
the year, approximately 134,000 veterans will experience homelessness. 
Moreover, only eight percent of the general population are veterans 
status, but veterans make up over sixteen percent of the homeless 
population.
    HUD-VASH is the only program that supports the permanent housing 
and rehabilitation of homeless veterans. HUD-VASH is a joint HUD and VA 
initiative that provides specially designated Section 8 housing choice 
vouchers, case management, and supportive services to homeless 
veterans. Vouchers are used to assist with the payment of rent for 
veterans and their families. By combining access to affordable housing 
and supportive services, the HUD-VASH program assists veterans who 
might be at risk of becoming homeless, transition into stable 
conditions that allow them to become active participants in their 
communities.
    The President's FY 2013 budget has requested $75 million for the 
HUD-VASH program. I firmly believe we should support this figure, as it 
would provide approximately 10,000 additional vouchers for our 
veterans. It is worth noting that for FY 2012, Congress also 
appropriated $75 million for HUD-VASH. With 10,000 more vouchers 
secured, the total number of HUD-VASH vouchers appropriated would stand 
at approximately 58,500 vouchers since FY 2008.
    While we in Congress may have differing views on various issues, 
and bipartisanship agreement has become increasingly difficult to 
reach, both Democrats and Republicans have demonstrated their 
commitment to our veterans--we should do all that we can to continue 
this hard work to end homelessness amongst veterans.
    Thank you again for allowing me the opportunity to testify.

    Mr. Chaffetz. We thank the gentleman from Texas for his 
passion on this issue, and thank you for your testimony today. 
This committee will stand in recess as we have a vote on the 
floor and we will resume subject to the call of the chair, and 
after the conclusion of the votes on the floor. We stand in 
recess.
    [Whereupon, at 12:00 p.m., the committee recessed, to 
reconvene at 1:06 p.m., the same day.]

                           AFTERNOON SESSION

    Mr. Lankford. The hearing comes to order. Mr. Hoyer, I 
think you are first up.

  STATEMENT OF HON. STENY HOYER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Hoyer. Thank you very much, Mr. Chairman, and let me 
say how pleased I am that my dear friend and colleague from 
Maryland and ranking member, Mr. Van Hollen, is also here, and 
I thank him for that. I thank you, Mr. Lankford.
    Our budget, as all of us know, reflect our values and the 
direction we want for this country in the year ahead, and for 
several years beyond. With our economic recovery gathering 
momentum, we ought to ensure that our budget for fiscal year 
2013 strengthens the recovery and helps American business to 
create jobs and grow our middle class.
    Last week, I spoke about why we need a comprehensive 
deficit reduction agreement citing its potential to stimulate 
our economy. Setting our economy back on a sustainable, 
predictable fiscal path, I said, will help us create jobs by 
restoring certainty for businesses, enabling them to plan for a 
future without the brinksmanship that has characterized this 
Congress. Without certainty, businesses can only focus on the 
short term, which leads to missed opportunities for growth and 
fewer investments that have wider economic benefits.
    Today, Mr. Chairman and ranking member and Mr. Honda, I 
want to discuss steps we ought to be taking in our budget that 
parallel this necessary deficit reduction effort to ensure 
sustained economic growth in the future. The present budget 
proposal emphasized the need to invest in manufacturing as a 
way to strengthen our long term competitiveness; he spent a 
significant time on that. The budget recommendations he 
proposed include a number of items from House Democrats Make It 
In America plan. I believe that, and many other members 
believe, those provisions ought to be contained in the House 
budget.
    Make It In America includes comprehensive business tax 
reform as a means towards bringing investment and jobs back to 
the United States. Today, America's tax code is complicated and 
inefficient as we all know. Too often, businesses make 
decisions based on the best tax outcome and not the best 
economic or business outcome. By lowering rates and reducing 
preferences, the president's budget proposal promotes reform 
that simplifies the tax code, brings jobs back, and encourages 
domestic manufacturing and innovation. I believe these 
proposals are positive steps towards a greater competitiveness 
for our manufacturers. Innovation is central to make it in 
America, and our budget ought to include investments in 
maintaining our edge in research and development, particularly 
in advanced manufacturing.
    Among the priorities I wish to see is an increase in the 
budget for federal agencies that conduct research and work to 
support scientific investigation at our nation's colleges and 
universities, including the National Science Foundation, the 
Advanced Research Projects Agency for Energy, or ARPA-E. The 
president's proposal would fund manufacturing R&D programs at 
$2.2 billion, a level I support. Other provisions that ought to 
make into the House budget include the creation of a national 
network for manufacturing innovation, as well as investments in 
the development of advanced vehicle technologies that will 
contribute to energy independence.
    Make It In America is also about enhancing public education 
and workforce investment. I strongly support budget provisions 
that will strengthen our community colleges, and help them 
establish programs with local manufacturers, so our students 
can learn critical skills needed by employers and transition 
into quality jobs. Our budget ought to continue making higher 
education affordable for all, including students from low-
income families by sustaining Pell grants at least at the 
current levels of $5,635.
    In fiscal year 2013, our public education system deserves 
investments that enable teachers to prepare their students to 
achieve no matter what careers they pursue. Our Make It In 
America plan also invests in rebuilding this country's 
crumbling infrastructure and laying the groundwork for future 
by building new roads, railways, seaports, airports, and energy 
projects so that businesses can power their facilities and 
easily move their products across the country and around the 
world. We can achieve this through the establishment of a 
national infrastructure bank, which will leverage public and 
private capital to finance large-scale projects. The president 
has proposed this and our colleague Rosa Delauro has for many 
years. We can advance clean energy production by supporting 
domestically manufactured technologies that generate power and 
improve energy efficiency.
    Finally, Mr. Chairman and Mr. Van Hollen, our budget ought 
to help us level the playing field for American workers and 
businesses by providing incentives for insourcing and 
supporting programs that help increase exports.
    Mr. Chairman, I want to thank you again for the opportunity 
to discuss these priorities with you which are not only mine, 
but are shared by many members, and by a large number of 
Americans. Our budget ought to be a vehicle for achieving the 
goal of getting our economy back on track. Make it in America 
can help us not only jump start our economy, but also restore 
faith in the American dream our economy has long made possible. 
I thank you for this opportunity to appear before you.
    [The prepared statement of Steny Hoyer follows:]

 Prepared Statement of Hon. Steny Hoyer, a Representative in Congress 
                       From the State of Maryland

    Thank you, Chairman Ryan and Ranking Member Van Hollen for this 
opportunity. Our budgets reflect our values and the direction we want 
for this country in the year ahead--and for several years beyond. With 
our economic recovery gathering momentum, we ought to ensure that our 
budget for Fiscal Year 2013 strengthens that recovery and helps 
American businesses create jobs that grow our middle class.
    Last week, I spoke about why we need a comprehensive deficit 
reduction agreement, citing its potential to stimulate our economy. 
``Setting our economy back on a sustainable, predictable fiscal path,'' 
I said, ``will help us create jobs by restoring certainty for 
businesses and enabling them to plan for a future without the 
brinksmanship that has characterized this Congress. Without certainty, 
businesses can only focus on the short-term, which leads to missed 
opportunities for growth and fewer investments that have wider economic 
benefits.'' Today I want to discuss steps we ought to be taking in our 
budget that parallel this necessary deficit reduction effort to ensure 
sustained economic growth into the future.
    The President's budget proposal emphasized the need to invest in 
manufacturing as a way to strengthen our long-term competitiveness. The 
budget recommendations he proposed include a number of items from House 
Democrats' Make It In America plan that I believe--and I know many 
other members believe--ought to be contained in the House budget.
    Make It In America includes comprehensive business tax reform as a 
means toward bringing investment and jobs back to the United States. 
Today, America's tax code is complicated and inefficient. Too often, 
businesses make decisions based on the best tax outcome and not the 
best economic or business outcome. By lowering rates and reducing 
preferences, the President's budget proposal promotes reform that 
simplifies the tax code, brings jobs back, and encourages domestic 
manufacturing and innovation. I believe those proposals are positive 
steps toward a greater competitiveness for our manufacturers.
    Innovation is central to Make It In America, and our budget ought 
to include investments in maintaining our edge in research and 
development, particularly in advanced manufacturing. Among the 
priorities I wish to see is an increase in the budgets for federal 
agencies that conduct research and work to support scientific 
investigation at our nation's colleges and universities, including the 
National Science Foundation and the Advanced Research Projects Agency 
for Energy--or ARPA-E. The President's proposal would fund 
manufacturing R&D programs at $2.2 billion, a level I support. Other 
provisions that ought to make it into the House budget include the 
creation of a national network for manufacturing innovation as well as 
investments in the development of advanced vehicle technologies that 
will contribute to energy independence.
    Make It In America is also about enhancing public education and 
workforce investment. I strongly support budget provisions that will 
strengthen our community colleges and help them establish programs with 
local manufacturers so our students can learn critical skills needed by 
employers and transition into quality jobs. Our budget ought to 
continue making higher education affordable for all, including students 
from low-income families, by sustaining Pell grants at least at the 
current $5,635 level for next year. In Fiscal Year 2013, our public 
education system deserves investments that enable teachers to prepare 
their students to achieve no matter what careers they pursue.
    Our Make It In America plan also invests in rebuilding this 
country's crumbling infrastructure and laying the groundwork for future 
growth by building new roads, railways, seaports, airports, and energy 
projects so that businesses can power their facilities and easily move 
their products across the country and around the world. We can achieve 
this through the establishment of a national infrastructure bank, which 
will leverage public and private capital to finance large-scale 
projects. We can advance clean energy production by supporting 
domestically manufactured technologies that generate power and improve 
energy efficiency.
    Finally, our budget ought to help us level the playing field for 
American workers and businesses by providing incentives for insourcing 
and supporting programs that help increase exports.
    I thank you again for the opportunity to discuss these priorities 
with you, which are not only mine but are shared by many members and by 
a large number of Americans. Our budget ought to be a vehicle for 
achieving the goal of getting our economy back on track. Make It In 
America can help us not only jumpstart our economy but also restore 
faith in the American Dream our economy has long made possible.

    Mr. Lankford. Thank you, Mr. Hoyer.
    Mr. Van Hollen. Mr. Chairman, I want to first of all 
welcome our distinguished whip, Mr. Hoyer, here today as long 
as well as our other colleagues who will be introduced in a 
moment, but before Mr. Hoyer leaves, first I just want to 
commend you, Mr. Hoyer, on your focus on Make It In America, 
investing in the economic strength of our country. You have 
been talking about this for a very long time. We are pleased to 
see it reflected in the president's budget with some of the 
priorities that you mention.
    I have one question because you have also been at the 
forefront of among those who say we need to reduce our deficit 
over the long term and we need to do it in a balanced way. If 
you could just talk about the importance of having a balanced 
approach so that we can actually accomplish some deficit 
reduction in the country.
    Mr. Hoyer. Thank you Chris for that question. I also want 
to thank my colleague, Mr. Van Hollen, for the efforts that he 
has pursued to get us to a balanced, sustainable plan for our 
budget and for the growth of our economy. Obviously, in the 
short term, we must grow jobs. That is why I am focusing this 
statement on growing the economy. We will not balance our 
budget if we do not grow jobs and the economy, but in order to 
accomplish that objective, it is absolutely essential that we 
do so in a bipartisan way because the decisions that will have 
to be made are very tough decisions, and we will have to deal 
on a balanced way across the budget expenditures.
    We have, essentially, four items. You have the interest on 
our debt, which is not subject to negotiation. That must be 
paid. We must have a credit worthiness throughout the world. 
Secondly, we are going to have to deal with discretionary 
spending, both on the defense side and on the non-defense side, 
and of course, we reached a budget agreement last year which 
did exactly that and set parameters of spending which will save 
substantial billions of dollars going forward.
    Lastly we have to deal with our entitlements. From my 
perspective, we need to deal with our entitlements, maintaining 
the guarantee of those entitlements, but also guaranteeing 
their sustainability over the decades to come. I will continue 
to work with Republicans and Democrats towards that objective 
because I think it is one of the most critical that we have in 
this country for the people we represent. I thank the gentleman 
for his question.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Lankford. Mr. Hoyer, thank you for being here. Mr. 
Loebsack, you are recognized.
    Mr. Van Hollen. And if I could, and I have to leave, Mr. 
Chairman, but I just want to thank our other colleagues who are 
here, Mr. Critz, Mr. Loebsack, and Mr. Higgins. I also see Ms. 
Jackson-Lee and I am going to turn it over to my friend and 
colleague Mr. Honda. So I want to thank you Mr. Honda.
    Mr. Lankford. Mr. Loebsack.

STATEMENT OF HON. DAVID LOEBSACK, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. Loebsack. Thank you Mr. Lankford. I, in particular, 
want to thank Chairman Ryan and Ranking Member Van Hollen for 
the opportunity to testify today about Iowans priorities for 
the 2013 budget.
    Last year, in my testimony, I urged Congress to come 
together to address the great challenges facing our nation. As 
I testified then, these challenges demand tough, common sense 
choices, and serious bipartisan work. That has not changed. 
Iowans want Washington to come together and make thoughtful 
decisions that reduce the unsustainable deficit and prioritize 
economic recovery. We missed a major opportunity, I think, last 
year, and I share Iowans disappointment with Congress's 
inability to work together and address the fiscal crisis facing 
our nation. That has not gone away. I sincerely hope that 
partisan differences can be put aside and that these priorities 
will be reflected in the 2013 budget.
    Last year, I strongly urged Congress to go big, as many of 
my colleagues did on both sides of the aisle, and aim for $4 
trillion in deficit reduction. I also made it clear that I am 
willing to compromise and consider any serious balanced 
proposal to reduce the deficit. That is why I have supported 
two bipartisan balanced budget amendment proposals.
    We all must be willing to make sacrifices to get our 
country back on track, but that burden needs to be balanced. We 
cannot, and should not, balance the budget on the backs of the 
poor and the middle class. As an Iowan, I know agriculture is 
willing to contribute through streamlining of farm support 
programs, and cutting subsidies for storing certain 
commodities. As a member of the Armed Services Committee, I 
fully support cutting at least two brigade combat teams from 
Europe, and believe we need to take a hard-nosed look at the 
number of troops we have deployed in Cold War legacy locations 
around the world. Again, as a member of the Armed Services 
Committee, that is why I am addressing those particular issues.
    There are many other areas we could look at for savings, I 
believe, including adopting a proposal I have pushed for years 
to cut members of Congress pay for the first time since the 
Great Depression and raising the retirement age at which 
members of Congress are allowed to receive their pensions. 
Iowans are right to be outraged when their tax payer dollars 
are misspent. American tax payers should not be paying for the 
same service three times, for example.
    We also need to sell federal property that the government 
has no need to spend money on, including power generating 
assets like the Tennessee Valley Authority which could save 
tens of billions of dollars. There are also too many 
inefficient tax loopholes and special interest giveaways that 
we need to get rid of. The tax code needs to be streamlined and 
it needs to be simplified.
    I was raised in poverty by a single mom and my grandmother, 
and I share Iowans very real concerns, not just about what the 
future holds, but about what the day to day holds for middle 
class families who just cannot catch a break in this economy, 
and for those families who have fallen out of the middle class. 
I think we must promote an economy that works for all 
Americans, and we must promote and strengthen safety nets like 
Social Security and Medicare, so that many Iowans who rely on 
those two programs will in fact have security in their 
retirement, and succeeding generations as well.
    Far too many middle class families are wondering how they 
are going to afford to send their kids to college. Our nation 
cannot retreat from our commitments to college access and 
affordability by reducing Pell grants and other critical 
student aid assistance. We simply cannot reduce that 
assistance. I hear time and again from employers in Iowa that 
the workforce looking for jobs often does not have the skills 
needed to do the work for the jobs that are open. I urge the 
committee to support workforce training, to provide American 
workers with the ongoing training and skills they need to 
secure good paying jobs, and for employers to be able to find 
the workforce they need to grow. That training extends to the 
specific needs facing our veterans as well. No man or woman who 
has served our country in uniform should have to fight for a 
job or their benefits here at home, especially when they were 
willing to fight for our country prior to coming back to 
America. I urge support for job training, transition 
assistance, and benefit programs for those who have served our 
nation so proudly.
    Our country is facing an economic downturn that I think we 
all can agree has gone on for far too long, and a long-term 
deficit, I think we all can agree, that is threatening our 
country's economic future. We must lay political differences 
aside, or as I like to say, we have to political arms down, and 
we have to seize what is an opportunity, I believe, to make 
meaningful reductions to the deficit, to grow the economy, and 
to support middle class families. We can do all of this at the 
same time. I urge you to consider these proposals and I thank 
you again for having me today and allowing me to testify and I 
appreciate it very much, thanks.
    [The prepared statement of David Loebsack follows:]

Prepared Statement of Hon. Dave Loebsack, a Representative in Congress 
                         From the State of Iowa

    Chairman Ryan and Ranking Member Van Hollen, thank you for the 
opportunity to testify about Iowans' priorities for the 2013 budget.
    Last year in my testimony, I urged Congress to come together to 
address the great challenges facing our nation. As I testified then, 
these challenges demand tough, commonsense choices and serious, 
bipartisan work. That has not changed.
    Iowans want Washington to come together and make thoughtful 
decisions that reduce the unsustainable deficit and prioritize economic 
recovery. We missed a major opportunity last year, and I share Iowans' 
disappointment with Congress' inability to work together and address 
the fiscal crisis facing our nation. I sincerely hope that partisan 
differences can be put aside and that these priorities will be 
reflected in the 2013 budget.
    Last year, I strongly urged Congress to ``go big'' and aim for $4 
trillion in deficit reduction. I also made it clear that I am willing 
to compromise and consider any serious, balanced proposal to reduce the 
deficit. That is why I have supported two bipartisan balanced budget 
amendment proposals.
    We all must be willing to make sacrifices to get our country back 
on track, but that burden needs to be balanced. We cannot and should 
not balance the budget on the backs of the poor and middle class.
    As an Iowan, I know agriculture is willing to contribute through 
streamlining of farm support programs and cutting subsidies for storing 
certain commodities.
    As a member of the Armed Services Committee, I fully support 
cutting at least two Brigade Combat Teams from Europe and believe we 
need to take a hard-nosed look at the number of troops we have deployed 
in Cold War-legacy locations around the world.
    There are many other areas we could look at for savings, including 
adopting a proposal I've pushed for years to cut Members of Congress' 
pay for the first time since the Great Depression and raising the 
retirement age at which Members of Congress receive their pensions.
    Iowans are right to be outraged when their taxpayer dollars are 
misspent. American taxpayers shouldn't be paying for the same service 
three times. We also need to sell federal property that the government 
has no need to spend money on, including power generating assets like 
the Tennessee Valley Authority which could save tens of billions.
    There are also too many inefficient tax loopholes and special 
interest giveaways that we need to get rid of. The tax code should be 
streamlined and simplified.
    I was raised in poverty by my single mom and my grandmother, and I 
share Iowans' very real concerns not just about what the future holds, 
but about what the day to day holds for middle-class families who just 
can't catch a break in this economy.
    We must promote an economy that works for all Americans, and we 
must protect and strengthen safety nets like Social Security and 
Medicare that so many Iowans rely on for security in retirement.
    Far too many middle-class families are wondering how they're going 
to afford to send their kids to college. Our nation cannot retreat from 
our commitments to college access and affordability by reducing Pell 
Grants and other critical student aid assistance.
    I hear time and again from employers in Iowa that the workforce 
looking for jobs often doesn't have the skills needed to do the work 
for the jobs that are open. I urge the Committee to support workforce 
training to provide American workers with the ongoing training and 
skills they need to secure good-paying jobs and for employers to be 
able to find the workforce they need to grow.
    That training extends to the specific needs facing our veterans. No 
man or woman who has served our country in uniform should have to fight 
for a job or their benefits here at home. I urge support for job 
training, transition assistance, and benefits programs for those who 
have served our nation.
    Our country is facing an economic downturn that has gone on for far 
too long and a long-term deficit that is threatening our country's 
economic future. We must lay political differences aside and seize this 
opportunity to make meaningful reductions to the deficit, grow the 
economy, and support middle-class families.
    I urge you to consider these priorities. Thank you again for 
allowing me to testify today.

    Mr. Lankford. Thank you Mr. Loebsack. Mr. Higgins, you are 
recognized.

 STATEMENT OF HON. BRIAN HIGGINS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Higgins. Thank you very much Mr. Lankford and Mr. 
Honda, and also to Chairman Ryan and Ranking Member Van Hollen. 
I am here to urge you, in the strongest possible terms, to 
double the nation's commitment to cancer research. Funding for 
the National Cancer Institute and the National Institutes of 
Health are fundamentally important to tackling this disease 
that kills so many of our fellow Americans. The importance of 
cancer research is understanding that it has to be funded and 
sustained over the longer term. It does not work when you stop 
and start. The only failure in cancer research is when you 
quit, or you are forced to quit because of lack of funding.
    There were three ways, historically, to deal with cancer. 
You could burn it out through radiation, you could cut it out 
through surgery, or you could kill it through toxic chemicals. 
We know, because of our nation's commitment to cancer research, 
that there are promising new therapies called smart drugs that 
attack the cancer cells without hurting the healthy cells. We 
read recently of the use of vaccines, not only as prevention 
for cancer, but also as therapies. They boost the body's immune 
system to help the body better fight, naturally, cancers that 
exist within the body, but by not sustaining cancer research we 
are losing good research, but we are also losing good 
researchers who are leaving the field. Ten years ago, 20 to 25 
percent of cancer promising new research was funded. Today, it 
is about 8 percent. This nation has to understand the 
importance of sustained cancer research.
    I represent the first comprehensive cancer center in the 
entire nation, Roswell Park Cancer Institute. Buffalo, in 
western New York, gave the nation and the world cancer 
research. It started at the predecessor of Roswell Park Cancer 
Institute called the New York State Cancer Laboratory. Treating 
cancer early not only saves lives, but also saves the nation 
funding, so it is very important that this Congress recognize 
in a bipartisan way its moral responsibility to fully fund 
cancer research so that we can more effectively treat those who 
are afflicted and help heal, spiritually, those who love the 
afflicted.
    One thing, I just want to make note of as I conclude, and 
that is that less than 10 percent of cancer deaths are 
attributed to the original tumor. It is when cancer advances, 
when it moves, when it metastasizes to a vital organ is when it 
becomes lethal. Because of research, we have seen very 
promising drugs, smart drugs: Herceptin for breast cancer, 
Gleevec for gastrointestinal stromal tumors and chronic 
myelogenous leukemia, that have been highly effective in saving 
lives and saving this nation money. I implore you to include in 
a budget resolution a doubling of cancer research because these 
budgets, they do not only fund important programs, they are 
value statements. They say something about our nation and what 
we are committed to, and I respectively ask you to consider 
this testimony and that of others who are urging a doubling of 
cancer and biomedical research in this federal budget. With 
that, I yield back, thank you.
    [The prepared statement of Brian Higgins follows:]

Prepared Statement of Hon. Brian Higgins, a Representative in Congress 
                       From the State of New York

    Chairman Ryan, Ranking Member Van Hollen, members of the Committee, 
thank you for giving me the opportunity to testify before you today on 
the importance of a continued, sustained investment in cancer research. 
I call on you today to craft a budget resolution that projects a 
doubling of funding for cancer and biomedical research over the next 
five years. The only failure in cancer research is when you quit or are 
forced to quit because of lack of funding. If this Congress fails to 
realize the potential of promising research taking place right now, we 
will see losses in lives and jobs.
    For cancer research to be effective it has to be sustained over 
term. It can't stop and start because that's how you lose promising 
research and promising researchers. President Nixon recognized this 40 
years ago when he signed the National Cancer Act into law. Without the 
federal commitment established by that Act, we would not be seeing the 
progress that is being made today.
    And there is significant progress. Smart drugs--highly targeted 
treatments that attack fast growing cancer cells without damaging 
healthy cells--are improving life quality for thousands of cancer 
patients. Cancer vaccines--immunotherapies that prevent cells from 
mutating to become cancerous--will eventually make it possible for 
cancer patients of all types to proactively prevent their cancer from 
spreading. Just last month, researchers at Roswell Park Cancer 
Institute in my district announced a pathway for delivering vaccines to 
cells that will be commercially practicable.
    And Roswell Park, as one of the National Cancer Institute's 40 most 
prestigious comprehensive cancer centers in the country, would not be 
able to carry out its significant research mission without the federal 
government's support.
    But the federal government's commitment is not keeping pace with 
the needs of the scientific community nor the demands of the 
constituents we serve. Now, only one in six research applications are 
getting funded, thwarting potential promising research. These 
scientists are not sitting on their hands--they are packing up and 
moving overseas. By not providing a strategic framework for research 
funding, we run the risk of losing our global advantage in biomedical 
research.
    So now is the time to redouble our efforts and recommit ourselves 
to this most worthy cause at a time when our constituents need us to 
show leadership most.
    I urge you to join me in this effort.
    Thank you

    Mr. Lankford. Thank you Mr. Higgins. Mr. Critz.

STATEMENT OF HON. MARK CRITZ, A REPRESENTATIVE IN CONGRESS FROM 
                   THE STATE OF PENNSYLVANIA

    Mr. Critz. Thank you Mr. Chairman, Mr. Lankford, Mr. Honda, 
and I also want to thank Chairman Ryan, Ranking Member Van 
Hollen, and other distinguished members of the committee; thank 
you for the opportunity to testify here today.
    As we continue the discussion on the proper fiscal course 
for our country, it behooves us to remember that despite our 
ideological differences, we are all in agreement that solving 
our budgetary challenges in a way that stimulates job creation 
and economic growth should be our number one priority. If we 
use this common ground as a starting point, the fiscal year 
2013 budget can put Americans back to work and promote 
nationwide prosperity. If, however, in the coming months we 
choose to play politics with the well-being of the most 
vulnerable among us, the results will be disastrous for 
everyone. Too often we hear of proposals to drastically slash 
Social Security, Medicare, and veteran's benefits. These 
proposals are presented to us under the guise of fiscal 
austerity, but they are clearly part of a partisan agenda. The 
benefits stemming from any deficit reduction they might 
generate pale in comparison to the disastrous implications they 
carry for our seniors, our veterans, and working families 
across America. These individual have played a central role in 
building and maintaining America's greatness. To cut off the 
lifelines our government has put in place to support them is to 
display callousness, not courage, and to prioritize politics 
over fiscal and economic progress.
    A number of the programs that help seniors to live happy 
and healthy lives and to keep them from slipping into poverty 
came under an unprecedented assault during last year's budget 
season. This committee presented members with a plan which 
would have had a number of devastating implications for 
Medicare recipients and the solvency of the Medicare program 
for future generations. That plan proposed to replace Medicare 
as we know it with an underfunded defined contribution system 
which would have encouraged discrimination, promoted rationing, 
and doubled or possibly even tripled out-of-pocket expense 
costs for beneficiaries. It could have also led to more 
widespread fraud and abuse by turning over billions of dollars 
to the insurance industry without any mechanism for enforcing 
accountability, and these negative consequences are just the 
tip of the iceberg.
    The plan would have also made deep cuts to Social Security. 
Studies suggest that if it had been approved, the plan would 
have cut benefits for 70 percent of recipients through price 
indexing, the benefit formula, and cut benefits for all 
recipients by accelerating the eligibility age increase and 
eventually indexing the full retirement age to life expectancy.
    Mr. Chairman, if we are going to make Social Security and 
Medicare reform part of our plan to reduce the deficit, our 
focus should be on rooting out fraud and abuse, not on cutting 
benefits. If we are going to ask everyday hard-working 
Americans to sacrifice, then we must also ask millionaires and 
billionaires to sacrifice as well.
    Last year, adherence to a flawed budget policy called in 
the demolition crew when what we really needed was a sober and 
steady hand of a surgeon. Instead of using a scalpel to 
methodically cut the waste, these individual took a 
sledgehammer to the programs our seniors rely on most heavily 
for support, but the policy was not just flawed for what it 
proposed to do to seniors, it also would have had devastating 
consequences for those who have served our country in uniform. 
Over 1.3 million veterans would have lost eligibility for VA 
health care, and according to the Congressional Budget Office, 
this would have left 130,000 veterans with no health care 
alternative.
    A poll taken last year by Military Advantage asked 
respondents if veterans should be required to sacrifice their 
benefits in the interest of reducing the deficit. An 
overwhelming 88 percent said no, but despite the vast majority 
of Americans being strongly against balancing the budget on the 
backs of those who have served our country in uniform, there 
are still those who are willing to put the programs these 
individuals rely on for health and security on the chopping 
block.
    Mr. Chairman, the bottom line is this: We cannot follow a 
budget formula that leaves seniors and veterans to fend for 
themselves. We must condemn slash and burn measures in favor a 
framework that makes responsible reforms while still preserving 
the integrity of Medicare, Social Security, and health benefits 
for those who worn the uniform of a grateful nation. The 
president's fiscal year 2013 budget does just that. It 
generates $360 billion in savings over 10 years through a 
variety of changes to Medicare and other mandatory health 
programs; the majority of these deficit reducing changes, 
however, come from alterations to provider payment policies and 
do not affect beneficiaries in any way. It also expresses a 
clear commitment to keeping Social Security viable and solvent 
for future generations, and proposes increased funding and 
support for VA medical care and programs addressing veterans 
unemployment and veterans homelessness.
    In putting together the fiscal year 2013 proposal, the 
president embraced a fact that has stood the test of time that 
shared sacrifice breeds shared prosperity. Let us work together 
to get our fiscal house in order in a responsible way that puts 
our economy back on the path to prosperity. Mr. Chairman, I 
thank you and the committee once more for your time. In 
preparing for the fiscal year 2013 budget I urge you to put 
politics aside and protect our promise to seniors, veterans, 
and working families. I stand ready to help any way I can. 
Thank you very much.
    [The prepared statement of Mark Critz follows:]

Prepared Statement of Hon. Mark S. Critz, a Representative in Congress 
                     From the State of Pennsylvania

    Chairman Ryan, Ranking Member Van Hollen, other distinguished 
members of the Committee, thank you for the opportunity to testify here 
today.
    As we continue the discussion on the proper fiscal course for our 
country, it behooves us to remember that despite our ideological 
differences, we are all in agreement that solving our budgetary 
challenges in a way that stimulates job creation and economic growth 
should be our number one priority.
    If we use this common ground as a starting point, the fiscal year 
2013 budget can put Americans back to work and promote nationwide 
prosperity. If, however, in the coming months, we choose to play 
politics with the wellbeing of the most vulnerable among us, the 
results will be disastrous for everyone.
    Too often, we hear of proposals to drastically slash Social 
Security, Medicare and veterans' benefits. These proposals are 
presented to us under the guise of fiscal austerity, but they are 
clearly part of a partisan agenda. The benefits stemming from any 
deficit reduction they might generate pale in comparison to the 
disastrous implications they carry for our seniors, our veterans and 
working-families across America.
    These individuals have played a central role in building and 
maintaining America's greatness. To cut off the lifelines our 
government has put in place to support them is to display callousness, 
not courage, and to prioritize politics over fiscal and economic 
progress.
    A number of the programs that help seniors to live happy and 
healthy lives, and to keep them from slipping into poverty, came under 
an unprecedented assault during last year's budget season. This 
Committee presented Members with a plan which would have had a number 
of devastating implications for current Medicare recipients and the 
solvency of the Medicare program for future generations.
    That plan proposed to replace Medicare as we know it with an 
underfunded, defined contribution system which would have encouraged 
insidious discrimination, promoted rationing and doubled--or possibly 
even tripled--out of pocket costs for beneficiaries. It could have also 
led to more widespread fraud and abuse by turning over billions of 
dollars to the insurance industry without any mechanism for enforcing 
accountability--and these negative consequences are just the tip of the 
iceberg.
    The plan would have also made deep cuts to Social Security. Studies 
suggest that if it had been approved, the plan would have cut benefits 
for 70 percent of recipients through price indexing the benefit formula 
and cut benefits for all recipients by accelerating the eligibility age 
increase and eventually indexing the full retirement age to life 
expectancy.
    Mr. Chairman, if we are going to make Social Security and Medicare 
reform part of our plan to reduce the deficit, our focus should be on 
rooting out fraud and abuse, not on cutting benefits. If we are going 
to ask every day, hard-working Americans to sacrifice, then we must 
also ask millionaires and billionaires to sacrifice as well.
    Last year, adherents to a flawed budget policy called in the 
demolition crew when what we really needed was the sober and steady 
hand of a surgeon; instead of using a scalpel to methodically cut the 
waste, these individuals took a sledgehammer to the programs our 
seniors rely on most heavily for support.
    But the policy was not just flawed for what it proposed to do to 
seniors. It also would have had devastating consequences for those who 
have served our country in uniform.
    Over 1.3 million Veterans would have lost eligibility for VA 
healthcare, and, according to the Congressional Budget Office, this 
would have left 130,000 veterans with no healthcare alternative.
    A poll taken last year by Military Advantage asked respondents if 
veterans should be required to sacrifice their benefits in the interest 
of reducing the deficit. An overwhelming 88 percent said no. But 
despite the vast majority of Americans being strongly against balancing 
the budget on the backs of those who have served our country in 
uniform, there are still those who are willing to put the programs 
these individuals rely on for health and security on the chopping 
block.
    Mr. Chairman, the bottom line is this: we cannot follow a budget 
formula that leaves seniors and veterans to fend for themselves. We 
must eschew slash and burn measures in favor of a framework that makes 
responsible reforms while still preserving the integrity of Medicare, 
Social Security and health benefits for those who have worn the uniform 
of a grateful nation.
    The President's Fiscal Year 2013 budget does just that. It 
generates $360 billion in savings over ten years through a variety of 
changes to Medicare and other mandatory health programs. The majority 
of these deficit-reducing changes, however, come from alterations to 
provider payment policies and do not affect beneficiaries in any way. 
It also expresses a clear commitment to keeping Social Security viable 
and solvent for future generations and proposes increased funding and 
support for VA medical care and programs addressing veterans' 
unemployment and veterans' homelessness.
    In putting together the fiscal year 2013 proposal, the President 
embraced a fact that has stood the test of time: that shared sacrifice 
breeds shared prosperity. Let us work together to get our fiscal house 
in order in a responsible way that puts our economy back on the path to 
prosperity.
    Mr. Chairman, I thank you and the Committee once more for your 
time. In preparing for the fiscal year 2013 budget, I urge you to put 
politics aside and protect our promise to seniors, veterans and working 
families. Thank you.

    Mr. Lankford. Thank you Mr. Critz.
    Mr. Honda. I want to thank you, too, for a very impassioned 
presentation.
    Mr. Lankford. Ms. Jackson Lee.

   STATEMENT OF HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Jackson Lee. Thank you very much to the chairman 
certainly thank you to Mr. Honda, and thank you to the 
chairperson in absence, Mr. Ryan, and the ranking member in 
absence, Mr. Van Hollen, for your multiple leadership and 
patience with members. I am going to try and speak as fast as I 
can and emphasize, really, a listing of what I hope will be 
considered by the budget committee.
    First of all, I need to say that we can all do better with 
respect to jobs in America because someone is either listening, 
or will be reading the transcript, or following the budget 
committee and will note for a fact that they do not have a job, 
but at the same time I think we can acknowledge very quickly 
that we have had some 23 months of economic growth. We have 
seen corporate profits grow, we have seen jobs develop more in 
this country, and so we know that the efforts that this 
administration made, and President Obama, have been an 
effective approach. The work that has been done by members of 
the Budget Committee led by Ranking Member Van Hollen has also 
been enormously effective.
    I am the ranking member and former chair of the 
Transportation Security Committee, and might I just bring to 
the committee's attention that a report came out that said 
2,287 attacks are carried out with the intent of harming public 
surface transportation. So I ask the Budget Committee to 
consider that 65 percent of homeland security or terrorist 
attacks were against buses, bus stations, and bus stops, and 
therefore I would ask that we consider, seriously, the 
budgeting process on transportation security.
    Just recently, we noticed a, if you will, intrusion on 
airport or aviation permit security, meaning airports that were 
subject to vulnerabilities, and I would ask that there be a 
consideration of the amount of money that is necessary for 
that. The budget of the president had $196.434 million and I 
would ask that we are in keeping with that, or certainly not 
lowering that any more. To protect the homeland has been a 
victory for all of us, and we should continue to do so.
    I ask for continued support for the Violence Against 
Women's Act and note that we have had a number of staff lay-
offs, over 2,000 in that program and that program has saved 
lives. I asked for continued support of the COPS program, the 
Second Chance program, noting that many rural and urban 
communities rely upon the enhancement or the added ability of 
using extra cops on the beat, if you will.
    In the Defense and Foreign and Veterans Affairs I would 
indicate that Haiti is a work in progress, and continues to 
need the support in foreign affairs, but support of this budget 
committee as well as to ensure that with the many conflicts 
around the world, that we provide the State Department with the 
funding they need that they have been able to accomplish in 
conflict resolution.
    When we look at health care, I think it is Medicare, 
Medicare, Medicare. I had asked this committee to consider to 
not in any way sever the Medicare guarantee. That will 
undermine every senior in this nation. We recognize that we 
must look at spending, but I can fully say that the Affordable 
Care Act has provided us a very strong mark on reduction of 
health care, and I would indicate that we have been able to 
provide to 20 million Americans good health care. So I would 
ask that we continue to support elements such as community 
health centers that have been able to open more patient rooms 
and provide more care in more areas than probably any other 
aspect.
    People still die of AIDS, and I would ask a continuation of 
support for treatment of AIDS, and particularly in the African-
American community; we are disproportionately affected by HIV/
AIDS and I would ask for that support.
    Sickle cell disease is a most common inherited disorder 
among African-Americans. It is an area that we have not focused 
on, Mr. Chairman, and I would ask that the funding of sickle 
cell, which is diminished, be reviewed, and I will be offering 
a particular letter of support, regarding sickle cell anemia 
that has lost funding.
    In family planning, while I know that that is a conflicted, 
if you will, issue, but let me just say, family planning deals 
with saving lives. Family planning deals with women's access to 
health care, and I would argue that we need to ensure a non-
partisan to women's access to health care.
    I want to bring your attention and support the idea of full 
funding for cancer research, but cancer cure. I happen to 
represent aspects of MD Anderson, the premier cancer and 
research hospital in the world. They are now looking at 
biotechnology with presenting a cure for cancer. I would ask 
for full funding for that, and full funding for preventing teen 
pregnancy.
    I do believe we have to find the route to deficit 
reduction, and if I might, Mr. Chairman, just quickly say that 
I support tax reform and the reduction of tax rates. I have 
introduced deficit reduction job creation energy security bill, 
and would offer to say to you that we have to, in a combined 
way, do that. I support the funding of the HUD program, 
multifamily program, and the full funding of veterans' needs.
    Finally, let me just say that I would also indicate that 
the southwest and regions in the country suffered enormous 
impact of the drought. We have lost, if you will, ranching 
capacity. We have lost millions of trees, the funding of the 
U.S. Department of Agriculture and Interior on issues of 
remediation with respect to drought, the impact of drought to 
provide the funding necessary to bring those regions back along 
with full disaster relief funding, I believe, would be 
enormously important.
    Mr. Chairman, I would ask that you be able to put my entire 
statement in the record and I have an additional listing that I 
would ultimately like to be able to submit if I am allowed 
within the five day period to submit that list of items that I 
am particularly interested in, and I thank the chairperson and 
the committee, and the ranking member for their graciousness 
and courtesies to members.
    [The prepared statement of Sheila Jackson Lee follows:]

  Prepared Statement of Hon. Sheila Jackson Lee, a Representative in 
                    Congress From the State of Texas

    Chairman Ryan and Ranking Member Van Hollen, thank you for allowing 
me to testify before the Budget Committee. I come before you to 
highlight a myriad of issues that are important to this Nation. It is 
imperative to note that before I begin discussing FY 2013 budget, we 
must take a moment to acknowledge that FY 2012 appropriations law was 
delivered only after fierce debate regarding the serious cuts posed to 
critical programs, including those within the Department of Homeland 
Security.
    Nonetheless, I stand here today and declare that the federal budget 
is a moral document, with meaning, fiber, and a unique texture. I could 
wax on and on today about the baseline as an extrapolation of future 
budget conditions, based on the assumption that current policies will 
continue in effect, et. cetera, et. cetera.
    But the budget we craft, and what we do here today in the hallowed 
halls of Congress is really about the American people and the impact 
that our budget and fiscal policy decisions will have on them. The 
elephant in the room is entitlement policy. Unlike discretionary 
spending, mandatory spending grew rapidly from 5% of GDP in 1962 to a 
range of 9% to 10.5% of GDP from 1975 to 2007, peaking in recession 
years because of automatic stabilizers.
    It exceeded 13% of GDP from 2009 to 2011, marking its highest share 
of GDP since data were first compiled in 1962. In contrast to 
discretionary spending, mandatory spending is projected to continue to 
grow faster than inflation and exceed 13% of GDP over the next 10 years 
under current policy. We must confront this head-on. The Affordable 
Care Act was a monumental step in the right direction.
    I am here to say that any type of entitlement reform will not be 
done on the backs of little old ladies in the 18th District of Texas.
    Step back and recognize: prior generations faithfully paid into the 
current system and cannot be told that they were sold a bill of goods, 
and that their benefits must not be ``reformed.''
    That is an outrage!
    And speaking of Texas, in the prior fiscal year, my hometown of 
Houston, Texas was forced to lay off nearly one thousand municipal 
employees. When these employees are put on the unemployment line, 
libraries close, schools cut back on essential after-school programs, 
community centers lose personnel, police hours are trimmed, and the 
truly destitute become an after-thought.
    Those tough budget decisions had a human cost and I here from my 
constituents every day about them, and frankly, I don't want tax cuts 
for the wealthy at the expense of jobs for people in Texas.
    To provide you a brief roadmap, my written testimony touches on the 
broad themes of (1)Transportation Security, (2)Justice and related 
programs, (3)Defense and Veterans Affairs, (4)Healthcare, and 
(5)Deficit and Taxation. Interwoven with those will be related but not 
necessarily minor points concerning Energy Security, Education and 
STEM, Housing and Homelessness, the allocation of Natural Resources, 
Agriculture and Domestic Food Policy, and Diplomacy and Peace.
    President Obama has noted repeatedly that the car was in the ditch 
when he assumed the Presidency in winter of 2009. I am ready to rev up 
that car and work with my colleagues in a bi-partisan fashion to not 
only pull it out of the ditch, but also put it back on the road that 
leads to economic productivity, sustained growth, deficit reduction, 
and American prosperity.
                        transportation security
    As the Ranking Member of the House Committee on Homeland Security 
Subcommittee on Transportation Security, I have heard critical 
testimony from Secretary Napolitano regarding the FY 2013 budget 
request and the proposed funding levels for security programs, 
particularly those aimed at enhancing the security of our 
transportation sector.
    The FY 2013 budget discussion surrounding homeland security matters 
must take into account the FY 2012 appropriations law, which many of us 
opposed, because it shortchanged homeland security in a number of 
troubling ways.
    With this backdrop and the prospect of an even less favorable 
budget environment for FY 2013, I can understand the President's desire 
to submit a Homeland Security budget proposal that comes in $1.3 
billion less than last year's budget.
    The President's FY 2013 budget request for the Transportation 
Security Administration (TSA) is $7.64 billion in total budget 
authority, which represents a decrease of $196.434 million from the FY 
2012, enacted level. The bulk of the TSA budget authority is dedicated 
to aviation security operations, resulting in less than 2% of the 
proposed funding being dedicated to surface transportation security.
    Earlier this month, the Mineta Transportation Institute released a 
report highlighting that 2,287 attacks were carried out with the intent 
of harming public surface transportation between January 1, 1970 and 
November 1, 2011. More than seven thousand people were killed as a 
result of these attacks and more than 29,000 were injured.
    Of these attacks, 65 percent were against buses, bus stations, and 
bus stops. I strongly encourage the Budget Committee to give serious 
consideration to these statistics and ensure surface and mass transit 
security is not shortchanged.
    On the aviation front, we continue to learn of breaches throughout 
our aviation security programs that expose vulnerabilities at our 
airports. One concern that deserves enhanced attention is how perimeter 
security is addressed at our airports.
    Just last week a driver accelerated through an unmanned gate and 
drove onto airport property as a plane was taking off at Philadelphia 
International Airport. We cannot leave TSA without the resources it 
needs to address vulnerabilities relating to perimeter security. The 
Transportation Security Administration must be allocated the resources 
it needs to carry out its security mission.
    I encourage the Committee to place a particular emphasis on the 
mission critical areas of Perimeter Security and Training of all 
Crewmembers Aboard Passenger Aircraft, and Surface and Mass 
Transportation Security.
    Also, we must restore grant funding aimed at enhancing transit 
security in the National Preparedness Grant Program. As I have 
expressed before, I have serious concerns about the funding level 
sought for this consolidated grant program.
    Mr. Chairman, our spending for Transportation Security must remain 
a priority--the American people are counting on us.
                      justice and related programs
    It is also imperative that Congress invest in programs that address 
the needs of victims, such as the Violence Against Women Act (VAWA) and 
the Family Violence Prevention and Services Act (FVPSA).
    Not only do these programs save lives, but they also save money. 
Studies show that domestic violence has declined significantly since 
VAWA was first enacted in 1994, which is estimated to have saved 
taxpayers at least $14.8 billion in net averted social costs in its 
first six years.
    The economic climate, however, has created a severe budget crisis 
for programs that hold perpetrators accountable and provide safety for 
victims across the country. In 2010, domestic violence programs laid 
off or did not replace 2,000 staff positions including counselors, 
advocates and children's advocates, and shelters around the country 
closed.
    According to a 2010 survey of rape crisis centers, 70% of programs 
experienced a reduction in funding over the past year and 57% were 
forced to reduce staff.
    In addition, programs such as COPS, the Second Chance Act, and 
programs that ensure that those in the immigration system are afforded 
humane and professional treatment.
                 defense, foreign, and veterans affairs
    The budget resolution that we agree to for FY 2013 should also 
reemphasize the importance of the two ``Ds''--diplomacy and 
development--which, along with defense, forms the core of our national 
security and foreign policy.
    I want to highlight some of the important issues facing our foreign 
policy, and I hope that you, Mr. Chairman, will have an opportunity to 
address them as we move forward in the budget process.
    First and foremost, I would like to again address the issue of 
Haiti. As you well know, American and her allies in 2010 initiated a 
comprehensive, interagency response to the earthquake. This effort 
spearheaded by the US Agency for State Department, was unprecedented 
and extraordinary.
    The State Department, the Department of Defense, Department of 
Homeland Security, Coast Guard--all worked overnight to ensure critical 
resources were positioned to support the response and recovery effort, 
including efforts to find and assist American citizens in Haiti.
    Our work in Haiti though, has only begun--we have a moral 
obligation to work with our Caribbean neighbor--to help them to help 
themselves to be put back on a course of national prosperity and its 
rightful place at the table of nations.
    On the global front, by working with nations to combat, disease, 
violence, and terrorism, and encouraging environmental responsibility 
and education, we can begin to take steps towards creating better 
environments for less-advantaged nations, and particularly their 
vulnerable women and children. Humanitarian assistance is also a first 
step in reaching out to women and girls who are subject to the Shariah 
law or other oppressive laws or regimes.
    It results in not just monetary assistance, but also education and 
training assistance that ensures effective and efficient programs. 
Working not simply through USAID, but rather broadening our initiatives 
internationally can ensure a cooperative and diverse aid system that 
can save lives and foster international stability and cooperation.
    I would also posit that it is essential that we allocate the money 
spent on previous wars to programs like USAID which promote peace--the 
war savings dividend must be re-invested in the ``Humanity Growth 
Fund!''
                               healthcare
    The over-arching point about health care is that even with the epic 
passage of the Affordable Healthcare Act, health care spending is still 
a large and rapidly growing part of the budget, mainly due to Medicare 
expenditures and federal matching payments to states for Medicaid.
    One of my top priorities is maintaining and increasing funding for 
medical facilities in Texas. For example, with an international 
reputation for excellence, the Ben Taub Hospital, Ginni and Richard 
Mithoff Trauma Center is one of only two Level I trauma centers in 
Harris County, Texas. Staffed by physicians from Baylor College of 
Medicine, this Houston trauma center provides the highest level of 
comprehensive care for patients with serious injuries or illness.
    In addition, the M.D. Andersen is world-renowned for research in 
cancer and other pernicious diseases. An amendment I offered last year 
was intended to increase funding to study triple negative breast 
cancer. The triple negative breast cancer strain is an aggressive type 
of breast cancer with lower survival rates than other strains.
    Between 13% and 25% of all breast cancer in the United States is of 
the triple negative variety. Triple negative breast cancer accounts for 
30% of all diagnoses among African American women. It is essential to 
fund research that will develop a targeted treatment method for this 
type of breast cancer.
    Because I, along with many others, believe we must fully fund 
efforts to eradicate cancer and other diseases, I hope you will lend 
support to this issue to increase funding to study the dangerous triple 
negative breast cancer strain.
    According to the Bipartisan Policy Center, spending for these two 
programs is projected to increase from 21 percent of non-interest 
federal spending in 2010 to 31percent by 2020. The numbers are wonkish 
sounding but in terms of real dollars, the increase is mammoth.
    National spending on health care has grown about 2 percentage 
points per year faster than GDP over time. Federal revenues, however, 
have not kept pace, growing at roughly the same rate as GDP.
    As a result, federal deficits will be driven upward by federal 
health programs unless their rate of growth is tamed. This discrepancy 
must be dealt with sooner rather than later, but no matter how you 
couch it, there is no better translation than the word: b-r-o-k-e.
    Having said that, I hasten to add that Community Health Centers 
provide much needed, high-quality healthcare to over 20 million 
Americans. These centers are able to serve vulnerable portions of the 
American population, including racial and ethnic minorities, as well as 
rural and low-income Americans.
    These centers play an integral role in closing gaps in the 
healthcare system, reducing broad disparities in access to quality 
care. In recognition of the importance of community health centers, 
funding has risen by $1.21 billion in the fiscal last year, creating a 
platform to serve 300,000 new patients. Remember, that serving new 
patients helps in promoting preventive medicine, which lowers costs 
down the road.
    Over half a million people have died of AIDS in America; this is 
equal to the entire population of Las Vegas. Currently, there are 1.2 
million people living with HIV in the U.S. One fifth of those affected 
are unaware of their infection, increasing the risk of onward 
transmission.
    African Americans are disproportionately affected by the AIDS 
epidemic. African Americans account for 40 percent of all recorded AIDS 
related deaths in the U.S. Factors such as heightened levels of poverty 
and lack of access to adequate healthcare shape the epidemic among 
African Americans.
    In the U.S. about 17,000 people died of AIDS in 2009 alone. This is 
unacceptable. These statistics paint a dire picture of the status of 
HIV/AIDS in the U.S. that must be addressed through augmenting programs 
such as the Ryan White Programs and the Minority AIDS Initiative, which 
serve to educate communities who are often outliers when it comes to 
health education.
    Sickle Cell disease is the most common inherited disorder among 
African-Americans, with 1 in 375 live births affected. 1 in 12, or two 
million African-Americans, are carriers of the disease. More than 
100,000 Americans live with sickle cell disease.
    Funding of Sickle Cell research will allow: (1) continued funding 
of a stable number of regional networks and (2)the expansion and 
upgrade of data collection efforts, capacity and analysis to more fully 
achieve the evidence to evaluate the network activities and outcomes.
    In addition, recent events have brought to light the true peril 
that could await women's access to health care. That is why the $327.4 
million for the Title X Family Planning Program is a key component of 
our nation's health care infrastructure and a fundamental part of 
building a women's health care delivery system that will meet the 
growing demand for care under the Affordable Care Act.
    In addition, increased funding for the Infertility Prevention 
Program because family planning is not just about preventing unintended 
pregnancy; it is also about planning for families. Screening and 
treatment for STDs is an essential part of planning for a healthy 
pregnancy.
    I also must note that $130 million for the Teen Pregnancy 
Prevention Initiative because young people need reliable, accurate 
information to make responsible decisions and stay healthy, and there's 
never been a more critical need.
    According to the CDC, the teen birth rate has increased for the 
second year in a row and for the first time in more than a decade, the 
nation's teen pregnancy rate rose 3% in 2006. In addition, more than 
three million girls have a sexually transmitted infection. Increased 
investments to the tune of $130 million would grant sex education 
access to 100,000 additional kids.
    Increased funding for International Family Planning and 
Reproductive Health Programs are increasingly important. This unmet 
need for family planning is a missed opportunity to reduce the need for 
abortions, the majority of which are unsafe.
    Eliminating harmful policy riders that undermine women's access to 
abortion care including access for women on Medicaid, women who work 
for the federal government, Peace Corps volunteers, women in the 
military, women in prisons, the DC abortion ban, and others.
    Opponents of women's health care have abused the appropriations 
process to undermine women's access to comprehensive reproductive care, 
including abortion care. Through policy riders, opponents have limited 
access for women on Medicaid, women who work for the federal 
government, women who volunteer with the Peace Corps, women in the 
military, women in prisons, and others.
                                veterans
    The wars in Iraq and Afghanistan have brought renewed attention to 
the needs of veterans, including the needs of homeless veterans. Both 
male and female veterans have been overrepresented in the homeless 
population, and as the number of veterans increases due to these 
conflicts, I am concerned that the number of homeless veterans could 
rise commensurately. The recent economic downturn also has raised 
concerns that homelessness could increase among all groups, including 
veterans. As we witnessed in the Vietnam War and its aftermath, drastic 
consequences can ensue if we don't take care of our veterans. Moreover, 
attention must be paid to their mental health as well as their physical 
and financial needs.
    They have served our country and deserve to be treated as heroes 
and heroines, worthy of honor.
                                housing
    Homelessness in America has always existed, but it did not come to 
the public's attention as a national issue until the 1970s and 1980s, 
when the characteristics of the homeless population and their living 
arrangements began to change. In Houston, homelessness is a significant 
problem which are caused by a number of factors.
    According to studies from the time, homeless persons are no longer 
almost exclusively single men, but include women with children; their 
median age was younger; they are more racially diverse, while in 
previous decades the observed homeless population was largely white; 
they were less likely to be employed and therefore had lower incomes; 
they are mentally ill in higher proportions than previously; and 
individuals who were abusing or had abused drugs began to become more 
prevalent in the population. No matter, at the end of the day our 
homeless persons are the responsibility of all of society.
    A number of reasons have been offered for the growth in the number 
of homeless persons and their increasing visibility. Many cities 
demolished skid rows to make way for urban development, leaving some 
residents without affordable housing options. Other possible factors 
contributing to homelessness include the decreased availability of 
affordable housing generally, the reduced need for seasonal unskilled 
labor, the reduced likelihood that relatives will accommodate homeless 
family members, the decreased value of public benefits, and changed 
admissions standards at mental hospitals. The increased visibility of 
homeless people is due, in part, to the criminalization of actions such 
as public drunkenness, loitering, and vagrancy.
    Our America is one that helps and cares for its most vulnerable.
                            energy security
    The rapid growth and evolution of energy technologies and markets 
offer both promise and challenges. By way of background, energy 
development, production and consumption is driven by numerous laws 
concerned with protecting consumers, encouraging domestic industry and 
addressing conflicts over natural resources, pollution, and climate 
change. Regulations, subsidies and taxes further impact adoption of new 
technologies such as hydraulic fracturing, carbon sequestration, 
biofuels and clean energy like solar, wind, hydrokinetic and 
geothermal. Siting domestic and transborder transportation 
infrastructure such as the Keystone XL Pipeline raises questions of 
state and federal interests and authority. Finally, laws that govern 
the physical and financial markets in energy and associated resources 
shape not only demand and supply of energy but also impact the national 
economy.
    I have introduced H.R. 3710 which increases the acreage to 10 
percent of what is already allocable under a proposal by Interior 
Secretary Salazar, as announced on November 8th, 2011. In other words, 
more land will be available for exploration, in line with two 
objectives: decreasing our dependence on foreign sources for oil, and 
plugging our budget deficit.
    The monies will be deposited into the DRES Fund and invested by the 
Secretary of the Treasury, until the money is transferred to the 
Coastal and Ocean Sustainability Health Fund.(COSH) Annually, the 
Secretary of the Interior is required to lease 20 percent of the DRES. 
In addition, this bill will help foment job creation in an industry 
that is already responsible for 9.2 million American jobs.
    The bill also establishes the Deficit Reduction Energy Security 
Fund, housed within the United States Treasury Department, which will 
receive the accrued funds that are dedicated to deficit reduction. In 
order to ensure that the putative funds generated from the leasing 
activities which derive from this bill inure to the goal of deficit 
reduction, the legislation also sets up the aforementioned COSH.
    This bill establishes in the Department of the Treasury, the COSH, 
which shall fund grants for addressing coastal and ocean disasters; and 
programs and activities that restore, protect, maintain, manage, or 
understand marine resources and their habitats, and ocean, and coastal 
resources, including baseline scientific research, and other programs 
in coordination with federal and state agencies. Monies will be 
deposited into the COSH fund from interest accrued on OCS royalties, 
rents, revenues, and fees that will remain, for the period of one year, 
in the Fund before moving the entirety of the principle in the general 
Treasury. The bill authorizes the Secretary of Commerce to make grants 
for such purposes. I look forward to working with members of this 
Committee and our colleagues to ensure passage of this legislation.
                           education and stem
    More than 40 million adults have basic skills needs or limited 
proficiency in English that interfere with their ability to participate 
fully in work, family and community activities. Current funding reaches 
only 2.8 million of these adults each year and thousands more are on 
waiting lists.
    More than 77 percent of community-based literacy programs currently 
report waiting lists. Adult education and literacy programs play a key 
role in the success of other federal programs, including job training 
and welfare reform. They also help parents support their children's 
education and ensure that businesses are able to meet their workforce 
needs.
    We must continue working to improve college affordability & 
accessibility: The rising cost of a college education is squeezing 
millions of students and families who rely on access to an affordable 
education to compete in the competitive job market and to preserve 
their quality of life. As the cost of college outstrips middle class 
Americans' ability to pay, too many students are forced to take on high 
loan debt burdens and work long hours that interfere with their 
academic study. I'm determined to see that every Texan who wants to go 
to school will be able to afford it.
    I am proud to support efforts that bring much needed relief to our 
students in a fiscally-responsible way. I am especially proud of 
efforts that strengthen our nation's Minority-Serving Institutions, 
particularly in the STEM areas, so that students can stay in school, 
graduate and succeed in our global economy. We passed a bill in 2009 
that does this by investing $2.55 billion dollars in our nation's 
Minority-Serving Institutions over a ten year period. The estimate is 
that this funding will reach at least 500 institutions of higher 
learning. These investments will create a new generation of workers in 
STEM fields--professionals that our country desperately needs to remain 
competitive in the world.
                  agriculture and domestic food policy
    Over the years, Congress has authorized and the federal government 
has administered much-needed programs to provide food to the hungry and 
to other vulnerable populations in this country. Broadly, the programs 
contained in these laws are the Special Supplemental Nutrition Program 
for Women, Infants, and Children (WIC) as well as the ``child nutrition 
programs.''
    Child nutrition programs is a category used to describe the USDA-
FNS programs that help to provide food for children in school or 
institutional settings. The National School Lunch and School Breakfast 
programs provide a per-meal subsidy for each meal that is served for 
free, for a reduced-price, or for a full-price, called a ``paid'' meal.
    The Child and Adult Care Food Program (CACFP) and Summer Food 
Service Program (SFSP) will, under certain circumstances, provide free 
meals or snacks to all the children at a site, because it is the site 
(not the child) that is subject to eligibility criteria. The Fresh 
Fruit and Vegetable Program (FFVP), or snack program, is sometimes 
referred to as a child nutrition program. Fortunately, it was included 
in the 2008 farm bill.
                          deficit and taxation
    The cloud looming over this Congress is an unintended ``triple-
witching hour'' of tax increases that will take effect at the beginning 
of 2013.
    The expiration of the Bush Tax Cuts, the end of the recently 
extended Payroll Tax Cut, and increases in capital gains and dividends 
taxation will shock the conscience and wallets of the American people. 
That is why Congress needs to enact bi-partisan legislation that helps 
lower the deficit but does not wreck havoc on the financial soul of the 
middle class.
    But again, tax reform that lowers the rate, reduces the deficit, 
and does not pick winners and losers is not easy, but let's not forget, 
if President Reagan and then-Speaker Tip O'Neill could do it in 1986, 
anything is possible.
    In the Budget, the Administration calls for individual tax reform 
that: cuts the deficit by $1.5 trillion, including the expiration of 
the high-income 2001 and 2003 tax cuts. As a matter of sound fiscal 
policy, I am supportive of this effort. I recognize the putative 
economic benefits that many attribute to the Bush Tax Cuts, but we must 
ask ourselves are they affordable?
    The President's budget also eliminates inefficient and unfair tax 
breaks for millionaires while making all tax breaks at least as good 
for the middle class as for the wealthy; and observes the Buffett Rule 
that no household making more than $1 million a year pays less than 30 
percent of their income in taxes.
    The individual income tax is a hodgepodge of deductions, 
exemptions, and credits that provide special benefits to selected 
groups of taxpayers and favored forms of consumption and investment. 
These tax preferences make the income tax unfair because they can 
impose radically different burdens on two different taxpayers with the 
same income. In essence, Congress has been picking winners and losers.
    There is absolutely no justification for huge tax cuts. The 
wealthiest tax brackets should not profit at the expense of programs 
keeping struggling families from poverty.
    Bear in mind, the Republican's 2012 budget cut $2 trillion dollars 
more than President Obama's Debt Commission advised, and those cuts 
come from vital social services and safety nets for low income 
families, children and seniors.
    Tax expenditures also reduce the economy's productivity because 
decisions on earning, spending, and investment are driven by tax 
considerations rather than the price signals that a well-balanced, and 
fair free market economy produces. These expenditures, whether for 
individuals or corporations, are really no different than the much 
ballyhooed entitlement programs, but they have cute names and fancy 
lobbyists.
    Moreover, tax expenditures make the tax system excessively complex 
for honest taxpayers who are trying to comply with the law while 
seeking the benefits to which they are legally entitled.
    The system is so complex that most taxpayers--even those with low 
incomes--now use either a professional tax preparer or tax software. A 
one-page form shouldn't require a tax preparer who earns a percentage 
of the return, or a fee. It is not justifiable, especially when some 
commentators like to point out that a number of taxpayers pay no tax--
well they somehow conveniently forget to mention that these ``tax 
scofflaws'' making $30,000 dollars a year more than make up for it with 
a long list of regressive taxes at the state and local level, for 
starters.
    The alternative minimum tax, or AMT, was initially designed to 
ensure that all high-income taxpayers paid some income tax, has become 
the poster child for the tax system's failure, requiring Congress to 
enact increasingly expensive temporary patches to prevent the AMT from 
encroaching on millions of middle class households particularly those 
with children, in a web of pointless high tax rates, complexity, and 
unfairness.
    On the deficit reduction front it is important to remember the 
economic crisis that the President inherited. I remember back in 2008 
and 2009, when we experienced the worst recession since the Great 
Depression. The economy actually contracted, it shrunk, at a rate of 
almost 9 percent in the fourth quarter of 2008.
    We lost 800,000 private-sector jobs in January of 2009 alone, and 
unemployment was surging. Those are the conditions the President 
inherited--the car was swerving into the ditch. He was not the driver, 
but he was asked to come in on literally his first day of office, roll-
up his sleeves and figure out how to prevent the car from rolling 
farther down the hill.
    If you'll recall we also faced a housing market that was in crisis, 
and we faced a financial market crisis as well that threatened to set 
off a global financial collapse. We have a come a long way since then 
yet there is more work to be done.
    I would like to thank you once again for allowing me to appear 
before you and I look forward to working with you as we fashion a 
strong, fiscally sound budget for FY 2013 that maintains the moral 
integrity that a budget for the United States of America must have, in 
sustaining our Nation's priorities.

    Mr. Lankford. Thank you, without objection you may submit 
those things.
    Ms. Jackson Lee. Thank you.
    Mr. Lankford. Thank you. Mr. Ellison.

 STATEMENT OF HON. KEITH ELLISON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Ellison. Let me thank you, Mr. Chairman and I will also 
thank the chairman of the committee, Budget Committee Chairman 
Ryan, and Ranking Member Van Hollen. I do appreciate the 
attention of the budget committee, I am the co chair of the 
progressive caucus and we intend to submit a budget for review 
for the Congress this year, which we will be calling the 
people's budget, and in that particular budget we expect to be 
demonstrating, and the budget will reflect our values, as all 
budget reflect the values of their authors. The people's 
budget, which we do intend to submit, is based on the values of 
fiscal soundness, fairness, and shared contribution. Our budget 
asks basic questions: Do we value tax cuts for the wealthy more 
than rebuilding our basic infrastructure? Do we value subsidies 
for oil companies more than we value Medicare and health care 
for veterans? Working families face waning public investment, a 
fraying safety net, and a tax system rigged to favor the 
wealthy. Our budget must rebuild our economy so that it works 
for everyone, not just a privileged few.
    Let me turn, first, to defense spending. First we need a 
sustainable Pentagon budget that reflects sound national 
security strategy. Defense spending nearly doubled over the 
last decade. With two wars drawing to a close, we need a 
leaner, more agile force to combat 21st century threats. For 
example, we should cancel the F-35 joint strike fighter 
program, which has seen exorbitant cost overruns, but even as 
we rejoice in having our distinguished men and women coming 
home from Iraq and Afghanistan, our veterans services are 
facing drastic cuts. Are we really willing to continue funding 
outdated weaponry while cutting veteran training and employment 
services? A responsible budget should reduce the baseline 
military spending to focus on the needs of modern warfare and 
redirect those funds to priorities such as caring for our 
veterans.
    Let me focus on the oil industry exemptions. America also 
cannot afford to corporate welfare for the oil and gas 
industry. Last year the big five oil companies made a combined 
profit of $137 billion. We are not against companies and 
corporations that try to turn a profit, but I hardly think that 
they need the tax payer subsidy. Exxon Mobil, Chevron, 
ConocoPhillips were ranked first, fourth, and 15th most 
profitable companies, and yet these companies argue that they 
cannot afford to lose their tax payer funded subsidies. Over 
many decades of successful lobbying, these industries have 
carved out a long list of loopholes to the tune of about $4 
billion a year. It is time for these funds to go to middle 
class families, small businesses, and to repairing our nation's 
infrastructure.
    Jobs are a top priority and value of our budget. Our 
budget, our people's budget, must put Americans back to work 
rebuilding our great country. America needs to rebuild roads 
and bridges and dams and waterways. Right now, more than 69,000 
bridges across the United States required significant 
maintenance or replacement, yet last year's House budget 
proposed a 36 percent cut to investment in our nation's 
highways, leading to a loss of almost 500,000 jobs or half a 
million jobs. This is far short of what we need to enhance 
America's competitiveness and it takes us backward in creating 
good jobs for hardworking families. Americans deserve better.
    Now, let me turn to a fair and responsible tax system. It 
is also time we replace a broken tax system that favors 
corporate special interests with one that works for the 
majority of Americans. Last year, the extreme gap between the 
rich and the rest of us came into the national spotlight thanks 
to the Occupy Wall Street movement, who said what Americans 
have known for a long time, working and middle class Americans 
have been working harder and harder for less and less. The 
richest 400 earners for 2008 had an average income of $270 
million, yet their average tax rate was only 18.2 percent. That 
is the same as what working Americans who earn about $40,000 a 
year are paying. That makes no sense.
    We need fair tax rates for millionaires, such as opposed by 
my colleague Representative Jan Schakowsky, that creates a new 
income tax brackets starting at 45 percent for couples making 
over $1 million a year. We also need to enact the Buffet rule 
to ensure that secretaries are not paying higher tax rates than 
their bosses. Millionaires are not job creators, they are 
profit maximizers, and there is nothing wrong with that, but we 
cannot confuse the two. If they can earn more profit by firing 
someone, they will and they do, and if they can earn more 
profit by hiring people, they will and they do, but they are 
not job creators, they are profit maximizers. We need fair tax 
system so we can improve our infrastructure, fortify education 
system, and bolster our economy, and support real job creators 
who are consumers and workers and innovators across our 
economy.
    The Congressional Progressive Caucus Budget will be 
comprehensive, fiscally responsible, and embrace these values 
of fairness and shared responsibility. I ask for your support 
in the budget proposal. I also ask that you craft a budget that 
works for all Americans, not just the well-connected and well 
off. Make no mistake, every tax cut for a millionaire is an 
education cut for America's children. Every tax giveaway to a 
special interest gives away our ability to rebuild America. It 
is time we started expanding opportunity and stopped shrinking 
the middle class, I thank you.
    [The prepared statement of Keith Ellison follows:]

Prepared Statement of Hon. Keith Ellison, a Representative in Congress 
                      From the State of Minnesota

    Thank you Chairman Ryan and Ranking Member Van Hollen for allowing 
me to testify today. The Congressional Progressive Caucus budget that 
we will be presenting to this Committee reflects our values, as all 
budgets reflect the values of their authors. The People's Budget is 
based on the values of fiscal soundness, fairness, and shared 
contribution. Our budget asks basic questions: do we value tax cuts for 
the wealthy more than rebuilding our infrastructure? Do we value 
subsidies for oil companies more than Medicare or health care for 
veterans?
    Working families face waning public investments, a fraying safety 
net, and a tax system rigged to favor the wealthy. Our budget must 
rebuild our economy so that it works for everyone, not just the 
privileged few.
                            defense spending
    First, we need a sustainable Pentagon budget that reflects sound 
national security strategy. Defense spending nearly doubled over the 
last decade. With two wars drawing to a close, we need a leaner, more 
agile force to combat 21st century threats. For example, we should 
cancel the F-35 joint strike fighter program, which has seen exorbitant 
cost overruns. But even as we rejoice in having our distinguished men 
and women coming home from Iraq and Afghanistan, our veterans' services 
are facing drastic cuts. Are we really willing to continue funding 
outdated weaponry while cutting veteran training and employment 
services? A responsible budget should reduce baseline military spending 
to focus on the needs of modern warfare, and redirect these funds to 
priorities such as caring for our veterans.
                        oil industry exemptions
    America also can't afford corporate welfare for the oil and gas 
industry. Last year, the big five oil companies made a combined profit 
of $137 billion. ExxonMobil, Chevron, and ConocoPhillips were ranked 
the first, fourth, and 15th most profitable companies. And yet these 
companies argue that they cannot afford to lose their taxpayer-funded 
subsidies? Over many decades of successful lobbying, these industries 
have carved out a long list of loopholes--to the tune of $4 billion a 
year. It's time for these funds to go to middle class families, small 
businesses, and to repairing our nation's infrastructure.
                                  jobs
    Our budget must put Americans back to work rebuilding our great 
country. America needs to rebuild our roads and bridges, our dams and 
waterways. Right now more than 69,000 bridges in the U.S. require 
significant maintenance or replacement. Yet, last year's House budget 
proposed a 36 percent cut to investment in our nation's highways, 
leading to a loss of almost 500,000 jobs. This is far short of what we 
need to enhance American competitiveness. And it takes us backward in 
creating good jobs for hard working families. Americans deserve better.
                   a fair and responsible tax system
    It's also time we replace a broken tax system that favors corporate 
special interests with one that works for the majority of Americans. 
Last year, the extreme gap between the rich and the rest of us came 
into the national spotlight thanks in part to the Occupy Wall Street 
movement, who said what Americans have known for a long time: working 
and middle class Americans have been working harder and harder for less 
and less. The richest 400 earners for 2008 had an average income of 
$270 million, yet their average tax rate was only 18.2 percent; that's 
the same as what working Americans who earn about $40,000 a year are 
paying. This makes no sense. We need fair tax rates for millionaires, 
such as a proposal by my colleague Representative Schakowsky that 
creates new income tax brackets starting at 45 percent for couples 
making over $1 million per year. We also need to enact the Buffett Rule 
to ensure that secretaries aren't paying higher tax rates than their 
bosses. Millionaires aren't job creators--they're profit maximizers. If 
they can earn more profit by firing someone, they will. We need a fair 
tax system so we can improve our infrastructure, fortify our education 
system, and bolster our economy.
    The Congressional Progressive Caucus budget will be comprehensive, 
fiscally responsible, and embrace these values of fairness and shared 
responsibility. I ask for your support of our budget proposal.
    I also ask that you craft a budget that works for all Americans, 
not just the well-connected and the well-off. Make no mistake: every 
tax cut for a millionaire is an education cut for America's children; 
every tax giveaway to a special interest gives away our ability to 
rebuild America. It's time we started expanding opportunity and stopped 
shrinking the middle class. Thank you.

    Mr. Lankford. Thank you Mr. Ellison. We will take a quick 
transition here. So if the next panel wants to be able to come 
on up, we will receive you in the order I think you came 
through the door; and it would be Mr. Keating, Mr. Clarke, Mr. 
Connolly. We will all take a quick stretch break as well. Mr. 
Keating, are you ready?
    Mr. Keating. Yes, I am.
    Mr. Lankford. It will be an honor to receive your 
testimony.

STATEMENT OF HON. WILLIAM KEATING, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Keating. Thank you Mr. Chairman. My constituents on the 
South Shore region, Cape Cod, the islands, Nantucket, and 
Martha's Vineyard all support various viewpoints as this budget 
approaches. Many of those people feel that the divided 
atmosphere in Congress, and the programs that are consequently 
threatened by this division, cause greater concern. I am here 
to communicate their views to the committee.
    When I testified before the committee last year, I focused 
on job creation. Since then, the economy has improved, and some 
of my proposals like tax credits to hire veterans returning 
from Iraq and Afghanistan have found consensus and have been 
implemented, yet job creation and employment protections for 
jobs going overseas still remain on the top of my list of 
priorities. For this reason, I urge the Budget Committee to be 
wary of short-sighted proposals that would eliminate job 
creating initiatives and compromise our safety for the sake of 
immediate savings.
    Unfortunately, this year has been full of such examples, 
particularly in the women's health care area, green and 
alternative energy, and public safety programs, and homeland 
security as well.
    I will begin with what has become an unnecessary scapegoat, 
women's health programs. The fact is that family planning 
services not only save lives, but also save money through early 
diagnosis and preventative care. This administration has been a 
vocal advocate for women's health programs like Title X which 
provides low-income women with access to prevention and family 
planning services. However, funding for the Title X programs 
has not kept pace with inflation since 1980 leaving the 
disparity of nearly $400 million we have today. In 
Massachusetts alone, health care facilities receiving Title X 
funding served over 85,000 patients and provided nearly 30,000 
cancer screenings, contraceptive service, immunizations, and 
sexual transmitted disease infection testing and treatment. 
Additionally, teen pregnancy prevention and education have been 
a source of reduction as well.
    An open dialogue with reproductive health services is 
necessary, and most effective in terms of dealing with the 
issues of youth pregnancy and sexually transmitted disease, and 
though international funding has been a source of controversy, 
there is one area where we need to keep specific attention. 
Through international family planning programs the world's most 
disadvantaged women are provided access to the reproductive 
health care necessary to evade preventable child and maternal 
deaths, also to combat the spread of HIV and AIDS and address 
social instabilities that lead to the depletion of resources 
and consequent global conflict. Our peace-keeping abroad, 
therefore, includes the empowerment of women and girls and I 
implore the Budget Committee to protect these vital services.
    We must not forget that this budget is not simply a 
document of line items and dollar amounts. The true faces of 
those impacted by funding decisions are the constituents we 
return to each week. Just today, it was reported that the Otis 
Air Force National Guard Base may lose 170 much needed jobs 
because of an Air Force budget that is not doing enough to 
protect personnel. That is why funding for these programs that 
provide our communities with basics needs is also invaluable. 
To that end I urge you to maintain the funding level enacted in 
fiscal year 2011 for LIHEAP. With assistance provided through 
LIHEAP low-income families and seniors are sheltered from 
bitter New England winters and kept cool in the boiling 
summers.
    Another example is Community Development Block Grant 
Program, a federally-funded competitive grant program designed 
to help small cities and towns meet their community development 
needs. In Massachusetts alone over 60,000 persons were assisted 
in the past five years for every year of CDBG funding, an 
average of another 1.6 million in private and public funding 
was leveraged.
    I would also like to take a moment to talk about something 
that is at the heart of my public service career, and that is 
combating substance abuse. It is a sad fact that 1.7 people on 
average die a day in Massachusetts from opiate-based drug 
overdoses, and the effects of addiction can be seen throughout 
our entire country. Just recently I visited a 14-year-old girl 
fighting addiction in Hyannis. The heartbreak of this scene was 
compounded by the fact that she also had hepatitis C, a 
condition she will have with her for the rest of her life.
    As a former DA, I am a strong proponent of drug courts, and 
the drug court discretionary grant program helps to develop 
treatment drug courts that integrate substance abuse treatment, 
mandatory drug testing, and transitional service of non-violent 
substance abuse suspects. In 2011, the DAO confirmed that drug 
courts reduce crime by up to 58 percent with cost savings 
ranging from $4,000 to $12,000 per participant. An investment 
in drug courts is in an investment made in jobs and lives 
saves, and in investment in our financial future.
    Finally, this Congress has witnessed incessant attacks on 
the air that we breathe and the water that we drink. I am 
prepared to fight these concerns on the House floor, but I need 
your assistance to ensure these priorities are represented in 
this year's budget. As a representative of a coastal district 
that is also home of the Massachusetts fishing industry, I am 
pleased to see that the president's request for NOAA includes 
an increase of over $160 million in funding and I am encouraged 
that NOAA's National Marine Fisheries Service has also seen an 
increase in funding, thereby improving the stock assessments 
and translating this into a direct impact on fishermen and 
related small business and industries.
    On a smaller note, Cape Cod was borne witness to the 
vitality of a small grant program that now faces extinction. 
That is the John H. Prescott Marine Mammal Rescue Assistance 
Grant Program. It is the sole source of funding of its kind, 
and it has provided $4 million in funding to aid in the 
response and study of distressed marine mammals. The past 
winter over 170 dolphins were found stranded on the shores of 
Cape Cod, and practically speaking, we have to, for those 
surviving mammals, be able to execute removal.
    And the chopping block also is cuts in preparedness and 
grant programs that deal with pre-hazard mitigation grant 
programs and have a long-lasting repercussion on our nation's 
ability to prevent, mitigate, and respond to major disasters. 
Unfortunately, as the ranking member in the Homeland Security 
Subcommittee, I had to watch the budgets for preparedness get 
slashed. These are just some of the areas that I would like to 
highlight that specifically affect my area. I thank the 
committee for their consideration.
    [The prepared statement of William Keating follows:]

  Prepared Statement of Hon. William R. Keating, a Representative in 
                Congress From the State of Massachusetts

    Mr. Chairman, Ranking Member Van Hollen, thank you for the 
opportunity to testify before the Budget Committee today. My 
constituents on the South Shore, Cape Cod and Islands of Nantucket and 
Martha's Vineyard in Massachusetts have strong opinions about how their 
taxpayer money should be spent. Moreover, they are concerned about the 
increasingly divided atmosphere in Congress and the programs that are 
consequently threatened by this division. I am here to communicate 
their views.
    When I testified before the committee last year, I focused on 
effective and prompt job creation. Since then, the economy has improved 
and some of my proposals--like tax credits to hire veterans returning 
from Iraq and Afghanistan--have been implemented. Yet, job creation and 
further employment protections still remain on the top of my list of 
priorities. For this reason, I urge the Budget Committee to be weary of 
short-sighted proposals that would eliminate job-creating programs and 
compromise our safety for the sake of immediate savings.
    Unfortunately, this year has been full of such examples spanning a 
broad range of business sectors, including women's health care, green 
and alternate energy, public safety programs and homeland security 
cuts, as well.
    I will begin with what has become an unnecessary scapegoat: women's 
health programs. The fact that we must fight to provide family planning 
services and education to women and girls in this country is a stain on 
this great nation's reputation. This Administration has been a vocal 
advocate for women's health programs, like Title X, which provides low-
income women with access to preventative and family planning services, 
and vital sex-education programs.
    However, funding for Title X programs has not kept place with 
inflation since 1980--leaving a disparity of nearly $400 million today. 
In Massachusetts alone, health care facilities receiving Title X 
funding served over 85,000 patients and provided nearly 30,000 cancer 
screenings, gynecological examinations, contraceptive services, 
immunizations, and sexually transmitted infection testing and 
treatments.
    Additionally, teen-pregnancy prevention and education programs have 
seen a reduction in funding--despite a continued $50 million for failed 
``abstinence only'' programs. Uncensored education and open dialogue 
about reproductive health is the proven, most-effective form of youth 
pregnancy and sexually transmitted disease prevention.
    We must ensure that we encourage the same values abroad as we do at 
home. The international family planning community has requested $1 
billion in funding for the United Nations Population Fund and the U.S. 
Agency for International Development (USAID). Through these programs, 
the world's poorest and most disadvantaged women are provided access to 
the reproductive-healthcare and family-planning services necessary to 
combat unintended pregnancies--thereby reducing the need for risky 
abortions, evading preventable child and maternal deaths, halting the 
spread of HIV/AIDS, and addressing the social instabilities that 
continue to plague developing and underdeveloped nations. Our diplomacy 
abroad begins and ends with the empowerment of these women and girls, 
and I implore the Budget Committee to protect these vital services.
    We must not forget that this budget is not simply a document of 
line items and dollar amounts. The true faces of those impacted by 
funding decisions are the constituents we return to each week. That is 
why funding for programs that provide our communities with basic 
necessities is so invaluable.
    To that end, I urge you to maintain the funding level enacted in 
Fiscal Year 2011 for the Low-Income Home Energy Assistance Program, 
known as LIHEAP. With the assistance provided through LIHEAP, low-
income families and, most importantly, seniors are sheltered from the 
bitter New England winters and kept cool in boiling summers. It is our 
responsibility to protect these families from deciding between paying 
their energy bills and feeding their families.
    Another example is the Community Development Block Grant (CDBG) 
program, a federally funded, competitive grant program designed to help 
small cities and towns meet a broad range of community development 
needs. In Massachusetts alone, over 60,000 persons were assisted in the 
past five years. These funds were spent on valuable economic 
development activities, public facility improvements, public services 
for seniors and children, and housing assistance and construction, 
among others. For every year of CDBG funding an average of another $1.6 
million in private and public funding was leveraged.
    I would also like to take a moment to talk about something that is 
at the heart of my public service career, the Drug Court Discretionary 
Grant (DCDG) program, a federal program that provides financial and 
technical assistance to states, state courts, local courts, units of 
local government, and Indian tribal governments is absolutely 
essential. This program help to develop and implement treatment drug 
courts that effectively integrate substance abuse treatment, mandatory 
drug testing, sanctions and incentives, and transitional services in a 
judicially supervised court setting with jurisdiction over nonviolent, 
substance-abusing offenders. Programs funded by DCDG are required by 
law to target nonviolent offenders. If we truly want to lower the 
exorbitant criminal justice costs associated with substance abuse 
related crime, we must look to a readymade solution in Drug Courts. In 
2011, the U.S. Government Accountability Office (GAO) confirmed that 
Drug Courts reduce crime by up to 58%. With cost savings ranging from 
$4,000 to $12,000 per participant, an investment in drug Courts is an 
investment in jobs, lives saved and our financial future.
    Finally, this Congress has witnessed the most profane and incessant 
attacks on environmental protections in decades. It seems that even the 
most common-sense and necessary priorities are not safe--including 
sufficient funding for research and data collection initiatives that 
ensure the design and implementation of sound, accurate policies. I am 
prepared to fight for these concerns on the House floor, but I need 
your assistance to ensure these priorities are represented in this 
year's budget.
    As representative of a coastal district that is also home to 
Massachusetts' fishing industry, I am pleased to see that the National 
Oceanic and Atmospheric Administration (NOAA) has thus far survived the 
chopping block and that the President's request includes an increase of 
over $160 million in funding. I am encouraged that NOAA's National 
Marine Fisheries Service has also seen an increase in funding--thereby 
improving stock assessments that translate into a direct impact on 
fishermen and related industries.
    The work of NOAA's weather and climate satellite programs are 
invaluable to furthering our country's ability to combat the 
consequences of climate change, such as improving the accuracy of 
regional sea level rise predictions. Accelerated implementation of the 
National Ocean Policy will encourage the development of offshore 
renewable energy capabilities and allow our nation to take its place as 
a leader in renewable energy markets.
    However, Cape Cod has born witness to the vitality of a small grant 
program that now faces extinction. The John H. Prescott Marine Mammal 
Rescue Assistance Grant Program is the sole federal funding source of 
its kind, and has provided national marine mammal stranding networks up 
to $4 million in funding to aid in the response to and study of 
distressed and stranded marine mammals. This past winter, over one 
hundred dolphins were found stranded on the shores of Cape Cod. 
Undeniably, each would have perished had it not been for the resources 
provided to local volunteers and stranding networks through the 
Prescott Grant Program.
    Also on the chopping block is disaster funding. Cuts in funding for 
state and local preparedness grant programs, specifically to the Pre-
hazard Mitigation Grants Program, will have long-lasting repercussions 
on our nation's ability to prevent, mitigate, and respond to terrorist 
attacks and major disasters. Preparedness is the first step in ensuring 
the safety of our communities, particularly in urban areas. 
Unfortunately, as the Ranking Member of a Homeland Security 
Subcommittee, I have had to watch the budget for these preparedness 
grants be slashed and as the Administration proposes to eliminate the 
Pre-hazard Mitigation Grants Program, I have renewed my commitment to 
working through the committee to fight against these cuts and help 
steer funding toward communities that need them the most.
    The American people understand: this is the year of budget 
constraints. My testimony not only reflects the priorities of the Tenth 
Congressional District of Massachusetts, but echoes the messages I have 
heard from across the country. We must ensure that this budget 
incorporates effective funding decisions that encourage efficiency but 
do not overlook the many critical needs of Americans of all 
backgrounds.
    Thank you, Mr. Chairman.

    Mr. Lankford. Thank you Mr. Keating. Would you like to 
submit full statement for the record as well?
    Mr. Keating. I will, thank you.
    Mr. Lankford. That would be great. Thank you, sir. Mr. 
Clarke.

 STATEMENT OF HON. HANSEN CLARKE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Clarke. Thank you, Mr. Chair, for having me here. I am 
the proud representative of a region in this country that was 
known, decades ago, as the arsenal of democracy. Metropolitan 
Detroit saved this country; it saved this world from fascism. 
We won the war for America and for democracy. Our innovation 
created millions of jobs through the auto industry, and right 
now we have the capacity, the capability, to create even more 
jobs in our new advanced manufacturing economy. So I am asking 
this Budget Committee to fund investments in the metropolitan 
region surrounding the city of Detroit and the city of Detroit 
as a way to create more jobs throughout this country. I have 
several proposals that will do so. One would capture the 
federal tax dollars that Detroiters pay to the federal 
government by placing them in a federally protected government 
trust fund. That cost would be around $2 billion a year for 
five years. That money would be used to eliminate the city's 
debt and then invest in job creation and infrastructure repair. 
I also will soon propose the elimination of capital gains tax 
on new investment made in distressed communities, such as 
Detroit, Pontiac, and Flint in the state of Michigan. I would 
have this pilot available in states throughout the country.
    Detroit has fallen on hard times. The region has, but so 
has many communities around this country, and in large part 
because of the housing crisis which depressed property values 
so low that many local units of government can no longer raise 
the revenue that they need to help make their streets safer and 
to improve our schools; yet, if Detroit is able to attract 
investment that creates jobs, it will need safe streets and 
good schools. Since this Congress in the past has not quickly 
or effectively addressed the problems of the housing crisis, I 
am asking Congress now to address the needs of our cities and 
our local units of government to provide more funding for 
police officers, firefighters, emergency medical providers, and 
other first responders that we need to make sure our people are 
safe.
    In particular, we can look at increasing the funding for 
certain grants out of the Department of Justice, and through 
the Department of Homeland Security of which I am a member of 
the committee that oversees that department.
    The federal government also imposes mandates on school 
districts that require school districts to educate every child 
effectively like they should. The federal government just needs 
to fund those mandates, so that every child in every school 
district can get the best possible education. They should not 
be short-changed because they may have special needs or because 
they were homeless. We all deserve the best in this country and 
the greatest equalizer is providing for a good education.
    I would also ask that this committee consider fully funding 
and restoring cuts to the Workforce Investment Act because 
there are many jobs right now in this country that go unfilled 
because we need people who are trained to be hired into them. 
We have around 600,000 manufacturing-related jobs that we need 
to hire people for, so by better funding for the workforce 
development programs and by investing in Detroit, we can help 
prepare people for the jobs that are already here that need to 
be filled, which will create more jobs in this country.
    One final note, I would also ask the committee to allocate 
certain savings from our military operations, especially in 
Afghanistan, a small percentage to help the cut the debt that 
is really burdening American families, and that is stopping 
young people from getting an education that they need, not only 
to make a great living, but to create more jobs in this 
country. I ask this committee to use part of that money to help 
forgive certain student loans on millions of Americans who are 
struggling with student loan debt.
    That will give student loan borrowers a second chance, but 
most relevantly, to our nation's economy, it will create jobs 
because it will free up the purchasing power of student loan 
borrowers, so they can now invest on their own, buy a home, and 
start their own business, and that is how you create jobs in 
American economy. That is how we have done it in the past, and 
that is how we can do it now.
    Thank you so much for giving me this opportunity to present 
my budget recommendations to this committee. Again, I am 
honored to represent the symbol of U.S. manufacturing and the 
symbol of the comeback of the U.S. economy, metropolitan 
Detroit. Thank you.
    [The prepared statement of Hansen Clarke follows:]

Prepared Statement of Hon. Hansen Clarke, a Representative in Congress 
                       From the State of Michigan

    Thank you, Mr. Chairman, for the opportunity to testify as the 
Committee considers a Budget Resolution for Fiscal Year 2013. I 
sincerely appreciate the chance to discuss the budget priorities of the 
13th District of Michigan and Metro Detroit as a whole.
    Despite a difficult fiscal reality, we must look to the future and 
prioritize investment in strengthening our economy, our workforce, and 
our communities in the long term. We cannot afford to make deep funding 
cuts that emphasize the cost of a program over their true worth. Many 
programs ensure access for our families and our neighbors to the high-
quality education, job training, nutrition, and health care that they 
need and deserve. Only a targeted budget that preserves investment in 
our nation's human capital will meet the present and future needs of 
our country, and promote our common values of equal opportunity for 
all.
    As a nation, our first priority must be creating good jobs that 
will allow Americans to support their families and preparing our 
workforce to be successful in a new economy. We must lend some of our 
focus to programs that support small businesses and strengthen local 
economies, whether through technical assistance, tax incentives, or 
start-up grants that allow entrepreneurs to make the investments 
necessary to start their own businesses.
    We must also target resources towards providing Americans with the 
training to hold the jobs available. That is why funding for programs 
under the Workforce Investment Act, or WIA, is crucial. WIA programs 
provide opportunities for young workers, dislocated workers, and 
chronically unemployed workers, among others, to get the education and 
training they need to be successful in today's job market. The 
Government Accountability Office estimates that 90% of the fastest-
growing employment opportunities will require some post-secondary 
education, and WIA programs are well placed to provide this education. 
Given the changes in our economy and the need for training programs to 
respond accordingly, WIA reauthorization must be a priority for 
Congress. The economic recovery of our families, our communities, and 
our nation depends on it.
    The devastating toll of our economic recession has trapped many 
neighborhoods in a cycle of poverty. Eroding tax bases, persistent 
blight and high numbers of foreclosures threaten to isolate certain 
communities from taking part in our rebounding economy. Programs such 
as the Community Development Block Grant can play a critical role in 
breaking this cycle by investing in infrastructure improvements. 
Through these investments, communities become more active and livable, 
accelerating economic growth and expanding the opportunity for economic 
prosperity.
    Turning our attention to the regional economy, one of the most 
important economic resources for Detroit and the Midwest region has 
been accessibility of the Great Lakes. The Great Lakes are a key 
strategic asset for our agriculture, manufacturing and recreational 
economies. I look forward to working with the Committee to ensure a 
strong budget for the Great Lakes Restoration Initiative. Preserving 
this precious resource for future generations must remain a priority.
    Creating strong local economies is crucial, but only equal access 
to quality education will enable America to compete in a global 
marketplace. That is why I am advocating for sufficient funding to be 
dedicated to programs that reduce disparities and help schools meet the 
needs of students in difficult circumstances. I support educational 
programs such Promise Neighborhoods, the Title I, Part A College- and 
Career-Ready Students program of the Elementary and Secondary Education 
Act, Special Education Grants to States, and the Homeless Children and 
Youth Education program.
    As a Member of the Science, Space, and Technology Committee, I 
continue to urge the Committee to put a high priority on science, 
technology, engineering, and mathematics, or STEM, education programs. 
Investing in these programs allows our country to sow the seeds of 
innovation and American competitiveness. As technology shrinks our 
world, it becomes more evident that strengthening our education 
programs will play a pivotal role in maintaining our global economic 
leadership.
    No less important than access to elementary and secondary education 
is access to post-secondary education. We cannot afford to sacrifice 
the innovation and energy of our young people to poverty and lost 
educational opportunity. Pell grants provide so many low-income 
students with the funding necessary to make a college education 
possible; we must increase funding for these grants. We must also 
provide relief for the thousands of college graduates saddled with huge 
amounts of debt. Young people in America should be able to pursue 
higher education to achieve their dreams without worrying that this 
decision will devastate their financial futures. We must take action to 
responsibly forgive certain student loans and to provide every student 
loan borrower with basic consumer protections.
    As a Member of the Homeland Security Committee, it is important to 
me that we retain our focus on strengthening border protection and 
providing resources for urban, high risk areas. I urge this committee 
to support full funding for the National Preparedness Grant Program. It 
is critical that our cities, states and counties have the ability to 
keep our families and communities safe. In particular, I am hopeful 
that we can find a way to shield the Urban Areas Security Initiative 
from further cuts. Despite our financial situation, we must remain 
steadfast in our commitment to protect our neighbors, family and 
friends.
    Mr. Chairman, I know that our Congressional priorities are many and 
yet our budget situation demands fiscal restraint. I am hopeful that we 
can push aside our partisan differences and continue investing in 
America's growth. I look forward to working together to reduce our 
deficit while promoting those priorities that make America strong. 
Thank you.

    Mr. Lankford. Thank you Mr. Clarke. Mr. Connolly, my friend 
who I get to sit next to in hearings all the time.

STATEMENT OF HON. GERALD CONNOLLY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Connolly. Thank you Mr. Chairman, it is great to be 
with you again. Let me welcome our newest colleague, Ms. 
Bonamici of Oregon. Glad to have you here in the Budget 
Committee. I had the privilege of serving on the Budget 
Committee in my first term, and it is a great platform in which 
to gain a handle on federal issues. So thank you Mr. Chairman 
and thank you for your warm welcome.
    I have a full statement I would ask be entered fully into 
the record.
    Mr. Lankford. Without objection.
    [The prepared statement of Gerald Connolly follows:]

  Prepared Statement of Hon. Gerald E. Connolly, a Representative in 
                  Congress From the State of Virginia

    Mr. Chairman and Ranking Member, thank you for this opportunity to 
express the concerns of my constituents for the Fiscal Year 2013 
budget.
    As a former local government official, and a former member of this 
Committee, I know firsthand the competing interests in preparing a 
budget. In each of my 14 years on the Fairfax County Board of 
Supervisors, we adopted a balanced budget. We struck a balanced 
approach to maintain investments in education, transportation, public 
safety, affordable housing, and environmental stewardship.
    Last year's House Republican Budget Resolution made no such attempt 
at striking that balance. I agree cuts need to be made. Spending at 24 
percent of GDP was too high. But cuts alone will not solve our problem. 
You cannot ignore the other side of the ledger. Revenues at 14 percent 
of GDP are too low by historical standards. Yet the FY 2012 Budget 
Resolution proscribed only draconian cuts. Since non-defense 
discretionary spending represents just 15 percent of the total federal 
budget, the Republican Budget Resolution resorted to an evisceration of 
Medicare as well.
    Completely ignoring the historically low revenues is irresponsible 
and perpetuates imbalance. A responsible business would look at all 
aspects of its ledger, from reducing costs to increasing revenues, and 
the federal government must do so as well.
    This Congress took a momentous step in reducing expenditures with 
the passage of the Budget Control Act, cutting federal deficits by $2.1 
trillion over the next decade. Although these significant reductions, 
by themselves, will not fully restore long-term fiscal responsibility, 
they represent actual cuts, and highlight the need to also focus on 
revenue.
    The President's proposed Fiscal Year 2013 budget offers a 
sustainable and responsible framework. It brings down deficits, 
reaching primary balance by FY 2017 through a mixture of spending cuts 
and revenue enhancements in the ratio of 2.5 dollars in cuts for every 
1 dollar in new revenue. The President's budget also recognizes the 
importance of maintaining important investments that contribute to 
America's long-term economic success.
    We cannot hope to compete globally if we disinvest in education. 
Offering quality education provides the building blocks for a skilled 
workforce, product innovation, and economic growth. The academic 
performance of American students continues to lag other industrialized 
nations, and further cuts to education will be a detriment to our 
economic future.
    Similarly, the federal government realizes a significant return on 
its ``investments in savings.'' Let me give you just a few examples. 
Last year, the State Department Inspector General said every dollar 
invested in its operation yields $14 in agency savings. Arbitrary cuts 
to this and other federal agencies imperil our ability to identify and 
realize not only cost savings, but also revenue. Every dollar invested 
in IRS enforcement returns $5 in revenue, and I would remind my 
colleagues that the misguided proposal to slash IRS funding in H.R. 1 
actually would have resulted in a 7 to 1 annual loss in revenue. How is 
that savings?
    Perhaps the federal investment with the greatest rate of return is 
the Government Accountability Office. Every dollar invested in the GAO 
results in $91 in identified savings though actions like reducing 
improper payments and coordinating federal data center consolidations. 
That simple action alone is projected to save several billion dollars 
once implemented. In fact, I have introduced legislation to do just 
that, yet the Oversight Committee and House Republican leadership 
continue to be more concerned with advancing an ideological agenda than 
improving the nuts and bolts operations of the federal government.
    We also must work to ensure that the federal workforce of the 
future is well-equipped to continue providing essential services. Over 
the last 50 years, the ratio of federal employees to citizens has 
fallen from 13 per 1,000 to 8 per 1,000 Americans. Continuing to attack 
civil servant pay and benefits will sour potential workers on public 
service and lead to increased inefficiency. Federal workers already 
have contributed more than $60 billion to deficit reduction through two 
separate pay freezes. Additionally, House Republican leadership 
recently used an increase in out-of-pocket expenses for federal 
retirement benefits as a pay-for in H.R. 3630. The House Republican 
transportation bill also targeted federal retirement benefits while 
grossly disinvesting in transportation. Any budget resolution that 
continues to single out federal employees for further sacrifices 
without asking others to share in that sacrifice lacks any semblance of 
balance or fairness.
    Transportation investments also are vital to American success. 
Workers spend an increasing amount of time stuck in gridlock, reducing 
productivity and harming employee morale. We must repair and expand our 
nation's roadways, bridges, and transit systems. Sadly, the House 
Republican transportation bill reduces investment for 45 states and 
eliminates investment in transit.
    This year's Budget Resolution must provide meaningful 
transportation investment and preserve the federal commitment to the 
Washington Metropolitan Transit Authority. My Republican predecessor, 
Tom Davis, sponsored legislation to invest $150 million a year for 10 
years with matching dollars from the District of Columbia, Virginia and 
Maryland. The Washington Metro system is America's subway, serving the 
millions of annual visitors to our nation's capital. More than 40 
percent of rush-hour riders are federal employees, and half of all 
stations are located on federal property. This is a vital partnership 
that must be maintained.
    I look forward to supporting a Budget Resolution for Fiscal Year 
2013 that delivers greater fiscal responsibility by balancing spending 
cuts with the adequate revenue to maintain the critical investments our 
nation has made and must continue to make to be the leading global 
economy. Thank you again for this opportunity.

    Mr. Connolly. I am not going to read to you. I am going to 
make just three points, if I may. There are lots of points that 
could be made, but three. One is as a budget is constructed, I 
urge the committee to take a balanced approach. We are at 24 
percent of GDP as a percentage in terms of federal spending; 
that is too high, it needs to come down. We are only at 14 
percent or so of GDP in terms of federal revenue; that is too 
low. The last time we balanced the budget we were more like 19 
to 20 percent, and we balanced budget four years in the row 
with a Democratic president and a Republican Congress. If they 
could do it, we can do it.
    And so I urge the committee to look at both. No private 
business in this country only looks at spending cuts to get to 
its bottom line, it looks at the prices it charges its clients 
and its customers, it looks at the revenue side of the ledger. 
We need to too, and so I would hope that we have a balanced 
approach to the budget this year and that we eschew ideological 
rigidity in this regard for the sake of the country.
    The second point I would like to make, Mr. Chairman, is 
that not all spending is the same, and I urge this committee to 
differentiate among spending items. Investments and savings, 
for example, have returns on them. Our committee found that, 
for example, the State Department IG's office, Inspector 
General's Office, every dollar we invest there yields $14 in 
agency savings. In the IRS, not everybody loves it, but for 
every dollar you invest in IRS and new agents, we get $5 back 
in recovered revenue. That is a worthwhile investment when we 
are looking at the debts we are looking at.
    Mr. Chairman, just on our own committee the other day, we 
had the head of the Government Accountability Office testify 
before our committee, the Oversight And Government Reform 
Committee, that an astounding rate of return. For every dollar 
invested in GAO, they recovered $91 in waste, fraud, and abuse. 
That is a worthwhile investment, and yet this Congress has 
actually slashed funding for GAO, such that it is now at the 
lowest level since 1935. That is not prudent policy; this is an 
investment worth making. The upfront costs will guarantee huge 
returns, and I think that is a smart thing to do.
    My third and final point I want to share with this 
committee is let us return to a sense of respect for our 
federal employees. We have asked our federal employees to give 
much, and asked almost nobody else to sacrifice anything. We 
have frozen their wages for two years and we are looking at a 
third, contributing over 10 years $60 billion to federal debt 
reduction. In the payroll tax extension bill we passed a few 
weeks ago to fund the unemployment insurance extension, we took 
$15 billion out of federal pension programs for prospective 
employees, and in the pending transportation bill, the proposal 
is still not revised, we take another $40 billion out of 
federal pensions for federal employees, including the existing 
and current workforce. I do not think that is fair, and I think 
the disparagement of the federal workforce does nobody honor. 
These are public servants who serve our constituents, they 
deserve dignity and respect for what they do, and I hope that 
is reflected in our budget actions as well because ultimately, 
a budget is a statement about values.
    With that, Mr. Chairman, I thank you so much for having 
this hearing, and for hearing from all of us today.
    Mr. Lankford. Thank you, Mr. Connolly. Mr. Posey.

STATEMENT OF HON. BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Posey. Thank you, Mr. Chairman and members of the 
Budget Committee. I appreciate the opportunity to come before 
you today to respectfully urge you to preserve NASA's core 
mission, human space flight. Our investments in NASA's human 
space flight program are a matter of national security. It is 
not, as some suggest, an endeavor that we can no longer afford. 
I would strongly argue that it is an endeavor that we can ill 
afford to ignore if we are to maintain our national security 
and enhance our economic security. Space, clearly, is the 
world's military high ground; it is to the United States and 
the free world what the Golan Heights is to Israel. To 
understand this, we need only listen to the testimony two weeks 
of one of our nation's leading intelligence officials. The 
director of the Defense Intelligence Agency, General Burgess, 
highlighted the risk posed by China through their investments 
human space flight. Testifying before the Senate Armed Services 
Committee, the general said of China, Their space program, 
including ostensible civil projects, supports China's growing 
ability to deny or degrade the space assets of potential 
adversaries and enhance China's conventional military 
capabilities. He went on to add, China has successfully tested 
a direct ascent anti-satellite weapon,'' ASAT is the acronym 
for it, ``and is developing jammers and directed energy weapons 
for ASAT missions.''
    ``A prerequisite for ASAT attacks, China's ability to track 
and identify satellites, is enhanced by the technologies from 
China's manned space flight programs and lunar programs, as 
well as technologies and methods developed to detect and track 
space debris. Let me repeat that, China's military advances are 
a direct result of China's manned and lunar programs.
    By ceding our leadership to China and Russia, we would be 
walking away from the ultimate military high ground. That is 
the reality if we fail to adequately invest in our nation's 
space program, including NASA's human space flight program. As 
you proceed in developing a budget resolution, it is in our 
national security interests that sufficient funding be provided 
and that NASA be directed to prioritize human space flight 
within the overall NASA budget. Russia and China are nipping at 
our heels and threatening our position as the world leader in 
space and human space flight, a position we have held since 
1969. Today we are in the untenable position of having no, 
zero, not a zilch, domestic means of putting a U.S. astronaut 
into space, yet China and Russia both have that capability. 
Direction and a full commitment from the administration have 
been seriously lacking. As a result, our human space flight 
program is suffering, and the U.S. is on the cusp of ceding its 
leadership in space to our adversaries. This is not in our 
national security best interest, nor is it in the best interest 
of our economic security.
    Mr. Chairman, as we have discussed in the past, our 
investments in human space flight have helped us maintain our 
competitive edge economically, our advantage on the 
battlefield, and the endless commercial products that have 
improved every aspect of our daily life and of our overall 
economy. The reality is that our lives depend on space. If you 
use a cell phone, a Blackberry, a credit card, cash bank 
withdrawals, GPS, or you are one of the ones that grow the food 
that we eat every day, or if for any reason you depend on 
accurate weather report, you depend on space. The president 
abandoned the Constellation program in his fiscal year 2011 
budget. During a consideration of the fiscal year 2012 budget, 
NASA delayed by nearly 12 months presenting a design plan for 
moving forward with a space launch system. This lack of bold 
leadership for the world's premier space exploration 
organization puts America at risk.
    In fiscal year 2010, NASA reached its high watermark budget 
of $18.7 billion. In fiscal 2012, the NASA is $17.8 billion, 
and for fiscal year 2013, the administration has proposed 
further reducing NASA's budget to a level of $17.71 billion, 
more than a billion dollars less than the fiscal year 2010 
budget. Mr. Chairman, I ask that the committee review the NASA 
budget, and that you work to ensure that NASA is provided with 
not less than $17.7 billion. This is critical if the United 
States is going to continue to secure the military high ground, 
space. Thank you.
    [The prepared statement of Bill Posey follows:]

  Prepared Statement of Hon. Bill Posey, a Representative in Congress 
                       From the State of Florida

    Chairman Ryan, Members of the Budget Committee, I appreciate the 
opportunity to come before you today to respectfully urge you to 
preserve NASA's core mission: human space flight.
    Our investments in NASA's human space flight program are a matter 
of national security. It is not as some suggest, an endeavor that we 
can no longer afford. I would strongly argue that it is an endeavor 
that we can ill-afford to ignore if we are to maintain our national 
security and enhance our economic security.
    Space is the world's military high ground. It is to the United 
States and the free world, what the Golan Heights is to Israel. To 
understand this we need only listen to the testimony two weeks ago of 
one of our nation's leading intelligence officials.
    The Director of the Defense Intelligence Agency, General Burgess, 
highlighted the risks posed by China through their investments in human 
space flight. Testifying before the Senate Armed Services Committee he 
said of China, ``[Their] space program, including ostensible civil 
projects, supports China's growing ability to deny or degrade the space 
assets of potential adversaries and enhance China's conventional 
military capabilities.'' He went on to add, ``China's successfully 
tested a direct ascent anti-satellite weapon (ASAT) missile and is 
developing jammers and directed-energy weapons for ASAT missions. A 
prerequisite for ASAT attacks, China's ability to track and identify 
satellites is enhanced by technologies from China's manned and lunar 
programs as well as technologies and methods developed to detect and 
track space debris.'' Let me repeat that. China's military advances are 
a direct result of ``China's manned and lunar program.''
    By ceding our leadership to China and Russia and India to a lesser 
extent, we would be walking away from the ultimate military high 
ground. That is the reality if we fail to adequately invest in our 
nation's space program, including NASA's human space flight program.
    As you proceed in developing a budget resolution it is in our 
national security interest that sufficient funding be provided and that 
NASA be directed to prioritize human space flight within the overall 
NASA budget.
    Russia and China are nipping at our heels and threatening our 
position as the world leader in space and human space flight--a 
position we have held since 1969. Today, we are in the untenable 
position of having no domestic means of putting a U.S. astronaut into 
space--yet China and Russia both have that capability.
    Direction and a full commitment from the Administration have been 
seriously lacking. As a result, our human space flight program is 
suffering and the U.S. is on the cusp of ceding its leadership in space 
to our adversaries. This is not in our national security interest nor 
is it in our economic security interests. Mr. Chairman, as we have 
discussed before our investments in human space flight have helped us 
maintain our competitive edge economically, our advantage on the 
battlefield, and endless commercial products that have improved every 
aspect of our daily life and overall economy. The reality is that our 
lives depend on space. If you use a cell phone, Blackberry, credit 
card, GPS, and you or the ones who grow the food you eat depend on an 
accurate weather report--you rely on space.
    The President abandoned the Constellation program in his FY 2011 
budget. During consideration of the FY 2012 budget, NASA delayed by 
nearly 12 months presenting a design plan for moving forward with Space 
Launch System (SLS). This lack of bold leadership for the world's 
premiere space exploration organization puts America at risk.
    In Fiscal Year 2010 NASA reached its high water mark budget of 
$18.7 billion. The FY 2012 NASA budget is $17.8 billion. And, for FY 
2013 the Administration has proposed further reducing NASA's budget to 
a level of $17.71 billion--more than a billion dollars less than the 
FY10 budget.
    Mr. Chairman, I ask that as the Committee reviews the NASA budget 
that you will work to ensure that NASA is provided not less than $17.7 
billion. This is critical if the United States is going continue to 
secure the military high ground: Space.
    There are NO other federal agencies funded to pursue human space 
flight.
    The President's FY 2013 Budget submission has misplaced priorities 
for Space and National Defense again. It cuts $162 million from the 
heavy lift program and it slashes the Defense budget by $487 billion by 
2021. Yet, the Administration has dealt significantly lighter 
reductions to superfluous projects like studying climate change and 
greenhouse gas emissions. In FY 2010, 16 federal agencies and 
departments were funded at over $8 billion to address climate change. 
And they continue to receive substantial funding for these initiatives. 
Again, although 16 federal agencies deal with climate change, only one 
agency is tasked with the challenges of human space flight.
    China and Russia continue to increase the sophistication of their 
human space flight programs and are reaping the national security and 
economic benefits of those investments.
    We also must not lose sight of the major national asset that the 
human space flight workforce is to our nation. Our human space flight 
program attracts and inspires some of the world's greatest minds.
    Our human space flight workforce is not a spigot that can be turned 
off and then back on at a later date. It takes years, sometimes decades 
to build the expertise these workers hold. Without a clear vision and a 
robust investment in our human space flight program this community will 
quickly atrophy as these engineers and their expertise will be lost to 
other pursuits and possibly other countries.
    The time to refocus NASA on its primary human space flight mission 
is now. The Budget Committee has the authority to help focus NASA on 
human space flight, rather than allow it to flounder as yet another 
agency without a clear focus and absent a clear mission.
    Thank you for your leadership, and for giving me the opportunity to 
address the committee regarding human space flight--a matter of great 
economic and national security importance.

    Mr. Lankford. Thank you, Mr. Posey.
    Mr. Posey. Thank you.
    Mr. Lankford. Mr. Cicilline.

STATEMENT OF HON. DAVID CICILLINE, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF RHODE ISLAND

    Mr. Cicilline. Thank you Mr. Chairman, members of the 
committee for the opportunity to come before you to testify 
about our budget priorities. As of this past January, the 
unemployment rate in Rhode Island stood at an unacceptable high 
10.9 percent. That means more than 61,000 men and women in my 
state are without work. As all of you know so well, the federal 
budget is not just a series of estimates, revenues, and 
expenditures; the budget is a powerful indication of our 
priorities as a nation. The work that we will undertake in the 
coming months is a reflection of our ability to chart a course 
to prosperity in our states and nation. Charting this course 
requires bipartisan collaboration and focusing resources on 
issues that will generate growth in employment. Strength in our 
small businesses helps our job creators and equip more 
Americans, from cradle to career, college and beyond, with the 
education, skills, and training they need to compete.
    I would like to take this opportunity to call your 
attention to three priorities that I believe warrant serious 
consideration in fiscal year 2013. First, support for education 
is our best investment in the future, and represents perhaps 
the most the powerful tool in alleviating poverty and equipping 
Americans with the skills they need to compete.
    Our country's education advantage, once the envy of the 
industrialized world, continues to lag. This reality, if not 
addressed, will leave our economy behind as our rivals speed 
ahead. As one report from Georgetown University indicated, of 
the nearly 47 million job openings estimated between 2008 and 
2018, more than 29 million will require at least some post-
secondary education. Far too often when I visit companies like 
Teknor Apex in Pawtucket, Rhode Island in my district, I have 
their owners telling me that they jobs to fill and plans to 
expand, but they face difficulties finding people with the 
right skill set. This cannot continue.
    The president's fiscal year 2013 budget reflects the 
necessary focus on the cradle to college and career support 
that my state and our country needs to contend with the global 
competition. This includes maintaining critical funding for 
Title I and IDEA programs, increasing the maximum Pell grant, 
extending the current 3.4 percent interest rate on subsidized 
student loans, and providing a robust investment in community 
college to career fund, which will support partnerships between 
community colleges and businesses in high growth industries to 
educate, train, and place more Rhode Islanders and more 
Americans in well-paying jobs.
    Second, in addition to a pipeline of well-trained 
employees, our nation's recovery depends on the strength and 
vitality of our small businesses. In Rhode Island, small 
businesses with fewer than 20 employees accounted for 
approximately 90 percent of all private sector employers in 
2010. Small businesses are critically important for job growth, 
having accounted for between 65 to 90 percent of net new jobs 
over the past 15 years.
    The president's fiscal year 2013 budget proposes important 
investments to advance and sustain our small businesses, 
including through the Hollings Manufacturing Extension 
Partnership, the International Trade Administration, long 
guarantees from the Small Business Administration, and the 
creation of advanced manufacturing technology consortia and 
regional innovation strategies program. Together, these and 
other programs will help our small businesses and manufacturers 
acquire much-need capital, expand access to markets abroad for 
their goods and services, and accelerate innovation, job 
creation, and the expansion of high growth industry clusters.
    Finally, as I have heard many times during my Main Street 
small business tours and community suppers, a sustained 
economic recovery requires a thriving middle class. These are 
the men and women who consume the goods and services being 
produced by businesses. They are the firefighters, our 
teachers, our police officers, our building tradesmen and 
women, they are our veterans returning from combat, they are 
young people, adult learners, and older workers in need of 
enhanced skills. They are people like Estella Londono from 
north Providence, Rhode Island who, after being laid off from 
work, relied on unemployment benefits to sustain her family 
while she participated in job training, improving her skills 
and enhancing her ability to find a new job. We must make 
certain that the 2013 budget supports Americans like Estella, 
and provides for a thriving middle class.
    Now is the time to put men and women to work on vital 
infrastructure projects, fixing our roads, bridges, schools, 
and water systems, keep college affordable so graduates are not 
saddled with a lifetime of debt, ensure our returning veterans 
have access to health care and job training, keep our promise 
to seniors by protecting Medicare and Social Security, and pull 
struggling homeowners above water, and returning vitality to 
our housing market.
    These are the priorities I was sent to Congress to defend, 
and they will require serious conversation about which 
investments are working for America, and will help us create 
jobs, innovate for the future, and remain competitive in the 
global economy, and which will not.
    I look forward to the work ahead as we work together in a 
bipartisan way to chart a course to prosperity for our country, 
and I thank the committee for the opportunity to speak today, 
and thank you in advance for you thoughtful deliberations. 
Thank you.
    [The prepared statement of David Cicilline follows:]

  Prepared Statement of Hon. David N. Cicilline, a Representative in 
                Congress From the State of Rhode Island

    Thank you Chairman Ryan, Ranking Member Van Hollen, and members of 
the Budget Committee.
    As of this past January, the unemployment rate in Rhode Island 
stood at an unacceptably high 10.9 percent. That means more than 61,000 
men and women in my state are without work. As all of you know so well, 
the federal budget is not just a series of estimates, revenues, and 
expenditures. The budget is a powerful indication of our priorities as 
a nation. The work that we will undertake in the coming months is a 
reflection of our ability to chart a course to prosperity in our states 
and nation.
    Charting this course requires bipartisan collaboration and focusing 
resources on initiatives that will generate growth in employment, 
strengthen our small business job creators, and equip more Americans--
from cradle to career, college, and beyond--with the education, skills, 
and training they need to compete.
    I would like to take this opportunity to call attention to three 
priorities that I believe warrant serious consideration in Fiscal Year 
2013.
    First, support for education is our best investment in the future 
and represents perhaps the single most powerful tool in alleviating 
poverty and equipping Americans with the skills they need to compete in 
the 21st century economy. Our country's education advantage, once the 
marvel of the industrialized world, continues to lag. This reality, if 
not addressed, will leave our economy behind as our rivals speed ahead.
    As one report from Georgetown University indicated, of the nearly 
47 million job openings estimated between 2008 and 2018, more than 29 
million will require at least some postsecondary education. Far too 
often when I visit companies like Teknor Apex in Pawtucket, Rhode 
Island, I hear owners telling me they have jobs to fill, and plans to 
expand, but they face difficulties finding people with the right skill 
set. This cannot continue.
    The President's FY 2013 budget reflects the necessary focus on the 
cradle to college and career support my state, and our country, needs 
to contend with our global competitors. This includes maintaining 
critical funding for Title I and IDEA programs; increasing the maximum 
Pell Grant; extending the current 3.4% interest rate on subsidized 
student loans; and providing a robust investment in a Community College 
to Career Fund, which will support partnerships between community 
colleges and businesses in high growth industries to educate, train, 
and place more Rhode Islanders and Americans in well-paying jobs.
    Second, in addition to a pipeline of well-trained employees, our 
nation's economic recovery depends on the strength and vitality of our 
small businesses. In Rhode Island, small businesses with fewer than 20 
employees accounted for approximately 90 percent of all private sector 
employers in 2010. Small businesses are critically important for job 
growth, having accounted for between 65 to 90 percent of net new jobs 
over the past 15 years.
    The President's FY 2013 budget proposes important investments to 
advance and sustain our small businesses, including through the 
Hollings Manufacturing Extension Partnership, the International Trade 
Administration, loan guarantees from the Small Business Administration, 
and the creation of an Advanced Manufacturing Technology Consortia and 
Regional Innovation Strategies Program. Together, these and other vital 
proposals will help our small businesses and manufacturers acquire 
much-needed capital, expand access to markets abroad for their goods 
and services, and accelerate innovation, job creation, and the 
expansion of high-growth industry clusters.
    Finally, as I have heard time and again during my Main Street Small 
Business Tours and Community Suppers, a sustained economic recovery 
requires a thriving middle class. These are the men and women who 
consume the goods and services being produced by businesses. They are 
our firefighters, teachers, police officers, and building trades men 
and women. They are our veterans returning from combat. They are our 
young people, adult-learners, and older workers in need of enhanced 
skills to compete.
    They are people like Estella Londono from North Providence, Rhode 
Island, who, after being laid off from work relied on unemployment 
benefits to sustain her family while she participated in job training--
improving her skills and enhancing her ability to find a job. We must 
make certain the Fiscal Year 2013 budget supports Americans like 
Estella and provides for a thriving middle class. Now is the time to 
put men and women to work on vital infrastructure projects--fixing our 
roads, bridges, schools and water systems; help keep college affordable 
so graduates are not saddled with a lifetime of debt; ensure our 
returning veterans have access to health care and job training; keep 
our promise to seniors by protecting Medicare and Social Security; and 
pull struggling homeowners above water, returning vitality to our 
neighborhoods and housing market.
    These are the priorities I was sent to Congress to defend, and they 
will require a serious conversation about which investments are working 
for America and will help us create jobs, innovate for the future, and 
remain competitive in the global economy, and which will not.
    I look forward to the months ahead as we work, in a bipartisan 
fashion, to chart a course to prosperity. I thank the Committee for 
their time today and their thoughtful deliberation.

    Mr. Lankford. Thank you, Mr. Cicilline for your testimony. 
Are there any questions from the committee? Seeing none, I 
thank you for being here.
    Mr. Cicilline. Thank you Mr. Chairman.
    Mr. Lankford. At this time, we will now take a brief recess 
as we wait for additional members to come testify. This hearing 
is now in recess subject to the call of the chair.
    [Whereupon, at 2:11 p.m., the committee recessed, to 
reconvene at 2:13 p.m., the same day.]
    Mr. Stutzman. The Budget Committee meeting will come to 
order, and we want to welcome the Honorable Janice Schakowsky 
for her testimony, you are recognized for five minutes.

   STATEMENT OF HON. JANICE SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, I appreciate it Mr. Chairman, 
Mr. Ranking Member, Mr. Blumenauer. Many people have said that 
budgets are moral documents and the choices that a family, a 
business, or a government makes when crafting a budget, says 
everything about where their priorities lie. At a federal 
government, we face substantial short and long-term deficit 
challenges that we have to address while simultaneously 
constructing a strong foundation for a bright economic future 
for our country, but it pays to remember how we got here. 
Deficits were not an accident or unexpected like an earthquake 
or a tornado. These deficits were man-made and just a decade 
ago we had a budget surplus, and the debt was rapidly 
decreasing, but during the Bush years, though, surpluses 
disappeared and huge debts accumulated due to two unfunded 
wars, two unfunded tax cuts, that mainly benefited the wealthy, 
and a blind eye to the recklessness of Wall Street, which cost 
8 million Americans their jobs, and caused a great recession.
    The choices we make as a Congress can either right these 
past wrongs or double down on the current path with inequality 
at levels we have not seen since 1928, the middle class 
shrinking, and people feeling that the American dream is 
slipping away. So I am concerned that the majority, in the name 
of fiscal responsibility, will craft a budget resolution that 
will take a hatchet to the vital investments that support 
America's middle class and those who aspire to it, and go after 
the vulnerable populations and do not help to build our 
infrastructure, or make scientific or technological innovations 
possible, but there is another way.
    So the first challenge is to tackle our number one deficit, 
and that is the jobs deficit, and creating jobs equals deficit 
reduction. We have had 23 straight months of private sector job 
growth; we have seen the economy improve, but we are not there 
yet, that is for sure. To address the nearly 13 million 
Americans who are still out of work, I have introduced the 
emergency jobs to restore the American Dream Act, HR 2914, and 
my cost-effective plan would put 2.2 million people to work for 
two years in jobs that meet the critical needs of our 
communities across the country.
    President Obama's American Jobs Act, included in his budget 
proposal, includes similar components that would put people to 
work rebuilding schools and communities and create jobs for 
teachers and firefighters, police officers, and young people. 
So it seems to me that we ought to stop paying companies for 
leaving the United States of America with tax advantages, and 
give those same tax breaks to companies that make it in 
America, and I have a bill called Patriot Corporations of 
America that does just that.
    We have to ask more from those who can afford to pay more, 
whether it is implementing the Buffet rule, or creating higher 
tax brackets for millionaires and billionaires, as I have 
proposed in the Fairness in Taxation Act, asking the very 
wealthy to pay their fair share, and generating substantial 
revenues.
    Third, we cannot shift the burden to those who have already 
been sacrificing for years. Poverty and inequality are bad for 
individuals, the economy, and our democracy. Half of all 
seniors make $19,000 or less a year in income. We must protect 
the earned benefits in Social Security and Medicare, not cut 
them in order to maintain tax breaks for the richest of 
Americans.
    Finally, we need to invest in education, transportation 
infrastructure, scientific advancement, medical research, new 
energy technologies, and other efforts that will build the 
economy and our workforce.
    I believe that the push for across-the-board cuts is 
misguided, such cuts may be easy, but they are not fair, not 
everyone is starting the race at the same line, and some 
investments are more important than others because they expand 
opportunities and strengthen the economy. Just because is 
something is classified as non-security spending does not make 
it any less vital. I would argue that cuts to USDA food safety 
have everything to do with security, for example, and the 
biggest bang for the buck actually comes from support systems 
for families that are struggling. Every dollar spent on 
unemployment insurance results in $1.64 in growth to the 
economy. Every dollar spent on food stamps results in $1.72 in 
growth.
    So we have the means and the opportunity to create jobs, we 
build the middle class, invest in our economic future, all the 
while bringing down the deficit. Our budget, our moral 
document, just needs to reflect those values. I thank you, Mr. 
Chairman.
    [The prepared statement of Janice Schakowsky follows:]

 Prepared Statement of Hon. Janice D. Schakowsky, a Representative in 
                  Congress From the State of Illinois

    Thank you, Mr. Chairman.
    Many people have said that budgets are moral documents. The choices 
that a family, a business, or a government make when crafting a budget 
say everything about where their priorities lie.
    As a federal government, we face substantial short- and long-term 
deficit challenges that we have to address while simultaneously 
constructing a strong foundation for a bright economic future for our 
country.
    But it pays to remember how we got here. These deficits were not an 
accident, or unexpected, like an earthquake or tornado. These deficits 
were man-made. Just a decade ago we had a budget surplus and the debt 
was rapidly decreasing.
    But during the Bush years, those surpluses disappeared and huge 
debt accumulated due to two unfunded wars, two unfunded tax cuts that 
mainly benefited the wealthy, and a blind eye to the recklessness of 
Wall Street, which cost 8 million Americans their jobs and caused a 
Great Recession.
    The choices we make as a Congress can either right these past 
wrongs--or double-down on the current path, with inequality at levels 
we haven't seen since 1928, the middle class shrinking, and people 
feeling that the American Dream is slipping away.
    I am concerned that the majority, in the name of fiscal 
responsibility, will craft a budget resolution that will take a hatchet 
to the vital investments that support the American middle class and 
those who aspire to it, protect vulnerable populations, build our 
infrastructure, and make scientific and technological innovations 
possible.
    There is another way.
    The first challenge is to tackle our number one deficit and that is 
the jobs deficit; creating jobs equals deficit reduction. We've had 23 
straight months of private sector job growth, we've seen the economy 
improve but we're not there yet.
    To address the nearly 13 million Americans who are still out of 
work, I have introduced the Emergency Jobs to Restore the American 
Dream Act (H.R. 2914). My cost-effective plan would put 2.2 million 
people to work for two years in jobs that meet the critical needs of 
our communities across the country. President Obama's American Jobs 
Act, included in his budget proposal, includes similar components that 
would put people to work rebuilding schools and our communities and 
create jobs for teachers, firefighters, police officers, and for young 
people.
    We should stop paying companies for leaving the United States of 
America with tax advantages and give those same tax breaks to companies 
that make in America. I have a bill called Patriots of America that 
does just that.
    Second, we must ask more from those who can afford to pay more. 
Whether it is implementing ``the Buffett rule'' or creating higher tax 
brackets for millionaires and billionaires, as I have proposed with the 
Fairness in Taxation Act, asking the very wealthy to pay their fair 
share can generate substantial revenues.
    Third, we cannot shift the burden to those who have already been 
sacrificing for years. Poverty and inequality are bad for individuals, 
our economy, and our democracy. Half of all seniors have less than 
$19,000 a year in income. We must protect the earned benefits in Social 
Security and Medicare, and ensure programs like Medicaid stay strong--
not cut them in order to maintain tax breaks for the richest Americans.
    Finally, we need to invest in education, transportation and 
infrastructure, scientific advancement and medical research, new energy 
technologies, and other investments that will build the economy and our 
workforce.
    The push for across-the-board cuts is misguided. Such cuts may be 
easy but they are not fair--not everyone is starting the race at the 
same line, and some investments are more important than others because 
they expand opportunity and strengthen the economy. Just because 
something is classified as ``non-security'' spending doesn't make it 
any less vital. Cuts to USDA food safety inspections have everything to 
do with security, for example.
    The biggest ``bang for the buck'' actually comes from support 
systems for families that are struggling--every dollar spent on 
unemployment insurance results in $1.64 in growth to the economy; every 
dollar spent on food stamps results in $1.72 in growth.
    We have the means and opportunity to create jobs, rebuild the 
middle class, and invest in our economic future, all while bringing 
down the deficit. Our budget--our moral document--just needs to reflect 
those values.
    Thank you.

    Mr. Stutzman. Thank you. Are there any questions from the 
committee?
    Mr. Blumenauer. I was curious if you could just elaborate 
for a moment. You mentioned, as the first piece of legislation 
that you have been working on providing direct employment, and 
I am just curious if you could just talk for a
    moment on what it does for young people, and how that would 
work for youth?
    Ms. Schakowsky. Yes. It would put young people to work 
dealing with our natural infrastructure, putting them to work 
in improving our museums and our parks and our open spaces. 
This would help to train and prepare them for future private 
sector jobs, and would provide them with some wherewithal in 
order to move themselves forward.
    Also, as with the president's bill, it would repair 
schools. The great thing about school infrastructure building, 
it does not rely on a construction season, and you can do that 
all year long. That would put the many people unemployed in the 
construction industry to work.
    Mr. Blumenauer. Thank you very much.
    Ms. Schakowsky. Thank you very much.
    Mr. Stutzman. Thank you for coming to the budget committee 
and testifying, and we appreciate your comments.
    Ms. Schakowsky. Thank you.
    Mr. Stutzman. At this time we will recognize Mr. Palazzo 
for his testimony before the Budget Committee. Mr. Palazzo, you 
are recognized for five minutes.

STATEMENT OF HON. STEVEN PALAZZO, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF MISSISSIPPI

    Mr. Palazzo. Thank you, Mr. Chairman. I come before you 
today with a grave concerns regarding the state of our nation's 
defense spending priorities. My biggest concern remains the 
fact that the president's budget includes a reduction of more 
than $5 billion from last year's request. These are more than 
just dollar signs on a page; these are real reductions in the 
readiness and capabilities of our nation's military, and out of 
the discretionary budget authority allotted this year, more 
than $25 billion goes to mandatory spending in the Department 
of Energy programs that is outside of the Department of 
Defense. Multiple witnesses have testified before the House 
armed services committee to tell us what these cuts mean to our 
military, is being forced to do more with less. I am here to 
inform the men and women of this committee that this is a risk 
to our national security, and it is one that I am not willing 
to take. These cuts represent losses to overall manpower.
    It is estimated that the Army plans to reduce their 
strength by more than 10,000 troops per fiscal year, resulting 
in reductions from 552,000 in this fiscal year to 490,000 by 
the end of fiscal year 2017. The Marine Corps plans to reduce 
their numbers by 5,000 Marines per year for a reduction from 
202,000 to 182,000.
    While the men and women of our armed forces are what truly 
make our military great, manpower is not the only risk under 
the president's proposed budget. This budget puts significant 
limitations on our military hardware as well. For example, I 
represent a district that produces the greatest warships the 
world has ever seen. Amphibious assault ships and surface 
combatants project our nation's power across the oceans every 
day. The sailors who sail upon these ships are some of our 
nation's most visible ambassadors and one of the greatest 
deterrents that our military has at our disposal. In wartime, 
they provide the sea lift and combatants necessary to support 
our troops on the ground.
    Unfortunately, the president's budget also cuts our 
nation's shipbuilding budget severely. A reduction of $1.3 
billion in shipbuilding means fewer ships, less maintenance on 
our current fleet, and a smaller force in the long term. This 
forces our nation to remain close to the 285-ship Navy that we 
currently have, instead of ramping up to the 313-ship goal that 
the Navy previously set in order to meet their mission 
requirements. These are just a few of the examples of risk that 
are contained within this budget.
    It is vital that as America's representatives we meet the 
requirements of our military, while budgeting the necessary 
funds to keep our country safe. Our men and women in uniform 
have volunteered to make great sacrifices for our nation. Their 
families have endured hardships through multiple deployments 
and uncertainty over the past 10 years.
    Also, ladies and gentlemen of the committee, we swore an 
oath to defend our country against all enemies both domestic 
and foreign; I do not believe that this budget lives up to that 
promise.
    Mr. Chair, may I also please take a moment to speak about 
our nation's critical need to invest in space exploration? I 
understand the need to practice greater fiscal restraint at a 
time when our government spends too much. We must spend wisely, 
we must prioritize, but our priorities should include an 
investment in space exploration. Talking about spending in 
space is a misnomer in two ways.
    First, it is not spending, but investing in jobs and 
technology and inspiration, in education, and in the next 
generation of engineers and scientists. The money is not just 
spent in space, but here on Earth, and predominantly, here in 
America, for now the global leader in aerospace. The United 
States has built an enduring legacy in the realm of space 
exploration, but we are on the precipice of ceding that 
leadership unless we support NASA's efforts towards developing 
the next generation vehicle to replace the now-retired space 
shuttle. We continue to service the International Space 
Station, which has been crewed since 2000, and to facilitate 
commercial companies to resupplying the ISS and eventually 
carry crews into low Earth orbit.
    The president's budget for NASA is essentially flat, which 
is alarming only in the sense that funding for other scientific 
agencies has increased, such as at NSF and at NSIT, we saw an 
increase of 14 percent. In the area of space exploration the 
president has not only failed to provide adequate funding, he 
has failed to articulate an achievable vision for our nation to 
work toward and rally around. May we in Congress, through our 
spending priorities, continue to advocate for space exploration 
and all the benefits that come from being a nation that 
explores. I would just like to thank this committee for 
allowing me to be here today, I yield back.
    [The prepared statement of Steven Palazzo follows:]

   Prepared Statement of Hon. Steven M. Palazzo, a Representative in 
                 Congress From the State of Mississippi

    Mr. Chairman, I come before you today with grave concerns regarding 
the state of our nation's defense spending priorities. My biggest 
concern remains the fact that the president's budget includes a 
reduction of more than $5 billion from last year's request. These are 
more than just dollar signs on a page, these are real reductions in the 
readiness and capabilities of our nation's military. And out of the 
discretionary budget authority allotted this year, more than $25 
billion goes to mandatory spending and Department of Energy programs 
outside of the Department of Defense.
    Multiple witnesses have testified before the House Armed Services 
Committee to tell us that these cuts mean that our military is being 
forced to do more with less. I am here to inform the men and women of 
this committee that this is a risk to our national security that I am 
not willing to take.
    These cuts represent losses to overall manpower. It is estimated 
that the Army plans to reduce their strength by more than 10,000 troops 
per fiscal year, resulting in reductions from 552,100 in this fiscal 
year to 490,000 by the end of Fiscal Year 2017. And the Marine Corps 
plans to reduce their numbers by 5,000 Marines per year for a reduction 
from 202,100 to 182,100.
    While the men and women of our Armed Forces make our military 
great, manpower is not the only risk under the President's proposed 
budget. This budget puts significant limitations on our military 
hardware as well. I represent a district that produces the greatest 
warships the world has ever seen. Amphibious assault ships and surface 
combatants project our nation's power across the oceans every day. The 
sailors who sail upon these ships are some of our nation's most visible 
ambassadors and one of the greatest deterrents that our military has at 
our disposal. In wartime, they provide the sea lift and combatants 
necessary to support our troops on the ground.
    Unfortunately, the president's budget cuts our nation's 
shipbuilding budget severely. A reduction of $1.3 billion in 
shipbuilding means fewer ships, less maintenance on our current fleet, 
and a smaller force in the long-term. This shipbuilding budget forces 
our nation to remain close to the 285-ship navy that we currently have, 
instead of ramping up to the 313-ship goal that the Navy has set in 
order to meet their mission requirements.
    These are just a few of the examples of risks that are contained 
within this budget. It is vital that as America's representatives, we 
meet the requirements of our military, while budgeting the necessary 
funds to keep our country safe.
    Our men and women in uniform have volunteered to make great 
sacrifices for our nation. Their families have endured hardships 
through multiple deployments and uncertainty over the past 10 years.
    Ladies and gentlemen of the committee, we swore an oath to defend 
our country against all enemies foreign and domestic. I do not believe 
that this budget lives up to that promise.
    Mr/Madame Chair, may I also please take a moment to speak about our 
nation's critical need to invest in space exploration? I understand to 
need to practice greater fiscal restraint at a time when our government 
spends too much, but we must spend wisely.
    Talking about spending in space is a misnomer in two ways. First, 
it is not spending, but investing- in jobs, in technology, in 
inspiration, in education, in the next generation of engineers and 
scientists. And the money is not spent in space, but here on earth, and 
predominantly here in America, the global leader in aerospace.
    The United States has built an endearing legacy in the realm of 
space exploration. But we are on the precipice of ceding that 
leadership unless we support NASA's efforts toward developing the next 
generation vehicle to replace the now retired space shuttle, to 
continue to service the International Space Station which has been 
crewed since 2000, and to facilitate commercial companies to 
resupplying the ISS and eventually carry crews into low earth orbit.
    The President's budget for NASA is essentially flat, which is 
alarming only in the sense that funding for other scientific agencies 
has increased, such as at NSF, and at NIST which saw an increase of 
14%. In the area of space exploration, the President has not only 
failed to provide adequate funding, he has failed to articulate an 
achievable vision for our nation to work toward and rally around. May 
we in Congress, through our spending priorities, continue to advocate 
for space exploration and all the benefits that come from being a 
nation that explores.
    Again, thank you for the opportunity to share my views with the 
Budget Committee.

    Mr. Stutzman. Thank you Mr. Palazzo. I have just a couple 
of questions. You serve on the Armed Services Committee. Could 
you talk a little bit about what you know from the wars in Iraq 
and Afghanistan winding down, how that should affect the 
budget. Should it affect the budget? What do you see and hear 
in the Armed Services Committee?
    Mr. Palazzo. Personally I think there will be some savings 
from the winding down of actions in Iraq and Afghanistan, but 
too often we take end of one war to mean that there will never 
be another action of even, or greater, consequence later on, 
and it thus results in a hollowing out of our nation's 
military, not only our NCOs, our officers, but also deferred 
maintenance and weapons programs.
    Basically what you end up with is a possibility a Navy that 
does not float, and an Air Force that cannot fly, and you lose 
the experience, and of course, and our men and women in 
uniform, which is one of our greatest assets in the military. 
What happens is it becomes more of a not if, but when we have 
to engage a current threat or an emerging threat, that we end 
up spending more in blood and treasure than I think myself or 
this country really wanted. We have to, from a strategic 
standpoint, look at the future threats, and come down slowly.
    I have only been here 13 months, and as you mentioned, I do 
serve on the House Armed Services Committee. When I first got 
here, it was then-Secretary Gates wanted $100 billion in 
savings over five years, and those savings were going to be 
taken and then reinvested into our military: our MWR programs, 
our fitness programs, weapons, modernization maintenance. So 
take the savings and reinvest it, because we have been a nation 
at war, and we have a lot of equipment that is old, that is 
failing, that is aged, and we have to reset that. We also need 
to begin retraining troops to be able to engage in different 
wars other than insurgency-type operations.
    Then it went to the president wanting $78 billion in cuts, 
and then now we are at $487 billion, and also with the pending 
doom and violent destruction to our military that could be a 
result of sequestration, all within 13 months.
    Mr. Stutzman. Final question, it looks like the National 
Guard, Air Guard, could be taking some cuts throughout this 
sequestration or the budget process. Could you talk a little 
bit about how the Guard should fit in this whole discussion, 
and the value that it brings? What is your experience and what 
you have heard?
    Mr. Palazzo. Mr. Chairman, thank you for asking that 
question. I am actually still serving in the Mississippi Army 
National Guard as an NCO, and concurrently serving in Congress 
and on the House armed services committee. We are going to 
have, again, a lot of experience through, just the president's 
own budget we are looking at a loss of up to 100,000 men and 
women in uniform. What better place to place them then in the 
National Guard? I cannot remember the exact statistics; I think 
maybe we could retain these assets and these abilities at one-
sixth of the cost and it would have to be as if they were on 
active duty. We cannot afford to lose our men and women. That 
is our number one treasure, and we spent hundreds of thousands, 
in some case millions of dollars, preparing, training, and 
investing in these individuals and to just turn them out, turn 
them loose, into a civil force. There are ways that we can 
invest in our Guard. So as we do shift resources from Iraq and 
Afghanistan, you would think that we would be investing more, 
again, in the Guard, Army and Air, because it is a great 
repository for those resources.
    Mr. Stutzman. Thank you very much. Are there any other 
questions from the committee? Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman. Appreciate, 
Congressman, your being here. Your point about the potential 
impact of the Guard and ready reserve as a cost containment 
item resonates with me. I was disappointed that the Air Force 
command decided, essentially, they were going to take their 
savings at the expense of Air Force reserve. That seems to me 
to be questionable, and I appreciate your comment on that.
    I am a little concerned, if I understand your testimony 
correctly, we had the secretary of defense testifying before us 
here this last week where he was laying out the approach that 
the administration has undertaken where testimony was given, 
and I do not think any of us doubt, that even if all of these 
cuts take place, we would still have by far the most powerful 
military in the world. We are currently spending, as you know, 
more than 17 other countries combined, and it is almost half of 
the combined world military spending. As the secretary 
testified to us, the records are so fuzzy and sloppy in the 
Pentagon, that we cannot even audit it. So I want to make sure 
I understand your testimony correctly, that you do not think 
that we can take 1 percent out of the Pentagon budget, which is 
less than was recommended by Simpson-Bowles, as proposed in the 
president's budget without jeopardizing our nations' security. 
Is that what you said?
    Mr. Palazzo. What actually would 1 percent be?
    Mr. Blumenauer. It is 527; you are the expert.
    Mr. Palazzo. Yeah, well you have to look at the moving 
targets. The secretary, then-Secretary Gates, and now Secretary 
Panetta, they keep coming. The House Armed Services Committee 
had tons of hearings under Chairman McKeon last year. What are 
the effects of sequestration? What are the effects of the $487 
billion in cuts?
    Mr. Blumenauer. I want to be clear, because I am not trying 
to mislead you. I just wanted to be clear on one point. You 
testified against a $5 billion reduction, which is less than 1 
percent in the current Pentagon budget. Is it your testimony 
that we cannot reduce the Pentagon budget by less than 1 
percent without jeopardizing our nation's security? You may 
have another president next year, but you do not think we can 
take less than 1 percent out now?
    Mr. Palazzo. I think it needs to be slowed down.
    Mr. Blumenauer. Be advised, I am just talking what you just 
said there: $5 billion out of more than $527 billion.
    Mr. Palazzo. You are talking about $5 billion, or 500?
    Mr. Blumenauer. That is what you said, you came in and 
talked about, as I understood it, the $5 billion reduction in 
this year's budget.
    Mr. Palazzo. I think the military can be more efficient and 
more effective. I think we can find some cuts, but you know, $5 
billion is not unacceptable. What I am saying, and what my 
overall testimony is to this committee is we slow down, let's 
make sure that the decisions that we make going forward, that 
we do not hollow out our armed services, that we do not try to 
balance the budget and all the financial woes on the backs of 
our men and women in uniform. We just left a hearing that was 
talking about BRAC, and just 13 months ago we were needing 313 
ships, not 285, and now with the 30 year shipbuilding plan, are 
we even going to come in at 313 or is it going to be less than 
300?
    So I have a lot of concerns. My number one concern, of 
course, is most of the people in this committee, and in 
Congress, is that we do not break the trust that we have with 
our men and women in uniform, not only those currently serving, 
but those who have served, as well as their families and their 
communities. Again, thank you for that question.
    Mr. Blumenauer. No, thank you for your testimony.
    Mr. Palazzo. And I was confused, I thought we were talking 
about a larger number.
    Mr. Blumenauer. I appreciate the chairman s courtesy, I 
appreciate your testimony. I do not think that there is anybody 
in either side of the aisle that wants to break faith with the 
men and women in uniform, or put something to hollow out the 
military. One of the things I hope we can do going forward is 
actually look at the budget because we have been increasing the 
Department of Defense faster than the rate of inflation; their 
benefits have been increasing faster than private benefits and 
Medicare. The point you make about the size of the fleet, that 
was when we could not figure that we could fly the sailors back 
rather than turning the ship around, and now we are finding out 
that, well, we can actually keep it in theater and use a plane. 
So that there may be some adjustments that we can think of 
going forward and look forward to working with you to make sure 
we fine tune it right.
    Mr. Palazzo. I agree, Congressman, thank you for those 
comments. You did mention something else. I think you alluded 
to the ability to audit the Department of Defense, going 
forward, not only as members of Congress and representatives, 
but with a very awesome responsibility in making these 
decisions, it would be nice to be able to see exactly where the 
money is being spent and whether it is being spent wisely. I 
just urge caution going forward. Thank you.
    Mr. Blumenauer. Great, thank you. Thank you, Mr. Chairman.
    Mr. Stutzman. All right, thank you, thank the gentleman 
from Mississippi for being here and his testimony. It appears 
there are not additional witnesses. This hearing is now 
adjourned.
    [Additional statements submitted for the record follow:]
    [The prepared statement of Barbara Lee follows:]

 Prepared Statement of Hon. Barbara Lee, a Representative in Congress 
                      From the State of California

    Thank you Chairman Ryan, Ranking Member Van Hollen and the members 
of the Budget Committee for giving me the opportunity to testify today.
    Mr. Chairman, I believe strongly that the budget is a moral 
document that very clearly outlines what we as a nation and a society, 
hold dear.
    This is especially true in difficult times, when difficult choices 
must be made.
    The choices we make and the lines that we draw can be stark.
    Do we believe that our nation has a responsibility to help poor 
children get an education, proper nutrition, and have access to quality 
health care or should we preserve billions of dollars in tax credits 
for oil companies that are making record profits?
    Do we believe that it would be right to take away critical funding 
for small business innovation and vital job training programs or should 
we extend tax subsidies that send American jobs over seas?
    I am a founding co-chair of the Congressional Out of Poverty, a 
founding co-chair of the Congressional HIV-AIDS Caucus, a member of the 
Congressional Black Caucus, a member of the Congressional Progressive 
Caucus, as well as a member of the Congressional Asian Pacific American 
Caucus.
    For myself, and I am sure for my colleagues on these caucuses, the 
choices are clear.
    I believe that we can craft a sound and fiscally responsible budget 
that make investments that will reduce poverty, strengthen the economy, 
spark business innovation, and create jobs even as we reduce the 
deficit.
    I believe that it is critical to reaffirm that the needs of the 
poor and most vulnerable are foremost on our minds and that we will 
measure the success or failure of ourselves as a nation, based on the 
success or failure of our working class families.
    We cannot and we must not balance the budget on the backs of our 
most vulnerable.
    All Americans, not just the wealthy few, must have access to 
opportunity, and must be a central part of our strength as an economy 
and as a nation.
    Indeed, it is only when median incomes are rising and the middle 
class is growing, as it was during the Clinton Administration, that we 
have a chance to reach a surplus, not just reductions in the deficit.
    While it is true that our deficits are high, we must not allow an 
exaggerated sense of panic to force us into making shortsighted 
choices.
    Such a course will only hurt our economic recovery, result in more 
job losses, and lead to the elimination of critical safety net programs 
that protect millions of Americans around the country, in my district 
and in the districts of every single member.
    Let me be clear, we do not have to abandon Americans in poverty or 
fail to invest in working class families to reduce our deficits and pay 
down our debts.
    In fact it is only by committing to reducing poverty and lifting 
working class Americans up into the middle class, that we can 
strengthen our economy, improve our competitiveness and reduce our 
deficits in the long term.
    We must come together to lift up the millions and millions of 
Americans who are working full time, but are still living in poverty.
    There are 100 million more who are working hard everyday, but are 
trapped by stagnating wages and high costs and lack the upward mobility 
of the generation that came before them.
    We cannot reduce our deficits simply by cutting food for hungry 
children or stripping our schools of computers and new books.
    We must take a hard look at our priorities and make smart and 
targeted investments that will restore economic mobility and reignite 
the American Dream for all Americans.
    Poverty and economic stagnation isn't just a burden for this 
generation, but slows the growth and development of every generation 
that follows.
    We must immediately address the chronically unemployed who have 
grown by 441% since 2008 by providing them with the emergency funding 
to extend, not cut, Unemployment Insurance to those who have exhausted 
their benefits.
    Nearly 3 million families will be abruptly cut off this year as 
emergency extensions of UI run out and they find themselves with no 
income and nowhere to turn.
    That is why the FY2013 budget must not only respond to families in 
crisis during the recession, it must strengthen our long-term 
commitment to human needs and social service programs so that we can r 
citizens from keeping themselves afloat even in the most prosperous of 
times.
    Economic opportunity for all is a value that defines the United 
States, and it is the responsibility of this Congress to make sure that 
our guiding principles are turned into a reality for all Americans.
    We must embrace a budget that provides a proven pathway out of 
poverty to prosperity for all Americans.
    We can do all these things and more, but first we must have a 
serious discussion about our priorities and how we can pay for them.
    Mr. Chairman, I support reducing the deficit. But cutting non-
defense discretionary spending alone will not solve the problem. We 
need to talk about raising revenues, about repealing tax cuts to the 
most wealthy, and ending the longest war this country has ever faced.
    Americans want a land that is rich with opportunity for all and not 
just the privileged few.
    I urge every member of the Budget Committee to give a full and fair 
consideration of the Congressional Progressive Caucus budget 
alternative. The CPC budget, if enacted, would save more money than any 
of the proposed budgets, would reach balance faster than any of the 
proposed budgets and would balance the necessary savings with the 
critical investments in our nation's people and infrastructure to make 
us stronger and more prosperous now and into the future.
    I thank the Committee once again for the opportunity to share my 
testimony and I respectfully request that my full statement and a 
detailed list of the budget priorities I have outlined be included in 
the record.

    [The prepared statement of Mike Coffman follows:]

 Prepared Statement of Hon. Mike Coffman, a Representative in Congress 
                       From the State of Colorado

    Dear Chairman Ryan and Ranking Member Van Hollen: Thank you for the 
opportunity to express to you my principal interest regarding the 2013 
federal budget.
    On behalf of my constituents, I ask that you take this opportunity 
to act upon the urgent need to save Medicare. The status quo is simply 
not possible any longer, because the new health care reform law passed 
in 2010 already cut more than $500 billion from Medicare and approved 
an unelected board of bureaucrats who will decide what care patients 
may receive. Obviously, there will be consequences from these cuts and 
changes. Nearly one-in-three primary care doctors (according to the 
American Medical Association) are limiting the number of Medicare 
patients they see, and more than half of doctors say the law will 
compel them to close or restrict their practices for Medicare patients 
(according to the Physicians Foundation).
    On top of these problems, Medicare faces significant stress form 
other factors. More than 10,000 Baby Boomers are reaching retirement 
age every single day, and Americans are living about a decade longer 
than they did in 1965 when Medicare was created. As you know, Richard 
Foster, Chief Actuary of the Centers for Medicare & Medicaid Services, 
testified before your committee that the Medicare Hospital Insurance 
trust fund will be insolvent in 2024.
    For our country's seniors, including my own mother in Aurora, 
Colorado, Medicare is a life line. And so, as you formulate our 
nation's fiscal plan for upcoming years, you must include not only 
necessary spending levels to guarantee that our senior's receive the 
healthcare coverage they need, but you also must negate the destructive 
changes inflicted on Medicare under the healthcare changes made by 
President Obama and his congressional allies. As you do so, first and 
foremost, no changes should be made for those in or near retirement 
age. Instead, those looking to retire in ten years or later need the 
ability to choose from a list of assured coverage options which best 
suit their needs, including an option to retain the current Medicare 
program. Low-income individuals should receive greater support, as well 
as those with higher health risks. Efforts to increase the fight 
against waste, fraud and abuse need to be included, to assure financial 
stability.
    This is not only my principal interest, but also the principal 
interest of thousands of my constituents. I appreciate your attention 
to this vital matter.

    [The prepared statement of Bob Goodlatte follows:]

Prepared Statement of Hon. Bob Goodlatte, a Representative in Congress 
                       From the State of Virginia

    Thank you for allowing me to testify before you today.
    Thomas Jefferson once wrote: ``To preserve [the] independence [of 
the people,] we must not let our rulers load us with perpetual debt. We 
must make our election between economy and liberty, or profusion and 
servitude.'' Unfortunately, Congress has all-too-often chosen the 
latter path.
    We have a spending addiction in Washington, D.C., and it has proven 
to be an addiction that Congress cannot control on its own. We have 
gone in a few short years from a deficit of billions of dollars to a 
deficit of trillions of dollars. We are printing money at an 
unprecedented pace, which presents significant risks of inflation. Our 
debt is currently an unfathomable 15 and a half trillion dollars and 
mounting rapidly, as is the waste associated with paying the interest 
on that debt. Yet, Congress has done little to address this crisis. It 
is clear that Congress needs pressure from outside to force it to rein 
in this out-of-control behavior.
    Families all across our nation understand what it means to make 
tough decisions each day about what they can and cannot afford. Yet far 
too frequently this fundamental principle has been lost on a Congress 
that is too busy spending to pay attention to the bottom line. If 
Americans must exercise restraint with their own funds, then government 
officials must be required to exercise an even higher standard when 
spending other peoples' hard-earned income.
    On the first day of the 112th Congress, I re-introduced 
legislation, H.J.Res. 2, to deliver to Congress the necessary pressure 
to rein in spending. My legislation would amend the United States 
Constitution to require a balanced federal budget each year. 242 
bipartisan cosponsors have joined this effort and the legislation 
received 261 votes on the House Floor this past fall. It would require 
that total spending for any fiscal year not exceed total receipts and 
require the President to propose budgets to Congress that are balanced 
each year. It would provide an exception in times of war and during 
military conflicts that pose imminent and serious military threats to 
national security, as well as in other emergency situations. It would 
make it harder to increase taxes by requiring that legislation to 
increase revenue be passed by a true majority of each chamber and not 
just a majority of those present and voting. Furthermore, the bill 
requires a \3/5\ majority vote for any increases in the debt limit.
    Our nation faces many difficult decisions in the coming years, and 
Congress faces great pressure to spend beyond its means rather than 
make the difficult decisions about spending priorities.
    I thank the Chairman for his Leadership in confronting our fiscal 
crisis and his work toward wresting control of our spiraling deficits 
and debt through the budget process. I encourage you to enact the 
toughest budget possible for Fiscal Year 2013 that eliminates our 
deficit in as few years as possible. I will support the strongest 
efforts to rein in the federal government's spending spree.
    However, we need to keep in mind that even if Congress enacts a 
budget that makes significant progress toward achieving balance within 
a short period of time, the reality is that if a new Congress is 
elected that favors spending over fiscal responsibility, all the work 
that this Committee does could be overturned and the progress toward 
achieving balance could be turned on its head.
    Unless each Congress--regardless of party affiliation--is forced to 
make the decisions necessary to create a balanced budget, the 
temptation will always be there for Congress to spend more than it 
receives in revenues. That is the advantage of a Constitutional 
Balanced Budget Amendment, which would ensure that the principle of 
fiscal responsibility is forced upon all future Congresses. The BBA is 
a common sense approach to ensure that Congress is bound by the same 
fiscal principles that America's families face each day.
    I urge this committee to demonstrate leadership by balancing the 
federal budget in as few years as possible, and I continue to urge 
support of a balanced budget Constitutional amendment to ensure that 
future Congresses are not allowed to continue to saddle our children 
and grandchildren with debt that is not their own.

    [The prepared statement of Janice Hahn follows:]

 Prepared Statement of Hon. Janice Hahn, a Representative in Congress 
                      From the State of California

    Thank you Mr. Chairman for allowing me to testify before the 
committee today and discuss some of the issues that are important to me 
and my constituents.
                          port security grants
    Ports are the gateway in and out of the United States. They are our 
country's link to the rest of the world and the global economy.
    As someone who founded the Congressional Ports Caucus and whose 
district borders the Port of Los Angeles, one of the largest ports in 
the country, I feel very strongly that ports must remain competitive 
and secure given its importance to our national economy.
    That's why I believe the Port Security Grant Program is so 
important.
    The Port Security Grant Program helps strengthen our homeland 
security by providing vital funding to port areas for enhancing their 
capability to prevent, detect, respond to, and recover from attacks 
involving improvised explosive devices, Chemical, Biological, Nuclear 
explosives, and other non-conventional weapons.
    This program, along with other state and local programs, also helps 
ensure that our first responders have the tools they need to make sure 
they are adequately prepared to swiftly and effectively respond to 
threats of all kinds.
    However, under the Presidents FY 2013 budget request, this program, 
along with other state and local programs, will collapse into one 
National Preparedness Grant Program.
    Now I applaud the President's effort to begin awarding grants based 
on risk as well as his request to increase the total overall funding 
from last year.
    However, there is a danger that lumping all of them into one 
singular program will run the risk of diluting critical funding for 
these major programs.
    Additionally, the increased funding from the President's budget 
only represents a total increase from last year and is still 
significantly below its funding from previous years.
    For example, even though the President's request for state and 
local programs represents an increase of $609 million from last year's 
budget, it is still a $480 million (14%) decrease from FY 2011.
    This combined with the fact that these programs are now forced to 
split funding with one another, make me greatly concerned for the 
future of port security in this country.
    Potential cuts to these grants will result in gaps being left 
unaddressed and security officials unable to build and sustain 
capabilities needed to prevent, detect, respond to, and recover from a 
potential attack.
    That's why I would urge this committee to make sure that any future 
budget support increased funding for the Port Security Grant Program.
                         tsunami warning system
    While port security will continue to be a major focus within the 
homeland security landscape, Tsunami preparedness is also a growing 
issue that deserves more attention within this congress.
    As we have seen with the March 2011 Tsunami that hit Japan, an 
effective public alert warning system is needed to save lives. The 
devastation that resulted from this incident resulted in over 15,000 
deaths in Japan and billions of dollars in property damage worldwide, 
including a death and significant property damage in California.
    As the representative of the 36th district of California, my 
district borders the port of Los Angeles as the Alameda Corridor and 
LAX Airport.
    If a Tsunami were to hit my district, the resulting devastation 
would be disastrous, not only for my constituents, but for the country 
as a whole.
    The need to strengthen existing national public alert systems are 
essential to make sure that states, such as my home state of 
California, are sufficiently protected against these types of 
disasters.
    That is why I have recently signed onto a letter supporting 
adequate funding for the National Tsunami Hazard Mitigation Program 
(NTHMP) and the Deep-ocean Assessment and Reporting Tsunamis (DART) 
buoys that will make sure people are adequately prepared if such an 
emergency were ever to occur.
    I urge this committee to please consider the importance of these 
programs as you continue preparing next year's budget.
    Thank you and yield back my time.

    [The prepared statement of James R. Langevin follows:]

   Prepared Statement of Hon. James R. Langevin, a Representative in 
                Congress From the State of Rhode Island

    Good afternoon. I would like to thank Chairman Ryan, Ranking Member 
Van Hollen and the distinguished Members of the Budget Committee for 
this opportunity to testify before you today regarding important 
priorities in the Fiscal Year 2013 budget.
    As Co-Chair of the Congressional Career and Technical Education 
Caucus, I have seen that a failure to engage our students has hurt our 
country's innovative edge and left us unable to fill the jobs of the 
21st Century. In a survey of 2,000 firms conducted by the McKinsey 
Global Institute, 40 percent had positions open for at least six months 
because they couldn't find suitable candidates. While there is no one 
way to solve all of our economic challenges, we know improving 
workforce development has a vital role to play.
    For this reason, I am advocating for $1.27 billion for career and 
technical education funding in Fiscal Year 2013. A revamped career and 
technical education system would allow school districts to develop 
integrated curricula of academics and technical programs that align 
with postsecondary education and career opportunities. This system will 
produce college- and career- ready students who have received relevant 
and rigorous academics and real-world experience that prepares them for 
a wide range of high-growth, high-skilled and high-wage occupations, 
such as engineering, arts and media, cybersecurity and health care.
    Across the country, teachers and school administrators will be able 
to collaborate on an interdisciplinary approach that leverages 
partnerships with local businesses and community organizations to 
identify workforce demands and internship opportunities. This 
collaboration is already taking place at the Providence Career and 
Technical Academy, where students have the opportunity to see a glimpse 
of the world beyond the classroom and their interests and talents are 
nurtured. I am pleased that President Obama's budget provides support 
to expand the academy network.
    In visits to businesses, I repeatedly hear they are struggling to 
fill openings because applicants lack necessary skills. Addressing this 
problem requires better cooperation between the businesses doing the 
hiring and the educators preparing the students, particularly within 
the career and technical training at our community colleges. That is 
why I support President Obama's $8 billion budget initiative to create 
partnerships between community colleges and expanding industries that 
will train workers with skills that lead directly to jobs. I hope my 
colleagues agree that this effort should transcend politics and will 
work with me to implement this policy of educational cooperation and 
economic growth.
    I am pleased to report that such cooperatives are already 
successfully growing in my district. National Grid, our state's primary 
utility, needs a new generation of workers who can fix utility lines 
and maintain interconnected networks of electricity. The Community 
College of Rhode Island has the facilities to offer a certificate 
program in energy utility technology for relatively low tuition. With 
grants and an investment from National Grid, the school provides high-
level math skills and utilizes state of the art equipment to prepare 
students, while the company provides 64 hours of hands-on training at 
its facility. Upon completion, the students are uniquely prepared to 
become new employees.
    You couldn't ask for a more efficient program, and it should serve 
as a model for any company or industry seeking talented employees. Of 
course, the resources that CCRI, or any college, must invest in these 
initiatives costs money. At a time of strapped state budgets, many 
can't accommodate the programs necessary to match our workers with 
high-skilled jobs.
    The President's Community College to Career Fund is a small price 
to pay for the benefit of placing more workers into rewarding jobs that 
allow them to support their families without relying on a government 
safety net. We must work together to make this program a reality.
    Many of our constituents have rightfully lost faith that this 
Congress can make substantial progress on the most meaningful issues. 
There may be some differences we cannot overcome, but supporting these 
programs should be common sense if our number one goal is to put 
Americans back to work.
    Again, thank you for the opportunity to address the Committee, and 
I look forward to working with you on our shared priorities going 
forward.

    [The prepared statement of John Lewis follows:]

  Prepared Statement of Hon. John Lewis, a Representative in Congress 
                       From the State of Georgia

    Good afternoon, Mr. Chairman, Mr. Ranking Member, and Members of 
the Committee. Thank you for the opportunity to share my concerns and 
priorities for the fiscal year 2013 budget.
    For the past five years, Americans have struggled to overcome the 
most significant economic downturn since the Great Depression. A few 
years ago, Congress responded in an extraordinary manner--attempting to 
mitigate the massive impact of the crisis on hardest hit communities.
    The President's FY13 budget proposal continues some of these 
critical investments and common-sense savings. It provides a clearer 
plan to end the costly wars in Afghanistan and Iraq which have depleted 
our reserves and budget surpluses. We simply cannot afford to drain our 
investments at home in support of war abroad. The administration should 
be applauded for the strong support of America's veterans. We must 
provide adequate funding for mental health and post traumatic stress 
disorder services, homeless veterans programs, workload reduction 
services, and veterans' employment and training services.
    Now more than ever, we must invest in America's safety net and pave 
the path towards job creation. As you know, small business is the 
backbone of our economy. I truly believe that Department of Commerce 
and Small Business Administration programs which educate, train, and 
make funds available to small, medium-sized, women, minority, and 
veteran-owned businesses are an integral component of the economic 
recovery process. Similar to proposals included in the President's 
American Jobs Act, I recently introduced a bill--the Back to Basics 
Jobs Act--which is similar to ideas included in the President's plan; 
this bill would establish an immediate, one-time initiative to help the 
long-term unemployed, those who have exhausted unemployment benefits, 
and low-income individuals become gainfully self-employed, and create 
livable-wage jobs instantly.
    In order to realize the goals of another key jobs effort--the 
National Export Initiative--Congress must also fully fund the 
Interagency Trade Enforcement Center (ITEC), the Trade Adjustment 
Assistance for Firms Program, the Manufacturing Extension Partnership, 
and the Trade Adjustment Assistance for Community Colleges and Career 
Training Program. American businesses must be able to compete with our 
global competitors, and these programs help level the playing field.
    Innovative economic development and redevelopment programs must be 
continued, and programs that provide housing assistance for the most 
vulnerable--the elderly, homeless youth, women, children, and 
struggling families--must be protected.
    Any and every way that we can help hard-working Americans efforts 
get back on their feet are keys to our long-term recovery. Income 
security programs like the Supplemental Nutrition Assistance Program, 
Unemployment Insurance, Medicaid, and COBRA should continue to be a 
cornerstone of this year's budget. Especially now, I strongly object to 
proposed cuts to anti-poverty initiatives like the Low Income Home 
Energy Assistance Program, the Assets for Independence Program, the 
Community Services Block Grant, Job Corps, and the Clean Water and 
Drinking Water State Revolving Funds (SRFs).
    Special attention should be given for these and other anti-poverty 
initiatives like the Public Housing (Operating and Capital Funds), HOPE 
VI, Homeless Assistance, Supportive Housing programs for the Disabled 
and Elderly, the Child Care and Development Block Grant, the Commodity 
Supplemental Food Program, the Social Services Block Grant, Women, 
Infants and Children Program (WIC), and the HOME Investment 
Partnerships Program. I am very concerned with the HOME program's 
levels and the loss of family unification vouchers, but I strongly 
favor of the restoration of housing counseling funds.
    During times like these, it is vital that regulatory agencies have 
the appropriate resources and tools to shield our constituents from 
predatory and discriminatory practices. Supporting the Consumer 
Financial Protection Board, the National Mediation Board, the National 
Labor Relations Board, and the National Transportation Safety Board 
ensures that our road to recovery does not come at the expense of our 
national standards and core values. Staffing agencies like the Internal 
Revenue Service adequately helps our constituents receive their tax 
returns more quickly, while allowing the government to collect overdue 
revenue efficiently and effectively.
    This brings me to another important issue that needs to be 
addressed across the board--treatment of federal workers in the budget 
and appropriations process. Few of my colleagues realize that more 
federal employees serve our constituents from agencies across the 
country than in Washington, D.C. Not only are they public servants, but 
they are also taxpayers, and this constant assault is unnecessary. 
Federal employees' retirement and salaries should not be the pay-for 
proposal for every tax cut extension and new bill. For example, we can 
start with cutting funding for war. My no-cost bill, the Cost of War 
Act, would help every American taxpayer calculate the cost of war to 
their household. Investments in America's safety net cannot be the 
victim of unfunded conflicts.
    As you know, I have long represented the area with the longest 
Social Security Disability Appeals backlog in the country. I know that 
the Social Security Administration has been working hard to reduce the 
backlog, and significant progress has been made. Underfunding the 
Social Security Administration now will result in a massive set-back, 
not only in hearing disability appeals, but more immediately, in 
constituent services by phone and in person and prompt payments--not 
just in Metro Atlanta, but across the country.
    I continue to strongly support restoring funding for the Children's 
Hospital Graduate Medical Education Payment Program, and continued 
funding for the Ryan White Care Act, the National Center on Minority 
Health and Health Disparities, the Maternal and Child Health Block 
Grants, and the Public Health Training Program. We must continue to 
invest in health information technology, and more resources for the 
training and hiring health professionals--nurses, doctors, and other 
health providers--who provide frontline health services in minority and 
underserved communities. We all know that prevention is far less costly 
than treatment.
    The Center for Disease Control and Prevention (CDC) is also located 
in my congressional district. We must continue to fund CDC's important 
activities so that doctors, patients and communities have the 
information and tools they need to protect their health and prevent 
disease and injury.
    Perhaps most important for unemployed and dislocated workers in my 
state is an expansion of worker training and continuing educational 
opportunities. Increased discretionary funding for YouthBuild and 
vocational education initiatives will help build a skilled workforce 
for generations to come.
    Education is the key to our future. I applaud the Administration's 
commitment to college affordability by fully funding Pell Grants 
through 2015. It is also important that children and young people have 
the tools for success from an early age; this is why funding for the No 
Child Left Behind Act, Title I, IDEA, STEM and Arts in Education 
programs are key. There are a number of outstanding Historically Black 
Colleges and Universities in my congressional district. They continue 
to struggle to compete with better-endowed institutions. Their benefit 
to current and future generations is enormous. It is my hope that funds 
authorized in the Higher Education Act for these important institutions 
are realized and that discretionary grants for key historic 
preservation and educational endeavors are included in this year's 
budget.
    A strong national transportation grid is an integral component of 
our economic recovery and global competitiveness. The economic crisis 
has forced many transit agencies to decrease services and increase 
costs making it more difficult for both low-income, and/ or 
environmentally-aware workers to seek and reach their jobs. People need 
to commute to work, business, school, and spend tourist dollars in a 
timely, safe, and affordable manner.
    I strongly support the President's bold investment National 
Infrastructure Bank and continued funding for transportation 
initiatives. We must continue to invest in transit and provide as much 
funding and flexibility as possible to struggling transit systems. I 
recently joined a bipartisan coalition of my congressional colleagues 
in strongly opposing any attempt to restructure the financing for or 
eliminate the Mass Transit Account.
    I would also like to commend the President for his increased 
support to ports preparing for the 2014 expansion of the Panama Canal. 
Falling behind our global competitors is simply not an option. I 
oppose, however, the proposed reduction to the Grants-in-Aid for 
Airports Program. My congressional district is home to Hartsfield-
Jackson Atlanta International Airport, the world's largest passenger 
airport, and a key job provider in my district. We must continue to 
invest in models that work.
    While the passage of the FAA reauthorization was long overdue, and 
the investments in NextGen technology are critical, now is not the time 
to cut funding to airports, which have applied federal funds wisely. 
Passengers should not be forced to bear the brunt of these cuts. Local 
transit and traffic congestion projects, port expansion, safety, and 
security initiatives create jobs throughout our state and sustain our 
role in the global economy.
    I continue to support any and all efforts that would reduce our 
nation's dependence on foreign sources of energy, expand the production 
and use of clean alternative fuels and alternative fuel vehicles, 
promote renewable energy development, improve electricity transmission, 
and reward conservation and efficiency. Rising energy costs are simply 
unsustainable. Green jobs and technology are an integral part of our 
economic future.
    Similar to many other localities, many local governments continue 
to face budget challenges. I strongly support the President's budget 
proposals to fund anti-crime initiatives at the local level. Juvenile 
Justice Programs, Byrne Justice Assistance Grants, the Second Chance 
Act, and Court Appointed Special Advocate funds are lifelines for many 
initiatives in my congressional district. Aiding our first responders 
through adequate and increased discretionary funding for airports, 
firefighters, and local law enforcement will improve communication, 
identify and respond to potential threats in a timely manner, and keep 
our communities safer.
    By investing on the front end to prevent dangerous behaviors, we 
save money in the long-term. There should be increased attention to 
service initiatives like H.R. 3075, the National Parents Corps Act, an 
initiative started by former President George W. Bush that successfully 
reduced drug abuse and criminal activities in middle-and high schools 
across the country.
    The President also included proposals similar to my bill, the SMART 
Teen Dating Violence Prevention Act, which streamlines existing youth 
Violence Against Women Act (VAWA) programs to break the cycle of 
violence at the root. Congress must come together in a bipartisan way 
to reauthorize and fully fund the Violence Against Women Act and the 
William Wilberforce Trafficking Victims Protection Act this year.
    Time and time again, economic studies have shown that peace is so 
much more inexpensive than war and violence. Two of my bills, the 
Gandhi-King Scholarly Exchange Initiative Act and the SAFETY through 
Nonviolence Act create a new generation of leaders committed to peace 
and nonviolence. Both bills are low-cost, but provide significant 
impacts. The President's budget recognizes this investment by 
continuing funding for the U.S. Institute of Peace and highlighting 
USIP's work as a key component of our withdrawal from Iraq and 
Afghanistan.
    As a Member of the Congressional Black Caucus, I also applaud 
Secretary Clinton for the swift and continued response to the 
humanitarian crisis in the Horn of Africa and the creation of the Race, 
Ethnicity, and Social Inclusion Unit (RESIUNIT) which plays a key role 
in the U.S.-Colombia Action Plan on Racial and Ethnic Equality, and the 
U.S. Brazil Joint Action Plan to Eliminate Racial and Ethnic 
Discrimination and Promote Equality. We all are struggling with the 
loss of our foreign affairs leader--Congressman Payne. I would like to 
applaud Administrator Shah for his recognition of the tireless work of 
my good friend and colleague with the creation of the Donald Payne 
Fellowship Program. Despite our work in the Middle East and North 
Africa region, these initiatives must be fully funded and protected.
    I would like to close by commending the Administration for their 
support of the Smithsonian's National Museum of African American 
History and Culture, the National Endowment for the Arts, and the 
National Endowment for the Humanities. Preserving our history and 
culture not only bring tourists from all over the world, but also 
create jobs in the humanities and the arts.
    As always, Mr. Chairman, Mr. Ranking Member, and Members of the 
Committee, I thank you for the opportunity to share some of my 
priorities on the fiscal year 2013 budget. I remain available to 
discuss these issues with you in the future and look forward to working 
with you.

    [The prepared statement of John L. Mica follows:]

 Prepared Statement of Hon. John L. Mica, a Representative in Congress 
                       From the State of Florida

    Chairman Ryan, Ranking Member Van Hollen, and Members of the 
Committee, I appreciate the opportunity to present my views on the 
fiscal year (FY) 2013 budget resolution as it relates to programs 
within the jurisdiction of the Committee on Transportation and 
Infrastructure.
    In light of the urgent need to reduce the Federal budget deficit, 
the Committee is recommending funding reductions for many programs 
within its jurisdiction. These recommendations are detailed in the 
Committee's Views and Estimates, which were approved earlier today and 
will be transmitted to you shortly.
    As it has done over the past year, the Committee will continue to 
examine programs within its jurisdiction to cut costs, consolidate 
facilities, eliminate waste, and create efficiencies. In addition, the 
Committee will work to ensure that infrastructure investments funded by 
these programs are those that make sense and yield the greatest benefit 
for the least cost.
    Last month, the Committee successfully concluded a five-year effort 
to reauthorize federal aviation programs. Despite resistance from the 
other body, the FAA Modernization and Reform Act of 2012 (P.L. 112-65) 
ultimately authorized a decrease in funding for the Federal Aviation 
Administration, and made significant reforms to the Essential Air 
Service (EAS) program. For FY 2013, the Committee recommends reducing 
FAA funding by $130 million (-0.08 percent) below the FY 2012 enacted 
level, consistent with the FAA Modernization and Reform Act. In 
addition, the Committee supports the recently-enacted reforms to the 
EAS program, which will save about $16 million per year in the near-
term.
    As you know, we must also reauthorize surface transportation 
programs this year. The previous authorization for these programs, the 
Safe, Accountable, Flexible, Efficient Transportation Equity Act: A 
Legacy for Users (SAFETEA-LU), expired at the end of FY 2009. Since 
that time, the highway, transit, highway safety, and motor carrier 
safety programs have been operating under a series of eight short-term 
extensions, the most recent of which extends the programs through March 
31, 2012.
    Last month, the Committee approved H.R. 7, the American Energy and 
Infrastructure Jobs Act of 2012, which authorizes surface 
transportation programs through FY 2016. H.R. 7 provides the stable and 
predictable funding stream that is necessary for the efficient 
implementation of long lead-time construction programs such as these. 
In addition, H.R. 7 accomplishes more with less through significant 
reforms including cutting in half the time it takes to complete major 
infrastructure projects. H.R. 7 establishes a blueprint for job 
creation, is responsibly paid for, and includes no earmarks, tax 
increases or deficit spending.
    The Committee continues to believe that H.R. 7 is the best way 
forward on surface transportation reauthorization, and requests that 
the FY 2013 budget resolution provide to our Committee an allocation 
sufficient to accommodate this legislation.
    The Committee also hopes to complete work on legislation to 
reauthorize the United States Coast Guard this year. In November 2011, 
the House passed H.R. 2838, the Coast Guard and Maritime Transportation 
Act of 2011. This bill currently awaits action by the Senate. For FY 
2013, the Committee recommends $8.77 billion for the Coast Guard, 
consistent with the level authorized in H.R. 2838 as passed by the 
House.
    In addition to reauthorization of surface transportation programs 
and the Coast Guard, the Committee's other legislative priorities this 
year include reauthorization of hazardous materials transportation 
safety programs, the Economic Development Administration, and the 
Federal Emergency Management Agency, and development of a water 
resources development act. As the Committee moves forward on each of 
these bills, it will continue to recognize the need to constrain 
federal spending and reform programs to ensure the best use of scarce 
resources.
    The Committee believes that properly targeted investment in 
transportation and infrastructure programs is necessary to ensure the 
safe and efficient movement of people and goods, increase economic 
growth, and maintain our global economic competitiveness. I look 
forward to working with you to ensure that such investments are made, 
and that the budget resolution accommodates the important legislation 
within the Committee's jurisdiction that must be enacted this year. 
Again, thank you for the opportunity to present these views.

    [The prepared statement of Cedric L. Richmond follows:]

  Prepared Statement of Hon. Cedric L. Richmond, a Representative in 
                  Congress From the State of Louisiana

    Mr. Chairman thank you for allowing me to testify to my budget 
priorities for Fiscal Year 2013. It has been said that budgets reflect 
our values. This is absolutely true, and is more important than ever 
that we invest in priorities that are consistent with our character as 
a nation and that will leave our families and communities stronger for 
the future. We must invest in economic growth items and in human 
capital so that we can lay the proper foundation for our children to 
compete with their peers in other nations in the decades ahead. There 
are a number of areas that deserve significant investment if we are to 
preserve our standing and create an environment where private sector 
led growth can help my constituents in the 2nd District of Louisiana 
pursue the American dream. That being said, given the limited time 
today, I will focus on three areas in particular that I hope the 
Committee takes under advisement as it works to craft its FY 2013 
Budget Resolution. I want to emphasize that these investments are 
critical and the Committee should explore the best way to make them 
within the allowable parameters of the Budget Control Act of 2011.
    First and foremost we have to ensure that our families and our 
neighbors have access to quality healthcare. The President's budget 
requests $3.1 billion to help provide critical access to communities 
across the country. This significant investment represents progress in 
the right direction as more and more of our elderly, and low-income 
citizens are turning towards Community Health Centers. It is crucial 
that we fund Primary Care for those in need, not only as a moral 
obligation, but also to curb higher health care costs down the line. 
Community Health Centers are making a difference in neighborhoods 
across America and are crucial to us in New Orleans, especially after 
the loss of our historic Charity Hospital. For example, Jefferson 
Community Health Care Center operates two sites and with a 2-year grant 
period has employed 32 staffers, including 9 providers. They provide 
the critical preventive care that many in our communities cannot get 
anywhere else. Creating new access points and continuing the work of 
Community Health Centers is a key for our cities and rural areas 
providing the care every American deserves. I urge the Committee to 
reflect the President's request in its resolution.
    Second, we must continue to increase investments in our 
infrastructure needs, especially our ports, harbors and hurricane 
protection efforts. Most ports and harbors require dredging to combat 
the accumulation of sediment. As sediment collects, ships are forced to 
carry less cargo, increasing transportation costs, and making our 
businesses less competitive on the global market. Shippers have paid 
billions of tax dollars into the Harbor Maintenance Trust Fund (HMTF) 
specifically for the purpose of keeping channels dredged to authorized 
depths. Unfortunately, much of this funding sits idle in the HMTF. This 
has resulted in a growing surplus in the HMTF of more than $6 billion, 
while dredging needs continue to be unmet. Appropriations for 
maintenance dredging in a typical year total only about half of what is 
collected from the Harbor Maintenance Tax. The Administration's request 
for FY 2013, while a slight increase from previous years, continues 
this trend by only allocating around half of projected collections to 
the HMTF's intended purposes. We must do better.
    Adequate dredging will decrease the cost of consumer goods, lessen 
the potential for groundings and spills, and increase the 
environmentally friendly, cost-effective movement of goods to market. 
Currently 99.4 percent of the overall tonnages of U.S. overseas exports 
move through the nation's seaports. Only two of the top ten seaports in 
the U.S. are dredged to their authorized dimensions--Los Angeles and 
Long Beach, CA. Thus, full funding of dredging is vital to achieving 
the President's goal of increasing our exports over the next five 
years.
    As you formulate the FY2013 Budget Resolution, I request that the 
Committee apportion the entire budget financed by the Harbor 
Maintenance Tax for maintenance dredging purposes for our nation's 
ports and harbors.
    In addition to investing in our ports, we must give the Army Corps 
the resources it needs to maintain critical projects across the nation 
that are critical to commerce and the preservation of human life.
    I ask that the Committee's Resolution reflects anticipated funding 
requests for hurricane protection construction and maintenance. For 
example, in FY2014, the Corps will require additional funding to 
operate and maintain several key facilities that make up the Inner 
Harbor Navigation Canal-Lake Borgne Storm Surge Barrier. In addition, 
new levee embankments constructed in southeast Louisiana for the 
Hurricane and Storm Damage Risk Reduction System (HSDRRS) are settling 
so dramatically that keeping them high enough will require extra lifts 
for many years. This is because the combined effect of levee subsidence 
and sea level rise is occurring at a faster rate than the originally 
estimated by the Corps. Thus, additional ``levee lifts'' will need to 
be funded in order that the HSDRRS provide a minimum of 100 year flood 
protection. Please keep these priorities in mind because the 
investments we make in local projects have broad national impact.
    Finally, we must invest more in economic development, with a focus 
on small business development and access to capital for those in 
underserved areas. We must invest in small businesses because they are 
the engine of job growth in our country. The Administration's $949 
million request is a small price to pay for the economic benefits that 
the Small Business Administration confers on our nation's 
entrepreneurs. SBA's investments in contracting, access to capital and 
technical assistance resources help small firms at every stage, from 
startup to mature job creator. Underfunding this critical agency will 
only serve to hurt American firms that represent the very essence of 
American entrepreneurial spirit. We must also invest in the Minority 
Business Development Agency by meeting or exceeding the budget 
authority that reflects the Administration's $29 million FY 2013 
request. The MBDA plays a crucial role in helping historically 
economically challenged firms improve the economic narratives in their 
communities. It provides sorely needed resources that drive job 
creation and innovation and will help the U.S. achieve its export 
oriented growth strategy. Minority firms currently export to 41 nations 
across the globe, and a robust investment in MBDA can leverage these 
opportunities appropriately. Last, but not least, we must provide the 
Community Development Financial Institutions Fund with the proper level 
of resources to ensure that it can continue to promote sustainable 
opportunity in underserved neighborhoods. The programs administered by 
the CDFI Fund, including the New Markets Tax Credit program, make 
incredible contributions to economic growth in my district and across 
the country. The capital provided by the CDFI's drives job and wealth 
creation in areas that have previously experienced great challenge.
    I am hopeful that the Budget Resolution reflects the 
Administration's $229 million request.
    Thank you for presenting me with the opportunity to highlight the 
areas in the FY 2013 Budget that are critical to economic growth and 
opportunity in the 2nd District of Louisiana. It is my home. I grew up 
there and I have served it my entire adult life. I know that we have 
made some strides as we continue to rebuild from recent devastating 
challenges. But more must be done. I look forward to working with my 
colleagues on both sides of the aisle to craft a budget that promotes 
growth and opportunity.

    [The prepared statement of Gregorio Kilili Camacho Sablan 
follows:]

 Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, a Delegate 
             in Congress From the Northern Mariana Islands

    Dear Chairman Ryan and Ranking Member Van Hollen: Thank you for the 
opportunity to submit testimony on the difficulties the U.S. Insular 
Areas face regarding federal data collection efforts and how Congress 
can play a role in helping these efforts. The U.S. island territories 
lag far behind the states in terms of priority, availability, 
timeliness and types of data collection and the federal government has 
been slow in responding to the need to provide improvement and reform. 
This lack of information prevents federal and local governments from 
objectively measuring local activity and hinders effective planning. 
Sound policy depends on sound data and without accurate numbers on the 
economy, on employment, and on income levels, policymakers are less 
able to make informed decisions. It is difficult for governments and 
the public to know if policies are effective, when there is little or 
no objective numbers to measure against.
    Federal government departments and agencies collect, compile, and 
often analyze data in the 50 states, the District of Columbia, and 
Puerto Rico concerning many aspects of state or local economies, 
workforces, and households. These data collection programs occur more 
frequently than the decennial census, and provide timely information of 
value to state and local governments and to the federal government when 
considering the allocation of resources to states and localities. For 
the most part, however, insular areas are not included in these data 
collection efforts. Insular areas, by virtue of their small and 
unsteady economies, limited local data collection and analyses 
resources, and modest financial means, would greatly benefit by federal 
collection and compilation of such data and, as members of the United 
States family, merit the same level of federal support in this regard 
as the states receive. Some federal data collection efforts include 
some, but not all, insular areas; other efforts simply exclude all 
insular areas. Federal funding for any data collection, compilation, or 
analysis programs applicable to the mainland should also include 
sufficient funding, and a mandate, for those efforts to extend to the 
insular areas.
    The U.S. Department of Labor's Bureau of Labor Statistics is ``the 
principal Federal agency responsible for measuring labor market 
activity, working conditions, and price changes in the economy. Its 
mission is to collect, analyze, and disseminate essential economic 
information to support public and private decision-making.'' The 
Northern Mariana Islands, however, is not included in the BLS's state- 
or local-level data concerning employment, unemployment, pay and 
benefits, or workplace injuries. All of this data would be valuable not 
only to the Commonwealth government for its internal use, but also 
would assist public and private organizations in applying for federal 
grants.
    Similarly, the U.S. Census Bureau's American Community Survey 
(ACS), a survey that provides data every year, gives communities the 
current information they need to properly plan investments and 
services, is not conducted in the insular areas. Data derived from the 
ACS help determine how more than $400 billion in federal and state 
funds are distributed annually. Likewise, the Census Bureau's Small 
Area Income & Poverty Estimates program, designed to ``provide updated 
estimates of income and poverty statistics for the administration of 
federal programs and the allocation of federal funds to local 
jurisdictions,'' omits the insular areas.
    There is clearly a need for the insular areas to have the same type 
of data available to the states. Therefore, I respectfully request 
sufficient budgetary resources to provide for data collection in the 
U.S. insular areas equivalent and comparable to data collected by the 
agencies of the federal government for all other parts of the nation.

    [The prepared statement of Robert T. Schilling follows:]

  Prepared Statement of Hon. Robert T. Schilling, a Representative in 
                  Congress From the State of Illinois

    Chairman Ryan and Ranking Member Van Hollen: I believe that current 
law promotes and perpetuates the idea of wasteful, hurry-up, end-of-
year spending. Therefore, I have introduced H.R. 3376, the Savings vs. 
Over Spending Act to promote smarter, reduced spending throughout the 
federal government and I believe this mechanism should be considered 
for inclusion in the budget the House will soon consider.
    As a small business owner, I know that giving employees incentives 
for efficient, high-quality work is part of a business model for 
success. Saving taxpayer money while preserving a strong level of 
service represents common sense, but the government's current ``use it 
or lose it'' system, which incentivizes agencies to find ways to spend 
dollars that they do not need to spend to carry out their mission, has 
resulted in too much wasteful spending.
    According to a 1980 report by the Senate Committee on Government 
Affairs, while ``spending at year-end may be the result of legitimate, 
planned, and worthwhile spending intended by congress...the 
Subcommittee (on Oversight of Government Management) found numerous 
examples in which agencies took short cuts in the last few weeks of the 
fiscal year that led to questionable contracts.'' Furthermore, ``Hurry-
up procurement practices resulted in the purchase of millions of 
dollars worth of goods and services for which there was no demonstrated 
current need.''
    It's time that government agencies had some ``skin in the game'' 
when it comes to incentives to saving taxpayers money. Under the 
Savings vs. Over Spending Act, all Executive, Judicial and Legislative 
agencies would be incentivized to save money from their salaries and 
expenses. For any amounts saved by an agency at the end of a fiscal 
year, 50 percent would go towards deficit reduction and 50 percent 
would be returned to the agency that saved the money, to be carried 
over and spent at their discretion during the next fiscal year. This 
money would not be able to be carried over on a multi-year basis.
    The federal government should proactively pursue solutions for 
smarter spending by government agencies, not encourage end-of-year 
waste. Again, thank you for the opportunity to raise awareness of this 
legislation.

    [The prepared statement of Kurt Schrader follows:]

Prepared Statement of Hon. Kurt Schrader, a Representative in Congress 
                        From the State of Oregon

    Mr. Chairman, thank you for taking the time to hear from Members of 
the House of Representatives on the FY2013 budget resolution. I know 
you share my concerns for the growing fiscal imbalances in federal 
finances.
    The National Debt stood at nearly $15.5 trillion when this week 
began. Of that total roughly $4.7 trillion is held by the government; 
the lion's share of that being owed to the Social Security Trust Fund 
which will need to transfer those holdings to the public as the trust 
fund pays itself out over the next twenty-five years. Despite this 
mountain of debt, Congress, just last month, added over $100 billion to 
this year's trillion dollar deficit by passing an unpaid for payroll 
tax cut.
    Clearly the deal reached between the White House, Senate, and House 
of Representatives to pass the Budget Control Act (BCA) of 2011 on 
August 1, 2011 was a only a start to badly needed fiscal reforms. In 
FY2013 we must stick to the discretionary spending caps set by the BCA 
to cut $900 billion in deficits in the next ten years and not flinch in 
the face of sequestration if we are to give financial markets and job 
creators any cause for hope.
    The fact of the matter is we must also go several steps further, 
beyond the additional $1.2 trillion in spending cuts needed to avoid 
sequestration in 2013. My priority for the FY2013 budget is to help lay 
the ground work for a grand bargain, to put and use everything on the 
table to reduce deficits over the next ten years by more than $4 
trillion.
    Deficit reductions of $4 trillion over the next ten years are only 
the beginning. Responsible spending caps and tax policies will be 
needed to spur and maintain the fiscal responsibility and economic 
growth necessary to bring our budget into balance nearly thirty years 
from now. Every day we wait, implementing and sticking with a solution 
grows exponentially more difficult.
    After years of irresponsible spending and tax policies it is time 
for us to put aside partisan gamesmanship and do what is right for the 
nation.
    Nobody wants automatic spending cuts to indiscriminately hit 
federal programs. The whole point of having sequestration was to force 
congressional action by making the cost of inaction immediately too 
high. The cost of reversing course now would be even higher. This 
leaves us but one option for restoring faith in our legislative process 
and providing for our fiscal and economic futures--to move forward with 
a bold plan to reduce the deficit.
    Mr. Chairman, you are no stranger to putting forward bold plans. 
Although I could not support the specific policies in the plan you put 
forward for the FY2012 budget, I applaud your courage for offering a 
plan addressing politically untouchable issues into the public record. 
With elections a mere eight months away, our window to take the action 
necessary to pass a responsible alternative to sequestration is closing 
quickly. We need to take the opportunity to put forward another bold 
but bipartisan plan to address our fiscal imbalances.
    The principles I support are simple, responsible spending caps, 
reforms to strengthen and sustain entitlement programs, and tax 
policies that supports both adequate federal revenues and a growing 
economy. A budget resolution cannot put all of this in place, but it 
can provide the framework for laws which can achieve those goals.
    If we do our job correctly, we can reduce the deficit responsibly 
while still fulfilling the obligations of the federal government to 
provide for the general welfare and common defense. Avoiding 
sequestration will allow us to invest in infrastructure and our local 
communities.
    We need a highway bill and to have a highway bill we need a budget 
capable of accommodating one. Transportation infrastructure creates and 
sustains jobs and bolsters economic activity. I have a community in 
Woodburn, Oregon which has been waiting a generation for the federal 
government to step up and come through on the promise to maintain an 
efficient Interstate Highway system. Woodburn is a community ripe for 
development. They have saved millions of their own money to contribute 
to the federal project needed to improve the I-5 Woodburn Interchange. 
Once the traffic jams along the interstate are cleared and trucks can 
reach the freeway, hundreds of acres of ready land will open up to 
industrial development.
    Our communities also need us to prioritize so they can rely on our 
continued support. The Secure Rural Schools and Self-Determination Act 
(SRS) is the lifeblood for many counties across Oregon which once 
relied on timber harvests off federal lands. Until we implement a 
sustainable and scientifically defensible plan for our federal forests 
that generates revenue for our counties this program must be 
reauthorized. Without these funds many rural communities will 
effectively dissolve as schools, law enforcement, public safety, and 
transportation infrastructure crumble.
    Our communities need us to set our priorities straight. Our 
children need us to provide for their futures. Our parents need us to 
ensure the solvency of their retirement and healthcare. We can do all 
of this or none of this, it depends on the priorities we set.
    Please, go big.
    Thank you for your consideration.

    [The prepared statement of Timothy J. Walz follows:]

    Prepared Statement of Hon. Timothy J. Walz, a Representative in 
                  Congress From the State of Minnesota

    Chairman Ryan, Ranking Member Van Hollen, Thank you for the 
opportunity to testify here today. I appreciate the very important work 
that you do and I am honored to be able to contribute to that work in a 
small way.
    In my view, there are two very important areas that need to be 
addressed in regards to the budget that are interrelated--tackling our 
national debt, and investing in a 21st century economy.
    First, one of my most important responsibilities as a Member of 
Congress is to ensure that taxpayer dollars are being spent in a wise 
and efficient manner.
    And I'm proud to say that, since taking office in 2007, I've made 
it my mission to take a proactive approach towards doing so.
    <bullet> I have returned over $300,000 in taxpayer funds from my 
office budget to the U.S. Treasury with the intention of paying down 
the national debt and I am one of the only Members of Congress to 
return every salary increase I've ever received.
    <bullet> Although I make these good faith efforts to reduce our 
debt, I know that they alone are not enough.
    Tackling our national debt will require us to make some tough 
choices. And I remain committed to working with my colleagues on both 
sides of the aisle to do so.
    Last year, we took a major step in this process by enacting more 
than $2 trillion dollars in spending cuts--but even this will not be 
enough to tackle the problem at hand
    That is why last year, I joined with 100 Republicans and Democrats 
in calling on Congress to go big and pass a package that reduces the 
debt by fully $4 trillion
    In order to get to that total, we will have to make significant 
cuts to programs that are unnecessary or ineffective
    But securing America's long-term fiscal security and maintaining 
our leadership role in the world economy also requires us to invest in 
the kinds of things that have always been the bedrock of America's 
international competitiveness:
    <bullet> Educating the world's most productive workforce
    <bullet> Building the world's most highly-developed infrastructure
    <bullet> Taking the lead in the technologies of the future
    As parent and a teacher, I may be biased in how important I believe 
education is to our country.
    I hear so often from business owners and managers in southern 
Minnesota about how the lack of sufficiently qualified workers is 
holding them back
    That is why we need to continue to invest in America's schools, 
from pre-k up through community colleges and technical schools, to 
ensure that our workforce has the skills to meet employer demand
    At the same time, southern Minnesota's businesses can't compete in 
the world economy if they can't get their goods to market
    As a member of the House Transportation Committee, I recognize the 
importance of taking a visionary approach to infrastructure investment.
    This country became what we are today because of the innovative 
vision our forefathers took towards infrastructure:
    <bullet> They built the railroads that connected the continent and 
spurred the industrial revolution;
    <bullet> They built the interstate highway system that made our 
American economy the greatest the world has ever known.
    But today, it seems as though we have lost that vision
    At a time when our competitors overseas are investing in smarter 
roads and faster trains, our infrastructure is crumbling
    <bullet> There are approximately 150,000 American bridges that have 
been deemed ``structurally deficient'' or ``functionally obsolete'' by 
the Federal Highway Administration.
    <bullet> Nearly 1,500 of those bridges are in my home state of 
Minnesota.
    This is unacceptable. We need to make a commitment to restoring and 
modernizing our infrastructure for the next century.
    We can do this by taking the same visionary approach that our 
forefathers took.
    In doing so we will:
    <bullet> Put hundreds of thousands of Americans to work all across 
the country;
    <bullet> Give folks peace of mind by repairing our deficient roads 
and bridges so their daily commute is safer; and
    <bullet> Create a 21st century infrastructure, including investment 
in high-speed rail that will allow our businesses and communities to 
grow and prosper.
    Now is not the time to under-invest in our crumbling 
infrastructure. Now is not the time to compromise on safety. And now is 
not the time to let America fall behind the rest of the world.
    This situation calls for leadership and a vision for the future. 
Both the Chamber of Commerce and the labor community agree; investment 
in infrastructure will create jobs and grow our economy immediately.
    Finally, I believe that our budget should help America's inventors, 
entrepreneurs and manufacturers lead the world on the clean energy 
technologies of the 21st century
    Just as past support for research, development and implementation 
helped American businesses take the lead in the transportation, 
communications, and energy technologies of the last century
    So too should we pursue a policy that helps American businesses 
lead the world in the wind, solar, and other renewable energy 
technologies of the next century
    This is a smart investment not only in American jobs and 
competitiveness
    It will also help America achieve our goal of energy independence 
using the natural resources and ingenuity that are found in southern 
Minnesota and across the country
    Let us not settle for the small.
    Let's work together in bipartisan fashion and make a commitment to 
our nation's future.
    Let's make a robust investment in our nation's infrastructure that 
will create All-American jobs, repair our roads and bridges, and help 
our communities prosper.
    Thank you again for the opportunity to testify here today and thank 
you again for the work you are doing on behalf of our country.

    [Whereupon, at 2:34 p.m., the Committee was adjourned.]

                                  <all>

</pre></body></html>
